No. ___
IN THE

Supreme Court of the United States
————
JOSEPH B. SCARNATI III, PRESIDENT PRO TEMPORE, AND
JAKE CORMAN, MAJORITY LEADER OF THE PENNSYLVANIA SENATE,
Applicants,

v.
PENNSYLVANIA DEMOCRATIC PARTY, ET AL.,
————

Respondents.

On Application to Stay the Mandate of the
Supreme Court of Pennsylvania
————
EMERGENCY APPLICATION FOR A STAY PENDING THE FILING AND
DISPOSITION OF A PETITION FOR A WRIT OF CERTIORARI
————
CRYSTAL H. CLARK, ESQ.
General Counsel,
Senate Republican Caucus
B-51 Main Capitol
Harrisburg, PA 17120
(717) 787-6259
cclark@pasen.gov
LAWRENCE J. TABAS
Centre Square West
1515 Market St., Suite 3400
Philadelphia, PA 19102

JASON B. TORCHINSKY
Counsel of Record
JONATHAN P. LIENHARD
SHAWN T. SHEEHY
DENNIS W. POLIO
HOLTZMAN VOGEL
JOSEFIAK TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
(540) 341-8808
(540) 341-8809
Jtorchinsky@hvjt.law

Counsel for Applicants Joseph B. Scarnati III, President Pro Tempore, and
Jake Corman, Majority Leader of the Pennsylvania Senate
September 28, 2020

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ......................................................................................... iv
DECISIONS UNDER REVIEW .................................................................................... 3
BACKGROUND ............................................................................................................. 4
A.

Crossey v. Boockvar ............................................................................................. 5

B.

Pennsylvania Democratic Party v. Boockvar ..................................................... 6

REASONS FOR GRANTING THE APPLICATION .................................................... 8
I.

THE SUPREME COURT OF PENNSYLVANIA’S RULING
VIOLATES FEDERAL LAW MANDATING ONE FEDERAL
ELECTION DAY ............................................................................................... 11
A.

Federal Law Establishes One Day For The Election ............................... 11

B. The Supreme Court Of Pennsylvania’s Ruling Allows For The
Counting Of Ballots After Election Day In Violation Of Federal
Law ............................................................................................................. 15
C.

Early Voting Is Distinct From Voting After Election Day ....................... 16

II. THE SUPREME COURT OF PENNSYLVANIA VIOLATED ARTICLE
I, SECTION 4 OF THE U.S. CONSTITUTION WHEN IT ALTERED
THE BALLOT RECEIPT DEADLINE ............................................................. 18
A.

The Elections Clause: Article I, Section 4 ................................................. 18

B. Pennsylvania’s General Assembly Has Exercised This Power To
Establish Ballot Receipt Deadlines For Mail-In Ballots .......................... 22

ii
TABLE OF CONTENTS—Continued
Page
C.

The Supreme Court Of Pennsylvania Does Not Possess Legislative
Power Pursuant To The Elections Clause ................................................ 23

D. The Supreme Court of Pennsylvania’s Extension Of The Ballot
Receipt Deadline Violates The Elections Clause ...................................... 25
E.

This Court Has Stayed Or Overturned Other Challenges To
States’ COVID-19 Responses..................................................................... 28

F.

Denying The Requested Stay Will Have A Cascading Effect On
This Court’s Docket.................................................................................... 31

III. ABSENT THE GRANT OF THE REQUESTED STAY,
PENNSYLVANIA WILL SUFFER IRREPARABLE HARM .......................... 33
CONCLUSION............................................................................................................. 36
APPENDIX
APPENDIX A:
OPINION, Supreme Court of Pennsylvania (September 17, 2020) ......................... 1
CONCURRING OPINION, Supreme Court of Pennsylvania (September 17,
2020) ......................................................................................................................... 64
CONCURRING AND DISSENTING OPINION, Supreme Court of
Pennsylvania (September 17, 2020) ........................................................................ 76
CONCURRING AND DISSENTING OPINION, Supreme Court of
Pennsylvania (September 17, 2020) ........................................................................ 88

iii
TABLE OF CONTENTS—Continued
Page
APPENDIX B:
ORDER, Supreme Court of Pennsylvania (September 24, 2020) .......................... 92
DISSENTING STATEMENT, Supreme Court of Pennsylvania (September
24, 2020) ................................................................................................................... 95
APPENDIX C:
AMENDMENT ORDER, Crossey, et al. v. Boockvar, No. 266 M.D. 2020,
Commonwealth Court of Pennsylvania (September 7, 2020)................................. 99
RECOMMENDED FINDINGS OF FACT AND CONCLUSIONS OF LAW,
Crossey, et al. v. Boockvar, No. 266 M.D. 2020, Commonwealth Court of
Pennsylvania (September 4, 2020) ........................................................................ 101
APPENDIX D:
APPLICATION FOR STAY OF COURT’S OPINION AND ORDER OF
SEPTEMBER 17TH, 2020, Supreme Court of Pennsylvania (September 22,
2020) ....................................................................................................................... 141
APPENDIX E:
[PROPOSED] ORDER GRANTING APPLICATION FOR STAY OF THIS
COURT’S OPINION AND ORDER OF SEPTEMBER 17TH, 2020, Supreme
Court of Pennsylvania (September___, 2020) ....................................................... 168
APPENDIX F:
PENNSYLVANIA ELECTION CODE – OMNIBUS AMENDMENTS, Act of
Oct. 31, 2019, P.L. 552, No. 77 (SB 421) ............................................................... 169
APPENDIX G:
PENNSYLVANIA ELECTION CODE – OMNIBUS AMENDMENTS, Act of
Mar. 27, 2020, P.L. 41, No. 12 (SB 422) ................................................................ 222

iv
TABLE OF AUTHORITIES
CASES

Page(s)

Ariz. State Legis. v. Ariz. Indep. Redistricting Comm’n,
576 U.S. 787 (2015) .................................................................................................. 25
Blum v. Stenson,
465 U.S. 886 (1984) .................................................................................................. 12
Busbee v. Smith,
549 F. Supp. 494 (D.D.C. 1982), aff'd,
459 U.S. 1166 (1983) .......................................................................................... 12, 16
Bush v. Gore,
531 U.S. 98 (2000) .............................................................................................. 21, 28
Bush v. Palm Beach County Canvassing Board,
531 U.S. 70 (2000) .............................................................................................. 28, 33
Calvary Chapel Dayton Valley v. Sisolak,
No. 19A1070 (July 24, 2020) .................................................................................... 30
Chase v. Miller,
41 Pa. 403 (1862) ...................................................................................................... 24
Clapper v. Amnesty Int’l USA,
568 U.S. 398 (2013) .................................................................................................. 21
Clarno v. People Not Politicians,
No. 20A21 (Aug. 11, 2020) ....................................................................................... 29
Coalition v. Raffensperger,
No. 1:20-cv-1677-TCB, 2020 U.S. Dist. LEXIS 86996
(N.D. Ga. May 14, 2020)........................................................................................... 21

v
TABLE OF AUTHORITIES—Continued
Page(s)
Cook v. Gralike,
531 U.S. 510 (2001) .................................................................................................. 19
Crossey et al. v. Boockvar,
No. 266 MD 2020 (Pa. Comm. Ct. Sept. 4, 2020) ...................................................... 5
Crossey, et al. v. Boockvar, et al.,
No. 266 M.D. 2020 (Pa. Comm. Ct. Sept. 7, 2020) ................ 2, 4, 5, 6, 27, 28, 34, 35
DCCC v. Ziriax,
2020 U.S. Dist. LEXIS 170427 (D. Ok., Sept. 17, 2020) ......................................... 33
Democratic National Committee v. Bostelmann,
No. 20-cv-00249 (D. Wis. Sept. 21, 2020), appeal
filed No. 20-2844 (7th Cir. Sept. 24, 2020) .............................................................. 32
Driscoll v. Stapleton, Montana Supreme Court,
Case No. 20-0295 (filed May 26, 2020) .................................................................... 32
Driscoll v. Stapleton,
No. DV 20-408 (Mont. 13th Jud. Dis., Yellowstone
Cty., Sept. 25, 2020) (available at https://bloxim
ages.newyork1.vip.townnews.com/kulr8.com/
content/tncms/assets/v3/editorial/1/81/181225
6c-ff85-11ea-aa54-2f21ed82c7a1/5f6e7ac229f2a.
pdf.pdf) ...................................................................................................................... 32
Ex Parte Yarbrough,
110 U.S. 651 (1884) ............................................................................................ 12, 16
Eu v. San Francisco County Democratic Central Comm.,
489 U.S. 214 (1989) .................................................................................................. 34

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Fladell v. Elections Canvassing Comm'n of Fla.,
CL 00-10965 AB, CL 00-10970 AB, CL 00-10988
AB, CL 00-10992 AB, CL 00-11000 AB, 2000 Fla.
Cir. LEXIS 768 (Fla. 15th Jud. Cir. 2000) .............................................................. 15
Foster v. Love,
522 U.S. 67 (1997) ............................................................................ 12, 14, 15, 16, 17
Friedman v. Snipes,
345 F.Supp.2d 1356 (S.D. Fla. 2004) ....................................................................... 33
Grossman v. Secretary of the Commonwealth,
485 Mass. 541 (2020) ................................................................................................ 33
Hawke v. Smith,
253 U.S. 221 (1920) .................................................................................................. 19
Herbert v. Kitchen,
134 S. Ct. 893 (2014) ................................................................................................ 34
Hollingsworth v. Perry,
558 U.S. 183 (2010) .................................................................................. 8, 18, 28, 31
In re General Election-1985,
531 A.2d at 839 (1987) ............................................................................................. 24
In re Guzzardi,
99 A.3d 381 (Pa. 2014) ............................................................................................. 26
In re Nomination of Driscoll,
847 A.2d 44 (Pa. 2004) ............................................................................................. 25

vii
TABLE OF AUTHORITIES—Continued
Page(s)
In re Op. of Justices,
45 N.H. 595 (N.H. 1864)........................................................................................... 25
In re Plurality Elections,
8 A. 881 (R.I. 1887) .............................................................................................. 24-25
Lamone v. Capozzi,
396 Md 53 (Md. 2006) .............................................................................................. 15
Little v. Reclaim Idaho,
No. 20A18, 2020 U.S. LEXIS 3585 (July 30, 2020) ................................................. 29
LaRose v. Simon,
No. 62-CV-20-3149 (2d Jud. Dist. Minn. June 17, 2020) ........................................ 32
Love v. Foster,
90 F.3d 1026 (5th Cir. 1996) .............................................................................. 12, 16
Lucero, et al. v. Simon,
20-cv-02030 (D. Minn. Sept. 22, 2020) .................................................................... 32
Maryland v. King,
133 S. Ct. 1 (2012) .................................................................................................... 34
McPherson v. Blacker,
146 U.S. 1 (1892) ................................................................................................ 19, 21
Merrill v. People First Of Ala.,
No. 19A1063 (July 2, 2020) ...................................................................................... 29
Michigan Alliance for Retired Americans, et al. v. Benson,
20-000108-MM (Mich. Ct. Claims Sept. 18, 2020) .................................................. 31

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Millsaps v. Thompson,
259 F.3d 535 (5th Cir. 2001) .................................................................................... 17
New Georgia Project, et al. v. Raffensperger,
No. 20-13360 (11th Cir. Sept. 18, 2020) .................................................................. 31
North Carolina Alliance for Retired Americans, et al. v.
N.C. State Bd. of Elections,
20-CVS-8881 (Wake Ct. Sept. 22, 2020) ............................................................. 31-32
Pennsylvania Democratic Party v. Boockvar,
No. 133 MM 2020, 2020 Pa. LEXIS 4872
(Penn. Sept. 17, 2020) ...................................................1, 3, 7, 8, 9, 15, 16, 23, 26, 27
Pennsylvania Democratic Party v. Boockvar,
No. 133 MM 2020, 2020 Pa. LEXIS 5008
(Penn. Sept. 24, 2020) ......................................................................................... 3-4, 8
Purcell v. Gonzalez,
549 U.S. 1 (2006) ...................................................................................................... 35
Republican National Committee v. Common Cause Rhode
Island,
591 U.S. No. 20A28 (Aug. 13, 2020) ........................................................................ 30
Republican Nat’l Comm. v. Democratic Nat’l Comm.,
140 S. Ct. 1205 (Apr. 6, 2020) .............................................................................. 8, 29
San Diegans for Mt. Soledad Nat’l War Mem’l v. Paulson,
548 U.S. 1301 (2006) ................................................................................................ 34
Smiley v. Holm,
285 U.S. 355 (1932) .................................................................................................. 19

ix
TABLE OF AUTHORITIES—Continued
Page(s)
South Bay United Pentecostal Church v. Newsom,
No. 19A1044 (May 29, 2020) .................................................................................... 30
Strange v. Searcy,
135 S. Ct. 940 (2015) ................................................................................................ 34
Tashjian v. Republican Party,
479 U.S. 208 (1986) .................................................................................................. 21
Tex. Democratic Party v. Abbott,
961 F.3d 389 at 29 (5th Cir. 2020) ...................................................................... 20-21
Tex. Democratic Party v. Abbott,
No. 19A1055 (June 26, 2020) ................................................................................... 29
Thomas v. Andino,
2020 U.S. Dist. LEXIS 90812 (D. S.C. May 25, 2020) ............................................ 33
Thompson v. DeWine,
No. 19A1054 (June 25, 2020) ................................................................................... 29
U.S. Term Limits, Inc. v. Thornton,
514 U.S. 779 (1995) .................................................................................................. 19
VoteVets Action Fund v. Detzner,
No. 4:18-cv-524-MW/CAS)
(N.D. Fla. November 16, 2018) ................................................................................ 33
Voting Integrity Project, Inc. v. Bomer,
199 F.3d 773 (5th Cir. 2000) .................................................................................... 17
Voting Integrity Project, Inc. v. Keisling,
259 F.3d 1169 (9th Cir. 2001) ............................................................................ 13, 17

x
TABLE OF AUTHORITIES—Continued
Page(s)
Watson v. Witkin,
22 A.2d 17 (Pa. 1941) ............................................................................................... 23
Wood v. State,
142 So. 747 (Miss. 1932) .......................................................................................... 25
CONSTITUTION
U.S. Const. art. I, § 1, cl. 2........................................................................................... 21
U.S. Const. art. I, § 2-3 ................................................................................................ 20
U.S. Const. art. I, § 4 .................................. 1, 3, 9, 10, 18, 19, 20, 21, 22, 24, 25, 27, 28
U.S. Const. art. I, § 4, cl. 1............................................................................. 3, 9, 11, 18
U.S. Const. art. I, § 5 ................................................................................................... 20
U.S. Const. art. II......................................................................................................... 21
U.S. Const. art. II, § 1, cl. 4 ......................................................................................... 12
U.S. Const. art. III ....................................................................................................... 21
U.S. Const. amend. XVII ............................................................................................. 12
Fla. Const. art. II, § 1, cl. 2 .......................................................................................... 28
STATUTES
2 U.S.C. § 1 ............................................................................................... 2, 9, 12, 14, 17
2 U.S.C. § 7 ................................................................................... 2, 9, 11, 13, 14, 15, 17
3 U.S.C. § 1 ............................................................................................... 2, 9, 11, 14, 17
25 P.S. § 3146.6(a) ................................................................................................... 4, 22

xi
TABLE OF AUTHORITIES—Continued
Page(s)
25 P.S. § 3150.11(b) ....................................................................................................... 4
25 P.S. § 3150.12a ........................................................................................................ 27
25 P.S. § 3150.16(a) ................................................................................................. 4, 22
25 P.S. § 3150.16(c) ...................................................................................................... 25
42 Pa. C.S. § 726 ............................................................................................................ 6
Pa. Act of Mar. 27, 2020, (P.L. 41, No. 12), 2020 Pa.
Legis. Serv. Act 2020-12 (S.B. 422) (West) .................................................... 4, 22, 25
Pa. Act of Oct. 31, 2019 (P.L. 552, No. 77) 2019 Pa.
Legis Serv. Act 2019-77 (S.B. 421) (West) ..................................................... 4, 22, 25
COURT FILINGS
Petition for Declaratory and Injunctive Relief, Crossey
et al. v. Boockvar, No. 266 MD 2020 (Pa. Comm. Ct.
Apr. 22, 2020) ............................................................................................................. 5
OTHER AUTHORITIES
Cong. Globe, 42d Cong., 2d Sess. 112, 141 (1871) ................................................ 13, 16
Cong. Globe, 42d Cong., 2d Sess. 676-77 (1871) ......................................................... 14
“election”, N. Webster, An American Dictionary of the English Language
(C. Goodrich & N. Porter eds. 1869) .................................................................. 14, 16
The Federalist No. 59 (Alexander Hamilton) (1788) .................................................. 20
George Petyt, Lex Parliamentaria (1690) ................................................................... 19
1 J. Story, Commentaries on the Constitution of the United States
(3d ed. 1858) ............................................................................................................. 20

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Penn. HB 2626 (Sept. 1, 2020) (available at https://www.legis.state.pa.us/
CFDOCS/Legis/PN/Public/btCheck.cfm?txtType=HTM&sessYr=2019&sess
Ind=0&billBody=H&billTyp=B&billNbr=2626&pn=4335) .................................... 23
Penn. SB 10 (Aug. 24, 2020) (available at https://www.legis.state.pa.us/CF
DOCS/Legis/PN/Public/btCheck.cfm?txtType=HTM&sessYr=2019&sess
Ind=0&billBody=S&billTyp=B&billNbr=0010&pn=1898)..................................... 23
Thomas Cooley et al., Treatise On The Constitutional Limitation Which Rest
Upon The Legislative Power Of The State Of The American Union (1903) .......... 25
1 William Blackstone, Commentaries on the Laws of England (1765-1769)............. 19

1
TO THE HONORABLE SAMUEL A. ALITO, JR., ASSOCIATE JUSTICE OF
THE UNITED STATES SUPREME COURT AND CIRCUIT JUSTICE FOR
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT:
In the middle of an ongoing election, the Supreme Court of Pennsylvania has
altered the rules of the election and extended the 2020 General Election beyond the
“Time” established by the state legislature pursuant to Article I, Section IV of the
U.S. Constitution. In doing so, the Supreme Court of Pennsylvania has violated
federal law and the federal Constitution.
In Pennsylvania Democratic Party v. Boockvar the Supreme Court of
Pennsylvania rewrote the state’s law governing federal elections and violated the
United States Constitution, sowing chaos into the electoral process mere weeks before
the already intricate November General Election. The Supreme Court of
Pennsylvania did this citing concerns over the effect of COVID-19 on the election,
despite the fact that the Pennsylvania General Assembly already acted multiple
times in ways that will reduce COVID-19’s effect on the election. Furthermore, the
Supreme Court of Pennsylvania’s own special master found that COVID-19 is not
likely to disrupt the November General Election ballot receipt deadline.
Nevertheless, the decision of the Supreme Court of Pennsylvania forces
officials to count ballots received up to three days after Election Day even if they lack
a legible postmark or any postmark at all. This is an open invitation to voters to cast
their ballots after Election Day, thereby injecting chaos and the potential for
gamesmanship into what was an orderly and secure schedule of clear, bright-line

2
deadlines. Pennsylvania’s statutorily enacted and orderly election-related deadlines
were the product of federal law, the Pennsylvania General Assembly’s bi-partisan
deliberations and negotiations, and duly enacted state laws. In a year where there is
a very real possibility that the final presidential election result hinges on
Pennsylvania, the new rules imposed by the decision of the Supreme Court of
Pennsylvania (a body elected in partisan elections) could destroy the American
public’s confidence in the electoral system as a whole.
First, the decision of the Supreme Court of Pennsylvania violates federal law.
Federal law establishes “the Tuesday next after the 1st Monday in November” as a
single Federal Election Day. 2 U.S.C. § 7; see also 2 U.S.C. § 1; 3 U.S.C. § 1. Federal
law mandates holding all elections for Congress and the Presidency on a single day
throughout the Union. However, the Supreme Court of Pennsylvania’s Order extends
Election Day. It does so by forcing election officials to accept ballots received after
election day even if these ballots lack a legible postmark.1 This permits ballots to be
both voted and counted after election day, extending the General Election past
November 3, 2020. This clearly violates 2 U.S.C. §§ 1, 7 and 3 U.S.C. § 1.

In general, no party has presented clear evidence of whether the United States
Postal Service will place legible postmarks on postage prepaid envelopes which
Pennsylvania is using for voters to mail their ballots. See Crossey, et al. v. Boockvar,
et al., No. 266 M.D. 2020 at 29 (Pa. Comm. Ct. Sept. 7, 2020) (Leavitt, P.J.), (App. C).
As a result of an order from the Governor issued on July 31, 2020, Pennsylvania’s
ballots will be sent with pre-paid postage. There is no clear evidence that a legible
postmark will be placed on these ballots. See id. In fact, there is evidence that
postmarks that are placed on postage prepaid envelopes are not readable by the
human eye and would require specific scanners and software to decode. See id. at 22-23.
1

3
Second, the Supreme Court of Pennsylvania’s decision violates the Elections
Clause, Article I, § 4, cl. 1 of the United States Constitution, by seizing the authority
to set the times, places, and manner of federal elections from the state legislature.
Although that court may have the final say on the substantive law of Pennsylvania,
the Elections Clause of the United States Constitution vests the authority to regulate
the times, places, and manner of federal elections directly with Pennsylvania’s
General Assembly, subject only to alteration by Congress, not the Supreme Court of
Pennsylvania. U.S. Const. Art. I, § 4. The General Assembly has not delegated
authority to alter these regulations to the Pennsylvania Judiciary, yet the Supreme
Court of Pennsylvania’s decision fundamentally changes the policy decisions inherent
in the General Assembly’s duly enacted election laws. That court substituted its will
for the will of the General Assembly and this substitution usurps the authority vested
in the General Assembly by the Elections Clause. U.S. Const. Art. I, § 4.
DECISIONS UNDER REVIEW
The September 17, 2020, decision of the Supreme Court of Pennsylvania, along
with concurring and dissenting opinions, are reproduced at Appendix A.
Pennsylvania Democratic Party v. Boockvar, No. 133 MM 2020, 2020 Pa. LEXIS 4872
(Penn. Sept. 17, 2020) (App. A). The September 24, 2020, decision denying a stay of
the Supreme Court of Pennsylvania’s September 17, 2020, opinion and order, along
with dissenting opinions, are reproduced at Appendix B. Pennsylvania Democratic

4
Party v. Boockvar, No. 133 MM 2020, 2020 Pa. LEXIS 5008 (Penn. Sept. 24, 2020)
(denying application for stay pending appeal) (App. B).
BACKGROUND
On October 31, 2019, the Pennsylvania General Assembly passed, and the
governor signed, a comprehensive bipartisan reform of the state’s election laws well
before the impact of COVID-19 was known. See 2019 (P.L. 552, No. 77) 2019 Pa. Legis
Serv. Act 2019-77 (S.B. 421) (West). Among other reforms, this legislation made
available for the first time no-excuse mail-in voting to every registered Pennsylvania
voter. See 25 P.S. § 3150.11(b). It also included provisions moving the deadline to 8:00
p.m. on Election Day for the receipt of both absentee and mail-in ballots. See 25 P.S.
§ 3146.6(a); § 3150.16(a).2 Five months later, the state legislature adopted additional
amendments to Pennsylvania election law in response to the COVID-19 pandemic.
See Act of Mar. 27, 2020, (P.L. 41, No. 12), 2020 Pa. Legis. Serv. Act 2020-12 (S.B.
422) (West). After all of these changes to state law, Pennsylvania offered its citizens
two options for voting in 2020: Voters could either apply for and submit a mail-in
ballot3 before the 8:00 p.m. Election Day deadline, or they could vote in-person at
their designated polling site on Election Day.

Prior to this statutory change, absentee ballots were due by 5 p.m. on the Friday
before Election Day. See Crossey, et al. v. Boockvar, et al., No. 266 M.D. 2020 at 35
(Pa. Comm. Ct. Sept. 7, 2020) (Leavitt, P.J.) (Report and Recommendation) (App. C).
Pennsylvania has imposed a “received-by” deadline since 1964 and has never imposed
a “mailed-by” deadline. See id. at 29-30.
3
Unless otherwise noted, when this Application refers to mail-in ballots, it also
includes absentee ballots.
2

5
A. Crossey v. Boockvar.
On April 22, 2020, a group of individual and organizational petitioners filed a
Petition for Declaratory and Injunctive Relief in the Commonwealth Court of
Pennsylvania against Secretary of the Commonwealth Kathy Boockvar with regard
to voting procedures for Pennsylvania’s June 2, 2020, primary election. See Crossey
et al. v. Boockvar, No. 266 MD 2020 at 1 (Leavitt, P.J.) (Pa. Comm. Ct. Sept. 4, 2020)
(Report and Recommendation) (attached as App. C). The Secretary challenged
jurisdiction, and on June 17, 2020, the Commonwealth Court transferred jurisdiction
to the Supreme Court of Pennsylvania. Id. at 2. The petitioners requested that the
Supreme Court of Pennsylvania extend the 8:00 p.m. received-by deadline, require
prepaid postage on mail-in ballots, and allow for the use of third-party assistance in
collecting mail-in ballots. Id. at 3. The Supreme Court of Pennsylvania appointed
President Judge Leavitt of the Commonwealth Court as special master over the case,
and the special master held an evidentiary hearing in the matter on August 31, 2020.
Id. at 4.
Based on the evidence presented at the August 31, 2020 hearing, the special
master found that the Petitioners failed to meet their burden of showing that the
statutory 8:00 p.m. received-by deadline was unconstitutional. Id. at 35. She also
found that USPS performance in Pennsylvania exceeded the national average, and
that issues with mail were unlikely to prevent voters from submitting their ballots
on time. Id. at 35-36. Judge Leavitt further found that the Petitioners failed to adduce

6
“clear evidence” on whether “prepaid postage envelopes, which may be provided by
the county boards of elections to voters for mailing their completed ballots, will be
postmarked.” See id. at 29. Ultimately, based on the available evidence, on September
7, 2020, the special master recommended that the Supreme Court of Pennsylvania
deny the Petitioners’ prayer for relief. Id. at 38.
B. Pennsylvania Democratic Party v. Boockvar.
On July 10, 2020, Petitioners below (Respondents here) commenced this action
in the Commonwealth Court of Pennsylvania seeking a variety of changes to
Pennsylvania voting procedures. Pls.’ Pet. for Declaratory and Injunctive Relief.
Petitioners sought injunctive relief that would, inter alia, suspend the statutory 8:00
p.m. received-by deadline on Election Day for ballots which were postmarked before
that time, extend the deadline for receipt of ballots to one week after the elections,
and afford numerous forms of relief on various others issues under Pennsylvania’s
election laws. Id. at ¶¶ 166, 178, and 187.4
Respondent Secretary of the Commonwealth filed an application for
extraordinary relief under 42 Pa. C.S. § 726 in the Supreme Court of Pennsylvania,
and the Court exercised extraordinary jurisdiction over the case on September 1,
2020, with two Justices dissenting from the order. The Court allowed one week for

As to the number of other issues, Petitioners below were granted the relief sought
on some of their causes of action, and denied relief on others. The only issue presented
in this Stay application relates to the Election Day deadline matters.

4

7
parties and intervenors to submit supplemental briefing materials but did not
schedule a hearing in the case or take any factual evidence.
On September 17, 2020, the Supreme Court of Pennsylvania, without
presentation of any factual evidence, granted partial relief to Petitioners and
extended the statutory received-by deadline by three additional days after Election
Day, until 5:00 p.m. on Friday, November 6, 2020. Pa. Democratic Party v. Boockvar,
2020 Pa. LEXIS 4872 at *89 (Sept. 17, 2020). The court even went further than
Petitioners’ requested relief by establishing a presumption that a mail-in ballot
lacking any postmark or other proof of mailing was mailed before Election Day
“unless a preponderance of the evidence demonstrates” otherwise. Id.
The Supreme Court of Pennsylvania’s decision overrides duly enacted
provisions of Pennsylvania election law mere weeks before a general election that is
expected to feature record voter turnout. Voting by mail has already begun in
Pennsylvania, and this decision changes the rules midstream less than fifty days
before Election Day. The Pennsylvania General Assembly acted to expand eligibility
for mail-in voting even before the onset of the COVID-19 pandemic and made
additional changes in March 2020 to ensure safe voting procedures. The Supreme
Court has not only overridden the constitutionally delegated authority of the state
legislature over election law, but it has also mandated the counting of mail-in ballots,
which bear no evidence that they were cast on or before Election Day at all. This
requirement will cause unnecessary chaos in election administration and violate

8
federal law in an election that already poses new pandemic-related challenges that
the state has worked diligently to address.
On September 22, 2020 Applicants filed an Application for Stay of the Supreme
Court of Pennsylvania’s September 17, 2020, decision. App. D. The Supreme Court of
Pennsylvania denied that Application on September 24, 2020, over the dissent of
Justice Mundy, who stated that it would be reasonable for this Court to determine
that the Supreme Court of Pennsylvania’s decision to presume ballots lacking a
postmark are cast timely “fundamentally alters the nature of the election.” See App.
B (citing Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1207
(2020)).
REASONS FOR GRANTING THE APPLICATION
To obtain a stay pending appeal, an applicant must show (1) a reasonable
probability that the Court will consider the case on the merits; (2) a fair prospect that
a majority of the Court will vote to reverse the decision below; and (3) a likelihood
that irreparable harm will result from the denial of a stay. Hollingsworth v. Perry,
558 U.S. 183, 190 (2010).
Those factors are satisfied here. First, this Court has specifically identified the
federal questions in this case as meriting review, and has reviewed similar challenges
in the past. The federal questions in this case are: (A) whether a court’s decision
permitting voting after Election Day creates multiple Election Days in contravention

9
of federal law; and (B) under what circumstances a state court improperly intrudes
on authority allocated to the state legislature by the Elections Clause.
Second, there is more than a fair prospect that a majority of the Court will vote
to reverse the decision of the Supreme Court of Pennsylvania because it violates
federal law and the United States Constitution. The decision of the Supreme Court
of Pennsylvania violates federal law establishing “the Tuesday next after the 1st
Monday in November” as a single Federal Election Day, which falls on November 3rd
this year. 2 U.S.C. § 7; see also 2 U.S.C. § 1; 3 U.S.C. § 1. These provisions mandate
holding all elections for Congress and the Presidency on a single day throughout the
Union. However, Footnote 26 and page 63 of the Supreme Court of Pennsylvania’s
Slip Opinion extend Election Day past November 3, 2020. It does this by forcing
election officials to accept ballots received after election day even if these ballots lack
a legible postmark. This permits ballots to be both voted and counted after election
day, extending the General Election past November 3, 2020. This clearly violates
2 U.S.C. § 7.
The decision also violates the Elections Clause, Article I, § 4, cl. 1 of the United
States Constitution by seizing control of setting the times, places, and manner of
federal elections from the state legislature. Although the Supreme Court of
Pennsylvania may have the final say on the substantive law of Pennsylvania, the
Elections Clause is a direct delegation of authority to regulate the times, places, and
manner, of federal elections to Pennsylvania’s General Assembly, subject only to
alteration by Congress, not the Supreme Court of Pennsylvania. U.S. Const. Art. I, §

10
4. The General Assembly has not delegated authority to alter these regulations to the
Pennsylvania Judiciary, yet this Court’s decision fundamentally changes the policy
decisions inherent in the General Assembly’s duly enacted election laws. This Court
has substituted its will for the will of the General Assembly, and this substitution
usurps the authority vested in the General Assembly by the Elections Clause. U.S.
Const. Art. I, § 4.
Third, the irreparable harm in this case is immediate and palpable: The
Supreme Court of Pennsylvania’s decision blatantly usurps the power of the
Pennsylvania General Assembly and inflicts confusion and chaos on the
Commonwealth’s upcoming federal elections. Without a stay from this Court,
elections will not proceed under duly enacted election laws even if (as is likely) the
Court grants a petition for writ of certiorari and reverses or vacates the decision
below.
For these reasons, Petitioners respectfully request that this Court stay the
portions of the Pennsylvania’s Supreme Court decision: (1) forcing election officials to
accept ballots received after election day to be counted even if they lack a legible
postmark; and (2) extending the absentee and mail-in ballot deadline past Election
Day, pending the disposition of Petitioners’ forthcoming petition for writ of certiorari
to the Court.

11
I.

THE SUPREME COURT OF PENNSYLVANIA’S RULING
VIOLATES FEDERAL LAW MANDATING ONE FEDERAL
ELECTION DAY.
There is more than a reasonable probability that the Court will consider the

case on the merits and at least a fair prospect that a majority of the Court will vote
to reverse the decision of the Supreme Court of Pennsylvania below because it
violates federal law requiring one election day be held on the Tuesday following the
first Monday in November.
A. Federal Law Establishes One Day For The Election.
The Elections Clause provides Congress (along with state legislatures) with
the authority to make laws prescribing “[t]he times, places and manner of holding
elections for senators and representatives . . . .” U.S. Const. art. I, § 4, cl. 1. Consistent
with the authority vested by the Elections Clause, in 1872 Congress established a
national uniform election day for choosing members of the House of Representatives
mandating that “[t]he Tuesday next after the 1st Monday in November, in every even
numbered year, is established as the day for the election, in each of the States and
Territories of the United States, of Representatives and Delegates to the Congress
commencing on the 3d day of January next thereafter.” 2 U.S.C. § 7.
Likewise, Congress has set the same date for the selection of presidential
electors: “The electors of President and Vice President shall be appointed, in each
State, on the Tuesday next after the first Monday in November, in every fourth year
succeeding every election of a President and Vice President.” 3 U.S.C. § 1; see also

12
U.S. Const. art. II, § 1, cl. 4 (“The Congress may determine the time of choosing the
electors, and the day on which they shall give their votes; which day shall be the same
throughout the United States.”). Upon ratification of the Seventeenth Amendment,
Congress adopted a similar provision respecting the election of United States
Senators. See 2 U.S.C. § 1; see also Foster v. Love, 522 U.S. 67, 69-70 (1997). Together
these provisions “mandate[] holding all elections for Congress and the Presidency on
a single day throughout the Union.” Id.
Although these statutes clearly establish one uniform “Federal Election Day”
throughout the nation, the omission of a definition of the term “election” has led the
Court to comment on the opacity of the statutory language at issue in this case,
particularly regarding the precise acts that the statutes require a State to perform
on that day. Foster, 522 U.S. at 72. Accordingly, courts have turned to the statutes’
legislative history for guidance. See Blum v. Stenson, 465 U.S. 886, 896 (1984)).
By establishing one uniform date for holding federal elections, Congress sought
“to remedy more than one evil arising from the election of members of Congress
occurring at different times in the different states.” Ex Parte Yarbrough, 110 U.S.
651, 661 (1884). Specifically, a review of the legislative history of these provisions
demonstrates that Congress wanted to, inter alia, prevent States that voted early
from unduly influencing those voting later and to combat fraud by minimizing the
opportunity for voters to cast ballots in more than one election. Love v. Foster, 90 F.3d
1026, 1029 (5th Cir. 1996); Busbee v. Smith, 549 F. Supp. 494, 524 (D.D.C. 1982)
(three-judge court), aff'd, 459 U.S. 1166 (1983). These objectives reflect the

13
importance voting played in the political debates of the Reconstruction era. Voting
Integrity Project, Inc. v. Keisling, 259 F.3d 1169, 1172 (9th Cir. 2001) (placing
congressional debates over enactment of 2 U.S.C. § 7 and allowing voting over
multiple days in their historical context).
In advancing these rationales, proponents expressed their understanding of
what establishing a national uniform federal election day meant. Representative
Butler of Massachusetts, who authored the 1872 law, articulated his aim in
sponsoring the legislation:
The object of this amendment is to provide a uniform time of electing
Representatives in Congress . . . . But on account of the facility for
colonization and repeating among the large central States, New York
holding its election in November, and Ohio, Pennsylvania, and Indiana
holding their elections in October, the privilege is allowed the border
States, if any man is so disposed, of throwing voters across from one into
the other. I think it will be fair for everybody that on the day when one
votes all should vote, and that the whole question should be decided then.
Cong. Globe, 42d Cong., 2d Sess. 112 (1871) (emphasis added). Representative Butler
further elaborated:
Unless we do fix some time at which, as a rule, Representatives shall be
elected, it will be in the power of each State to fix upon a different day,
and we may have a canvass going on all over the Union at different times.
It gives some states undue advantage. It gives some parties undue
advantage.
Cong. Globe, 42d Cong., 2d Sess. 141 (1871) (emphasis added).
In congressional debate over establishing a single national election day, the
Senate even defeated an amendment that would have permitted voting for

14
Representatives over multiple days in states that conducted elections for their own
officers on more than one day. Cong. Globe, 42d Cong., 2d Sess. 676-77 (1871).
This emergency application and the forthcoming petition for writ of certiorari
are not the first time this Court has been asked to consider violations of the federal
laws setting a single federal election day. 2 U.S.C. §§ 1, 7; 3 U.S.C. § 1. In Foster v.
Love, the Court considered whether Louisiana’s “open primary” statute conflicted
with federal election statutes. 522 U.S. 67, 68 (1997). Under Louisiana law, an open
primary was held for congressional offices in October. Id. All candidates, regardless
of party, appeared on the same ballot. Id. If any candidate received a majority of votes
in the primary, he or she was considered “elected” without any further action on
federal election day. Id. The Court held that Louisiana’s open primary system
conflicted with federal election statutes because the “final selection” of candidates
could be “concluded as a matter of law before the federal election day, with no act in
law or in fact to take place on the date chosen by Congress . . .” Id. at 72. Foster is
instructive on the meaning of “election” under 2 U.S.C. § 7. 522 U.S. at 68. The Court
observed that:
When the federal statutes speak of “the election” of a Senator or
Representative, they plainly refer to the combined actions of voters and
officials meant to make a final selection of an officeholder . . . . See N.
Webster, An American Dictionary of the English Language 433 (C.
Goodrich & N. Porter eds. 1869) (defining “election” as ‘the act of
choosing a person to fill an office’). By establishing a particular day as
‘the day’ on which these actions must take place, the statutes simply
regulate the time of the election, a matter on which the Constitution
explicitly gives Congress the final say.

15
Id. at 71-72 (emphasis added). This Court declined to identify these combined acts of
voters and officials. Id. at 72. But see Lamone v. Capozzi, 396 Md. 53, 83-84 (Md.
2006) (“The Constitution contemplates an election in terms of the voter, not in terms
of the election process. Moreover . . . there is no dispute that the ‘combined actions’
must occur, that voting must end, on federal election day.” (emphasis added))
(interpreting 2 U.S.C. § 7, Foster, 522 U.S. 67, and Maryland Law). See also Fladell
v. Elections Canvassing Comm'n of Fla., CL 00-10965 AB, CL 00-10970 AB, CL 0010988 AB, CL 00-10992 AB, CL 00-11000 AB, 2000 Fla. Cir. LEXIS 768, *6-*17 (Fla.
15th Jud. Cir. 2000) (“[T]he Constitution of the United States . . . require[s] that
Presidential ‘electors’ be elected on the same day throughout the United States.
(emphasis added)).
B. The Supreme Court Of Pennsylvania’s Ruling Allows For The
Counting Of Ballots After Election Day In Violation Of Federal
Law.
The decision of the Supreme Court of Pennsylvania in this case provides for a
three-day extension of the federal election in contravention of federal law.
Specifically, the decision forces election officials to accept ballots received by them
after election day even if the ballots “lack a postmark or other proof of mailing, or for
which the postmark or other proof of mailing is illegible.” Slip Op. at 37, n. 26. See
also id. at 63. This enables votes cast after election day to be counted if no legible
postmark is placed on the envelope. This creates a scenario where votes can and will
be cast and counted on days after Election Day.

16
The casting and counting of ballots unquestionably constitutes an “election”
under federal law. See Foster, 522 U.S. 67. As the Court enunciated in Foster, the
word “election” under the federal statutes “plainly refer to the combined actions of
voters and officials meant to make a final selection of an officeholder . . . .” 522 U.S.
at 71-72 (citing N. Webster, An American Dictionary of the English Language 433 (C.
Goodrich & N. Porter eds. 1869) (defining “election” as ‘the act of choosing a person
to fill an office’)). In post-election voting, voters cast ballots and those ballots are then
counted by election officials on a day other than Election Day. Since a true and final
determination of officeholders cannot be made until these votes are counted, see Slip
Op. at 37, n. 26, 63, post-election voting necessarily constitutes the “combined actions
of voters and officials meant to make a final selection of an officeholder . . . .” Foster,
522 U.S. at 71-72.
Accordingly, the Supreme Court of Pennsylvania’s decision necessarily creates
multiple federal election days, including after Election Day, and raises the same
concerns of fraud, undue advantage, and non-uniformity which led to the creation of
a Federal Election Day. See Cong. Globe, 42d Cong., 2d Sess. 112 (1871); Cong. Globe,
42d Cong., 2d Sess. 141 (1871); see also Ex Parte Yarbrough, 110 U.S. at 661; Love,
90 F.3d at 1029; Busbee, 549 F. Supp. at 524.
C. Early Voting Is Distinct From Voting After Election Day.
The Supreme Court of Pennsylvania’s sanctioning of post-election voting is
substantially different from decisions that allow early voting. In those cases, early

17
voting conducted prior to Election Day was legal because “the final selection [of
candidates] is not made before the federal election day.” Voting Integrity Project, Inc.
v. Bomer, 199 F.3d 773, 776 (5th Cir. 2000). See also Millsaps v. Thompson, 259 F.3d
535, 545-46 (5th Cir. 2001); Voting Integrity Project, Inc. v. Keisling, 259 F.3d at 117576. This is because the word “election” in 2 U.S.C. § 7, as interpreted by the United
States Supreme Court, means “the combined actions of voters and officials meant to
make a final selection of an office holder.” Foster, 522 U.S. at 71.
The Supreme Court of Pennsylvania’s decision, which permits voting after
Election Day, is clearly distinguishable from early voting cases because voting after
election day is a combined action of voters and officials that makes a final selection
of an office holder. See Foster, 522 U.S. at 71. In early voting, voters cast votes prior
to Election Day, but, in contrast to the post-election voting in this case, those votes
are not counted immediately. Rather, election officials hold the ballots of early voters
until the close of all polling places on Election Day, then record the early votes along
with absentee votes. See, e.g., Millsaps v. Thompson, 259 F.3d at 537. Here, under
the Supreme Court of Pennsylvania’s decision, individuals are able to vote and have
those votes counted by election officials after Election Day. See Foster, 522 U.S. at 71.
Because a final selection of an office holder cannot be made until all votes are counted,
post-election voting necessarily requires a final selection on a day other than Election
Day. This creates multiple election days in violation of 2 U.S.C. § 7, 2 U.S.C. § 1, and
3 U.S.C. § 1.

18
Accordingly, there is more than a “reasonable probability” that this Court will
grant the forthcoming petition for writ of certiorari and at least a “fair prospect” that
this Court will reverse the Supreme Court of Pennsylvania’s decision. See
Hollingsworth, 558 U.S. at 190.
II.

THE SUPREME COURT OF PENNSYLVANIA VIOLATED ARTICLE
I, SECTION 4 OF THE U.S. CONSTITUTION WHEN IT ALTERED
THE BALLOT RECEIPT DEADLINE.
There is also more than a reasonable probability that this Court will consider

the case on the merits and at least a fair prospect that a majority of the Court will
vote to reverse the decision of the Supreme Court of Pennsylvania below because it
violates the Elections Clause of the United States Constitution. See Const. art. I, § 4,
cl. 1. The Elections Clause provides that “[t]he times, places and manner of holding
elections for senators and representatives, shall be prescribed in each State by the
legislature thereof; but the Congress may at any time by law make or alter such
regulations, except as to the places of chusing Senators.” U.S. Const. art. I, § 4, cl. 1
(emphasis added). The Elections Clause commits power to regulate congressional
elections only to “the legislature” of each state and to “Congress.” Id.
A. The Elections Clause: Article I, Section 4.
The Constitution does not delegate any authority regarding the time, place and
manner of elections to state courts. In fact, the Clause specifically excludes them. The
principle that state courts are not delegated any Elections Clause authority is plain
from the provision’s text. The word “legislature” was “not one ‘of uncertain meaning

19
when incorporated into the Constitution.’” Smiley v. Holm, 285 U.S. 355, 365 (1932)
(quoting Hawke v. Smith, 253 U.S. 221, 227 (1920)). The term “legislature”
necessarily differentiates between that body and the “State” of which it is only a
subpart. By empowering one body of the state to prescribe election rules, the
Constitution impliedly denies it to others.
Aside from its plain language, the Elections Clause denies authority to state
judiciaries through several contextual reference points. For example, the power to
regulate federal elections is incidental to the Constitution’s establishment of a federal
government; it is not an inherent state power. U.S. Term Limits, Inc. v. Thornton,
514 U.S. 779, 806 (1995); Cook v. Gralike, 531 U.S. 510, 522 (2001). Thus, it “had to
be delegated to, rather than reserved by, the states.” Cook, 531 U.S. at 522
(quotations omitted). Because the delegation necessarily confines the scope of power,
the term “legislature” is “a limitation upon the state in respect of any attempt to
circumscribe the legislative power” over federal elections. McPherson v. Blacker, 146
U.S. 1, 25 (1892).
Further, in referencing the “Times, Places and Manner” of elections, the
Elections Clause plainly references what English Parliamentary law called “methods
of proceeding” as to the “time and place of election” to the House of Commons. See
1 William Blackstone, Commentaries on the Laws of England (1765-1769) *158-59,
*170-74. Those “time and place” “methods” were in turn completely within
parliamentary control, beyond the reach of “the Common Law” and “the Judges.”
George Petyt, Lex Parliamentaria, 9, 36-37, 70, 74-75, 80 (1690); 1 William

20
Blackstone, Commentaries, *146-47. By delegating the procedures of congressional
elections to legislative bodies, the Elections Clause carried forward that English law
tradition of maintaining legislative control, and excluding judicial control, over such
matters.
Another contextual reference point for the Elections Clause comes from the
framing debates and early commentaries. Though all concerned parties appreciated
that state legislatures might abuse their authority over election rules, none of them
even proposed that other branches of state government may exercise a check on such
abuse. Instead, they viewed Congress as the exclusive check. See The Federalist No.
59 (Alexander Hamilton) (1788). That check, expressed directly in the Constitution’s
text, parallels the judicial-type functions Congress performs in other quintessentially
legislative affairs, as described in adjacent constitutional provisions. See, e.g., U.S.
Const. art. I, §§ 2-5. It was furthermore assumed that even Congress would exercise
its prerogative to override state legislatures’ regulations only “from an extreme
necessity, or a very urgent exigency.” 1 J. Story, Commentaries on the Constitution
of the United States § 820 (3d ed. 1858). This was because the power “will be so
desirable a boon” in the “possession” of “the state legislatures” that “the exercise of
power” in Congress would (it was thought) be highly unpopular. Id. That state courts
might deprive state legislatures of this “desirable . . . boon” in their “possession” was
beyond belief. Id.
While the authority to regulate congressional elections is conferred by the
federal Constitution on the state legislatures via the Elections Clause, the states also
retain their own plenary power to regulate state elections. See Tex. Democratic Party

21
v. Abbott, 961 F.3d 389 at 29, 407-408 (5th Cir. 2020); Tashjian v. Republican Party,
479 U.S. 208, 217 (1986). In either event, the power to regulate and administer
elections is committed to “Congress and state legislatures—not courts.” Coalition v.
Raffensperger, No. 1:20-cv-1677-TCB, 2020 U.S. Dist. LEXIS 86996 at *8-9 (N.D. Ga.
May 14, 2020); Clapper v. Amnesty Int’l USA, 568 U.S. 398, 408 (2013) (“The law of
Article III standing, which is built on separation-of-powers principles, serves to
prevent the judicial process from being used to usurp the powers of the political
branches.”).
A final point of reference for the Elections Clause comes from its sister
provision found in U.S. Const. art. I, § 1, cl. 2 (the “Electors Clause”). The Electors
Clause particularly “convey[s] the broadest power of determination” and “leaves it to
the legislature exclusively to define the method” of appointment of electors.
McPherson v. Blacker, 146 U.S. 1, 27 (1892). “Thus, the text of the election law itself,
and not just its interpretation by the courts of the States, takes on independent
significance.” Bush v. Gore, 531 U.S. 98, 112–13 (2000) (Rehnquist, J., concurring).
“A significant departure from the legislative scheme for appointing Presidential
electors presents a federal constitutional question,” including when such departure
is carried out by the state judiciary. Id. at 113. “[W]ith respect to a Presidential
election,” state courts must be “mindful of the legislature’s role under Article II in
choosing the manner of appointing electors.” Id. at 114.

22
Therefore, the plain language, context, and history of the Elections Clause
clearly demonstrate that the Legislature has the primary authority to regulate
elections checked only by the United States Congress.
B. Pennsylvania’s General Assembly Has Exercised This Power To
Establish Ballot Receipt Deadlines For Mail-In Ballots.
Prior to 2019, Pennsylvania’s General Assembly permitted mail-in ballots to
be counted only if they were received by election officials by 5 p.m. on the Friday
before Election Day. See 2019 (P.L. 552, No. 77) 2019 Pa. Legis Serv. Act 2019-77
(S.B. 421) (West). In late 2019, the Pennsylvania General Assembly with bipartisan
support passed, and Governor Wolf signed, a comprehensive bipartisan reform of the
state’s election laws. See id. Among other reforms, SB 421 included provisions setting
a deadline of 8:00 p.m. on Election Day for the receipt of absentee and mail-in ballots.
See 25 P.S. § 3146.6(a); § 3150.16(a). This lengthened the vote-by-mail period by more
than four days.
In March 2020, the state legislature further amended Pennsylvania election
law in response to the COVID-19 pandemic. See Act of Mar. 27, 2020, (P.L. 41, No.
12), 2020 Pa. Legis. Serv. Act 2020-12 (S.B. 422) (West). These amendments included
postponing the day of Pennsylvania’s Primary Election from April to June and
passing funding measures to make in-person voting safer. Id. Importantly, this bipartisan group of legislators and Governor Wolf—a Democrat—did not agree to
extend the ballot receipt deadline.

23
Indeed, just this past month leaders of the Pennsylvania General Assembly
drafted proposed legislation that would, among other things, alter deadlines for
voters to request a mail-in ballot to 15 days before Election Day and expand voteby-mail options. SB 10 (Aug. 24, 2020) (available at https://www.legis.state.
pa.us/CFDOCS/Legis/PN/Public/btCheck.cfm?txtType=HTM&sessYr=2019&sessInd
=0&billBody=S&billTyp=B&billNbr=0010&pn=1898; HB 2626 (Sept. 1, 2020)
(available at https://www.legis.state.pa.us/CFDOCS/Legis/PN/Public/btCheck.cfm
?txtType=HTM&sessYr=2019&sessInd=0&billBody=H&billTyp=B&billNbr=2626&
pn=4335. However, that legislation does not propose to extend the vote-by-mail
receipt deadline, clearly signaling the General Assembly’s policy determination to not
extend the vote-by-mail receipt deadline past Election Day. Id. The General
Assembly’s deliberations and negotiations with the Executive Branch have not
resulted in an extension of its ballot receipt deadline. The Supreme Court of
Pennsylvania cannot usurp the General Assembly’s authority and unilaterally extend
the deadline following a ‘parallel path’ to bypass the Constitutional and state
legislative process.
C. The Supreme Court Of Pennsylvania Does Not Possess
Legislative Power Pursuant To The Elections Clause.
The Supreme Court of Pennsylvania does not exercise a legislative function
when it decides cases because “the duty of courts is to interpret laws, not to make
them.” Watson v. Witkin, 22 A.2d 17, 23 (Pa. 1941). And, contrary to what that court
implied in its Opinion, the General Assembly has never delegated its authority to
regulate elections in a blanket manner to the judiciary. Cf. Slip Op. at 35 (citing 25

24
P.S. § 3046; In re General Election-1985, 531 A.2d at 836, 839 (1987)). The Supreme
Court of Pennsylvania therefore has no authority to alter the General Assembly’s
duly enacted prescriptions for federal elections and doing so violated Article I, Section
4 of the Constitution.
Moreover, the fact that the Supreme Court of Pennsylvania ruled solely on
Pennsylvania substantive law does not save it from violating federal law or the
Elections Clause. This frustrates the Elections Clause’s express delegation of
authority to “the legislature” because an alleged conflict between the state
constitution’s policy and the state legislature’s policy requires the state courts to pick
one policy over another. This would instigate a battle between the state’s courts and
its legislature, and the Elections Clause plainly sides with “the legislature” in that
dispute.
A state court’s enforcement of constitutional policy prescriptions results in
court-made policy superseding legislative policy. Inferences courts draw from
constitutional rules may be remote and tenuous, whereas an actual enacted policy
undoubtedly reflects the choices of “the legislature.” Accordingly, this Court has never
held that state constitutional provisions purporting to set time, place, or manner
rules or policy limitations on those rules can nullify contrary acts of a legislature
pursuant to their authority under the Elections Clause. Indeed, many state courts,
including the Supreme Court of Pennsylvania, have concluded that a state
constitution may not “impose a restraint upon the power of prescribing the manner
of holding [federal] elections.” Chase v. Miller, 41 Pa. 403, 409 (1862); In re Plurality

25
Elections, 8 A. 881, 882 (R.I. 1887). See also In re Op. of Justices, 45 N.H. 595, 601-07
(N.H. 1864); Wood v. State, 142 So. 747, 755 (Miss. 1932) (concurring opinion);
Thomas Cooley et al., Treatise On The Constitutional Limitation Which Rest Upon
The Legislative Power Of The State Of The American Union 903 & n.1 (1903).
D. The Supreme Court of Pennsylvania’s Extension Of The Ballot
Receipt Deadline Violates The Elections Clause.
Pennsylvania’s period for absentee and mail-in ballot submission is
unquestionably a regulation of the times, places, or manner of elections5 because it
regulates the time during which absentee and mail-in ballots may be submitted to
elections officials. See 25 P.S. § 3150.16(c).6 This deadline is a quintessential example
of the General Assembly exercising the authority that is directly delegated to it under
the Elections Clause. See Ariz. State Legis. v. Ariz. Indep. Redistricting Comm’n, 576
U.S. 787, 822-23 (2015) (citing voter registration deadlines, absentee voting
deadlines, and vote counting laws as instances of time, place, or manner regulations
under Elections Clause). Pennsylvania’s Supreme Court recognizes the constitutional
authority of Pennsylvania’s General Assembly too. See also In re Nomination of
Driscoll, 847 A.2d 44, 45 n.1 (Pa. 2004) (recognizing that a candidate for federal office

U.S. Const. Art. I, § 4.
Previously, Pennsylvania required that absentee ballots be received by the Friday
before the election. The General Assembly changed that in the fall of 2019. See Act
77. 2019 Pa. Legis Serv. Act 2019-77 (S.B. 421) (West) App. E. The legislature also
made changes again to Pennsylvania’s election code in March of 2020 as the
legislature considered the impact of COVID on the primary. ACT 12. 2020 Pa. Legis.
Serv. Act 2020-12 (S.B. 422) (West) App. F. No further change in the receipt deadline
was included in that legislation.
5
6

26
must “abide by the election procedures in the Pennsylvania Election Code” because,
unless altered by Congress, Pennsylvania’s General Assembly prescribes the times,
places and manner of holding Elections for Senators and Representatives); In re
Guzzardi, 99 A.3d 381, 385-86 (Pa. 2014) (stating that the legislature enacts election
related deadlines for the orderly, efficient, and fair proceedings of elections as well as
creating much needed stability). This federal constitutional delegation of authority
provides state legislatures with “a wide discretion in the formulation of a system for
the choice by the people of representatives in Congress.” In re Nomination of Driscoll,
847 A.2d at 45 n.1.
The Supreme Court of Pennsylvania was “not asked to interpret the statutory
language establishing the received-by deadline for mail-in ballots” because even in
its own words “there is no ambiguity regarding the deadline set by the General
Assembly . . . .” Slip Op. at 32 (emphasis added). Moreover, the Supreme Court of
Pennsylvania was “not asked to declare the language facially unconstitutional as
there is nothing constitutionally infirm about a deadline of 8:00 p.m. on Election Day
for the receipt of ballots.” Id. (emphasis added). The Supreme Court of Pennsylvania
instead was asked to replace the General Assembly’s policy judgments with its own.7
It obliged.

The Supreme Court of Pennsylvania said as much in its opinion. See Slip Op. at 3233. See also id. (“The parties, instead, question whether the application of the
statutory language to the facts of the current unprecedented situation results in an
as-applied infringement of electors’ right to vote.”).
7

27
Voters can vote in person on Election Day. Voters can request and cast their
mail-in ballot beginning 50 days before an election. 25 P.S. §3150.12a. Voters can
choose to wait a week before Election Day to request their ballot. Crossey, slip op. at
35. Voters can send their ballot via overnight mail or deliver their ballot to the county
election office. See id. at 35-36. This is not a case where the right to vote is illusory.
In fact, in a parallel case where the Supreme Court of Pennsylvania’s designated
master held a hearing, developed a record on the ballot received-by deadline, and
subjected witnesses to cross-examination, the court found that the United States
Postal Service’s on-time delivery rate in Pennsylvania is higher than the national
average, with 99% of presort First Class mail being received within three days of
mailing. See id. at 21, 36. Pennsylvania’s General Assembly has done everything it
can to establish a voting regime that is easy and accessible, even in the midst of a
pandemic.8
The Supreme Court of Pennsylvania’s decision makes precisely the kind of
policy choices the Elections Clause assigned to the various state legislatures. In doing

The Supreme Court of Pennsylvania heavily relies on the USPS’s Marshall Letter.
See slip op. at 24-27. But in Crossey, where witnesses testified concerning the Postal
Service’s abilities and were subject to cross-examination, both the Crossey
Petitioners’ Postal Service expert and the Senate Intervenors’ expert agreed that the
Postal Service was capable of delivering ballots within Pennsylvania’s statutory
timeline for requesting and receiving ballots. See Crossey, slip op. at 10-11, 30-31, 35
(App. C at 10-11, 30-31, 35). In fact, the Secretary is spending taxpayer dollars to
inform voters to request and mail in their ballot as early as possible. See id. at 28.
There is no evidence establishing that Pennsylvania’s ballot receipt-by deadline is
plainly and palpably unconstitutional. See id. at 35.
8

28
so, the Supreme Court of Pennsylvania has unconstitutionally usurped the General
Assembly’s authority under the Elections Clause. It is, in fact, the General
Assembly’s constitutionally vested duty to regulate the time, manner, and place of
federal elections, not that of the state judicial branches. Crossey, App. C at 36. The
Supreme Court of Pennsylvania’s decision to extend the received-by deadline and
accept untimely voted ballots constitutes a “significant departure” from the election
laws duly enacted by the General Assembly, “rais[ing] a federal constitutional
question” and a substantial issue on the merits. Bush, 531 U.S. at 112–13 (Rehnquist,
J., concurring).
Accordingly, there is at least a “reasonable probability” that this Court will
hear Applicants’ forthcoming appeal and at least a “fair prospect” that it will reverse
this Court’s decision. See Hollingsworth, 558 U.S. at 190; see also Bush v. Palm Beach
County Canvassing Board, 531 U.S. 70, 77 (2000) (“There are expressions in the
opinion of the Supreme Court of Florida that may be read to indicate that it construed
the Florida Election Code without regard to the extent to which the Florida
Constitution could, consistent with Art. II, § 1, cl. 2 circumscribe the legislative
power”) (internal quotations omitted).
E. This Court Has Stayed Or Overturned Other Challenges To
States’ COVID-19 Responses.
There is also more than a reasonable probability that the Court will consider
the case on the merits because this Court has been tracking state policy during the
COVID-19 pandemic.

29
For example, this Court has stayed or overturned nearly every effort in federal
court to alter a state’s election laws in light of the Virus over the opposition of state
government officials. See, e.g., Republican Nat’l Comm.v. Democratic Nat’l Comm.,
140 S. Ct. 1205 (Apr. 6, 2020) (granting stay of district court order requiring
Wisconsin to count late postmarked absentee ballots for primary election, pending
final disposition on appeal);9 Merrill v. People First Of Ala., No. 19A1063 (July 2,
2020) (granting stay of district court order enjoining Alabama’s duly enacted photo
identification and witness requirements for absentee voting during the pandemic);
Little v. Reclaim Idaho, No. 20A18 (July 30, 2020) (granting stay of district court
orders relaxing Idaho’s rules for ballot initiatives); Clarno v. People Not Politicians,
No. 20A21 (Aug. 11, 2020) (granting stay of district court order relaxing Oregon’s
election procedures because of the coronavirus pandemic); Thompson v. DeWine, No.
19A1054 (June 25, 2020) (denying application to vacate Sixth Circuit stay of district
court order suspending Ohio’s enforcement of in-person signature requirements and
extending filing deadlines for initiative campaigns); Tex. Democratic Party v. Abbott,
No. 19A1055 (June 26, 2020) (denying application to vacate Fifth Circuit stay of
district court order forcing Texas to implement no-excuse absentee voting). See also
Little v. Reclaim Idaho, 591 U.S. No. 20A18, 2020 U.S. LEXIS 3585 (Roberts, C.J.,

The Seventh Circuit had declined to stay this portion of the district court’s order as
they had done with the portion of the opinion pertaining to absentee ballot witness
requirements. With this stay from the Court, the majority of the provisions from the
Wisconsin district court's April order have now been stayed.
9

30
concurring) (agreeing with the Court’s stay of a district court order altering initiative
petition procedures in light of COVID-19 due in part to the district court’s failure to
“accord sufficient weight to the State’s discretionary judgments about how to
prioritize limited state resources across the election system as a whole.”). This Court
has also repeatedly refused to disrupt states’ efforts to tackle issues related to
COVID-19 outside of the election law context. See, e.g., South Bay United Pentecostal
Church v. Newsom, No. 19A1044 (May 29, 2020); Calvary Chapel Dayton Valley v.
Sisolak, No. 19A1070 (July 24, 2020).
This Court has permitted only one case to alter state election law in response
to COVID-19, Republican National Committee v. Common Cause Rhode Island, 591
U.S. No. 20A28 (Aug. 13, 2020). However, that case is inapposite to the present case
because, unlike the present case, state policy makers had agreed to the modification
of state election law in that case. Id. Specifically, this Court was asked to freeze a
lower court order that approved an agreement between state election officials and
civic groups to waive a requirement that absentee ballots be signed in the presence
of either two witnesses or a notary. Id. This Court explained that – unlike in other
recent election-law cases like the present case – state officials in this case support the
agreement that the Petitioners asked the court to block. Id. Here state officials are
divided. Importantly, the General Assembly, the branch of state government that the
United States Constitution expressly vests with the authority to enact the time,
place, and manner of elections, is opposed to altering the ballot receipt deadline. The

31
Supreme Court of Pennsylvania’s decision therefore usurps the General Assembly’s
authority.
Accordingly, there is at least a “reasonable probability” that this Court will
hear Applicants’ forthcoming appeal and at least a “fair prospect” that it will reverse
this Court’s decision. See Hollingsworth, 558 U.S. at 190.
F. Denying The Requested Stay Will Have A Cascading Effect On
This Court’s Docket.
Denying the requested stay will have a cascading effect across the country.
Denying the stay will embolden lower federal and state courts throughout the country
to alter lawfully enacted statutory deadlines in these final weeks before Election Day.
Currently, there are no less than six cases pending in state or federal court
where the plaintiffs are demanding that the Court postpone the ballot-receipt
deadline. See New Georgia Project, et al. v. Raffensperger, No. 20-13360 (11th Cir.
Sept. 18, 2020) (emergency application for stay of extension of ballot receipt
deadline);10 Michigan Alliance for Retired Americans, et al. v. Benson, 20-000108-MM
(Mich. Ct. Claims Sept. 18, 2020) (extending ballot receipt deadline to fourteen days
after the election, so long as the ballot is postmarked the day before Election Day);11
North Carolina Alliance for Retired Americans, et al. v. N.C. State Bd. of Elections,

Executive officials in Georgia are opposing the district court’s injunction and
seeking a stay pending appeal.
11
Injunction issued over the objection of Legislature, whose intervention in the case
was denied while Executive Branch defendants have acquiesced and are not pursuing
appeal. It is anticipated that the Legislature will seek additional review through the
state court system.
10

32
20-CVS-8881 (Wake Ct. Sept. 22, 2020) (extending ballot receipt deadline to count all
ballots postmarked on Election Day and received up to nine days after Election
Day);12 Lucero, et al. v. Simon, 20-cv-02030 (D. Minn. Sept. 22, 2020) (Complaint filed
challenging consent decree entered in LaRose v. Simon, No. 62-CV-20-3149 (2d Jud.
Dist. Minn. June 17, 2020) with Minnesota Secretary of State extending ballot receipt
deadline to eight days after Election Day); 13 Democratic National Committee v.
Bostelmann, No. 20-cv-00249 (D. Wis. Sept. 21, 2020) (order granting injunction
requiring county boards of elections to count ballots postmarked on Election Day and
received by November 9, 2020); appeal filed No. 20-2844 (7th Cir. Sept. 24, 2020);14
Driscoll v. Stapleton, Montana Supreme Court, Case No. 20-0295 (filed May 26, 2020)
(On August 26, 2020, the State Supreme Court ruled that it would take the case
on the briefing without oral argument); Driscoll v. Stapleton, No. DV 20-408
(Mont. 13th Jud. Dis., Yellowstone Cty., Sept. 25, 2020) (opinion available at
https://bloximages.newyork1.vip.townnews.com/kulr8.com/content/tncms/assets/v3/e
ditorial/1/81/1812256c-ff85-11ea-aa54-2f21ed82c7a1/5f6e7ac229f2a.pdf.pdf) (forcing
election administrators to accept all absentee ballots postmarked by Election Day,
but received after Election Day as long as they are received by the deadline for federal
Similarly, Executive branch defendants reached agreement with Plaintiffs while
Legislative Branch defendants are opposing the consent decree and pursuing appeals
through the state courts.
13
Preliminary injunction hearing in the District of Minnesota is scheduled for
October 2, 2020.
14
Legislative Defendants and other intervenor-defendants are pursuing this appeal
through the Seventh Circuit, although the District Court has stayed its order for one
week pending appeal.
12

33
write-in ballots for military and overseas voters; also extending Montana’s cure
deadline statutes nine days after Election Day). 15 All seven of these cases, and
potentially more, could come before this Court in the next few weeks.
Numerous courts around the country, including this one, have denied attempts
to extend ballot return deadlines in the midst of the COVID-19 pandemic or
otherwise. Bush v. Palm Beach County Canvassing Board, 531 U.S. 70 (2000);
Thomas v. Andino, 2020 U.S. Dist. LEXIS 90812 (D. S.C. May 25, 2020); DCCC v.
Ziriax, 2020 U.S. Dist. LEXIS 170427 (D. Ok., Sept. 17, 2020); Grossman v. Secretary
of the Commonwealth, 485 Mass. 541 (2020); VoteVets Action Fund v. Detzner, No.
4:18-cv-524-MW/CAS) (N.D. Fla. November 16, 2018); Friedman v. Snipes, 345
F.Supp.2d 1356 (S.D. Fla. 2004).
If this Court denies the requested stay, the denial will allow similar decisions
extending deadlines from other courts around the country to proliferate. This
proliferation will empower courts to alter statutory deadlines that were the product
of deliberation and negotiation in the branch of government that the U.S.
Constitution vests with enacting these laws.
III.

ABSENT
THE
GRANT
OF
THE
REQUESTED
PENNSYLVANIA WILL SUFFER IRREPARABLE HARM.

STAY,

The Applicants, General Assembly, and the Commonwealth as a whole will
suffer irreparable harm if the Supreme Court of Pennsylvania’s opinion and order is

Executive Defendants and proposed Legislative intervenors (intervention was
denied) indicated opposition to the relief sought by Plaintiffs.
15

34
not stayed. The mere enjoining of validly enacted legislation amounts to irreparable
injury because “any time a State is enjoined by a court from effectuating statutes
enacted by representatives of its people, it suffers a form of irreparable injury.”
Maryland v. King, 133 S. Ct. 1, 3 (2012). This is even truer for statutes relating to
elections because “[a] State indisputably has a compelling interest in preserving the
integrity of its election process.” Eu v. San Francisco County Democratic Central
Comm., 489 U.S. 214, 231 (1989). Accordingly, because the Pennsylvania Supreme
Court’s order enjoins enforcement of Pennsylvania’s ballot receipt deadline statute,
its opinion and order are themselves sufficient irreparable injury to warrant a stay.
Circumstances also warrant the requested stay. Absent a stay, the machinery
of the election will continue inexorably towards Election Day. With each passing day,
more and more voters will learn that the deadline is not Election Day—as established
by statute—but three days after Election Day. This Court should therefore follow its
“ordinary practice” and prevent the Pennsylvania Supreme Court’s order “from
taking effect pending appellate review.” Strange v. Searcy, 135 S. Ct. 940, 940 (2015)
(Thomas, J., dissenting) (citing Herbert v. Kitchen, 134 S. Ct. 893 (2014), and San
Diegans for Mt. Soledad Nat’l War Mem’l v. Paulson, 548 U.S. 1301 (2006) (Kennedy,
J., in chambers)).
A stay would not harm the Secretary. The Secretary has dedicated substantial
resources “to educate voters about the process of voting by mail and the importance
of doing so promptly.” Crossey, slip op. at 19 (App. C at 19). In fact, “The Secretary is
undertaking a public education campaign to inform voters of the need to apply for

35
and return all mail ballots as early as possible.” See id. at 28. Accordingly, a stay
would in fact assist the Secretary in not having to dedicate additional resources to
inform voters that they have additional time to mail their ballots and could mail their
ballots on Election Day for receipt by Friday, November 6, 2020. Granting the stay
would not harm the Secretary.
A stay also does not undermine the Secretary’s instructions. The Secretary’s
public education campaign has already informed voters to request their ballots early
and mail their ballots early. This way, the ballots can be received by the statutorily
enacted November 3, 2020, deadline. App. C at 19, 28. Changing the rules in the
middle of the game by informing voters that they now have until November 6 for their
ballot to be received risks confusion and the potential for fraud. See Purcell v.
Gonzalez, 549 U.S. 1, 4-5 (2006) (“Court orders affecting elections, especially
conflicting orders, can themselves result in voter confusion and consequent incentive
to remain away from the polls. As an election draws closer, that risk will increase.”).
Furthermore, granting the requested stay permits a validly enacted statute to
remain in force. This is a statute that the parties concede is constitutional in every
respect—except in the context of COVID-19. A disease is not state action and
therefore this Court should permit the election to proceed under the ballot receipt
deadline that was produced through bi-partisan deliberation and negotiation.

36
CONCLUSION
For the aforementioned reasons, Applicants respectfully request this Court
grant a stay of the portions of the Supreme Court of Pennsylvania’s decision:
(1) forcing election officials to accept ballots received after Election Day to be counted
even if they lack a legible postmark; and, (2) extending the absentee and mail-in
ballot deadline past Election Day, pending the disposition of Applicants’ forthcoming
petition for writ of certiorari.
Respectfully submitted,
CRYSTAL H. CLARK, ESQ.
General Counsel,
Senate Republican Caucus
B-51 Main Capitol
Harrisburg, PA 17120
(717) 787-6259
cclark@pasen.gov
LAWRENCE J. TABAS
Centre Square West
1515 Market St., Suite 3400
Philadelphia, PA 19102

JASON B. TORCHINSKY
Counsel of Record
JONATHAN P. LIENHARD
SHAWN T. SHEEHY
DENNIS W. POLIO
HOLTZMAN VOGEL
JOSEFIAK TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
(540) 341-8808
(540) 341-8809
Jtorchinsky@hvjt.law

Counsel for Applicants Joseph B. Scarnati III, President Pro Tempore, and
Jake Corman, Majority Leader of the Pennsylvania Senate
September 28, 2020

APPENDIX

APPENDIX A

1

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE, DOUGHERTY, WECHT, MUNDY, JJ.
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:

2

COUNTY BOARD OF ELECTIONS;
COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] - 2

3

ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

OPINION
JUSTICE BAER

DECIDED: September 17, 2020

In October 2019, the General Assembly of the Commonwealth of Pennsylvania
enacted Act 77 of 2019, which, inter alia, created for the first time in Pennsylvania the
opportunity for all qualified electors to vote by mail, without requiring the electors to
demonstrate their absence from the voting district on Election Day, 25 P.S. §§ 3150.113150.17. The Pennsylvania Democratic Party and several Democratic elected officials
and congressional candidates, some in their official capacity and/or as private citizens
(collectively, “Petitioner”), filed the instant action, initially in the Commonwealth Court, in
the form of a petition for review seeking declaratory and injunctive relief relating primarily
to five issues of statutory interpretation involving Act 77 and the Election Code, 25 P.S.

[J-96-2020] - 3

4

§§ 2600-3591.1 This Court exercised Extraordinary Jurisdiction to address these issues
and to clarify the law of this Commonwealth in time for the 2020 General Election. 2
I. FACTS AND PROCEDURAL HISTORY
On July 10, 2020, Petitioner filed its petition for review in the Commonwealth Court
against Secretary of the Commonwealth Kathy Boockvar (“Secretary”) and all 67 county
election boards (“Boards”).3 In its petition, Petitioner requested that the Commonwealth
Court issue declaratory and injunctive relief “so as to protect the franchise of absentee
and mail-in voters.” Petition for Review (“Petition”), 7/10/2020, at 5.4

The caption reflects the Secretary of the Commonwealth Kathy Boockvar as filing the
petition before the Court based upon her application for extraordinary review, which this
Court granted. Regardless, as noted, we now refer to the plaintiffs in the underlying
lawsuit as “Petitioner” and, as noted infra, Secretary Boockvar as “Secretary.”
1

2

Pursuant to 42 Pa.C.S. § 726, this Court
may, on its own motion or upon petition of any party, in any matter pending
before any court or magisterial district judge of the Commonwealth involving
an issue of immediate public importance, assume plenary jurisdiction of
such matter at any stage thereof and enter a final order or otherwise cause
right and justice to be done.

At the time Petitioner filed its petition, an action filed by Donald J. Trump for President,
Inc., the Republican National Committee (“RNC”), and several Republican congressional
candidates and electors (collectively, “Republican Party”) against the Secretary and the
Boards was pending in the U.S. District Court for the Western District of Pennsylvania.
In that case, the Republican Party alleged federal and state constitutional violations
stemming from the recent implementation of no excuse mail-in voting under Act 77. The
specific issues raised by the Republican Party in the federal action are, to some extent,
the mirror image of the issues raised by Petitioner in the case sub judice.
3

Concurrently, Petitioner filed both an Application for Special Relief in the Nature of an
Expedited Motion for Alternative Service and an Application for an Expedited Discovery
Schedule and Evidentiary Hearing, to which several responses were filed. On July 15,
2020, the Commonwealth Court denied Petitioner’s request for alternative service. On
July 30, 2020, the Commonwealth Court, inter alia, granted in part and denied in part
Petitioner’s application for an expedited discovery schedule and evidentiary hearing. In
this order, the Commonwealth Court set forth specific deadlines for responsive pleadings.
4

[J-96-2020] - 4

5

Specifically, Petitioner raised several discrete issues for the Commonwealth
Court’s consideration, which are discussed in more detail infra. Briefly, in Count 1,
Petitioner requested declaratory relief to confirm that Act 77 permits Boards “to provide
secure, easily accessible locations as the Board deems appropriate, including, where
appropriate, mobile or temporary collection sites, and/or drop-boxes for the collection of
mail-in ballots.” Id. at 47, ¶ 165. Additionally, Petitioner sought an injunction requiring
the Boards to “evaluate the particular facts and circumstances in their jurisdictions and
develop a reasonable plan … to ensure the expedient return of mail-in ballots.” Id. at
¶ 166.
In Count 2, Petitioner sought an injunction to “lift the deadline in the Election Code
across the state to allow any ballot postmarked by 8:00 p.m. on Election Night to be
counted if it is received by the Boards” by 5:00 p.m. on Tuesday, November 10, which is
the deadline for ballots to be received under the Federal Uniformed and Overseas
Citizens Absentee Voting Act (“UOCAVA”).5 Id. at 50, ¶ 178. In the alternative, Petitioner
posited that the Commonwealth Court could, with a few caveats, “enjoin the Counties to
extend a more tailored ballot extension deadline to the date that is 21 days after the
particular voter’s ballot is mailed by the county[.]” Id. at ¶ 179.
In Count 3, Petitioner highlighted that the “procedure for mail-in ballots often leads
to minor errors, which result in many ballots being rejected and disenfranchising voters
who believe they have exercised their right to vote.” Id. at 51, ¶ 186. In anticipation of
these expected errors, Petitioner again sought an injunction requiring Boards that have
knowledge of an incomplete or incorrectly filled out ballot and the elector’s contact

The UOCAVA delineates, inter alia, the process and procedure in which overseas voters
and voters in the uniformed services receive absentee ballots for federal elections. See
generally 52 U.S.C. §§ 20301-20311.
5

[J-96-2020] - 5

6

information to contact the elector and provide them “the opportunity to cure the facial
defect until the UOCAVA deadline.” Id. at 52, ¶ 187.
In Count 4, Petitioner requested a declaration that there is no statutory authority to
set aside an absentee or mail-in ballot solely for failure to place it into the official election
ballot envelope (hereinafter referred to as the “secrecy envelope”), as well as an
injunction prohibiting any “naked ballots,” which are otherwise without error, from being
invalidated.6 Id. at 54, ¶ 198-199. A “naked ballot” refers to an official mail-in ballot that
is not placed in the secrecy envelope before mailing.
Finally, in Count 5, Petitioner sought a declaration that the “Election Code’s poll
watcher residency requirement does not violate the United States Constitution’s First and
Fourteenth Amendments, its Equal Protection Clause, or the Equal Protection and Free
and Equal Elections Clauses of the Pennsylvania Constitution.” Id. at 55, ¶ 207.
On August 13, 2020, the Secretary filed an Answer and New Matter to the petition.
In addition, twenty of the named Boards filed answers with new matter, fourteen of the
Boards filed answers, and nine of the Boards filed preliminary objections.7 Requests to
intervene were filed by Donald J. Trump for President, Inc., the Republican Party of
Pennsylvania, and the RNC, as well as Joseph B. Scarnati III, President Pro Tempore,
and Jake Corman, Majority Leader of the Pennsylvania Senate, in opposition to the
petition.

The Common Cause Pennsylvania, The League of Women Voters of

As explained more fully below, upon receipt of an official mail-in ballot, the mail-in elector
is to mark the ballot in secret, and then fold the ballot, enclose, and securely seal the
same in the secrecy envelope provided. 25 P.S. § 3150.16(a). The secrecy envelope
“shall then be placed in the second one, on which is printed the form of declaration of the
elector, and the address of the elector’s county board of election and the local election
district of the elector.” Id.
6

On August 27, 2020, Petitioner filed its: (1) Answer to the Secretary’s New Matter; (2)
Answer to the new matter filed by various Boards; and (3) an omnibus memorandum of
law opposing the preliminary objections filed by several Boards.
7

[J-96-2020] - 6

7

Pennsylvania, The Black Political Empowerment Project (“B-PEP”), Make the Road
Pennsylvania, a project of Make the Road States (“Make the Road PA”), Patricia M.
DeMarco, Danielle Graham Robinson, and Kathleen Wise filed a joint application to
intervene as co-petitioners.
On August 16, 2020, the Secretary filed an application asking this Court to exercise
extraordinary jurisdiction over Petitioner’s petition for review.8 Highlighting, inter alia, the
two major political parties’ “diametric positions” on the interpretation of several Act 77
provisions and the fast-approaching 2020 General Election, the Secretary asserted that
“[t]he exercise of extraordinary jurisdiction by this Court is the only means available to
resolve these disputes without disrupting the election.”

Secretary’s Application for

Extraordinary Relief, 8/16/2020, at 14-16. On August 19, 2020, Petitioner filed an Answer
to the Secretary’s application, noting that it had no objection to this Court exercising its
extraordinary jurisdiction.9

In her application, the Secretary informed this Court that she had filed a motion in the
aforementioned federal action urging the District Court to abstain from rendering a
decision pursuant to R.R. Comm’n of Tex. v. Pullman, 312 U.S. 496 (1941) (explaining
that, where appropriate, a federal court may abstain from deciding a case to permit a
state court the opportunity to resolve a state law question). Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 17. This motion was later granted. See Trump for
President, Inc., 2020 WL 4920952, at *21 (W.D. Pa. 2020).
8

In addition, on August 18, 2020, Bucks, Chester, Montgomery, and Philadelphia County
Boards of Election filed an Answer in Support of the Secretary’s application. Likewise,
on August 19, 2020, Armstrong, Bedford, Blair, Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna, Lawrence, Lebanon, Montour, Northumberland,
Venango, and York County Boards of Election also filed an answer joining the Secretary’s
application. Several of the remaining 67 counties filed no answer letters. On August 20,
2020, answers were filed by the Republican proposed intervenors, as well as proposed
co-petitioners, The Common Cause Pennsylvania, The League of Women Voters of
Pennsylvania, B-PEP, Make the Road PA, Patricia M. DeMarco, Danielle Graham
Robinson, and Kathleen Wise.
9

[J-96-2020] - 7

8

Faced with a national election scheduled to occur on November 3, 2020 and
substantial legal issues that required the highest court of Pennsylvania’s analysis and
response to ensure a free and fair election, on September 1, 2020, this Court granted the
Secretary’s Application and set forth a schedule for supplemental briefing and filings. 10
Later, on September 3, 2020, this Court filed an order granting the motions to intervene
filed by the Republican Party of Pennsylvania (hereinafter, “Respondent”) and Joseph B.
Scarnati III, Pennsylvania Senate President Pro Tempore, and Jake Corman, Senate
Majority Leader, representing the Republican Senate Caucus (hereinafter, “Caucus”).
Applications to intervene filed by Donald J. Trump for President, Inc., and the RNC;
Common Cause of Pennsylvania, the League of Women Voters of Pennsylvania, B-PEP,
Make the Road PA, Patricia M. DeMarco, Danielle Graham Robinson, and Kathleen Wise
were denied without prejudice to the parties’ ability to file briefs as amicus curiae pursuant
to Pa.R.A.P. 531.11 The parties have submitted supplemental filings in support of their
The Secretary highlighted in her application for extraordinary relief to this Court that
there was insufficient time to engage in full pre-trial proceedings and discovery before
applications for summary relief could be filed. See Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 13-14. In fact, the Secretary explained that because
of all the uncertainties surrounding the case, it was unclear “whether discovery,
dispositive motions, and a hearing were even necessary.” Id. at 14 n.3. She maintained
that Petitioner’s application to expedite discovery and a hearing in Commonwealth Court
was premature. Thus, the Secretary sought extraordinary review of the discrete legal
claims alleged in the lawsuit as if at the summary relief stage of the case. Cognizant of
our authority when exercising extraordinary jurisdiction, this Court granted the Secretary’s
request. See Order dated 9/1/2020. Accordingly, because of the intense time pressure
confronting this Court, we do not address the various procedural filings in the case and,
rather, address only the five discrete legal claims before us. See 42 Pa.C.S. §726 (this
Court may “assume plenary jurisdiction of [any matter pending before any court] at any
stage thereof and enter a final order or otherwise cause right and justice to be done”).
10

After this Court granted the Secretary’s application and set a schedule for supplemental
filings, Bryan Cutler and Kerry Bennighoff, Speaker and Majority Leader of the
Pennsylvania House of Representatives, respectively, filed an Application to Intervene,
while State Senator Jay Costa, on behalf of the Senate Democratic Caucus filed an
11

[J-96-2020] - 8

9

respective positions, and this matter is now ripe for disposition of the discrete five legal
issues before us.
II. RELEVANT OVERARCHING PRINCIPLES OF LAW
Generally speaking, each of the five issues presented by Petitioner presents a pure
question of law, over which our standard of review is de novo and our scope of review is
plenary. In re Vencil, 152 A.3d 235, 241 (Pa. 2017). Specifically, in large part, Petitioner
requests relief in the form of declarations of law regarding Act 77 pursuant to the
Declaratory Judgments Act, 42 Pa.C.S. §§ 7531-7541.

Accordingly, we address the

issues presented mindful of the following.
The Declaratory Judgments Act, which is to be liberally construed and
administered, was promulgated to “settle and to afford relief from uncertainty and
insecurity with respect to rights, status, and other legal relations[.]” 42 Pa.C.S. § 7541(a).
Pertinent to the instant matter, this Act provides, in relevant part, that “[a]ny person . . .
whose rights, status, or other legal relations are affected by a statute . . . may have
determined any question of construction or validity arising under the . . . statute . . . and
obtain a declaration of rights, status, or other legal relations thereunder.” 42 Pa.C.S.
§ 7533.12
Application to Intervene, which was later amended to include State Representative Frank
Dermody, on behalf of the House Democratic Caucus. Because of the necessary
expediency of reaching a decision in this case, and given that adequate advocacy has
been provided, these applications, submitted close to this Court’s deadline for
supplemental filings, are denied. In any case, the requests are moot given the issuance
of our decision.
Notably, while Petitioner has styled its requested relief as “injunctive” in reality it seeks
declaratory relief. We will treat its prayers for relief accordingly. In this regard, as noted,
essentially, we are treating the matter as if it is at the summary relief stage. See Hosp. &
Healthsystem Ass'n of Pa. v. Com., 77 A.3d 587, 602 (Pa. 2013) (“An application for
summary relief may be granted if a party’s right to judgment is clear and no material issues
of fact are in dispute.”) (citation omitted). See also Pa.R.A.P. 1532(b) (providing that “[a]t
12

[J-96-2020] - 9

10

When presented with matters of statutory construction, this Court is guided by
Pennsylvania’s Statutory Construction Act, 1 Pa.C.S. § 1501-1991. Under this Act, “the
object of all statutory construction is to ascertain and effectuate the General Assembly’s
intention.”

Sternlicht v. Sternlicht, 876 A.2d 904, 909 (Pa. 2005) (citing 1 Pa.C.S.

§ 1921(a) (“The object of all interpretation and construction of statutes is to ascertain and
effectuate the intention of the General Assembly”)). When the words of a statute are clear
and unambiguous, “the letter of it is not to be disregarded under the pretext of pursuing
its spirit.” 1 Pa.C.S. § 1921(b); see also Sternlicht, supra. However, when the words of
a statute are not explicit, the General Assembly’s intent is to be ascertained by consulting
a comprehensive list of specific factors set forth in 1 Pa.C.S. § 1921(c).

See also

Pennsylvania Associated Builders & Contractors, Inc. v. Commonwealth Dep’t of Gen.
Servs., 932 A.2d 1271, 1278 (Pa. 2007) (recognizing that when the “words of the statute
are not explicit, the General Assembly’s intent is to be ascertained by considering matters
other than statutory language, like the occasion and necessity for the statute; the
circumstances of its enactment; the object it seeks to attain; the mischief to be remedied;
former laws; consequences of a particular interpretation; contemporaneous legislative
history; and legislative and administrative interpretations”).
Moreover, we recognize that in this Commonwealth, “[e]lections shall be free and
equal; and no power, civil or military, shall at any time interfere to prevent the free exercise
of the right of suffrage.” PA. CONST. art. I, § 5 (hereinafter referred to as the “Free and
Equal Elections Clause”). The broad text of this specific provision “mandates clearly and
unambiguously, and in the broadest possible terms, that all elections conducted in this
Commonwealth must be ‘free and equal.’” League of Women Voters v. Commonwealth,
178 A.3d 737, 804 (Pa. 2018) (emphasis in original). Stated another way, this clause was
any time after the filing of a petition for review in an appellate or original jurisdiction matter,
the court may on application enter judgment if the right of the applicant thereto is clear.”).
[J-96-2020] - 10

11

“specifically intended to equalize the power of voters in our Commonwealth’s election
process[.]” Id. at 812.
Finally, this Court has previously observed that the purpose and objective of the
Election Code, which contains Act 77, is “[t]o obtain freedom of choice, a fair election and
an honest election return[.]” Perles v. Hoffman, 213 A.2d 781, 783 (Pa. 1965). To that
end, the Election Code should be liberally construed so as not to deprive, inter alia,
electors of their right to elect a candidate of their choice. Id. at 784. With these general
principles in mind, this Court will address in turn each of the five discrete issues presented
by Petitioner.
III. ISSUES
A. COUNT I OF THE PETITION FOR REVIEW
Section 3150.16(a) of the Election Code, 25 P.S. § 3150.16(a), is part of Act 77
and pertinent to several issues in this matter. That statutory provision, which is entitled
“Voting by mail-in electors,” states as follows:
(a) General rule.--At any time after receiving an official mail-in ballot, but
on or before eight o’clock P.M. the day of the primary or election, the mailin elector shall, in secret, proceed to mark the ballot only in black lead pencil,
indelible pencil or blue, black or blue-black ink, in fountain pen or ball point
pen, and then fold the ballot, enclose and securely seal the same in the
envelope on which is printed, stamped or endorsed “Official Election Ballot.”
This envelope shall then be placed in the second one, on which is printed
the form of declaration of the elector, and the address of the elector’s county
board of election and the local election district of the elector. The elector
shall then fill out, date and sign the declaration printed on such envelope.
Such envelope shall then be securely sealed and the elector shall send
same by mail, postage prepaid, except where franked, or deliver it in person
to said county board of election.
25 P.S. § 3150.16(a). The last sentence of this provision is the primary focus of the first
question of law that we will address. The plain language of this sentence allows an elector
to mail her securely sealed envelope containing the elector’s “Official Election Ballot” to

[J-96-2020] - 11

12

her “county board of election” or, more relevant to this issue, “deliver it in person to said
county board of election.” Id.
In Count I of its petition for review, Petitioner seeks a declaration that a reasonable
interpretation of Section 3150.16(a) of the Election Code permits county boards of
election to provide electors with as many secure and easily accessible locations to deliver
personally their mail-in ballots as each board deems appropriate.13 Petitioner suggests
that these locations can consist of mobile or temporary collection sites and that county
boards of election may utilize secure drop-boxes for the collection of hand-delivered mailin ballots.
Indeed, Petitioner contends that, by enacting Section 3150.16(a) of the Election
Code, the General Assembly clearly and unambiguously intended to provide the various
county boards of election with the option of accepting hand-delivered mail-in ballots at
any location controlled by the boards, not just at the boards’ central offices. In support of
this position, Petitioner points out, inter alia, that pursuant to Section 3151 of the Election
Code, the General Assembly empowered each county board of election to receive “ballot

Under Count I, Petitioner also sought relief “in the form of an affirmative injunction
requiring that county Boards are required to evaluate the particular facts and
circumstances in their jurisdictions and develop a reasonable plan reflecting the needs of
the citizens of the county to ensure the expedient return of mail-in ballots.” Petition at 47,
¶ 166. Petitioner accurately concedes that it must establish a clear right to this relief. Id.
at ¶ 167; see Roberts v. Bd. of Directors of Sch. Dist. of City of Scranton, 341 A.2d 475,
478 (Pa. 1975) (explaining that, “for a mandatory injunction to issue, it is essential that a
clear right to relief in the plaintiff be established”). To the extent that Petitioner continues
to seek injunctive relief in this form, we summarily decline the request, as there simply is
no legal authority that would allow this Court to mandate that the county boards of election
“evaluate the particular facts and circumstances in their jurisdictions and develop a
reasonable plan reflecting the needs of the citizens of the county to ensure the expedient
return of mail-in ballots.” In other words, Petitioner cannot establish a clear right to relief
with regard to their request for a mandatory injunction.
13

[J-96-2020] - 12

13

boxes and returns” in their offices or “in any such other place as has been designated by
the board.”14 25 P.S. § 3151.
The Secretary builds on Petitioner’s argument.

In so doing, the Secretary

highlights that, in construing Section 3150.16(a) of the Election Code, the Court should
consider that the General Assembly defined “county board” or “board” as meaning “the
county board of elections of any county herein provided for.” 25 P.S. § 2602. According
to the Secretary, this definition clarifies that, for purposes of Section 3150.16(a), “county
board of election” refers to a municipal body, not a physical office or address. In other
words, the Secretary believes that, when this definition is used for purposes of Section
3150.16(a), that Section unambiguously permits voters to deliver mail-in ballots in person
to places designated by county boards of election, other than their respective office
addresses.
In further support of this position, the Secretary asserts that the Election Code
contemplates that county boards of election will operate out of multiple locations. See 25
P.S. § 2645(b) (stating, inter alia, that the “county commissioners or other appropriating
authorities of the county shall provide the county board with suitable and adequate offices
at the county seat, property furnished for keeping its records, holding its public sessions
and otherwise performing its public duties, and shall also provide, such branch offices for
the board in cities other than the county seat, as may be necessary”). Echoing Petitioner’s
argument, the Secretary further suggests that the Election Code anticipates that “ballot
14

Section 3151 of the Election Code states, in full, as follows:
Each county board of elections shall cause its office to remain open, in
charge of one or more members of the board, during the entire duration of
each primary and election, and after the close of the polls, until all the ballot
boxes and returns have been received in the office of the county elections
board, or received in such other place as has been designated by the board.

25 P.S. § 3151.
[J-96-2020] - 13

14

boxes and returns” may be received “in the office of the county elections board, or
received in such other places as has been designated by the board.” 25 P.S. § 3151.
The Secretary insists that the Election Code is devoid of any language limiting
county boards of election from accepting delivery of mail-in votes solely at their primary
office addresses. In fact, the Secretary takes the position that to hold otherwise would
contravene the plain language of the Election Code. However, assuming arguendo that
this Court deems the Election Code ambiguous on this point, the Secretary advocates
that a reasonable interpretation of the Code nonetheless authorizes county boards of
election to utilize multiple drop-off sites to accept hand-delivered mail-in ballots.
In this regard, the Secretary focuses on the statutory considerations to which this
Court may refer when construing an ambiguous statute, 1 Pa.C.S. § 1921(c), as
described supra. More specifically, the Secretary posits that the General Assembly
enacted Act 77 with the object of increasing the electorate’s participation in the electoral
process by making it easier and more convenient to vote, providing all electors with the
option to mail in their ballots. The Secretary opines that, consistent with this objective,
the General Assembly intended to allow county boards of election to accept handdelivered mail-in ballots at locations besides the boards’ central office addresses. The
Secretary takes the position that, if this Court deems reasonable the various parties’
competing interpretations of the Election Code, then the Court should construe the Code
in favor of the right to vote.
Contrary to the contentions of the Secretary and Petitioner, Respondent submits
that the Election Code prohibits county boards of election from designating locations other
than their established county offices for hand delivery of mail-in ballots. Rather, according
to Respondent, Section 3150.16(a) of the Election Code unambiguously mandates that
an elector must either mail her mail-in ballot to the office address of the county board of

[J-96-2020] - 14

15

election or deliver that ballot in person to the same office address. Stated differently,
Respondent takes the position that the Election Code requires electors either to place
their mail-in ballots, addressed to their county boards of election, into the United States
Postal Service’s [“USPS”] system or personally to deliver their mail-in ballot to that office.
In further support of this position, Respondent highlights the Election Code’s use
of the word “office” in the “deadline” provision for mail-in votes, Section 3150.16(c), which
states that “a completed mail-in ballot must be received in the office of the county board
of elections no later than eight o’clock P.M. on the day of the primary or election.” 25 P.S.
§ 3150.16(c). Respondent also points out that the Election Code requires that a secure
envelope containing a mail-in ballot have printed upon it “the address of the elector’s
county board of election,” so that “the elector shall send same by mail, postage prepaid,
except where franked, or deliver it in person to said county board of election.” 25 P.S.
§ 3150.16(a). Thus, Respondent believes that, in sum, these statutory directives clearly
indicate that the General Assembly intended that electors either mail or personally deliver
mail-in ballots to the established office addresses of the county boards of election.
Next, Respondent reminds us that the Secretary and Petitioner are asking this
Court to interpret the Election Code to allow voters to deliver their mail-in ballots to
locations that will include unmanned drop-boxes. Respondent contends that Petitioner
and the Secretary fail to articulate where the Election Code mentions “drop-boxes” or
“satellite locations.” Respondent then asserts that, if this Court were to interpret the
Election Code as Petitioner and the Secretary propose, the Court would invalidate an
alleged requirement of Act 77, i.e., the need to deliver mail-in ballots to the established
offices of county boards of election.
In addition, Respondent suggests that the preferred interpretation of the Election
Code advocated by the Secretary and Petitioner permits the individual counties to

[J-96-2020] - 15

16

implement differing ballot-return regimes. Respondent avers that this outcome would
violate principles of equal protection. In support, Respondent quotes Pierce v. Allegheny
County Bd. of Elections, 324 F.Supp.2d 684, 697 (W.D. Pa. 2003), for the proposition that
“[a] state must impose uniform statewide standards in each county in order to protect the
legality of a citizen’s vote. Anything less implicates constitutional problems under the
equal protection clause of the Fourteenth Amendment.” For these reasons, Respondent
contends that the interpretation of the Election Code posited by Petitioner and the
Secretary must fail.
The primary argument of the Caucus largely tracks that of Respondent, particularly
the contention that the relief proposed by Petitioner and the Secretary would create an
equal protection problem. According to the Caucus, pursuant to the solution offered by
Petitioner and the Secretary, some counties will provide more locations for voters to
deliver their mail-in ballots, while other counties will allow voters to convey their mail-in
ballots solely to the office addresses of the county boards of election. The Caucus views
this possibility as a violation of equal protection.
Notably, in an apparent break from Respondent’s position, subject to its equal
protection argument, the Caucus seems to concede that Pennsylvania law allows county
boards of election to provide for in person delivery of mail-in ballots at more than one
county election board office located within the county’s borders. However, the Caucus
insists that additional offices must comply with various requirements, including those
outlined in Section 2645(b) of the Election Code. See 25 P.S. § 2645(b) (explaining that
“[t]he county commissioners or other appropriating authorities of the county shall provide
the county board with suitable and adequate offices at the county seat, property furnished
for keeping its records, holding its public sessions and otherwise performing its public
duties, and shall also provide, such branch offices for the board in cities other than the

[J-96-2020] - 16

17

county seat, as may be necessary”). In closing, the Caucus submits that unstaffed dropboxes would not constitute a branch office of a county board of election and are otherwise
not authorized by the Election Code as a method for collecting hand-delivered mail-in
ballots.
Turning to our analysis, we observe that the question before us consists of the
following two-part query regarding the Election Code: Does the Election Code allow a
Pennsylvania voter to deliver her mail-in ballot in person to a location other than the
established office address of her county’s board of election, and if so, what means can
county boards of election utilize to accept hand-delivered mail-in ballots? For the reasons
that follow, we find that the parties’ competing interpretations of the Election Code on this
issue are reasonable, rendering the Code ambiguous as it relates to this query. See A.S.
v. Pennsylvania State Police, 143 A.3d 896, 905-06 (Pa. 2016) (explaining that a “statute
is ambiguous when there are at least two reasonable interpretations of the text”).
In reaching this conclusion, we observe that Section 3150.16(a) of the Election
Code explicitly allows an elector to deliver in person her securely sealed envelope
containing her mail-in ballot “to said county board of election.” 25 P.S. § 3150.16(a). The
Election Code simply defines “county board” or “board” to mean “the county board of
elections of any county herein provided for.” 25 P.S. § 2602(c). Thus, the language used
by the Legislature regarding where a mail-in ballot may be delivered in person is not solely
limited to the official central office of the county board of election, and other sections of
the Election Code permit a board of election to operate outside of its principal office. See,
e.g., 25 P.S. § 2645(b) (stating, inter alia, that the “county commissioners or other
appropriating authorities of the county shall provide the county board with suitable and
adequate offices at the county seat, property furnished for keeping its records, holding its
public sessions and otherwise performing its public duties, and shall also provide, such

[J-96-2020] - 17

18

branch offices for the board in cities other than the county seat, as may be necessary”).
Therefore, on the one hand, these provisions tend to favor the view of Petitioner and the
Secretary that the General Assembly did not intend to limit voters to delivering personally
their mail-in ballots solely to the established office addresses of their county boards of
election. Rather, as these parties rationally contend, when this definition is utilized for
purposes of construing Section 3150.16(a), that exercise suggests that a voter can hand
deliver her mail-in ballot to any location designated by the county board of election as a
place where the board will accept these ballots.
Alternatively, we recognize that Section 3150.16(a) of the Election Code directs
that an elector may deliver her mail-in ballot in person only to “the county board of
election.”

25 P.S. § 3150.16(a).

As Respondent in particular understandably

emphasizes, neither this statutory language nor any other provision of the Election Code
explicitly empowers a county board of election to establish satellite mail-in ballot collection
facilities or to utilize secure drop-boxes for purposes of accepting hand-delivered mail-in
ballots. These observations, when viewed in the totality of the various arguments, lead
us to conclude that the parties’ competing interpretations are reasonable.
Accordingly, we turn to interpretive principles that govern ambiguous statutes
generally and election matters specifically.

In so doing, we are mindful of the

“longstanding and overriding policy in this Commonwealth to protect the elective
franchise.” Shambach v. Bickhart, 845 A.2d 793, 798 (Pa. 2004) (citations omitted).
Moreover, it is well-settled that, “although election laws must be strictly construed to
prevent fraud, they ordinarily will be construed liberally in favor of the right to vote.” Id.
(internal quotation marks omitted). Indeed, “[o]ur goal must be to enfranchise and not to
disenfranchise [the electorate].” In re Luzerne Cty. Return Bd., 290 A.2d 108, 109 (Pa.
1972). Lastly, in resolving statutory ambiguity, we may consider, inter alia, the occasion

[J-96-2020] - 18

19

and necessity for, the mischief to be remedied by, and the object to be obtained by the
statute. 1 Pa.C.S. § 1921(c)(1), (3), and (4), respectively.
With all of that said, we need not belabor our ultimate conclusion that the Election
Code should be interpreted to allow county boards of election to accept hand-delivered
mail-in ballots at locations other than their office addresses including drop-boxes. This
conclusion is largely the result of the clear legislative intent underlying Act 77, which
animates much of this case, to provide electors with options to vote outside of traditional
polling places. Section 3150.16(a) of the Election Code undeniably exemplifies this intent
by granting the Pennsylvania electorate the right to vote by way of a mail-in ballot beyond
the circumstances that ordinarily allow this alternative, such as voter absenteeism.
Accordingly, although both Respondent and the Caucus offer a reasonable
interpretation of Section 3150.16(a) as it operates within the Election Code, their
interpretation restricts voters’ rights, as opposed to the reasonable interpretation tendered
by Petitioner and the Secretary. The law, therefore, militates in favor of this Court
construing the Election Code in a manner consistent with the view of Petitioner and the
Secretary, as this construction of the Code favors the fundamental right to vote and
enfranchises, rather than disenfranchises, the electorate.
In light of this conclusion, we will briefly address the equal protection argument of
Respondent and the Caucus. The premise of that argument, as detailed supra, is that, if
this Court interprets the Election Code in a manner that is consistent with the position of
Petitioner and the Secretary, which we have, then the county boards of election will
employ myriad systems to accept hand-delivered mail-in ballots, which allegedly will be
unconstitutionally disparate from one another in so much as some systems will offer more
legal protections to voters than others will provide. However, the exact manner in which
each county board of election will accept these votes is entirely unknown at this point;

[J-96-2020] - 19

20

thus, we have no metric by which to measure whether any one system offers more legal
protection than another, making an equal protection analysis impossible at this time.
Accordingly, the equal protection argument of Respondent and the Caucus does not alter
our conclusion in this matter.
Thus, for these reasons, this Court declares that the Election Code permits county
boards of election to accept hand-delivered mail-in ballots at locations other than their
office addresses including drop-boxes.15
B. COUNT II OF THE PETITION FOR REVIEW
In its second count, Petitioner presents this Court with an as-applied challenge to
the Election Code’s deadline for receiving ballots (“received-by deadline”), which requires
mail-in and absentee ballots to be returned to Boards no later than 8:00 p.m. on Election
Day, 25 P.S. §§ 3146.6(c), 3150.16(c).

It contends that strict enforcement of this

deadline, in light of the current COVID-19 pandemic and alleged delays in mail delivery
by the USPS, will result in extensive voter disenfranchisement in violation of the
Pennsylvania Constitution’s Free and Equal Elections Clause.
As noted above, the Free and Equal Elections Clause provides that “[e]lections
shall be free and equal; and no power, civil or military, shall at any time interfere to prevent
the free exercise of the right to suffrage.” PA. CONST. art. I, § 5. Petitioner interprets this
provision as forbidding the Boards from interfering with the right to vote by failing to act in
We note that the Secretary has issued guidelines in this regard specifying that the
Boards “may provide voters with access to a secure ballot return receptacle.” See
Secretary’s Post-Submission Communication dated 8/24/2020, setting forth the
Secretary’s Absentee and Mail-in Ballot Return Guidance at 1.1. Additionally, and
consistent with the requirement that all votes must be cast by Election Day, these
guidelines specify that: “Authorized personnel should be present at ballot return sites
immediately prior to 8:00 p.m. or at the time the polls should otherwise be closed”; “At
8:00 p.m. on election night, or later if the polling place hours have been extended, all
ballot sites, and drop-boxes must be closed and locked”; and “Staff must ensure that no
ballots are returned to ballot return sites after the close of the polls.” Id. at 3.3.
15

[J-96-2020] - 20

21

a timely manner so as to allow electors to participate in the election through mail-in voting.
Petition at 49, ¶ 176.
In support of its as-applied challenge in regard to the upcoming General Election,
Petitioner recounts this Commonwealth’s recent experience during the June Primary. It
emphasizes that, during the Primary, the Boards were inundated with over 1.8 million
requests for mail-in ballots, rather than the expected 80,000 - 100,000, due in large part
to the COVID-19 pandemic, which caused many voters to be wary of congregating in
polling places.

Petitioner’s Brief at 2, 51.

Petitioner asserts that “[t]his crush of

applications created massive disparities in the distribution and return of mail-in ballots.”
Petition at 24, ¶ 70.
It explains that, while some Boards were able to process the requests within the
statutory requirements established by Act 77,16 other boards, especially those in areas
hard-hit by the pandemic, were unable to provide electors with ballots in time for the
electors to return their ballot in accord with the statutory deadline. Petition at 23, ¶ 66.
Indeed, it avers that in Delaware County, thousands of ballots were “not mailed out until
the night” of the Primary, making timely return impossible. Petition at 26, ¶ 77. Bucks
County apparently experienced similar delays.
To remedy this situation, the Election Boards of Bucks and Delaware Counties
sought relief in their county courts.17 Recognizing that the Election Code “implicitly
Act 77, inter alia, requires Boards to verify an applicant’s submitted information to
determine whether the applicant is “qualified to receive an official mail-in ballot.” 25 P.S.
§ 3150.12b(a). After approving an application, the Election Code, as amended by Act 77,
instructs that “the board shall deliver or mail official mail-in ballots to the additional electors
within 48 hours.” 25 P.S. § 3150.15.
16

The Election Code grants courts of common pleas the authority to address situations
which arise on the day of a primary or general election, 25 P.S. § 3046. Section 3046
entitled “Duties of common pleas court on days of primaries and elections,” provides:
17

[J-96-2020] - 21

22

granted [the courts the] authority to provide relief when there is a natural disaster or
emergency” that threatens to deprive electors of the opportunity to participate in the
electoral process, the Courts of Common Pleas of Bucks and Delaware Counties
extended the deadline for the return of mail-in ballots for seven days, so long as the ballot
was postmarked by the date of the Primary. In re: Extension of Time for Absentee and
Mail-In Ballots to be Received By Mail and Counted in the 2020 Primary Election, No.
2020-02322-37 (C.P. Bucks) (McMaster, J.); see also In re: Extension of Time for
Absentee and Mail-In Ballots to be Received By Mail and Counted in the 2020 Primary
Election, No.-CV 2020-003416 (C.P. Delaware).
Petitioner also observes that voters in six counties received an extension to the
return deadline pursuant to an executive order issued by Governor Wolf, invoking the
Emergency Management Services Code, 35 Pa.C.S. § 7301(c).18 In Executive Order No.
2020-02, Governor Wolf addressed impediments to timely ballot return arising from the
pandemic as well as civil unrest that had arisen immediately before the Primary in the
specified counties following the killing of George Floyd by police officers.

The

impediments included road closures, public transportation disruptions, and curfews. To
combat the potential disenfranchisement of voters, especially in light of the
“unprecedented number” of mail-in ballots due to the pandemic, the Governor extended
During such period said court shall act as a committing
magistrate for any violation of the election laws; shall settle
summarily controversies that may arise with respect to the
conduct of the election; shall issue process, if necessary, to
enforce and secure compliance with the election laws; and
shall decide such other matters pertaining to the election as
may be necessary to carry out the intent of this act.
25 P.S. § 3046.
The affected counties were Allegheny, Dauphin, Delaware, Erie, Montgomery, and
Philadelphia.
18

[J-96-2020] - 22

23

the received-by deadline for seven days, so long as the ballots were postmarked by the
date of the Primary. Governor Wolf, Executive Order No. 2020-02 (June 1, 2020).
While voters in specified counties benefitted from extensions of time to return their
ballots, Petitioner emphasizes that the Commonwealth Court rejected a request for a
statewide extension of the ballot received-by deadline in Delisle v. Boockvar, 319 M.D.
2020 (Pa. Cmwlth. June 2, 2020) (Memorandum Opinion), favoring instead a county-bycounty remedy. Indeed, while not mentioned by Petitioner, this Court additionally denied
relief to a petitioner seeking a statewide extension of the ballot received-by deadline
weeks before the June Primary, where the petitioner similarly argued for the extension
based upon the overwhelming number of mail-in ballot applications and delays in the
USPS system. Disability Rights Pa. v. Boockvar, No. 83 MM 2020, 2020 WL 2820467
(Pa. May 15, 2020).
In light of the lessons learned from the June Primary, Petitioner asserts that a
statewide remedy is now necessary for the General Election. It suggests that the lack of
a statewide remedy risks an equal protection challenge as only some voters would benefit
from the extended deadline based on their county court’s determination. Petition at 3233, ¶ 105. Moreover, it emphasizes that a statewide order from this Court early in the
election process would reduce voter confusion, as compared to the last-minute countyby-county relief granted during the Primary to address emergency situations. Petitioner’s
Brief at 26-27 n.9.
Petitioner avers that the difficulties encountered by Boards processing the ballot
applications prior to the June Primary will only be exacerbated in the November General
Election. It emphasizes the continued grip of the pandemic, and a potential second wave
of infections, which will result in more electors seeking to exercise their right to vote by
mail. Petition at 49, ¶ 173-175. Additionally, it recognizes the undisputed fact that heavily

[J-96-2020] - 23

24

contested Presidential elections involve substantially greater voter participation than
largely uncontested primaries, further observing that “[i]t is normal in elections with
significant public attention for there to be a flood of registrations received right before
deadlines.” Petition at 26, ¶ 79. It highlights that the Secretary estimates that 3 million
electors will seek mail-in or absentee ballots for the General Election in contrast to the
1.5 million votes cast by mail at the Primary, and the pre-pandemic assumption of 80,000
- 100,000 absentee and mail-in ballots. Petitioner’s Brief at 51.
Petitioner asserts that the overwhelming demand on the Boards will be
exacerbated by delays in the USPS mail delivery system.

Petitioner observes that

historically the law presumed that a document placed in a mail collection box would be
delivered within three days of placement, rather than the current two to five day delivery
expectation of the USPS. Id. at 50. Petitioner avers that substantial delivery delays have
resulted from a combination of recent operational changes at the USPS and decreased
staffing caused by the pandemic. Id. at 20-21. It emphasizes that the USPS recently
warned that there is a “significant risk” that Pennsylvania voters who submit timely ballot
requests will not have sufficient time to complete and return their ballot to meet the
Election Code’s received-by deadline. Id. at 2-3 (quoting USPS General Counsel and
Executive Vice President Thomas Marshall’s July 29, 2020 letter to the Secretary
(hereinafter “USPS General Counsel’s Letter”), discussed in detail infra).
Petitioner avers that this Court has the authority to act to protect electors’ right to
cast their ballot, as protected by Pennsylvania’s Free and Equal Elections Clause. It
emphasizes that “‘[c]ourt[s] possess broad authority to craft meaningful remedies’ when
‘regulations of law . . . impair the right of suffrage.’” Id. at 48-49 (quoting League of
Women Voters of Pa., 178 A.3d at 809, 822) (alterations in original). It observes that
courts have exercised that authority to provide equitable relief to voters faced with natural

[J-96-2020] - 24

25

disasters that impede their right to vote.

As an example, Petitioner highlights the

Commonwealth Court’s actions in In re General Election-1985, 531 A.2d 836, 838-39 (Pa.
Cmwlth. 1987), in which the court affirmed a two-week suspension in an election where
severe flooding prevented electors from safely voting due to “circumstances beyond their
control.” Petitioner asserts that Pennsylvania electors in the November General Election
similarly face a threat to their ability to vote due to no fault of their own, but instead due
to a perfect storm combining the dramatic increase in requested ballots due to the COVID19 pandemic and the inability of the USPS to meet the delivery standards required by the
Election Code.
Accordingly, Petitioner asks this Court to grant an injunction ordering the
Respondent to “lift the deadline in the Election Code across the state in a uniform
standard to allow any ballot postmarked by 8 p.m. on Election Night to be counted if it is
received by the deadline for ballots to be received” under the UOCAVA, specifically by
5:00 p.m. on Tuesday, November 10.19 Petition at 50, ¶ 178. Recognizing that the
Secretary recommends a three-day extension, as detailed below, Petitioner counters that
“[a] 7-day extension to the ballot receipt deadline is consistent with the USPS’s
recommendation to the Secretary that voters should mail their ballots to Boards no later
than October 27, 2020,” which is seven days prior to Election Day. Petitioner’s Brief at
53 (referencing USPS General Counsel’s Letter at 2). While it acknowledges that a
seven-day extension could impact other post-election deadlines as discussed infra, it

As adopted in Pennsylvania, the UOCAVA provides that military and overseas ballots
will be counted if received by the county board by “5:00 p.m. on the seventh day following
the election,” which this year will be November 10, 2020. 25 Pa.C.S. § 3511.
19

As an alternative remedy, Petitioner proposes that each ballot could have an
individualized deadline twenty-one days after the specific ballot is mailed by the county,
so long as it is received before the UOCAVA deadline. Petition at 50, ¶ 108, 179.
[J-96-2020] - 25

26

asserts that this Court has the authority to alter those deadlines to be consistent with the
relief granted in this case. Id. at 55.
As noted, the Secretary sought extraordinary jurisdiction to allow this Court to
resolve the various challenges to the mail-in ballot process in an orderly and timely
fashion before the impending General Election, where she estimates more than three
million Pennsylvanians will exercise their right to vote by mail. Secretary’s Brief at 1. The
Secretary observes that she previously advocated against a similar request for an
extension of the received-by deadline for mail-in and absentee ballots in the Crossey
case. She, however, reassessed her position following receipt of the USPS General
Counsel’s Letter, which she attaches to her Application. Secretary’s Application at 10,
Exhibit A.
Significantly, the USPS General Counsel’s Letter opined that “certain deadlines for
requesting and casting mail-in ballots are incongruous with the Postal Service’s delivery
standards,” providing for 2-5 day delivery for domestic First Class Mail and 3-10 day
delivery for domestic Marketing Mail. USPS General Counsel’s Letter at 1. As the parties
recognize, the Election Code designates October 27, 2020, as the last day for electors to
request a mail-in ballot. 25 P.S. § 3150.12a(a) (“Applications for mail-in ballots shall be
processed if received not later than five o'clock P.M. of the first Tuesday prior to the day
of any primary or election.”). Even if a county board were to process and mail a ballot the
next day by First Class Mail on Wednesday, October 28th, according to the delivery
standards of the USPS, the voter might not receive the ballot until five days later on
Monday, November 2nd, resulting in the impossibility of returning the ballot by mail before
Election Day, Tuesday November 3rd. The USPS General Counsel’s Letter, instead,
advised that voters should mail their ballots no later than October 27, 2020 in order to
meet the received-by deadline. USPS General Counsel’s Letter at 2. “This mismatch

[J-96-2020] - 26

27

[between the USPS’s delivery standards and the Election Code deadlines] creates a risk
that ballots requested near the deadline under state law will not be returned by mail in
time to be counted under [Pennsylvania’s Election Code].” Id. at 1.
In light of the information contained in the USPS General Counsel’s Letter, the
Secretary concludes that a temporary extension of the Election Code’s received-by
deadline is necessary for the upcoming General Election to ensure a free and equal
election as protected by Article I, Section 5 of the Pennsylvania Constitution. Secretary’s
Application at 27. The Secretary specifically asks that this Court order an extension of
the deadline to allow the counting of any ballot postmarked by Election Day and received
on or before the third day after Election Day, which is November 6, 2020. 20 Id. at 27-28.
The Secretary deems a three-day extension of the deadline, rather than the seven-day
extension sought by Petitioner, to be sufficient to address the potential delay in mailing
while also not disrupting other elements of election administration. Id. at 29.
The Secretary emphasizes that the remedy sought here is not the invalidation of
the Election Code’s received-by deadline, but rather the grant of equitable relief to extend
temporarily the deadline to address “mail-delivery delays during an on-going public health
disaster.” Secretary’s Brief at 18. As no party is seeking the invalidation of the receivedby deadline, the Secretary rejects the suggestion of Respondent and the Caucus that the
remedy would trigger the nonseverability provision of Act 77, reasoning that the Court
would be granting “a temporary short extension to address the exigencies of a natural
She specifically recommends that the Court “order that ballots mailed by voters by 8:00
p.m. on Election Day be counted if they are otherwise valid and received by the county
boards of election by November 6, 2020. Ballots received within this period that lack a
postmark or other proof of mailing, or for which the postmark or other proof of mailing is
illegible, should enjoy a presumption that they were mailed by Election Day.” Secretary’s
Application at 29. We observe that this proposal therefore requires that all votes be cast
by Election Day but does not disenfranchise a voter based upon the absence or illegibility
of a USPS postmark that is beyond the control of the voter once she places her ballot in
the USPS delivery system.
20

[J-96-2020] - 27

28

disaster” rather than “the invalidation of a statutory deadline.” Id. at 21 (referencing
Section 11 of Act 77 set forth infra). She emphasizes that the statutory deadline would
remain unchanged for future elections.
The Secretary observes that courts have previously granted temporary equitable
relief to address natural disasters, given that neither the Election Code nor the
Constitution “provides any procedure to follow when a natural disaster creates an
emergency situation that interferes with an election.” Id. at 19 (citing In re: General
Election-1985, 531 A.2d at 839).21 She argues that the current pandemic is equivalent to
other natural disasters and that it necessitates the requested extension of the Election
Code’s received-by deadline for mail-in ballots.
In contrast, Respondent contends that Petitioner asks this Court to rewrite the plain
language of Act 77 and to substitute its preferred ballot deadline for the statutory deadline
that resulted from the legislative compromise during the bi-partisan enactment of Act 77.
It emphasizes that this Court “recently reaffirmed [that] the judiciary ‘may not usurp the
province of the legislature by rewriting [statutes].’” Respondent’s Supplemental Brief at
16 (quoting In re Fortieth Statewide Investigating Grand Jury, 197 A.3d 712, 721 (Pa.
2018)).
Judicial restraint, according to Respondent, is especially necessary in regard to
election law, where this Court has long recognized that “[t]he power to regulate elections
is a legislative one, and has been exercised by the General Assembly since the
foundation of the government.” Id. at 17 (quoting Winston v. Moore, 91 A. 520, 522 (Pa.
1914)). Indeed, it observes that the United States Constitution dictates that “[t]he Times,
The Secretary observes that other jurisdictions have likewise granted temporary
extensions when faced with natural disasters, such as hurricanes. Secretary’s
Application at 28 (citing Fla. Democratic Party v. Scott, 215 F. Supp. 3d 1250, 1259 (N.D.
Fla. 2016); Georgia Coalition for the Peoples’ Agenda, Inc. v. Deal, 214 F. Supp. 3d 1344,
1345 (S.D. Ga. 2016)).
21

[J-96-2020] - 28

29

Places, and Manner of holding Elections for Senators and Representatives, shall be
prescribed in each state by the Legislature thereof,” subject to directives of Congress,
U.S. CONST. art. I, § 4, cl. 1, and that “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct,” electors for President and Vice President. U.S. CONST.
art. II, § 1, cl. 2.22

Respondent highlights special concerns relevant to Presidential

elections, emphasizing that “‘[w]ith respect to a Presidential election,’ state courts must
‘be mindful of the legislature’s role under Article II in choosing the manner of appointing
electors.’” Respondent’s Supplemental Brief at 20 (quoting Bush v. Gore, 531 U.S. 98,
114 (2000) (Rehnquist, C.J., concurring)).
Respondent additionally warns that if this Court were to deem application of the
deadline unconstitutional and substitute a judicially-determined deadline, it would trigger
the nonseverability provision of Act 77, which would invalidate the entirety of the Act,
including all provisions creating universal mail-in voting. Specifically, Section 11 provides:
“Sections 1, 2, 3, 3.2, 4, 5, 5.1, 6, 7, 8, 9 and 12 of this act are nonseverable. If any
provision of this act or its application to any person or circumstances is held invalid, the
remaining provisions or applications of this act are void.” Act 77, § 11. It emphasizes
that this Court has previously deemed nonseverability provisions to be constitutionally
proper and additionally recognized that nonseverability provisions are crucial to the
legislative process as they “may be essential to securing the support necessary to enact
the legislation in the first place.” Respondent’s Supplemental Brief at 18 (citing Stilp v.
Commonwealth, 905 A.2d 918, 978 (Pa. 2006)). Respondent asserts that it is clear that
the severability provision in Act 77 “was intended to preserve the compromise struck” in
the bipartisan enactment. Id. at 19.
Respondent further observes that the Pennsylvania Constitution specifically directs the
Legislature to “provide a manner in which, and the time and place at which” a qualified
elector can submit an absentee ballot. PA. CONST. art. VII, § 14(a).
22

[J-96-2020] - 29

30

On the merits, Respondent asserts that the plain language of the Election Code
setting the deadline for submission of ballots by 8:00 p.m. on Election Day does not violate
the Free and Equal Elections Clause but instead provides “a neutral, evenhanded rule
that applies to all Pennsylvania voters equally.” Respondent’s Answer to the Secretary’s
Application at 21. It emphasizes that numerous courts, including this Court during the
June Primary, have upheld the application of mail-in deadlines during the COVID-19
pandemic. Respondent’s Supplemental Brief at 24 (citing, inter alia, Disability Rights Pa.
v. Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020)).
Respondent additionally rejects the Secretary’s assertion that the deadline should
be extended based upon the threat of mail delays. It avers that these concerns are
“speculative at best.”

Id. at 25.

Moreover, it contends that “given Pennsylvania’s

unparalleled and generous absentee and mail-in voting period, any voter’s inability to cast
a timely ballot is not caused by the Election Day received-by deadline but instead by their
own failure to take timely steps to effect completion and return of their ballot.” Id. at 2627 (internal citation and quotation marks omitted).
Respondent further supports its argument by attaching to its Supplemental Brief a
declaration of USPS Vice President Angela Curtis, which in turn attaches the statement
provided by Postmaster General Louis DeJoy to the Senate Committee on Homeland
Security and Governmental Affairs on August 21, 2020 and his statement of August 24,
2020, to the House Committee on Oversight and Reform. In his statement, Postmaster
General Louis DeJoy addressed public accusations that the implementation of various
cost-saving reforms had allegedly resulted in delays in mail delivery that threatened the
timely delivery of election mail.
While disputing the validity of the accusations, the Postmaster General provided
the following commitments relating to the delivery of election mail:

[J-96-2020] - 30

31

[R]etail hours at Post Offices won’t be changed, and mail
processing equipment and blue collection boxes won’t be
removed during this period. No mail processing facilities will
be closed and we have terminated the pilot program that
began in July that expedited carrier departures to their
delivery routes, without plans to extend or expand it. To clear
up any confusion, overtime has, and will continue to be,
approved as needed. Finally, effective October 1, 2020, we
will engage standby resources in all areas of our operations,
including transportation, to satisfy any unforeseen demand for
the election.
Statement of Postmaster General Louis DeJoy provided to Senate Committee on
Homeland Security and Governmental Affairs Hearing of Aug. 21, 2020, at 14; Statement
of Postmaster General Louis DeJoy provided to House Committee on Oversight and
Reform of Aug. 24, 2020, at 14. Respondent emphasizes that Postmaster General DeJoy
also asserted that the “USPS has not changed [its] delivery standards, [its] processing,
[its] rules, or [its] prices for Election Mail[,]” and that it “can, and will, handle the volume
of Election Mail [it] receive[s].” Respondent’s Supplemental Brief at 10.
Finally, Respondent argues that moving the received-by deadline until after
Election Day would undermine the federal designation of a uniform Election Day, as set
forth in three federal statues, specifically 3 U.S.C. § 1 (“The electors of President and
Vice President shall be appointed, in each State, on the Tuesday next after the first
Monday in November, every fourth year succeeding every election of a President and
Vice President”); 2 U.S.C. § 7 (“The Tuesday next after the 1st Monday in November, in
every even numbered year, is established as the day for the election, in each of the States
and Territories of the United States, of Representatives and Delegates to the Congress
commencing on the 3d day of January next thereafter.”); and 2 U.S.C. § 1 (“At the regular
election held in any State next preceding the expiration of the term for which any Senator
was elected to represent such State in Congress is regularly by law to be chosen, a United

[J-96-2020] - 31

32

States Senator from said State shall be elected by the people thereof for a term
commencing on the 3d day of January next thereafter.”).23
The Caucus also files a brief with this Court arguing against the extension of the
deadline for mail-in votes. It asserts that “[t]here is no constitutional right to vote by mail”
and that states have broad authority to enact regulations to ensure the integrity of its
elections, including mail-in ballots, as was done in Act 77, including by setting a deadline
for the receipt of ballots. Caucus’s Brief at 19.
The Caucus warns that granting an extension of the mail-in ballot received-by
deadline in this case “would have a cascading effect on other election code deadlines,
thereby causing chaos for election officials and confusion for voters.”

Id. at 26. It

observes that the Election Code requires that Boards begin canvassing absentee and
mail-in ballots within three days of Election Day and shall continue through the eighth day
following the Election. Id. at 28 (citing 25 P.S. § 3146.8(g)(2)). Additionally, the Boards
shall submit the unofficial returns to the Secretary on the Tuesday following the Election,
and the Secretary must determine whether a recount is required within nine days of
Election Day, citing 25 P.S. § 3154(f), (g)(2), and the Boards must certify the final results
to the Secretary no later than twenty days after Election Day, citing 25 P.S. § 2642(k). It
additionally asserts that federal law requires all state recounts and challenges to be
“resolved at least 6 days prior to the meeting of electors,” which it asserts this year is
December 14. Caucus’s Brief at 28 n.17 (citing 3 U.S.C. §§ 1, 5). The Caucus therefore
urges this Court to refrain from altering the received-by deadline for mail-in ballots,
asserting that the “requested injunction would override the election deadlines which were
In so arguing, Respondent seemingly ignores the fact that allowing the tabulation of
ballots received after Election Day does not undermine the existence of a federal Election
Day, where the proposal requires that ballots be cast by Election Day, similar to the
procedure under federal and state law allowing for the tabulation of military and overseas
ballots received after Election Day.
23

[J-96-2020] - 32

33

fully debated and properly enacted by the peoples’ representatives in the Pennsylvania
General Assembly.” Id. at 29.
Unlike other provisions of Act 77 currently before this Court, we are not asked to
interpret the statutory language establishing the received-by deadline for mail-in ballots.
Indeed, there is no ambiguity regarding the deadline set by the General Assembly:
Deadline.--Except as provided under 25 Pa.C.S. § 3511[24]
(relating to receipt of voted ballot), a completed mail-in ballot
must be received in the office of the county board of elections
no later than eight o'clock P.M. on the day of the primary or
election.
25 P.S. § 3150.16(c). Moreover, we are not asked to declare the language facially
unconstitutional as there is nothing constitutionally infirm about a deadline of 8:00 p.m.
on Election Day for the receipt of ballots. The parties, instead, question whether the

Section 3511 addresses the timeline for the return of ballots of uniform military and
oversees voters and provides for the counting of such votes if delivered to the county
board by 5 p.m. on the seventh day after Election Day:
24

§ 3511. Receipt of voted ballot
(a) Delivery governs.--A valid military-overseas ballot cast
under section 3509 (relating to timely casting of ballot) shall
be counted if it is delivered by 5 p.m. on the seventh day
following the election to the address that the appropriate
county election board has specified.
(b) Rule regarding postmarks.--If, at the time of completing
a military-overseas ballot and balloting materials, the voter
has declared under penalty of perjury that the ballot was
timely submitted, the ballot may not be rejected on the basis
that it has a late postmark, an unreadable postmark or no
postmark.
25 Pa.C.S. § 3511.
[J-96-2020] - 33

34

application of the statutory language to the facts of the current unprecedented situation
results in an as-applied infringement of electors’ right to vote.
In considering this issue, we reiterate that the Free and Equal Elections Clause of
the Pennsylvania Constitution requires that “all aspects of the electoral process, to the
greatest degree possible, be kept open and unrestricted to the voters of our
Commonwealth, and, also, conducted in a manner which guarantees, to the greatest
degree possible, a voter’s right to equal participation in the electoral process for the
selection of his or her representatives in government.” League of Women Voters, 178
A.3d at 804. Nevertheless, we also recognize that “the state may enact substantial
regulation containing reasonable, non-discriminatory restrictions to ensure honest and
fair elections that proceed in an orderly and efficient manner.” Banfield v. Cortes, 110
A.3d 155, 176–77 (Pa. 2015) (internal citation and quotation marks omitted).
As we have recently seen, an orderly and efficient election process can be crucial
to the protection of a voter’s participation in that process. Indeed, the struggles of our
most populous counties to avoid disenfranchising voters while processing the
overwhelming number of pandemic-fueled mail-in ballot applications during the 2020
Primary demonstrates that orderly and efficient election processes are essential to
safeguarding the right to vote. An elector cannot exercise the franchise while her ballot
application is awaiting processing in a county election board nor when her ballot is sitting
in a USPS facility after the deadline for ballots to be received.
We are fully cognizant that a balance must be struck between providing voters
ample time to request mail-in ballots, while also building enough flexibility into the election
timeline to guarantee that ballot has time to travel through the USPS delivery system to
ensure that the completed ballot can be counted in the election. Moreover, we recognize
that the determination of that balance is fully enshrined within the authority granted to the

[J-96-2020] - 34

35

Legislature under the United States and Pennsylvania Constitutions. See U.S. CONST.
art. I, § 4, cl. 1; id. art. II, § 1, cl. 2.
Nevertheless, we find the Commonwealth Court’s rationale in In re: General
Election-1985 germane to the current challenge to the application of the ballot receivedby deadline. In that case, the court recognized that, while neither the Constitution nor the
Election Code specified “any procedure to follow when a natural disaster creates an
emergency situation that interferes with an election,” courts could look to the direction of
25 P.S. § 3046. In re General Election-1985, 531 A.2d at 839. As noted, Section 3046
provides courts of common pleas the power, on the day of an election, to decide “matters
pertaining to the election as may be necessary to carry out the intent” of the Election
Code, which the Commonwealth Court properly deemed to include providing “an equal
opportunity for all eligible electors to participate in the election process,” which in that
case necessitated delaying the election during a flood. Id.
We have no hesitation in concluding that the ongoing COVID-19 pandemic
equates to a natural disaster. See Friends of Devito v. Wolf, 227 A.3d 872, 888 (Pa.
2020) (agreeing “that the COVID-19 pandemic qualifies as a ‘natural disaster’ under the
Emergency Code”).

Moreover, the effects of the pandemic threatened the

disenfranchisement of thousands of Pennsylvanians during the 2020 Primary, when
several of the Commonwealth’s county election boards struggled to process the flow of
mail-in ballot applications for voters who sought to avoid exposure to the virus. See, e.g.,
Delaware County Board of Elections’ Answer to Petition at 15, ¶ 77 (acknowledging that
it “mailed out thousands of ballots in the twenty-four hour period preceding the election”).
It is beyond cavil that the numbers of mail-in ballot requests for the Primary will be dwarfed
by those applications filed during the upcoming highly-contested Presidential Election in
the midst of the pandemic where many voters are still wary of congregating in crowded

[J-96-2020] - 35

36

locations such as polling places. We acknowledge that the Secretary has estimated that
nearly three million Pennsylvanians will apply for mail-in applications, in contrast to the
1.5 million cast during the Primary. Secretary’s Brief at 1.
In light of these unprecedented numbers and the near-certain delays that will occur
in Boards processing the mail-in applications, we conclude that the timeline built into the
Election Code cannot be met by the USPS’s current delivery standards, regardless of
whether those delivery standards are due to recent changes in the USPS’s logistical
procedures or whether the standards are consistent with what the General Assembly
expected when it enacted Act 77. In this regard, we place stock in the USPS’s General
Counsel’s expression that his client could be unable to meet Pennsylvania’s statutory
election calendar. General Counsel’s Letter at 2. The Legislature enacted an extremely
condensed timeline, providing only seven days between the last date to request a mail-in
ballot and the last day to return a completed ballot. While it may be feasible under normal
conditions, it will unquestionably fail under the strain of COVID-19 and the 2020
Presidential Election, resulting in the disenfranchisement of voters.
Under our Extraordinary Jurisdiction, this Court can and should act to extend the
received-by deadline for mail-in ballots to prevent the disenfranchisement of voters. We
have previously recognized that, in enforcing the Free and Equal Elections Clause, this
“Court possesses broad authority to craft meaningful remedies when required.” League
of Women Voters, 178 A.3d at 822 (citing PA. CONST., art. V, §§ 1, 2, 10; 42 Pa.C.S. § 726
(granting power to “enter a final order or otherwise cause right and justice to be done”)).
We additionally conclude that voters’ rights are better protected by addressing the
impending crisis at this point in the election cycle on a statewide basis rather than allowing
the chaos to brew, creating voter confusion regarding whether extensions will be granted,

[J-96-2020] - 36

37

for how long, and in what counties.25 Instead, we act now to allow the Secretary, the
county election boards, and most importantly, the voters in Pennsylvania to have clarity
as to the timeline for the 2020 General Election mail-in ballot process.
After consideration, we adopt the Secretary’s informed recommendation of a threeday extension of the absentee and mail-in ballot received-by deadline to allow for the
tabulation of ballots mailed by voters via the USPS and postmarked by 8:00 p.m. on
Election Day to reduce voter disenfranchisement resulting from the conflict between the
Election Code and the current USPS delivery standards, given the expected number of
Pennsylvanians opting to use mail-in ballots during the pandemic.26 We observe that this
extension provides more time for the delivery of ballots while also not requiring alteration
of the subsequent canvassing and reporting dates necessary for the Secretary’s final
reporting of the election results. In so doing, we emphasize that the Pennsylvania’s
election laws currently accommodate the receipt of certain ballots after Election Day, as
We recognize that we rejected a very similar argument presented in Disability Rights
Pennsylvania on May 15, 2020, weeks prior to the Primary. Disability Rights Pa. v.
Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020). At that time, the
potential of voter disenfranchisement was speculative as many unknowns existed relating
to the magnitude of the pandemic, the extent to which voters would seek mail-in
applications, and the ability of Boards to handle the increase. Those uncertainties no
longer exist in light of our experience in the 2020 Primary where thousands of voters
would have been disenfranchised but for the emergency actions of the courts of common
pleas and the Governor.
25

We likewise incorporate the Secretary’s recommendation addressing ballots received
within this period that lack a postmark or other proof of mailing, or for which the postmark
or other proof of mailing is illegible. Accordingly, in such cases, we conclude that a ballot
received on or before 5:00 p.m. on November 6, 2020, will be presumed to have been
mailed by Election Day unless a preponderance of the evidence demonstrates that it was
mailed after Election Day.
26

We emphasize that voters utilizing the USPS must cast their ballots prior to 8:00 p.m. on
Election Day, like all voters, including those utilizing drop boxes, as set forth supra. We
refuse, however, to disenfranchise voters for the lack or illegibility of a postmark resulting
from the USPS processing system, which is undeniably outside the control of the
individual voter.
[J-96-2020] - 37

38

it allows the tabulation of military and overseas ballots received up to seven days after
Election Day. 25 Pa.C.S. § 3511. We conclude that this extension of the received-by
deadline protects voters’ rights while being least at variance with Pennsylvania’s
permanent election calendar, which we respect and do not alter lightly, even temporarily.
C. COUNT III OF THE PETITION FOR REVIEW
In Count III of its petition, Petitioner seeks to require that the Boards contact
qualified electors whose mail-in or absentee ballots contain minor facial defects resulting
from their failure to comply with the statutory requirements for voting by mail, and provide
them with an opportunity to cure those defects. More specifically, Petitioner submits that
when the Boards have knowledge of an incomplete or incorrectly completed ballot as well
as the elector’s contact information, the Boards should be required to notify the elector
using the most expeditious means possible and provide the elector a chance to cure the
facial defect up until the UOCAVA deadline of November 10, 2020, discussed supra.
Petitioner bases this claim on its assertion that the multi-stepped process for voting
by mail-in or absentee ballot inevitably leads to what it describes as minor errors, such as
not completing the voter declaration or using an incorrect ink color to complete the ballot.
See 25 P.S. § 3146.6(a) (explaining the process for voting by absentee ballot, which
requires, inter alia, an elector to mark the ballot using only certain writing implements and
ink; and to fill out, date, and sign the declaration printed on the outer envelope); id.
§ 3150.16(a) (explaining the process for voting by mail-in ballot, which imposes the same
requirements). According to Petitioner, these minor oversights result in many ballots
being rejected and disenfranchising voters who believe they have exercised their right to
vote.
Petitioner submits that voters should not be disenfranchised by technical errors or
incomplete ballots, and that the “notice and opportunity to cure” procedure ensures that

[J-96-2020] - 38

39

all electors who desire to cast a ballot have the opportunity to do so, and for their ballot
to be counted. Petitioner further claims there is no governmental interest in either: (1)
requiring the formalities for the completion of the outside of the mailing envelope to be
finalized prior to mailing as opposed to prior to counting, or (2) rejecting the counting of a
ballot so long as ballots continue to arrive under federal law, which is the UOCAVA
deadline of seven days after Election Day.
As legal support for its position, Petitioner relies upon the Free and Equal Elections
Clause. PA. CONST. art. I, § 5 (“Elections shall be free and equal; and no power, civil or
military, shall at any time interfere to prevent the free exercise of the right of suffrage.”);
see also Winston, 91 A. at 523 (explaining that elections are “free and equal” for
constitutional purposes when, inter alia, “the regulation of the right to exercise the
franchise does not deny the franchise itself, or make it so difficult as to amount to a denial;
and when no constitutional right of the qualified elector is subverted or denied him”). It
further emphasizes that election laws should be construed liberally in favor of voters, and
that “[t]echnicalities should not be used to make the right of the voter insecure.” Appeal
of James, 105 A.2d 64, 65-66 (Pa. 1954). Petitioner also asserts that ballots with minor
irregularities should not be rejected, except for compelling reasons and in rare
circumstances. Id. at 66. Based on these legal principles, as well as this Court’s “broad
authority to craft meaningful remedies” when necessary, League of Women Voters, 178
A.3d at 822, Petitioner claims that the Pennsylvania Constitution and spirit of the Election
Code require the Boards to provide a “notice and opportunity to cure” procedure, and that
this Court has the authority to afford the relief it seeks.
Unlike the other claims asserted herein, the Secretary opposes Petitioner’s request
for relief in this regard. She counters that there is no statutory or constitutional basis for
requiring the Boards to contact voters when faced with a defective ballot and afford them

[J-96-2020] - 39

40

an opportunity to cure defects. The Secretary further notes that, while Petitioner relies
upon the Free and Equal Elections Clause, that Clause cannot create statutory language
that the General Assembly chose not to provide. See Winston, 91 A. at 522 (noting that
“[t]he power to regulate elections is legislative”).
The Secretary submits that so long as a voter follows the requisite voting
procedures, he or she “will have an equally effective power to select the representative
of his or her choice.” League of Women Voters, 178 A.3d at 809. Emphasizing that
Petitioner presents no explanation as to how the Boards would notify voters or how the
voters would correct the errors, the Secretary further claims that, while it may be good
policy to implement a procedure that entails notice of defective ballots and an opportunity
to cure them, logistical policy decisions like the ones implicated herein are more properly
addressed by the Legislature, not the courts.
Respondent echoes the Secretary’s opposition to Petitioner’s request for relief. 27
Specifically, it reiterates that Petitioner has failed to assert a legal basis to support
imposing a “notice and opportunity to cure” procedure, noting that the Free and Equal
Elections Clause does not enable courts to rewrite the Election Code to align with a
litigant’s notion of good election policy. Respondent emphasizes that “ballot and election
laws have always been regarded as peculiarly within the province of the legislative branch
of government,” Winston, 91 A. at 522, and that to the extent restrictions are burdensome,
relief should be sought in the Legislature. Id. at 525.
Respondent also discusses the practical implications of granting Petitioner’s
request, expressing concern that implementing a “notice and opportunity to cure”
procedure would be a monumental undertaking requiring the expenditure of significant
resources, particularly on the eve of an election. Respondent thus reiterates that the
27

The Caucus does not advance argument on the merits of this issue.
[J-96-2020] - 40

41

Legislature, not this Court, is the entity best suited to address the procedure proposed by
Petitioner.
Respondent adds that the tardiness of Petitioner’s request is alone a sufficient
basis to deny it and that, in any event, Petitioner cannot show a “plain, palpable and clear
abuse of the [legislative] power which actually infringes on the rights of the electors” with
respect to this claim. Patterson v. Barlow, 60 Pa. 54, 75 (1869). Respondent notes that,
to the contrary, a requirement that voters follow the appropriate procedures when filling
out their ballots easily passes constitutional muster.
Upon review, we conclude that the Boards are not required to implement a “notice
and opportunity to cure” procedure for mail-in and absentee ballots that voters have filled
out incompletely or incorrectly. Put simply, as argued by the parties in opposition to the
requested relief, Petitioner has cited no constitutional or statutory basis that would
countenance imposing the procedure Petitioner seeks to require (i.e., having the Boards
contact those individuals whose ballots the Boards have reviewed and identified as
including “minor” or “facial” defects—and for whom the Boards have contact information—
and then afford those individuals the opportunity to cure defects until the UOCAVA
deadline).
While the Pennsylvania Constitution mandates that elections be “free and equal,”
it leaves the task of effectuating that mandate to the Legislature. Winston, 91 A. at 522.
As noted herein, although the Election Code provides the procedures for casting and
counting a vote by mail, it does not provide for the “notice and opportunity to cure”
procedure sought by Petitioner. To the extent that a voter is at risk for having his or her
ballot rejected due to minor errors made in contravention of those requirements, we agree
that the decision to provide a “notice and opportunity to cure” procedure to alleviate that
risk is one best suited for the Legislature. We express this agreement particularly in light

[J-96-2020] - 41

42

of the open policy questions attendant to that decision, including what the precise
contours of the procedure would be, how the concomitant burdens would be addressed,
and how the procedure would impact the confidentiality and counting of ballots, all of
which are best left to the legislative branch of Pennsylvania’s government. Thus, for the
reasons stated, the Petitioner is not entitled to the relief it seeks in Count III of its petition.
D. COUNT IV OF THE PETITION FOR REVIEW
In Count IV, Petitioner seeks a declaration that under Act 77, the Boards must
“clothe and count naked ballots,” i.e., place ballots that were returned without the secrecy
envelope into a proper envelope and count them, rather than invalidate them. It further
seeks a preliminary injunction prohibiting the Boards from excluding such ballots from the
canvass.
To understand the nature of a “naked ballot,” as well as Petitioner’s claim that such
ballots are valid and should be counted, we examine the relevant provisions of Act 77.
The Act directs Boards to send to the qualified mail-in elector an official mail-in ballot, the
list of candidates when authorized, the uniform instructions as prescribed by the
Secretary, and two envelopes to be returned to the Boards, as described in detail infra.
25 P.S. § 3150.14(c).
Section 3150.14(a) (“Envelopes for official mail-in ballots”) explains the nature of
the envelopes sent to the mail-in voter. This provision directs the Boards to “provide two
additional envelopes for each official mail-in ballot of a size and shape as prescribed by
the Secretary of the Commonwealth, in order to permit the placing of one within the other
and both within the mailing envelope” addressed to the elector. Id. § 3150.14(a). On the
smaller of the two envelopes to be returned to the Boards shall be printed only the words
“Official Election Ballot.” Id. On the larger envelope shall be printed: (1) “the form of the
declaration of the elector;” (2) the “name and address of the county board of election of

[J-96-2020] - 42

43

the proper county;” and (3) “information indicating the local election district of the mail-in
voter.” Id.
As noted, Section 3150.16(a) directs the mail-in elector to mark the ballot in secret
with the enumerated ink or lead pencil and then fold the ballot, enclose it, and secure it in
the smaller envelope on which is printed “Official Election Ballot.” 25 P.S. § 3150.16(a).
The statute further directs the mail-in elector to place the smaller envelope into the second
envelope on which is printed the form of declaration of the elector, the elector’s local
election district, and the address of the elector’s county board of election. Id. The statute
next directs the mail-in elector to fill out, date, and sign the declaration printed on the
second envelope, and secure the ballot and send it by mail or deliver it in person to his
or her county board of election. Id. A ballot is “naked” for purposes of this action if the
mail-in elector fails to utilize the smaller envelope on which is printed “Official Election
Ballot,” and, instead, places the official election ballot directly into the second envelope,
upon which is printed the form of declaration of the elector and the address of the elector’s
county board of election.
Act 77 additionally sets forth the procedure by which mail-in ballots are canvassed.
See id. § 3146.8(a) (providing that mail-in ballots “shall be canvassed in accordance with
subsection (g)”). Relevant thereto, the Act directs that mail-in ballots cast by electors who
died prior to Election Day shall be rejected and not counted. Id. § 3146.8(d). Additionally,
the Act provides that mail-in ballots shall be counted as long as: (1) election officials verify
the ballots by comparing the voter’s declaration with the official voting list; and (2) the
ballots are not challenged on the ground that the voter is unqualified to vote.

Id.

§§ 3146.8(g)(4); 3150.12b(a)(2). Notably, Section 3146.8(g)(4)(ii) provides that if any of
the envelopes on which are printed “Official Election Ballot” “contain any text, mark or
symbol which reveals the identity of the elector, the elector’s political affiliation or the

[J-96-2020] - 43

44

elector’s candidate preference, the envelopes and the ballots contained therein shall be
set aside and declared void.” Id. § 3146.8(g)(4)(ii).
The crux of Petitioner’s position is that although Act 77 directs a mail-in voter to
utilize the secrecy envelope in submitting the mail-in ballot, there is no provision in the
Election Code authorizing the Boards to discard a ballot on grounds that the voter failed
to insert the ballot into the secrecy envelope before returning it to the Boards. Rather,
Petitioner asserts, the statute directs the Boards to reject mail-in ballots only if the mailin elector died prior to Election Day, id. § 3146.8(d), the ballot is unverified or challenged
on grounds that the mail-in voter was unqualified to vote, id. § 3146.8(g)(4), or the ballot
is returned in an “Official Election Ballot” envelope that contains “any text, mark or symbol
which reveals the identity of the elector, the elector’s political affiliation or the elector’s
candidate preference.” Id. § 3146.8(g)(4)(ii). Petitioner concludes that the failure to place
the ballot in a secrecy envelope does not fall within these enumerated statutory grounds
which would result in an invalid mail-in ballot.
Moreover, Petitioner emphasizes that the General Assembly was aware of how to
invalidate ballots for lack of a secrecy envelope, as it expressly did so in another provision
of the Election Code regarding provisional ballots. See id. § 3050(a.4)(5)(ii)(C) (providing
that a “provisional ballot shall not be counted if: . . . a provisional ballot envelope does not
contain a secrecy envelope”).28 Had the General Assembly intended to invalidate mailin ballots on this basis, Petitioner submits, the Legislature would have included a similar
provision in Act 77, but chose not to do so.
Absent statutory authority directing the Boards to invalidate a ballot based
exclusively on the lack of a secrecy envelope, Petitioner contends that the refusal to
A provisional ballot is a ballot cast by an individual who claims to be properly registered
and eligible to vote at the election district, but whose name does not appear on the district
register and whose registration cannot be determined. 25 P.S. § 3050(a.4)(1).
28

[J-96-2020] - 44

45

canvass and count ballots cast without a secrecy envelope violates the Election Code, as
well as the rights of electors to have their vote counted under the Free and Equal Elections
Clause. It posits that rather than disenfranchising the voter in contravention of these
edicts, the Boards could take corrective measures to protect privacy, such as placing the
naked ballot inside a replacement secrecy envelope before canvassing.
Accordingly, Petitioner requests a declaration that naked ballots must be counted,
as well as injunctive relief requiring Boards to undertake reasonable measures to protect
the privacy of naked ballots cast by mail-in electors.
The Secretary’s position aligns with Petitioner on this issue as she agrees that the
counting of naked ballots is permitted by the Election Code and furthers the right to vote
under the Free and Equal Elections Clause and the First and Fourteenth Amendments to
the United States Constitution.29
The Secretary contends that the secrecy envelope procedure set forth in Section
3150.16(a) is merely directory, and that this Court’s longstanding precedents establish
that ballots should not be disqualified based upon the failure to follow directory provisions.
See Bickhart, 845 A.3d at 803 (holding that although the Election Code provides that an
elector may cast a write-in vote for any person not printed on the ballot, a write-in vote for
a candidate whose name, in fact, appears on the ballot is not invalid where there is no

The Secretary’s position herein is consistent with the directive that the Department of
State distributed to the counties on May 28, 2020, indicating that there is no statutory
requirement nor any authority for setting aside an absentee or mail-in ballot exclusively
because the voter forgot to insert it into the official election ballot envelope. See Exhibit
B to Petition, Directive of Deputy Secretary for Elections and Commissions Jonathan M.
Marks to the county election directors, May 28, 2020. The directive further indicated that
“[t]o preserve the secrecy of such ballots, the board of elections in its discretion may
develop a process by which the members of the pre-canvass or canvass boards insert
these ballots into empty official ballot envelopes or privacy sleeves until such time as they
are ready to be tabulated.” Id. See also Exhibit J to Petition, Guidance for Missing Official
Election Ballot Envelopes.
29

[J-96-2020] - 45

46

evidence of fraud and the voter’s intent is clear); Wieskerger Appeal, 290 A.2d 108, 109
(Pa. 1972) (holding that the elector’s failure to mark the ballot with the statutorily
enumerated ink color does not render the ballot invalid unless there is a clear showing
that the ink was used for the purpose of making the ballot identifiable or otherwise
indicating fraud).
The Secretary further opines that no fraud arises from counting naked ballots,
considering that the naked ballot remains sealed in an envelope and the sealed ballot is
certified by the elector. Accordingly, the Secretary concludes that no voter should be
disenfranchised for failing to place his or her mail-in ballot in the secrecy envelope before
returning it to the Boards.
In response, Respondent argues that the statutory language of Section
3150.16(a), providing that the mail-in elector “shall . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped or endorsed ‘Official Election Ballot,’”
is clear and constitutes a mandatory requisite to casting a mail-in ballot, and having that
ballot counted. It relies on In re Canvass of Absentee Ballots of Nov. 4, 2003 Gen.
Election, 843 A.2d 1223 (Pa. 2004) (“Appeal of Pierce”), where this Court held that the
use of the term “shall” in Section 3146.6(a) of the Election Code, providing that the elector
“shall” send an absentee ballot or deliver the ballot in person, carries a mandatory
meaning, thereby precluding third parties from hand-delivering absentee ballots to county
election boards, and invalidating those ballots that were hand-delivered by a third party.
Respondent submits that Section 3150.16(a) requires the same invalidation of ballots
where the mandatory statutory requisite of enclosing the ballot in a secrecy envelope is
ignored.
Respondent observes that the Election Code further directs election officials to “set
aside and declare[] void” a ballot whose secrecy envelope contains “any text, mark, or

[J-96-2020] - 46

47

symbol which reveals the identity of the elector, the elector’s political affiliation or the
elector’s candidate preference.” 25 P.S. § 3146.8(g)(4)(ii). Citing Appeal of Weiskerger,
supra, it argues that the purpose of this provision is to prevent the disclosure of the
elector’s identity. Respondent posits that a ballot unclothed by a secrecy envelope and
placed directly in the outer envelope also discloses the elector’s identity because the
outer envelope contains the elector’s signed declaration. Thus, it concludes, Section
3146.8(g)(4)(ii) requires invalidation of any ballot contained in an envelope that reveals
the identity of the voter, regardless of whether that envelope is a secrecy envelope or an
outer envelope. To hold to the contrary, Respondent argues, would violate Article VII,
Section 4 of the Pennsylvania Constitution, which provides, in relevant part, that “secrecy
in voting shall be preserved.” PA. CONST. art. VII, § 4.30
Respondent discounts the Secretary’s suggestion that because there is no fraud
involved in the submission of a naked ballot, the ballot should be counted. The secrecy
envelope provision of the statute, in Respondent’s view, advances the distinct
constitutional interest of protecting the sanctity of the ballot by preventing the ballot from
disclosing the elector’s identity. The significance of this interest, it submits, distinguishes
this matter from cases involving noncompliance with minor procedural demands set forth
in the Election Code, such as the color of ink used to mark a ballot or the listing of a writein candidate whose name already appears on the ballot.

Accordingly, Respondent

requests that we deny Petitioner’s request for declaratory and injunctive relief.
The Caucus reiterates all of the arguments expressed by Respondent. It contends
that in addition to violating voter secrecy, the counting of naked ballots raises the concern
of voter fraud. It contends that when a ballot arrives at the county election board without
Article VII, Section 4 (“Method of elections; secrecy in voting”) states, in full, that “[a]ll
elections by the citizens shall be by ballot or by such other method as may be prescribed
by law: Provided, That secrecy in voting be preserved.” PA CONST. art. VII, § 4.
30

[J-96-2020] - 47

48

the protective shield of a sealed privacy envelope, the election official cannot guarantee
that the ballot travelled from the voter’s hand to the county election board without
compromise. It argues that there is no way for the election official to verify that the vote
was accurately recorded, because the mere act of ascertaining the voter’s identity from
the elector’s declaration may violate the secrecy protections of Article VII, Section 4. The
Caucus concludes that the only way to be certain that no fraud has taken place is to reject
all naked ballots.
Turning now to our analysis, we observe that, in determining the propriety of naked
ballots, we must ascertain the General Assembly’s intention by examining the statutory
text of the secrecy envelope provision to determine whether it is mandatory or directory,
as that will govern the consequences for non-compliance. See JPay, Inc. v. Dep’t of Corr.
& Governor's Office of Admin., 89 A.3d 756, 763 (Pa. Cmwlth. 2014) (internal citation
omitted) (observing that “[w]hile both mandatory and directory provisions of the
Legislature are meant to be followed, the difference between a mandatory and directory
provision is the consequence for non-compliance: a failure to strictly adhere to the
requirements of a directory statute will not nullify the validity of the action involved”).
Upon careful examination of the statutory text, we conclude that the Legislature
intended for the secrecy envelope provision to be mandatory. We respectfully reject the
contentions of Petitioner and the Secretary that because the General Assembly did not
delineate a remedy narrowly linked to the mail-in elector’s failure to utilize a secrecy
envelope, the language of the Election Code is directory, and an elector’s violation of the
command inconsequential.
As noted, Section 3150.16(a) provides:
[The mail-in elector] shall, in secret, . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped or endorsed “Official
Election Ballot.” This envelope shall then be placed in the second one, on
which is printed the form of declaration of the elector, and the address of
[J-96-2020] - 48

49

the elector’s county board of election and the local election district of the
elector.
Id.
This statutory text must be read in pari materia31 with Subsection 3146.8(g)(4)(ii),
which also speaks directly to secrecy envelopes, providing:
If any of the envelopes on which are printed, stamped or endorsed the
words ‘Official Election Ballot’ contain any text, mark or symbol which
reveals the identity of the elector, the elector’s political affiliation or the
elector’s candidate preference, the envelopes and the ballots contained
therein shall be set aside and declared void.
25 P.S. § 3146.8(g)(4)(ii).
These provisions make clear the General Assembly’s intention that, during the
collection and canvassing processes, when the outer envelope in which the ballot arrived
is unsealed and the sealed ballot removed, it should not be readily apparent who the
elector is, with what party he or she affiliates, or for whom the elector has voted. The
secrecy envelope properly unmarked and sealed ensures that result, unless it is marked
with identifying information, in which case that goal is compromised. Whatever the
wisdom of the requirement, the command that the mail-in elector utilize the secrecy
envelope and leave it unblemished by identifying information is neither ambiguous nor
unreasonable.

31

Section 1932 of our Statutory Construction Act, “Statutes in pari materia,” provides:
(a) Statutes or parts of statutes are in pari materia when they relate to the
same persons or things or to the same class of persons or things.
(b) Statutes in pari materia shall be construed together, if possible, as one
statute.

1 Pa.C.S. § 1932.
[J-96-2020] - 49

50

As noted cogently by Respondent, this case is distinguishable from those cases
relied upon by the Secretary, which deemed mandatory language merely directory and
without consequence. For example, in Bickhart, 845 A.2d at 795, the Court declined to
invalidate a write-in vote cast for a candidate who was named on the ballot proper. In
reaching that conclusion, the Court observed that “ballots containing mere minor
irregularities should only be stricken for compelling reasons,” noting that marking a ballot
is an imprecise process, the focus of which is upon the “unmistakable registration of the
voter’s will in substantial conformity to the statutory requirements.” Bickhart, 845 A.2d at
798-99 (internal quotation marks and citations omitted).
Similarly, in Appeal of Weiskerger, supra, this Court declined to invalidate a ballot
based upon the “minor irregularity” that it was completed in the wrong color of ink. The
statute at issue provided: “Any ballot that is marked in blue, black or blue-black ink . . .
shall be valid and counted.” 290 A.2d at 109 (citing 25 P.S. § 3063). Thus, the only
mandatory direction it provided was for the canvassers who receive the ballots, not the
electors who prepared them. In providing that ballots completed in the right color must
be counted, the Legislature neither stated nor implied that ballots completed in a different
color must not be counted. Neither statutory provision at issue in Bickhart nor Weiskerger
contained anything analogous to the directive at issue in this case, which involves secrecy
in voting protected expressly by Article VII, Section 4 of this Court’s state charter.
As posited by Respondent, most analogous to the instant case is our decision in
Appeal of Pierce. There, we held that the Election Code’s “in-person” ballot delivery
requirement, see 25 P.S. § 3146.6, was mandatory, and that votes delivered by third
persons must not be counted. The provision in question unambiguously provided that

[J-96-2020] - 50

51

“the elector shall send [the absentee ballot] by mail, postage [prepaid], except where
franked, or deliver it in person to [said county] board of election.” Appeal of Pierce, 843
A.2d at 1231 (quoting 25 P.S. § 3146.6(a)). The parties seeking to ensure that votes
delivered by third parties would be counted cited Weiskerger and its flexibility with respect
to “minor irregularities.”
This Court, however, was unpersuaded and declined the invitation to interpret
“shall” as anything less than mandatory. Moreover, the Court rejected precisely the same
reasoning for interpreting “shall” as directory that Petitioner and the Secretary offer in this
case. As in the instant case, the provision of the Election Code at issue in Appeal of
Pierce did not expressly provide for voiding a ballot delivered by someone other than the
voter. Nevertheless, we held that to construe the in-person requirement “as merely
directory would render its limitation meaningless and, ultimately, absurd.” Id. at 1232.
The Court further distinguished Weiskerger and its safe harbor for “minor irregularities,”
noting that the in-person requirement served the salutary purpose of “limit[ing] the number
of third persons who unnecessarily come in contact with the ballot[,] . . . provid[ing] some
safeguard that the ballot was filled out by the actual voter, . . . and that once the ballot
has been marked by the actual voter in secret, no other person has the opportunity to
tamper with it.” Id. The provision thus served the spirit of the Code, “which requires that
a voter cast his ballot alone, and that it remain secret and inviolate.” Id.
Petitioner and the Secretary attempt to distinguish Appeal of Pierce by
emphasizing that there was no statutory provision in that case that was inconsistent with
the judicially inferred remedy, such as the provisional ballot secrecy envelope provision
in this case.

They assert that here, by contrast, the Legislature has directed the

[J-96-2020] - 51

52

disqualification of provisional ballots not enclosed in the secrecy envelope, and of mail-in
ballots with certain markings on the secrecy envelope, rendering its silence with regard
to omitted secrecy envelopes for mail-in ballots all the more conspicuous.
The clear thrust of Appeal of Pierce, however, is that, even absent an express
sanction, where legislative intent is clear and supported by a weighty interest like fraud
prevention, it would be unreasonable to render such a concrete provision ineffective for
want of deterrent or enforcement mechanism. What we learn from that decision is that
violations of the mandatory statutory provisions that pertain to integral aspects of the
election process should not be invalidated sub silentio for want of a detailed enumeration
of consequences.
We must in all instances assume that the General Assembly does not intend a
statute to be interpreted in a way that leads to an absurd or unreasonable result. See 1
Pa.C.S. § 1922(1) (“In ascertaining the intention of the General Assembly in the
enactment of a statute the following presumptions . . . may be used: (1) That the General
Assembly does not intend a result that is absurd, impossible of execution or
unreasonable.”).

The result proffered by Petitioner and the Secretary is no more

reasonable than that which the Court in Appeal of Pierce found untenable. The Court in
Appeal of Pierce viewed a textual mandate pertaining to fraud prevention and ballot
secrecy as signaling the Legislature’s intent that its violation would require voiding the
ballot, notwithstanding no statutory provision to that effect. To avoid an absurd result, it
inferred that intent from nothing more than the provision itself.
We reach the same result here. It is clear that the Legislature believed that an
orderly canvass of mail-in ballots required the completion of two discrete steps before

[J-96-2020] - 52

53

critical identifying information on the ballot could be revealed. The omission of a secrecy
envelope defeats this intention. Moreover, in providing for the disqualification of mail-in
ballots that arrive in secrecy envelopes that bear markings identifying the elector, the
elector’s party affiliation, or the elector’s vote, all categories of information that appear on
the ballot itself, the Legislature signaled beyond cavil that ballot confidentiality up to a
certain point in the process is so essential as to require disqualification. Thus, we find
that our holding in Appeal of Pierce leads to the inescapable conclusion that a mail-in
ballot that is not enclosed in the statutorily-mandated secrecy envelope must be
disqualified.
Accordingly, we hold that the secrecy provision language in Section 3150.16(a) is
mandatory and the mail-in elector’s failure to comply with such requisite by enclosing the
ballot in the secrecy envelope renders the ballot invalid.
E. COUNT V OF THE PETITION FOR REVIEW
In Count V of its petition, Petitioner seeks a declaration specifying that the poll
watcher residency requirement, found in Section 2687(b) of the Election Code, 25 P.S.
§2687(b), does not violate state or federal constitutional rights.32 Petition at 55, ¶ 207.
The Secretary concurs with Petitioner in this regard.
The Election Code permits candidates and political parties to appoint “poll
watchers” to monitor the integrity of the voting process.33 “Each watcher so appointed

Specifically, Petitioner maintains that the poll watcher residency requirement does not
violate the United States Constitution’s First Amendment, the Fourteenth Amendment,
the Equal Protection Clause, or the Equal Protection and Free and Equal Elections
Clauses of the Pennsylvania Constitution.
32

33

Section 2687(a) provides:

[J-96-2020] - 53

54

must be a qualified registered elector of the county in which the election district for which
the watcher was appointed is located.” 25 P.S. § 2687(b). This provision, in full, specifies:
Each watcher so appointed must be a qualified registered elector of
the county in which the election district for which the watcher was appointed
is located. Each watcher so appointed shall be authorized to serve in the
election district for which the watcher was appointed and, when the watcher
is not serving in the election district for which the watcher was appointed, in
any other election district in the county in which the watcher is a qualified
registered elector: Provided, That only one watcher for each candidate at
primaries, or for each party or political body at general, municipal or special
elections, shall be present in the polling place at any one time from the time
that the election officers meet prior to the opening of the polls under section
1208 until the time that the counting of votes is complete and the district
register and voting check list is locked and sealed, and all watchers in the
room shall remain outside the enclosed space. It shall not be a requirement
that a watcher be a resident of the election district for which the watcher is
appointed. After the close of the polls and while the ballots are being
counted or voting machine canvassed, all the watchers shall be permitted
to be in the polling place outside the enclosed space. Each watcher shall
be provided with a certificate from the county board of elections, stating his
name and the name of the candidate, party or political body he represents.
Watchers shall be required to show their certificates when requested to do
so. Watchers allowed in the polling place under the provisions of this act,
shall be permitted to keep a list of voters and shall be entitled to challenge
any person making application to vote and to require proof of his
qualifications, as provided by this act. During those intervals when voters
are not present in the polling place either voting or waiting to vote, the judge
of elections shall permit watchers, upon request, to inspect the voting check
list and either of the two numbered lists of voters maintained by the county
board: Provided, That the watcher shall not mark upon or alter these official

Each candidate for nomination or election at any election shall be entitled
to appoint two watchers for each election district in which such candidate is
voted for. Each political party and each political body which had nominated
candidates in accordance with the provisions of this act, shall be entitled to
appoint three watchers at any general, municipal or special election for each
election district in which the candidates of such party or political body are to
be voted for. Such watchers shall serve without expense to the county.
25 P.S. § 2687(a).
[J-96-2020] - 54

55

election records. The judge of elections shall supervise or delegate the
inspection of any requested documents.
25 P.S. § 2687(b) (footnote omitted).
Petitioner observes that the General Assembly enacted the current poll watcher
residency requirement in 2004 and that no changes were made to this requirement in Act
77. Petitioner asserts that this provision does not suffer from any constitutional infirmities
and notes that the provision has been upheld as constitutional by the federal District Court
for the Eastern District of Pennsylvania in Republican Party of Pennsylvania v. Cortés,
218 F. Supp. 3d 396 (E.D. Pa. 2016), discussed further below.
The Secretary likewise maintains that the poll watcher residency requirement is
constitutional. The Secretary notes that the United States Supreme Court in Anderson v.
Calabrezza, 460 U.S. 780 (1983), recognized the importance of States in regulating
elections. There, the Court stated,
We have recognized that, ‘as a practical matter, there must be a substantial
regulation of elections if they are to be fair and honest and if some sort of
order, rather than chaos, is to accompany the democratic processes.’
Id. at 788 (citing Storer v. Brown, 415 U.S. 724, 730, (1974)). In this regard, the Secretary
observes that the Election Code provides a comprehensive scheme of regulations for
voting and elections in the Commonwealth.

The Secretary maintains that these

regulatory interests are generally considered sufficient to justify reasonable,
nondiscriminatory restrictions on elections. Id.; see also Timmons v. Twin Cities Area
New Party, 520 U.S. 351, 358 (1997) (specifying that “[s]tates may, and inevitably must,
enact reasonable regulations of parties, elections, and ballots to reduce election- and
campaign-related disorder”).
Regarding the provisions in the Election Code requiring that poll watchers be
qualified registered electors from the county in which they serve, like Petitioner, the

[J-96-2020] - 55

56

Secretary observes that although this Court has not previously addressed the question of
whether this requirement is constitutional, the federal District Court for the Eastern District
of Pennsylvania has done so and rejected a constitutional challenge to the poll watcher
residency requirement in Cortés, supra.
Specifically, there, the District Court considered a constitutional challenge to
Section 2687(b) of the Election Code by the respondent here. Respondent claimed that
the poll watcher residency requirement found at Section 2687(b), requiring poll watchers
to reside in the county in which they serve, is violative of its Fourteenth Amendment rights
to due process and equal protection and their rights to free speech and association under
the First Amendment.
The District Court rejected these claims, noting first, that the regulation does not
violate due process or equal protection. The court observed that serving as a poll watcher
does not implicate a fundamental constitutional right, like the right to vote, but rather, is a
right conferred by statute. Id. at 408. Additionally, the court found that because the state’s
regulation of the qualifications of who may serve as a poll watcher does not burden one’s
voting rights or any other constitutional right, the state imposing the regulation need only
cite a rational basis for the regulation to be upheld. Id. (citing Donatelli v. Mitchell, 2 F.3d
508, 514 & n.10 (3d Circ. 1993) (declining to apply intermediate scrutiny standards
because the plaintiffs’ fundamental rights were not burdened by state law)); and Voting
for Am., Inc. v. Andrade, 488 Fed.Appx. 890, 899 (5th Cir. 2012) (applying rational basis
review as opposed to an intermediate balancing test because state election law did not
implicate or burden specific constitutional rights). In this regard, the court concluded as
follows:
There is a rational basis for Section 2678(b)’s requirement that poll
watchers be qualified electors in the county in which they work. The
Secretary notes that in 1937, the General Assembly enacted a countybased scheme to manage elections within the state, and consistent with that

[J-96-2020] - 56

57

scheme the legislature endeavored to allow county election officials to
oversee a manageable portion of the state in all aspects of the process,
including in credentialing poll watchers. In short, Pennsylvania opted to
design a county-by-county system of elections; in doing so it ensured as
much coherency in this patchwork system as possible. To that end it
ensured that participants in the election--voters and watchers alike--were
qualified electors in the relevant county. The legislature’s decision to allow
county election officials to credential only poll watchers from their own
county is rationally related to the state’s interest in maintaining its countyrun election system; each county election official is tasked with managing
credentials for a discrete part of the state’s population. As the Secretary’s
counsel noted at the hearing, the legislature chose to ‘draw the lines’ at the
county level, something entirely rational in fashioning a scheme for a state
as large as Pennsylvania.
Cortés, 218 F.Supp. 3d at 409.
The District Court, likewise, rejected Respondent’s claims that Section 2687
violates the First Amendment. The court first noted that courts have found that “poll
watching is not incidental to” the right of free association and has “no distinct First
Amendment protection.” Id. at 414 (citing Cotz v. Mastroeni, 476 F.Supp.2d 332, 364
(S.D. N.Y. 2007); and Dailey v. Hands, No. 14-00423, 2015 WL 1293188, at *5 (S.D. Ala.
Mar. 23, 2015) (“[P]oll watching is not a fundamental right protected by the First
Amendment.”)). Moreover, the court found that poll watchers do not engage in core
political speech while completing their duties. Id. at 415. Rather, the court observed that
“when a poll watcher reports incidents of violations, he is performing a public function
delegated by the state.” Id. (citing Flagg Bros., Inc. v. Brooks, 436 U.S. 149, 158 (1978)
(stating that “[w]hile the Constitution protects private rights of association and advocacy
with regard to the election of public officials, [the Supreme Court] cases make it clear that
the conduct of the elections themselves is an [e]xclusively public function.”)). Thus, the
District Court found that the Commonwealth’s county poll watcher residency requirement
did not implicate poll watchers’ private rights of association or advocacy and, therefore,
did not violate the First Amendment.
[J-96-2020] - 57

58

Respondent again maintains that the poll watcher residency requirement set forth
in the Election Code is unconstitutional.34 First, Respondent maintains that Cortés is
distinguishable from this matter because of the procedural posture and the timing of that
case. Specifically, Respondent emphasizes the fact that in Cortés it sought a preliminary
injunction eighteen days before the general election and that on this basis the court found
the request for relief to be untimely. Thus, it contends that the court’s further discussion
of the constitutionality of the poll watcher residency requirement was dicta.
Additionally, Respondent argues that the court in Cortés, like the Secretary here,
gave short shrift to the Commonwealth’s obligation to safeguard the electorate from voter
fraud, noting that “every voter in a federal . . . election, whether he votes for a candidate
with little chance of winning or for one with little chance of losing, has a right under the
Constitution to have his vote fairly counted, without its being distorted by fraudulently cast
votes.” Respondent’s Brief at 45 (citing Anderson v. United States, 417 U.S. 211, 227
(1974)). Respondent maintains that due to the distribution of voters throughout the
Commonwealth, the county residency requirement makes it difficult for both political
parties to identify poll watchers in all precincts. Thus, it asserts that, in the absence of
poll watchers, “fraud can flourish.”

Id. at 46.

Respondent further argues that with

Pennsylvania moving to an entirely new election regime under Act 77, with alleged
increased opportunities for ballot fraud and tampering, the need for poll watchers is
heightened.
Turning to the merits, initially, regarding Respondent’s assertion that the District
Court’s discussion of the constitutionality of the poll watcher residency requirement
constitutes dicta because the court found the claims there to be untimely, we note that

The Caucus does not advocate in favor of finding the poll watcher residency
requirement unconstitutional.
34

[J-96-2020] - 58

59

although that court pointed out that the emergent nature of Respondent’s claims
amounted to a “judicial fire drill” based on their late filing, the court opined further that the
relief sought “would be inappropriate for a number of reasons, not the least of which is
that at this late hour courts should not disrupt an impending election ‘absent a powerful
reason for doing so.’” Cortés, 218 F.Supp.3d. at 405 (citation omitted). The court then
went on to analyze the merits of the constitutional claims asserted and denied relief.
Accordingly, it appears the court made its decision on multiple bases, including the merits
as well as the timing of the claims. Moreover, regardless of the status of the District
Court’s determination of the constitutional issues presented there, we find its analysis
persuasive and agree with its reasoning in upholding the constitutionality of the poll
watcher residency requirement.
The “times, places and manner” of conducting elections generally falls to the
states. U.S. CONST. art. I, § 4 (providing that “the Times, Places and Manner of holding
Elections…shall be prescribed in each State by the Legislature thereof”). Pennsylvania
has enacted a comprehensive code of election laws pursuant to its authority to regulate
its elections.

The General Assembly, in enacting its comprehensive scheme, has

required that any person serving as a poll watcher for a particular candidate or party be
a resident of the county in which she serves in her position. 25 P.S. § 2687(b).
This provision is a legislative enactment which enjoys the presumption that the
General Assembly did not intend to violate constitutional norms, “in part because there
exists a judicial presumption that our sister branches take seriously their constitutional
oaths.” Stilp v. Commonwealth, 905 A.2d 918, 938–39 (Pa. 2006); see also 1 Pa.C.S.
§1922(3).

Accordingly, a statute is presumed to be valid, and will be declared

unconstitutional only if it is shown to be “clearly, palpably, and plainly [violative of] the

[J-96-2020] - 59

60

Constitution.” West Mifflin Area School District v. Zahorchak, 4 A.3d 1042, 1048 (Pa.
2010).
In analyzing whether a state election law violates the constitution, courts must first
examine the extent to which a challenged regulation burdens one’s constitutional rights.
Burdick v. Takushi, 504 U.S. 428, 434 (1992). Upon determining the extent to which
rights are burdened, courts can then apply the appropriate level of scrutiny needed to
examine the propriety of the regulation. See id. (indicating that “the rigorousness of our
inquiry into the propriety of a state election law depends upon the extent to which a
challenged regulation burdens First and Fourteenth Amendment rights”).
Where a state election regulation imposes a “severe” burden on a plaintiff’s right
to vote, strict scrutiny applies and requires that the regulation is “narrowly drawn to
advance a state interest of compelling importance.” Id. When a state election law
imposes only “reasonable, nondiscriminatory restrictions,” upon the constitutional rights
of voters, an intermediate level of scrutiny applies, and “the State’s important regulatory
interests are generally sufficient to justify” the restrictions. See Id. (upholding Hawaii’s
ban on write-in voting in the primary where doing so places a minimal burden on one’s
voting right and supports the state’s interest in supporting its ballot access scheme).
Where, however, the law does not regulate a suspect classification (race, alienage, or
national origin) or burden a fundamental constitutional right, such as the right to vote, the
state need only provide a rational basis for its imposition. See Donatelli, 2 F.3d at 510 &
515.
In examining the constitutionality of the poll watcher residency provision at issue
here, we conclude, as the District Court in Cortés concluded, that it imposes no burden
on one’s constitutional right to vote and, accordingly, requires only a showing that a
rational basis exists to be upheld. In this regard, as the District Court aptly noted, there

[J-96-2020] - 60

61

is no individual constitutional right to serve as a poll watcher; rather, the right to do so is
conferred by statute. Cortés, 218 F.Supp.3d at 408. Additionally, courts have indicated
that “poll watching is not incidental to” the right of free association and, thus, “has no
distinct First Amendment protection.” Cotz, 476 F.Supp.2d at 364. Finally, poll watching
does not implicate core political speech. Cortés, 218 F.Supp.3d at 415.
As the poll watcher county residency requirement does not burden one’s
constitutional voting rights, the regulation need only be shown to satisfy a rational basis
for its imposition.

Again, as the District Court aptly recounted, from its inception,

Pennsylvania has envisioned a county-based scheme for managing elections within the
Commonwealth. Consistent therewith, the Legislature has endeavored to allow county
election officials to oversee and manage their portion of the state in all aspects of the
election process, including credentialing poll watchers.

Given that Pennsylvania’s

General Assembly chose a county-based scheme for conducting elections, it is
reasonable that the Legislature would require poll watchers, who serve within the various
counties of the state, to be residents of the counties in which they serve. Thus, there is
a clear rational basis for the county poll watcher residency requirement, and we
determine, therefore, that this requirement should be upheld.
Respondent does not claim that poll watching involves a fundamental
constitutional right or that a level of scrutiny other than rational basis needs to be shown
regarding the regulation of poll watcher qualifications. Instead, Respondent claims that
poll watchers are vital to protect against voter fraud and that because of the distribution
of voters throughout Pennsylvania, the residency requirement makes it difficult to identify
poll watchers in all precincts.

While Respondent asserts the greater need for poll

watchers because of heightened election fraud involving mail-in voting, these claims are

[J-96-2020] - 61

62

unsubstantiated and are specifically belied by the Act 35 report issued by the Secretary
on August 1, 2020, concerning mail in voting in the Primary Election, finding:
[D]ata provided by the counties reinforces numerous independent studies
that conclude that mail ballot fraud is exceedingly rare, and it demonstrates
that the errors that occurred [in the Primary Election] accounted for a very
small fraction of the nearly 1.5 million absentee and mail-in ballots
requested and cast by voters.
Pennsylvania 2020 Primary Election Act 35 of 2020 Report at 39; Appendix to Petitioner’s
Brief, Exhibit F. Moreover, Respondent’s speculative claim that it is “difficult” for both
parties to fill poll watcher positions in every precinct, even if true, is insufficient to
transform the Commonwealth’s uniform and reasonable regulation requiring that poll
watchers be residents of the counties they serve into a non-rational policy choice.
Based on the foregoing, we conclude that the poll watcher residency requirement
does not violate the state or federal constitutions.35 Accordingly, we grant the relief
sought by Petitioner in their petition for review and declare the poll watcher residency
requirement set forth in Section 2687(b) of the Election Code, 25 P.S. § 2687(b), to be
constitutional.
IV. CONCLUSION
Based on our disposition of all of the claims set forth above, we grant relief on the
claims set forth in Counts I, II, and V of the Democratic Party’s petition for review as
follows and hold that: (Count I) the Election Code permits county boards of election to
collect hand-delivered mail-in ballots at locations other than their office addresses
including drop-boxes as indicated herein, see supra. at 20 n. 15; (Count II) a three-day
extension of the absentee and mail-in ballot received-by deadline is adopted such that

Respondent has not asserted that the Pennsylvania Constitution offers greater
protection under the circumstances presented. Thus, for purposes of our review, we treat
them as co-extensive.
35

[J-96-2020] - 62

63

ballots mailed by voters via the United States Postal Service and postmarked by 8:00
p.m. on Election Day , November 3, 2020, shall be counted if they are otherwise valid and
received by the county boards of election on or before 5:00 p.m. on November 6, 2020;
ballots received within this period that lack a postmark or other proof of mailing, or for
which the postmark or other proof of mailing is illegible, will be presumed to have been
mailed by Election Day unless a preponderance of the evidence demonstrates that it was
mailed after Election Day; (Count V) the poll watcher residency requirement set forth in
Section 2687(b) of the Election Code, 25 P.S. § 2687(b), is constitutional. Also, for the
reasons set forth herein, we deny the relief sought in Count III and IV of the petition for
review.
Justices Todd, Dougherty, and Wecht join the opinion.
Chief Justice Saylor and Justice Mundy join Parts I, II, and III(C), (D) and (E) of
the opinion.
Justice Donohue joins Parts I, II, and III(A), III(C), III(D) and III(E) of the opinion.
Justice Wecht files a concurring opinion.
Chief Justice Saylor files a concurring and dissenting opinion in which Justice
Mundy joins.
Justice Donohue files a concurring and dissenting opinion in which Chief Justice
Saylor and Justice Mundy join Part II.

[J-96-2020] - 63

64

[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:

65

COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] [MO: Baer, J.] - 2

66

OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING OPINION
JUSTICE WECHT

DECIDED: September 17, 2020

I join the learned Majority’s Opinion in full. “No right is more precious in a free
country than that of having a voice in the election of those who make the laws under
which, as good citizens, we must live. Other rights, even the most basic, are illusory if
the right to vote is undermined.”1 As the Supreme Court of the United States has
explained, the right to vote comprises not just “the right of qualified voters within a state

1

Wesberry v. Sanders, 376 U.S. 1, 17 (1964).

[J-96-2020] [MO: Baer, J.] - 3

67

to cast their ballots,” but also the right “to have their ballots counted.” 2

In our

Commonwealth, the franchise is guaranteed by the Free and Equal Elections Clause of
the Pennsylvania Constitution, which commands: “Elections shall be free and equal; and
no power, civil or military, shall at any time interfere to prevent the free exercise of the
right of suffrage.”3

The history of that clause, which predates the United States

Constitution and has no federal counterpart, evinces the intent of its framers that it be
given “the broadest interpretation, one which governs all aspects of the electoral
process.”4
Expounding upon the contours of the guarantee of free and equal suffrage
contained within the Constitution of Kentucky, which was modeled on our own organic
charter, the Kentucky Supreme Court observed that, “when any substantial number of
legal voters are, from any cause, denied the right to vote, the election is not free and
equal, in the meaning of the Constitution.”5
[T]his constitutional provision admits of no evasions or exceptions. No
amount of good intention or good faith can be allowed to defeat its purpose
or its meaning. When the question arises, the single inquiry will be: Was
the election free and equal, in the sense that no substantial number of
persons entitled to vote and who offered to vote were denied the privilege? 6

United States v. Classic, 313 U.S. 299, 314, 315 (1941); accord United States v.
Mosley, 238 U.S. 383, 386 (1915).
2

3

PA. CONST. art. I, § V.

League of Women Voters of Pa. v. Pa., 178 A.3d 737, 809 (Pa. 2018); see Winston
v. Moore, 91 A. 520, 523 (Pa. 1914).
4

5

Wallbrecht v. Ingram, 175 S.W. 1022, 1026 (Ky. 1915).

6

Id. at 1027.

[J-96-2020] [MO: Baer, J.] - 4

68

Although the conditions that might infringe the franchise are too manifold to enumerate,
when we are satisfied that a violation of the right has occurred or is likely to occur, “our
Court possesses broad authority to craft meaningful remedies when required.”7
“Confidence in the integrity of our electoral processes is essential to the functioning
of our participatory democracy.”8 To that end, we recognized in League of Women Voters
that “[a] broad and robust interpretation” of the Free and Equal Elections Clause could
restore the public’s confidence in the redistricting process by “guard[ing] against the risk
of unfairly rendering votes nugatory.”9 The same easily could be said of an election
scheduled in the wake—or midst—of a natural disaster, civil unrest, or other emergency,
where systemic disruptions in basic government services like mail delivery—upon which
the machinery of our election system relies more than ever with the advent of broad mailin voting—can be demonstrated or reasonably anticipated.10

Indeed, the “adverse

consequences” occasioned by a dysfunctional electoral process that threatens to
disenfranchise a broad swath of the electorate are no less pernicious than those of
partisan gerrymandering. Left unabated, each threatens to “discourag[e] voters from

League of Women Voters, 178 A.3d at 822 (citing PA. CONST. art. V, §§ 1, 2, 10);
see Reynolds v. Sims, 377 U.S. 533, 566 (1964) (“[A] denial of constitutionally protected
rights demands judicial protection; our oath and our office require no less of us.”).
7

8

Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per curiam).

9

League of Women Voters, 178 A.3d at 814.

See In re General Election-1985, 531 A.2d 836, 839 (Pa. Cmwlth. 1987) (“To
permit an election to be conducted where members of the electorate could be deprived
of their opportunity to participate because of circumstances beyond their control . . . would
be inconsistent with the purpose of the election laws.”).
10

[J-96-2020] [MO: Baer, J.] - 5

69

participating in the electoral process because they have come to believe” that their vote
will not count through no fault of their own.11
In determining whether present systemic disruptions in government services are
well-documented in this Commonwealth, we need look no further than the recent
Congressional testimony of Postmaster General Louis DeJoy.

Appearing before

committees of the United States House and Senate, DeJoy acknowledged that “[a]
substantial portion of [mail] delays are related to COVID.”12 Highlighting the acute effects
of the pandemic on mail delays within Pennsylvania, DeJoy explained:
As the coronavirus cases throughout the country have expanded it has had
an impact on our employee availability. And in the urban areas that are
hotspots—the averages don’t play out what the real picture is like in areas
like Philadelphia, where employee availability is significantly below normal
run rates.13
Lacking any materially contradictory evidence, we have no reason to doubt the accuracy
of DeJoy’s testimony on these points. While the Postal Service may be able to prioritize
election mail to mitigate these concerns, they cannot alter the laws of time and space.
The extraordinary circumstances under which this year’s quadrennial presidential
election must be contested manifestly justify an equitable remedy modifying the received-

League of Women Voters, 178 A.3d at 814; cf. Working Families Party v.
Commonwealth, 209 A.3d 270, 306-07 (Pa. 2019) (Wecht, J., concurring and dissenting)
(“The Free and Equal Elections Clause is compromised where the regulatory approach
adopted by the legislature has the well-documented effect of . . . depressing voter
enthusiasm and participation.”).
11

Examining the Finances and Operations of the United States Postal Service During
COVID-19 and Upcoming Elections: Hearing Before the S. Homeland Security Comm.,
116th Cong. (Aug. 21, 2020).
12

Protecting the Timely Delivery of Mail, Medicine, and Mail-in Ballots: Hearing
Before the H. Oversight & Gov’t Reform Comm., 116th Cong. (Aug. 24, 2020).
13

[J-96-2020] [MO: Baer, J.] - 6

70

by deadline for absentee and mail-in ballots to account for these exigencies and to ensure
that no unnecessary impediments to each citizen’s exercise of the franchise be interposed
that reasonably can be avoided. Having determined that the convergence of a once-ina-century pandemic and unprecedented operational delays in United States Postal
Service delivery capacity threatens to undermine the integrity of our general election, this
force majeure necessitates relief.
I endorse the Majority’s narrowly-tailored remedy, which extends the received-by
deadline by just three days to compensate for projected mail-delivery delays of similar
duration.

Extrapolating from the Department of State’s primary election data, that

timeframe should capture the vast majority of late-arriving ballots that were deposited with
the Postal Service on or in the few days before Election Day. That approach also will
minimize the number of voters denied the franchise simply for mailing their votes based
upon long-trusted, but presently unrealistic expectations about the speed of the post,
while minimizing any subsequent delay in the tallying of votes and avoiding any material
disruption to the sequence of events that follow in the weeks following a national election.
While I join the Majority’s resolution of Count III, I do so subject to the belief that it
is limited to the particular concerns litigated and the lack of any proposal regarding a
practicable manner of relieving the problem alleged. In my view, today’s ruling should be
understood to extend no farther than to ballot defects that are capable of objective
assessment pursuant to uniform standards14—a qualification that captures all of the
defects Petitioners seek the opportunity to cure in this case.

See PA. CONST. art. VII, § 6 (“All laws regulating the holding of elections by the
citizens . . . shall be uniform throughout the State.”); Kuznik v. Westmoreland Cty. Bd. of
14

[J-96-2020] [MO: Baer, J.] - 7

71

For example, the failure to “fill out, date and sign the declaration printed on” the
ballot return envelope, as required by 25 P.S. § 3150.16(a), is a deficiency that can be
readily observed. Absent some proof that the enforcement of such a uniform, neutrally
applicable election regulation will result in a constitutionally intolerable ratio of rejected
ballots, I detect no offense to the Free and Equal Elections Clause. Moreover, Petitioners
propose only an amorphous standard that would permit electors to cure “minor” defects
and omissions; they supply no judicially manageable criteria for distinguishing “minor”
defects from “major” ones that could be adopted on a statewide basis, nor do they
propose a process to facilitate the opportunity to cure that they seek that can be
implemented and fairly administered in every voting district in the Commonwealth in the
weeks between now and the general election. So long as the Secretary and the county
boards of elections provide electors with adequate instructions for completing the
declaration of the elector—including conspicuous warnings regarding the consequences
for failing strictly to adhere—pre-deprivation notice is unnecessary.
But I view these issues as distinct from circumstances in which a ballot’s validity
turns on subjective assessments, such as signature mismatches assessed by poll
workers with no training or expertise in matching signatures. The enforcement of such
requirements presents risks of inconsistency and arbitrariness that may implicate
constitutional guarantees not raised in this case, including due process and equal
protection principles. Signature comparison is a process fraught with the risk of error and

Comm’rs, 902 A.2d 476, 490 (Pa. 2006) (“We have held that ‘to be uniform in the
constitutional sense . . . a law [regulating the holding of elections] must treat all persons
in the same circumstances alike.’”) (quoting Kerns v. Kane, 69 A.2d 383, 393 (Pa. 1949)).

[J-96-2020] [MO: Baer, J.] - 8

72

inconsistent application, especially when conducted by lay people.15 While this case
offers no challenge to such inherently subjective bases for disqualifying ballots, I do not
view today’s Opinion as foreclosing the possibility of relief in a future case seeking the
opportunity to address circumstances in which a subjective, lay assessment of voter
requirements as to which reasonable minds might differ stands between the elector and
the tabulating machine.
We would not write on a blank slate in this regard. These concerns have been
recognized by numerous tribunals in recent years, and various courts have granted relief
on similar grounds, including three federal courts in the last few weeks alone.16 Those
Cf. United States v. Starzecpyzel, 880 F.Supp. 1027, 1046 (S.D.N.Y. 1995) (noting
the risk of “natural variations” in handwriting and citing factors such as “disease,
intoxication and the passage of time,” and citing a putative handwriting expert as
observing that “[s]ome people have a lot of individuality present in their writing and other
people do not”).
15

See, e.g., Ariz. Dem. Party v. Hobbs, CV-20-01143-PHX-DLR (D. Ariz. Sept. 10,
2020); Richardson v. Tex. Sec. of State, SA-19-cv-00963-OLG (W.D. Tex. Sept. 8, 2020);
Frederick v. Lawson, 1:19-cv-01959-SEB-MDJ, ___ F. Supp. 3d ___, 2020 WL 4882696
(S.D. Ind. Aug. 20, 2020); see also League of Un. Latin Am. Citizens of Iowa v. Pate, Polk
Cty. CVCV056403, 2018 WL 3946147, at *1 (Iowa Aug. 10, 2018) (enjoining use of
signature-matching provisions in Iowa’s Election Code); Martin v. Kemp, 341 F. Supp. 3d
1326 (N.D. Ga. 2018) (enjoining enforcement of Georgia statute permitting rejection of
absentee ballots and ballot applications due to alleged signature mismatch), emergency
motion for stay of injunction pending appeal denied, Georgia Muslim Voter Project v.
Kemp, 918 F.3d 1262 (11th Cir. 2019); Saucedo v. Gardner, 335 F. Supp. 3d 202, 222
(D. N.H. 2018) (holding that New Hampshire’s signature-match requirement for absentee
ballots was facially unconstitutional under the Fourteenth Amendment); Florida Dem.
Party v. Detzner, 4:16cv607-MW/CAS, 2016 WL 6090943, at *9 (N.D. Fla. Oct. 16, 2016)
(striking down Florida’s mail-in ballot signature match law as violative of the Fourteenth
Amendment); Zessar v. Helander, 05 C 1917, 2006 WL 642646, at *10 (N.D. Ill. 2006)
(finding that the Illinois Election Code provisions requiring signature comparisons on
absentee ballots violated voters’ due process rights); La Follette v. Padilla, CPF-17515931, 2018 WL 3953766, at *3 (Cal. Super. Ct. Mar. 5, 2018) (holding that California
Election Code ballot signature-mismatch provision facially violates due process);
cf. Susie Armitage, Handwriting Disputes Cause Headaches for Some Absentee Voters,
ProPublica
(Nov. 5, 2018),
www.propublica.org/article/handwriting-disputes-cause16

[J-96-2020] [MO: Baer, J.] - 9

73

courts have found that the administrative burden of a notice-and-cure remedy is
outweighed by the threat to the fundamental rights of voters whose ballots otherwise
would not be counted.
While one might hope that the General Assembly would revisit the issue and
consider furnishing such a procedure on its own initiative, this Court has the prerogative
to address this problem if it proves worthy upon closer examination. As a “state court
with the power to assure uniformity,” we have the authority, and indeed the obligation, to
direct the canvassing of absentee and mail-in ballots in a manner that satisfies “the
rudimentary requirements of equal treatment and fundamental fairness” when we find a
palpable failure to meet those constitutional thresholds.17 Regardless, Petitioners do not
bring a discrete challenge to the Commonwealth’s prescribed processes for examining
the validity of signatures on ballot envelopes, so resolution of that question must wait.18
Turning finally to Count IV, I agree wholeheartedly with the Majority’s analysis. I
write separately to underscore that this case illustrates most consequentially the potential
for mischief, albeit well-meaning, when we are called upon to question the “true” meaning
of the General Assembly’s contextually ambiguous use of the word “shall.” In my view,

headaches-for-some-absentee-voters (discussing legal challenges to signature-match
laws).
17

Bush v. Gore, 531 U.S. 98, 109 (2000) (per curiam).

During the pendency of this appeal, Secretary Boockvar issued a guidance
document that, in furtherance of “consistency across the 67 counties,” instructs election
officials that “[t]he Pennsylvania Election Code does not authorize the county board of
elections to set aside returned absentee or mail-in ballots based solely on signature
analysis by the county board of elections.” Guidance Concerning Examination of
Absentee and Mail-In Ballot Return Envelopes at 3 (Sept. 11, 2020) www.dos.pa.gov/
VotingElections/OtherServicesEvents/Documents/Examination%20of%20Absentee%20
and%20Mail-In%20Ballot%20Return%20Envelopes.pdf.
18

[J-96-2020] [MO: Baer, J.] - 10

74

there are times when this Court has done so gratuitously. But far more frequently, this
unfortunate circumstance is foisted upon us by the choices made by the General
Assembly during the often tortuous drafting process,
The difficulty inherent in that enterprise, and concomitantly the risk that we will
misconstrue legislative intent, is clear. In searching for methods to remove the guesswork
from such situations, Pennsylvania courts have labored mightily but in vain to fashion a
coherent organizing principle for determining when the legislature meant “you may” when
it said “you must.”
For example, the Superior Court once suggested that the distinction inheres in “the
effect of non-compliance . . . . A provision is mandatory when failure to follow it renders
the proceedings to which it relates illegal and void; it is directory when the failure to follow
it does not invalidate the proceedings.”19

But where the court considers the

consequences of a failure to perform a task stated in mandatory language, this distinction
is nonsensical: we cannot gauge the effect of non-compliance simply by asking what the
effect of non-compliance is. In Bell v. Powell, we proposed an equally confounding
alternative:
[Shall] may be construed to mean ‘may’ when no right or benefit to any one
depends on its imperative use, when no advantage is lost, when no right is
destroyed, when no benefit is sacrificed, either to the public or to any
individual, by giving it that construction, or when it is absolutely necessary
to prevent irreparable mischief, or to construe a direction so that it shall not
interfere with vested rights, or conflict with the proper exercise of power by
either of the fundamental branches of government . . . .20

Borough of Pleasant Hills v. Carroll, 125 A.2d 466, 469 (Pa. Super. 1956) (en
banc) (emphasis in original).
19

20

Commonwealth ex rel. Bell v. Powell, 94 A. 746, 748 (Pa. 1915) (cleaned up).
[J-96-2020] [MO: Baer, J.] - 11

75

This impenetrable passage suggests nothing to me so much as that we are free to do
whatever we want only when what we do does not matter.
To be sure, there may be value in legislating in both mandatory and directory
terms. But no benefit is served by, nor is there any excuse for, rendering the distinction
opaque with critical omissions, such as the failure to specify a specific consequence for
failing to adhere to a particular mandate—especially where, as in the case of naked
ballots, the legislature did so for closely related, if not constructively identical, correlative
statutory provisions.

The General Assembly must endeavor always to distinguish

between what it intends to be mandatory and what directory, in its words or by clear and
necessary inference. When it fails to do so, courts are left to bend unclear texts toward
whatever ends that they believe to be consonant with legislative intent, but with little or
no contemporaneous insight into whether they have done so successfully. When the
General Assembly does not choose its words carefully according to their intended effect,
it leaves courts with no choice but to sharpen what the drafters made dull.
For this Court’s part, if we are to maintain a principled approach to statutory
interpretation that comports with the mandate of our Statutory Construction Act, if we are
to maximize the likelihood that we interpret statutes faithfully to the drafters’ intended
effect, we must read mandatory language as it appears, and we must recognize that a
mandate without consequence is no mandate at all. If the result, at times, is that the
Court imposes a more doctrinaire result than the legislature intended, that body has the
tools at its disposal to ensure that the same mistake does not recur.

[J-96-2020] [MO: Baer, J.] - 12

76

[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

77

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] [MO: Baer, J.] - 2

78

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING AND DISSENTING OPINION
JUSTICE DONOHUE

DECIDED: September 17, 2020
I.

I join the Majority’s opinion as to Parts I, II, and III(A), III(C), III(D) and III(E).
II.
With respect to Part III(B), I agree that Petitioners are entitled to relief, but I
distance myself from the Majority’s analysis to reach this conclusion as well as the specific
relief granted. Petitioners base their request for relief on the infringement of the rights
afforded by Article 1, Section 5 of the Pennsylvania Constitution, our Free and Equal
Elections Clause.1 In my mind, the issue must be framed as an as-applied challenge,

1

Article I, Section 5 of the Pennsylvania Constitution provides as follows:

[J-96-2020] [MO: Baer, J.] - 3

79

during the duration of the COVID-19 public health crisis and current USPS service
standards, to the constitutionality of Sections 3150.12a(a) and 3150.16(c) of Act 77, which
respectively set the last date on which voters may request mail-in ballots and the deadline
for when ballots must be received by county boards of elections. With deference to my
learned colleagues, I believe that this issue should have been decided in a case in this
Court’s original jurisdiction under Act 77, Michael Crossey et al, v. Kathy Bookckvar, et
al., No. 108 MM 2020, where the claims likewise were based on the Free and Equal
Elections clause and in which this Court ordered the creation of a complete evidentiary
record to determine whether the petitioners there had met their high burden to prove the
existence of a constitutional injury entitling them to relief.
Despite invoking an as-applied constitutional challenge in the present case,
Petitioners and the Secretary (as in Crossey) seek equitable relief in the form of an order
permitting non-compliance with the received-by provision in Act 77 (Section 3150.16(c))
during the COVID-19 pandemic. I am not as comfortable as the Majority with the ability
of this Court to exercise equitable powers in election matters.2

Because they are

Elections shall be free and equal; and no power, civil or
military, shall at any time interfere to prevent the free exercise
of the right of suffrage.
Pa. Const., art. 1, § 5.
Section 3046 of the Election Code provides courts of common pleas with authority, with
some latitude, to make rulings on Election Day to secure compliance with the election
laws. 25 P.S. § 6046. Specifically, a judge or judges from each county will remain in
session on Election Day to “act as a committing magistrate for any violation of the election
laws; shall settle summarily controversies that may arise with respect to the conduct of
the election; shall issue process, if necessary, to enforce and secure compliance with the
election laws; and shall decide such other matters pertaining to the election as may be
necessary to carry out the intent of this act.” Id. The Commonwealth Court relied on
Section 3046 in deciding In re General Election-1985, 531 A.2d 836 (Pa. Commw. 1987)
2

[J-96-2020] [MO: Baer, J.] - 4

80

inherently political, elections are appropriately regulated by the political branch. In re
Guzzardi, 99 A.3d 381, 385 (Pa. 2014). As such, out of respect for legislatures and for
the sake of regularity and orderliness in the election process, the supreme courts of our
sister states have routinely held that courts cannot exercise equitable powers to mitigate
harsh results in derogation of legislative requirements for strict compliance with electionrelated deadlines. Butts v. Bysiewicz, 5 A.3d 932, 947 (Conn. 2010) (“Equity only applies
in the absence of a specific statutory mandate.”); see also Martin v. Secretary of State,
755 N.W.2d 153, 154 (Mich. 2008); Smith v. Kiffmeyer, 721 N.W.2d 912, 914–15 (Minn.
2006); Andrews v. Secretary of State, 200 A.2d 650, 651 (Md. 1964). Following the leads
of these courts, in 2014, this Court denied equitable relief to a litigant in an election case,
holding as follows:
[T]he judiciary should act with restraint, in the election arena,
subordinate to express statutory directives. Subject to
constitutional limitations, the Pennsylvania General Assembly
may require such practices and procedures as it may deem
necessary to the orderly, fair, and efficient administration of
public elections in Pennsylvania.
At least where the
Legislature has attached specific consequences to particular
actions or omissions, Pennsylvania courts may not mitigate
the legislatively prescribed outcome through recourse to
equity.
Guzzardi, 99 A.3d at 385. The Court recently reaffirmed our decision in Guzzardi.
Reuther v. Delaware Cty. Bureau of Elections, 205 A.3d 302, 308-09 (Pa. 2019).

(in light of a flood occurring on election day, the court of common pleas had the authority
to suspend voting in certain districts until the emergency was over), appeal denied, 544
A.2d 963 (Pa. 1988).
The Majority relies on In re General Election-1985 to support our broad equitable powers
to act in this case despite the limitations in Section 3046.
[J-96-2020] [MO: Baer, J.] - 5

81

Without the availability of equitable relief, it is my view that Petitioners are entitled
to relief only in the context of an as-applied constitutional challenge.

Specifically,

Petitioners must prove that in light of the existing circumstances, the short seven-day
timeframe established by Sections 3150.12a(a) and 3150.16(c) of Act 77 provides
insufficient time for a voter to request a mail-in ballot (by October 27, 2020) and return it
to a county board of elections by the statutorily set received-by date (8:00 p.m. on Election
Day, November 3, 2020), so that the vote is counted. Such a constitutional challenge
requires a plain showing of injury.

“There is a presumption that lawfully enacted

legislation is constitutional. Should the constitutionality of legislation be challenged, the
challenger must meet the burden of rebutting the presumption of constitutionality by a
clear, palpable and plain demonstration that the statute violates a constitutional
provision.” Yocum v. Commw. of Pennsylvania Gaming Control Bd., 161 A.3d 228, 238
(Pa. 2017).
In Crossey, the petitioners produced sufficient evidence to meet this high “clear,
palpable and plain” burden of proof. Given the deadlines set for the request of and
subsequent return of ballots, considered in light of the pandemic and current lagging
USPS service standards (which are highly unlikely to improve significantly before Election
Day), the evidence in Crossey established that there is a strong likelihood that voters who
wait until the last day to apply for a mail-in or absentee ballot will be disenfranchised, as
their mail-in ballots will not be delivered by Election Day and thus will not be counted.
Thus, the short seven-day window set forth in Sections 3150.12a(a) and 3150.16(c) of
Act 77 constitutes an interference with the free exercise of the right to vote as guaranteed
by our Free and Equal Elections Clause. The evidentiary linchpin for establishing the

[J-96-2020] [MO: Baer, J.] - 6

82

unconstitutionality of the seven-day time frame was correspondence from Thomas J.
Marshall, General Counsel and Executive Vice President for the USPS, to Secretary
Boockvar dated July 29, 2020 advising that the current service standards for delivery of
First Class Mail is two to five days, and cautioning that Pennsylvania’s application and
return deadlines for mail-in ballots are such that despite prompt actions by voters, the
ballots may “not be returned in time to be counted.” The letter was accepted into evidence
in Crossey and was further supported by the testimony of the Deputy Postmaster at the
time the correspondence was crafted.
The existence of the constitutional injury suffered by virtue of adherence to the
statutory deadlines for request and return of ballots is illustrated in the following chart,
which incorporates the fact of receipt by the board of elections of an application on the
statutory deadline of October 27, 2020.

It also assumes that the application is

immediately processed and a ballot mailed to the voter within forty-eight hours of receipt
of the application.3 I further take into account that mail is processed by USPS but not
delivered on Sundays. All computations are based on the use of First-Class Mail:
DATE
BALLOT
MAILED
BY
BOARD

DELIVERY
TIME (in
days)

Thursday,
10/29/2020

2

DATE
BALLOT IS
RECEIVED
BY VOTER

DATE
BALLOT IS
MAILED
BACK BY
VOTER
Saturday,
10/31/2020

DELIVERY
TIME (in
days)

DATE BALLOT IS
RECEIVED BY
BOARD

BALLOT
RECEIVED
IN TIME TO
BE
COUNTED?

2

Monday, 11/2/2020

YES

3

Tuesday, 11/3/2020

YES

In this regard, we note that 25 P.S. § 3150.15 provides that county boards of elections
must deliver the ballots to the voters within forty-eight hours after approval of the
application. See 25 P.S. § 3150.15 (“As additional applications are received and
approved, the board shall deliver or mail official mail-in ballots to the additional electors
within 48 hours.”).
3

[J-96-2020] [MO: Baer, J.] - 7

83

Saturday,
10/31/2020

Saturday,
10/31/2020

Monday,
11/2/2020

Monday,
11/2/2020

3-4

Monday,
11/2/2020

Monday,
11/2/2020

5

Tuesday,
11/3/2020

Monday,
11/2/2020

Tuesday,
11/3/2020
Wednesday,
11/4/2020

4

Wednesday,
11/4/2020

NO

5

Thursday, 11/5/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday, 11/5/2020

NO

4

Friday, 11/6/2020

NO

5

Saturday, 11/7/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday, 11/5/2020

NO

4

Friday, 11/6/2020

NO

5

Saturday 11/7/2020

NO

2-5

(After Election Day)

NO

2-5

(After Election Day)

NO

2-5

(After Election Day)

NO

The only way the current statutory framework works is if the ballot is delivered by USPS
in two days, the voter immediately returns the ballot, and it is received by the board of
elections within three days. All other voters who comply with the statutory framework are
disenfranchised, even though they complied with the statute.
The role of the judiciary when a meritorious constitutional challenge is brought
“includes the obligation to vindicate” the constitutional rights at issue, and in doing so
courts have wide latitude to craft an appropriate remedy.”

Robinson Twp. v.

Commonwealth, 83 A.3d 901, 953 (Pa. 2013); see also League of Women Voters of Pa.
v. Commonwealth, 178 A.3d 737, 793 (Pa. 2018) (“The Court possesses broad authority
to craft meaningful remedies [for constitutional violations] when required.”). Where, as

[J-96-2020] [MO: Baer, J.] - 8

84

here, “a legislatively unforeseen constitutional problem requires modification of a statutory
provision as applied,” the United States Supreme Court has admonished courts to look
to legislative intent when devising a remedy. See United States v. Booker, 543 U.S. 220,
246-47 (2005) (after ruling that federal sentencing statute that made guidelines
mandatory was unconstitutional, the Court made an effort to determine what “‘Congress
would have intended’ in light of the Court’s constitutional holding.” Id. at 246-47.
In Crossey (and in the present case), Petitioners recommend that the “received
by” date be moved from Election Day to seven days after Election Day, so long as the
mailing is postmarked by Election Day. In Crossey (and here), Secretary Boockvar
believes that moving the received-by day forward by three days is sufficient, and that
Petitioners’ longer time period would in fact interfere with other important functions that
must take place after Election Day. In crafting a remedy for an as-applied constitutional
violation, a court’s duty is to effectuate the intent of the General Assembly to the extent
possible and to otherwise not disrupt the statutory scheme. In light of these principles, I
do not believe that either of the parties’ recommended remedies provide the appropriate
solution.
There is no reasonable reading of the statute that would lead to the conclusion that
the Tuesday before Election Day was of any institutional importance. Instead, the clear
legislative intent was that all ballots were to be cast by 8:00 p.m. on Election Day, the
termination of the balloting process. It cannot be viewed as a coincidence that the closing
of the polls terminating in-person voting and the receipt of mail-in ballots were designated
by the statute to be the same. The last date on which applications for ballots would be
accepted was tied to an assumption that a timely vote could be cast before the only

[J-96-2020] [MO: Baer, J.] - 9

85

meaningful milestone, Election Day. As a result, the remedy to best effectuate the
legislative intent before the intervening circumstances is to move back, i.e., make earlier,
the final date on which applications for mail-in ballots may be submitted to the county
boards of elections. I would accept Secretary Boockvar’s opinion that three additional
days will substantially correct the problem. However, moving back by three days the
deadline for the receipt of applications by the boards of elections would result in that
deadline falling on Saturday. Instead, to reflect normal business days, the deadline for
receipt of the application by the boards of election should be moved to Friday, October
23, 2020. The received-by date for the ballot by the boards of elections, Election Day by
8:00 p.m., should remain unchanged.
For comparison, the following chart illustrates the new deadlines interfaced with
current USPS delivery standards:
DATE
BALLOT
MAILED BY
BOARD

DELIVERY
TIME (in
days)

DATE
BALLOT
RECEIVED
BY VOTER

DATE
BALLOT
MAILED BY
VOTER

Wednesday,
10/28/2020

Wednesday,
10/28/2020

2

DELIVERY
TIME (in
days)

DATE BALLOT
RECEIVED BY
BOARD

2
3
4
5

Friday, 10/30/2020
Saturday, 10/31/2020
Monday 11/2/2020
Monday 11/2/2020

BALLOT
RECEIVED IN
TIME TO BE
COUNTED?
YES
YES
YES
YES

2

Saturday, 10/31/2020

YES

3

Monday, 11/2/2020

YES

4

Monday, 11/2/2020

YES

5

Tuesday, 11/3/2020

YES

2

Monday, 11/2/2020

YES

Wednesday,
10/28/2020
Monday,
10/26/2020

Thursday,
10/29/2020
Thursday,
10/29/2020
3
Thursday,
10/29/2020

Friday,
10/30/2020

[J-96-2020] [MO: Baer, J.] - 10

86

3

Monday, 11/2/2020

YES

4

Tuesday, 11/3/2020

YES

5

Wednesday, 11/4/2020

NO

2

Monday, 11/2/2020

YES

3

Tuesday, 11/3/2020

YES

4

Wednesday, 11/4/2020

NO

5

Thursday, 11/5/2020

NO

2-5

(After Election Day)

NO

Friday,
10/30/2020
4
Friday,
10/30/2020
Saturday,
10/31/2020
Saturday,
10/31/2020
5
Saturday,
10/31/2020

Monday,
11/2/2020

As with the previous illustration, I assume that county boards of elections will process and
send out the ballots within forty-eight hours of receipt. Whether this is possible, likely or
impossible is apparently immaterial, since Secretary Boockvar, with knowledge of the
capacities of the county boards of elections, recommended a three-day extension, so I
assume that it accounted for this factor.
As required when remedying an as-applied constitutional defect, this remedy is the
least disruptive to the enacted statutory scheme. The problem to be remedied here is
that the seven-day period to complete the mail-in vote process has been rendered
unworkable by the current extraordinary circumstances. I have no doubt that the statute
was intended to accommodate the realities as they existed when Act 77 was enacted. It
is unconstitutional as applied to the November 2020 general election because of current
realities.
[J-96-2020] [MO: Baer, J.] - 11

87

For these reasons, in connection with the November 2020 general election only,
the deadline for requesting a ballot should be moved to Friday, October 23, 2020.4 The
legislative choice of Election Day at 8:00 p.m. should remain intact.
In summary, I agree with the Majority that the received-by date for ballot
applications in light of the deadline for submission of ballots to the county boards of
election is unworkable under current circumstances. I dissent from the invocation of
equitable powers to craft a remedy. In my view, this issue should have been decided on
the evidentiary record developed in Crossey based on the analytical framework for an asapplied challenge to the constitutionality of the statutory provisions as violative of Article
1, Section 5 of our Constitution, with the remedy crafted based upon the legislative intent
in enacting the circumstantially defective statutes.
Chief Justice Saylor and Justice Mundy join Part II of this concurring and dissenting
opinion.

To the extent that the non-severability clause in Section 11 of Act 77, 1 Pa.C.S. § 1925
is enforceable, I do not view the election specific remedies at issue here as-applied
constitutional violation as triggering the draconian consequence. In the context of the
COVID-19 pandemic, applying the non-severability provision to void Act 77 in its entirety
would itself be unconstitutional, as it would disenfranchise a massive number of
Pennsylvanians from the right to vote in the upcoming election.
4

More broadly, in Stilp v. Commonwealth, 905 A.2d 918, 978 (Pa. 2006), this Court
declined to apply an identically worded non-severability provision, id. at 973, refusing to
allow the General Assembly to “dictate the effect of a judicial finding that a provision in an
act is ‘invalid.’” Id. at 976. Here, as in Stilp, Act 77’s boilerplate non-severability provision
“sets forth no standard for measuring non-severability, but instead simply purports to
dictate to the courts how they must decide severability.” Id. at 973.
[J-96-2020] [MO: Baer, J.] - 12

88

[J-96-2020][M.O. - Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:

89

COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020][M.O. - Baer, J.] - 2

90

OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING AND DISSENTING OPINION
CHIEF JUSTICE SAYLOR

DECIDED: September 17, 2020

I join Parts I, II, and III(C), (D) and (E) of the majority opinion, and I respectfully
dissent relative to Parts III(A) and (B), concerning the approval of unmanned drop boxes
and the extension of the deadline for receiving mail-in ballots.
With regard to drop boxes, I agree with Respondent and the Caucus that the
statutory option for a voter to deliver a mail-in ballot “in person to said county board of
election” contemplates in-person delivery to a manned, office location.

25 P.S.

§3150.16(a). Although another provision of the Election Code contemplates receipt of
“ballot boxes and returns . . . in such other place as has been designated by the board”
on Election Day, id. §3151, no analogous provision applies to the submission by voters
of individual ballots. Moreover, the legislative policy to restrain aggregated handling of

[J-96-2020][M.O. - Baer, J.] - 3

91

mail-in ballots by third parties is manifest, see, e.g., id. §3150.16(a) (requiring the elector
to mail or deliver a ballot), and the enforceability of this policy is weakened by the use of
non-statutory, unmanned drop boxes. This, to me, this suggests against a permissive
interpretation of the Election Code.
Relative to the deadline for receiving mail-in ballots, I join Part II of Justice
Donohue’s concurring and dissenting opinion, as this most closely hews to the express
legislative intent that the election be concluded by 8:00 p.m. on election night.
Finally, although the majority decision appears to be designed to accommodate
only ballots actually mailed on Election Day or before, the majority does not so much as
require a postmark. Particularly in combination with the allowance of drop boxes, this
substantially increases the likelihood of confusion, as well as the possibility that votes will
be cast after 8:00 p.m. on Election Day, thus greatly undermining a pervading objective
of the General Assembly.
Justice Mundy joins this concurring and dissenting opinion.

[J-96-2020][M.O. - Baer, J.] - 4

APPENDIX B

92

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
: Emergency Applications for Stay
:
:
:
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

93

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD OF
ELECTIONS; PERRY COUNTY BOARD OF
ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

94

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

ORDER
PER CURIAM
AND NOW, this 24th day of September, 2020, the Applications for Stay submitted
in the above captioned case are DENIED.
Justice Mundy files a dissenting statement.

95

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
: Emergency Applications to Stay
:
:
:
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

96

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD OF
ELECTIONS; PERRY COUNTY BOARD OF
ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

97

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

DISSENTING STATEMENT
JUSTICE MUNDY

FILED: September 24, 2020

In my view, Intervenors1 make a substantial case on the merits that this Court
should stay the portion of our opinion extending the deadline for receipt of mail-in ballots
past 8:00 p.m. on November 3, 2020, Election Day.2 In Pennsylvania Democratic Party
v. Boockvar, ___ A.3d ___, 2020 WL 5554644 (Pa. 2020), a majority of this Court held
that all mail-in ballots postmarked by 8:00 on Election Day, and received by 5:00 p.m.
Intervenors refers to the Republican Party of Pennsylvania and Joseph B. Scarnati III,
President Pro Tempore, Jake Corman, Majority Leader of the Pennsylvania Senate,
Bryan Cutler, Speaker of the Pennsylvania House of Representatives, and Kerry
Benninghoff, Majority Leader of the Pennsylvania House of Representatives.
1

A stay may be granted where Petitioners, “make a substantial case on the merits and
show that without the stay, irreparable injury will be suffered. Additionally, before granting
a request for a stay, the court must be satisfied the issuance of the stay will not
substantially harm other interested parties in the proceedings and will not adversely affect
the public interest.” Maritrans G.P., Inc. v. Pepper, Hamilton & Scheetz, 573 A.2d 1001,
1003 (1990).
2

98

November 6, 2020, even those lacking a postmark or bearing an illegible postmark, would
be counted. Id. at *37. Without further explanation, the majority qualified that such ballots
“will be presumed to have been mailed by Election Day unless a preponderance of the
evidence demonstrates that it was mailed after Election Day.” Id. The Republican Party
of Pennsylvania Intervenors argue that virtually no evidence exists to overcome such a
presumption, and “the Court’s presumption opens the door to illegally and untimely cast
or mailed ballots being counted in, and tainting the results of, the imminent general
election in which millions of Pennsylvanians will exercise their right to vote.” Republican
Party of Pennsylvania Application for Partial Stay at 4.
Intervenors assert that there is a substantial likelihood that they will be successful
on the merits of the stay application and writ of certiorari to be filed in the United States
Supreme Court. Citing to Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct.
1205 (2020), Intervenors note that the United States Supreme Court stayed a Wisconsin
Supreme Court judgment and held that “[e]xtending the date by which ballots may be cast
by voters after the scheduled election day fundamentally alters the nature of the election.”
Id. at 1207. It is reasonable that the United States Supreme Court may view this Court’s
presumption regarding ballots lacking a postmark or bearing an illegible postmark in the
same light. As a result, I would grant a stay to preserve the public confidence in the
integrity of the upcoming election.

APPENDIX C

99
Filed 09/07/2020 Supreme Court Middle District
Commonwealth Court Filed 09/07/2020

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
Michael Crossey, Dwayne Thomas,
Irvin Weinreich, Brenda Weinreich,
and the Pennsylvania Alliance
for Retired Americans,
Petitioners
v.
Kathy Boockvar, Secretary of the
Commonwealth, and Jessica Mathis
Director of the Bureau of Election
Services and Notaries,
Respondents

:
:
:
:
:
:
:
:
:
:
:
:
:

266 M.D. 2020

AMENDMENT ORDER
AND NOW this 7th day of September, 2020, the Recommended Findings of
Fact and Conclusions of Law filed by the Court in the above-captioned matter on
September 4, 2020, is amended to reflect the following corrections:
Page 3, footnote 4, line 1, clause 1 should read as follows:
Article I, Section 5 1 of the Pennsylvania Constitution provides:
Page 14, paragraph no. 7 should read as follows:
Dr. Eisenberg acknowledged the CDC [Centers for Disease
Control and Prevention] has adopted “interim guidance for
ensuring various voting options, encouraging physical
distancing, personal prevention practices, and employing
environmental cleaning and disinfection to lower COVID-19
transmission during elections.” N.T. 307 (quoting Senate
Intervenors Ex.17 at 2).

100

Pages 29-30, Conclusion of Law No. 1 should read as follows:
The deadline for receipt of absentee and mail in ballots by 8:00
p.m. on Election Day represents a policy choice made by the
legislative and executive branches in the enactment of Act 77.
The deadline for mailed-in ballots has always been by date of
receipt, not date of submission to the USPS. This deadline was
first adopted for absentee ballots. See Section 22 of the Act of
August 13, 1963, P.L. 707 (effective January 1, 1964). The same
type deadline was adopted in Act 77 for mail-in ballots. See
Section 1306-D(c) of the Election Code, 25 P.S. §3150.16(c).
Page 32, citation on lines 3-4 should read as follows:
See generally In re Fortieth Statewide Investigation
Investigative Grand Jury, 197 A.3d 712, 721 (Pa. 2018)
Page 32, first full paragraph, first sentence should read as follows:
Moreover, “‘[i]t is a mistake to suppose[] that a court of equity
is amenable to no law, either common or statute, and assumes the
rule [role] of an arbitrary legislator in every particular case.’
Page 37, first paragraph, first sentence should read as follows:
The 8:00 p.m. Election Day deadline for returning absentee and
mail-in ballots has been in existence since 1964 applies to those
who vote in person and those who vote by absentee and mailin ballots.12
In all other respects, the Court’s Recommended Findings of Fact and
Conclusions of Law remain the same. The attached copy incorporates the
corrections listed above.
s/Mary Hannah Leavitt
MARY HANNAH LEAVITT, President Judge

Order Exit
09/07/2020

101

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
Michael Crossey, Dwayne Thomas,
Irvin Weinreich, Brenda Weinreich,
and the Pennsylvania Alliance
for Retired Americans,
Petitioners
v.
Kathy Boockvar, Secretary of the
Commonwealth, and Jessica Mathis
Director of the Bureau of Election
Services and Notaries,
Respondents

:
:
:
:
:
:
:
:
:
:
:
:
:

266 M.D. 2020

RECOMMENDED FINDINGS OF FACT
AND CONCLUSIONS OF LAW
I. Introduction
On April 22, 2020, the Pennsylvania Alliance for Retired Americans
and four individuals, two of whom are members of the Alliance (collectively,
Petitioners), filed a Petition for Declaratory and Injunctive Relief (Petition) against
the Secretary of the Commonwealth, Kathy Boockvar, and the Director of the
Bureau of Election Services and Notaries, Jessica Mathis (collectively, Secretary) in
this Court. Anticipating disruptions to the June 2, 2020, primary election from the
COVID-19 pandemic, the Petition raised, inter alia, constitutional claims about
provisions of the Pennsylvania Election Code (Election Code) 1 related to mail-in
ballots, which is a method of voting that the General Assembly added to the Election
Code by the Act of October 31, 2019, P.L. 552, No. 77 (Act 77). Petitioners filed a
May 8, 2020, Emergency Application for Special Relief in the Nature of a

1

Act of June 3, 1937, P.L. 1333, as amended, 25 P.S. §§2600-3591.

102

Preliminary Injunction and for Expedited Review (Preliminary Injunction
Application).
This Court held a pre-hearing telephone conference call on the
Preliminary Injunction Application, during which the Secretary confirmed her
intention to challenge this Court’s jurisdiction over the Petition in her preliminary
objections.

The parties agreed to bifurcate the issue of jurisdiction over the

Preliminary Injunction Application from the merits. After briefing by the parties
and intervenors,2 this Court denied the Preliminary Injunction Application on May
28, 2020, on the basis that Petitioners were not likely to prevail on the issue of this
Court’s jurisdiction.
On June 17, 2020, this Court issued an opinion and order transferring
the matter to the Supreme Court of Pennsylvania. This Court agreed with the
Secretary that the Petition’s claims fell within the Supreme Court’s exclusive
jurisdiction over constitutional challenges to Act 77 under Section 13(b) of Act 77.3
Crossey v. Boockvar (Pa. Cmwlth., No. 266 M.D. 2020, filed June 17, 2020).

2

After this Court transferred the matter to the Supreme Court, the Supreme Court granted the
applications for leave to intervene filed on behalf of President Pro Tempore Joseph B. Scarnati,
III, and Majority Leader of the Senate Jake Corman (collectively, Senate Intervenors) and on
behalf of the Speaker of the House of Representatives Bryan Cutler and House Majority Leader
Kerry Benninghoff (House Intervenors). See Crossey v. Boockvar (Pa., No. 108 MM 2020, filed
August 21, 2020).
The Supreme Court denied the application for leave to intervene filed by the Republican
Party of Pennsylvania, the Republican National Committee, and the National Republican
Congressional Committee. Id.
3
Specifically, this Court concluded that the Petition challenged Sections 1306 and 1306-D of the
Election Code. These sections relate to the date, time, and manner by which absentee or mail-in
ballots must be returned to the county boards of elections. They are listed in Section 13(b) of Act
77 as sections over which the Supreme Court had exclusive jurisdiction if a challenge was brought
within 180 days of Act 77’s effective date.

103

The Supreme Court accepted the transfer at 108 MM 2020 and granted
Petitioners’ Application for Leave to File an Amended Petition by July 13, 2020.
The Amended Petition for Review (Amended Petition) sets forth constitutional
claims arising from the Secretary’s failure (1) to allow the return of absentee and
mail-in ballots after the 8:00 p.m. Election Day deadline, because of alleged
backlogs in the application process and delays by the United States Postal Service
(USPS) in mail delivery; (2) to provide prepaid postage on mail-in ballots; and (3)
to allow voters to obtain third-party assistance in the return of mail-in ballots. The
Amended Petition alleges that the Secretary’s failure to implement such procedures
violates Article I, Sections 1,4 5, 5 and 26 6 of the Pennsylvania Constitution.
Petitioners request the Supreme Court to declare that the above-listed barriers to
voting by mail violate their constitutionally protected right to free access to a free
and equal election during the pandemic. Petitioners request the Supreme Court to
order the Secretary to implement additional safeguards for the November 3, 2020,
general election and any other election held during the pandemic. These proposed
safeguards include providing prepaid postage on all absentee and mail-in ballots;
counting ballots delivered after the statutory deadline of 8:00 p.m. Election Day; and
authorizing third-party assistance in the collection and submission of absentee and

4

Article I, Section 1 of the Pennsylvania Constitution provides: “All men are born equally free
and independent, and have certain inherent and indefeasible rights, among which are those of
enjoying and defending life and liberty, of acquiring, possessing and protecting property and
reputation, and of pursuing their own happiness.” PA. CONST. art. I, §1.
5
Article I, Section 5 of the Pennsylvania Constitution provides: “Elections shall be free and equal;
and no power, civil or military, shall at any time interfere to prevent the free exercise of the right
of suffrage.” PA. CONST. art. I, §5.
6
Article I, Section 26 of the Pennsylvania Constitution provides: “Neither the Commonwealth nor
any political subdivision thereof shall deny to any person the enjoyment of any civil right, nor
discriminate against any person in the exercise of any civil right.” PA. CONST. art. I, §26.

104

mail-in ballots to the extent the latter two measures do not trigger Act 77’s nonseverability provisions.
The Secretary and Intervenors filed preliminary objections to the
Amended Petition.7 Prior to disposition thereof, the Supreme Court issued an
August 26, 2020, order appointing the undersigned as Special Master and directing
the Court “to create an evidentiary record on claims raised in this case including the
ability of the United States Postal Service to comply with deadlines for the
November 3, 2020 general election.” Crossey v. Boockvar (Pa., No. 108 MM 2020,
filed August 26, 2020). The Supreme Court directed this Court to file with the
Prothonotary of the Supreme Court its proposed findings of fact and conclusions of
law and recommended disposition no later than Friday, September 4, 2020. Id.
On August 27, 2020, this Court issued a case management order that
directed the parties and intervenors to file pre-hearing statements by Friday, August
28, 2020. It scheduled a pre-hearing telephone conference for Saturday, August 29,
2020, and an evidentiary hearing for August 31, 2020. It also ordered that the parties

7

The Secretary objected on the basis that the Amended Petition (1) fails to state a constitutional
claim because its allegations are hypothetical; (2) the Alliance lacks standing as an organization
and asserts claims not ripe for review; and (3) fails to join indispensable parties, i.e., the county
boards of elections. The Secretary also objected on the basis that the Commonwealth enjoys
sovereign immunity that bars mandatory injunctive relief.
On August 13, 2020, the Secretary withdrew her preliminary objections that the Amended
Petition did not state a constitutional violation and was not ripe for review.
Senate Intervenors objected on the basis of (1) lack of jurisdiction and ripeness; (2) failure
to join the county boards of elections as indispensable parties; (3) the claims raise non-justiciable
political questions; (4) failure to conform to law; (5) insufficient specificity of the pleadings; and
(6) lack of capacity to sue.
House Intervenors objected on the basis of (1) lack of standing of the Alliance because it
does not vote; (2) failure to state a constitutional violation; (3) failure to present a justiciable claim;
and (4) failure to join indispensable parties.

105

and intervenors file and serve proposed findings of fact and conclusions of law by
September 2, 2020, 9:00 a.m.
II. Evidentiary Hearing of August 31, 2020
The Court summarizes the hearing testimony and documentary
evidence as follows.
A. Petitioners’ Witnesses 8
1. Ronald Stroman
1.

Ronald Stroman served as Deputy Postmaster General from 2011 to June
2020. Notes of Testimony, [Aug. 31, 2020,] 13-15 (N.T. ____).

2.

He holds a B.A. in government from Manhattan College and a J.D. from
Rutgers University. N.T. 13.

3.

Mr. Stroman was a member of the USPS Board of Governors, which
oversees the strategic direction of the USPS. He served on the Postmaster
General’s Executive Leadership Team, which implements the directions of
the Board of Governors. N.T. 15.

4.

Mr. Stroman had responsibility to improve the communications between the
USPS, election officials and the election mail community; to improve the
internal training for USPS employees on election mail; and to develop a
system for rapid response to election mail issues. N.T. 17; Petitioners’ Ex.
32.

8

The Court took witnesses out of order so that the testimony relevant to each issue was addressed
at the same time. The Court further notes that the transcript of the evidentiary hearing is
incomplete. Paragraphs 16, 39, and 40 of the summary of Mr. Stroman’s testimony is based upon
the notes of the court and staff, not the transcript. On September 4, 2020, a corrected transcript
was filed with the Court. The citations herein refer to the transcript filed with the Court on
September 1, 2020.

106

5.

The Court accepted Mr. Stroman as an expert in the USPS’ operations and
delivery standards, and the application of those delivery standards to voting
by mail. N.T. 19, 25.

6.

Mr. Stroman testified that there are three aspects to the USPS mail process:
retail (local post office), processing and delivery. N.T. 26.

7.

Mail is collected by carriers or at a local post office. All mail is collected
and placed with similar types of mail (e.g., First-Class Mail, Marketing
Mail) and transported to the processing center. At the processing center,
mail is placed in sorting machines to find the correct zip code. If the mail
remains in the same zip code, it is taken to a truck for transportation to a
delivery unit. Carriers and clerks sort the mail by routes, and then the mail
is placed on trucks for delivery to the addressees. N.T. 26-27.

8.

If mail is designated for a location outside the boundaries of the processing
center, it is transported to the appropriate processing center. Upon receipt
there, the same process is used to deliver the mail. Id.

9.

Mr. Stroman was Deputy Postmaster General during the April 2020
Wisconsin primary, and he testified about the investigation the USPS
conducted into its performance during that primary. N.T. 28; Petitioners’
Ex. 4.

10. Mr. Stroman attributed the delay in the receipt of absentee ballots during the
Wisconsin primary election to: (1) the different service standards depending
on the class of mail; and (2) the date upon which a voter requested a ballot.
N.T. 28, 29.
11. Mr. Stroman testified about the July 29, 2020, letter that General Counsel
and Executive Vice President of the USPS, Thomas J. Marshall, sent to

107

Secretary Boockvar.

That letter advised the Secretary that the

Commonwealth’s election law deadlines for requesting and casting mail-in
ballots are incongruous with the USPS’ delivery standards, and that this
mismatch creates a risk that ballots requested near the deadline would not
be returned in time to be counted under the law. N.T. 34; Petitioners’ Ex. 6.
12. The July 29, 2020, letter further advised that there are two main classes of
mail used for ballots: First-Class Mail and Marketing Mail, the latter of
which uses a nonprofit postage rate. Petitioners’ Ex. 6.
13. Mr. Stroman agreed with Mr. Marshall’s statement that voters must use
First-Class Mail (or an expedited service) to mail their ballots and ballot
requests, while election officials may generally use First-Class Mail or
Marketing Mail to mail ballots to voters. N.T. 37.
14. Domestic First-Class Mail has a nationwide delivery standard of 2 to 5 days
upon receipt at the post office. N.T. 38, 75; Petitioners’ Ex. 6, 32, ¶18.
15. Marketing Mail has a nationwide delivery standard of 3 to 10 days upon
receipt at the post office. N.T. 38, 75; Petitioners’ Exs. 6, 32, ¶18.
16. Mr. Stroman agreed that the July 29, 2020, letter does not advocate for
changes in Pennsylvania’s election law to accommodate the USPS’s
delivery standards and was intended to be educational.
17. According to Mr. Stroman, mail delivered within the above-listed standards
is considered timely under normal circumstances. N.T. 38, 39.
18. Mr. Stroman identified three circumstances that he does not consider normal
at this time: the COVID-19 pandemic, new initiatives by the new Postmaster
General and the increase in the volume of mail-in ballots. N.T. 39, 45.

108

19. The pandemic has caused issues with USPS employee availability, which in
turn affects the processing and delivery of mail in both the primary location
and secondary location to which the mail is directed. N.T. 39, 40.
20. In the Pennsylvania June 2, 2020, primary, the pandemic affected the
delivery of mail not only in the Philadelphia region but also in the entire
mail-processing network. N.T. 43, 44.
21. Mr. Stroman testified that the new Postmaster General, Louis DeJoy, issued
a new directive that mail transportation trucks leave at the designated time.
If the mail has not been processed before the scheduled departure, the truck
leaves without all the mail. In a cumulative fashion, this causes delays and
backups on the delivery side of the process. N.T. 45-47, 55.
22. The third factor affecting the delivery standards is the volume of ballots.
States are amending their election laws, which requires the USPS to train its
employees to process election mail. N.T. 47.
23. The above factors will delay the USPS’ ability to meet its delivery standards,
according to Mr. Stroman. N.T. 49.
24. Mr. Stroman testified about Petitioners’ Exhibit 9, which is a Score Breakdown of Presort First-Class Mail on a nationwide basis and shows a decline
in delivery times for three weeks in July 2020. He testified that Petitioners’
Exhibit 9 was consistent with his knowledge of the Postmaster General’s
testimony in recent U.S. House and Senate Hearings.

N.T. 49-51;

Petitioners’ Ex. 9.
25. Exhibit 9 purports to show how close the USPS came to meeting its
performance standards. The decline in the score indicates that the USPS did
not meet its service performance targets. N.T. 52-54.

109

26. Mr. Stroman opined that the USPS’ failure to hit its performance targets has
a compounding effect and that delays in delivery will get worse as time runs.
N.T. 54, 55.
27. Mr. Stroman testified that all ballots returned to the county boards of
elections will be single-piece mailings, which requires them to go through
the sorting process. This may cause delays. N.T. 56, 85, 88.
28. Mr. Stroman testified regarding Petitioners’ Exhibit 28, which is an Areas
Inspiring Mail Chart. The Chart uses a baseline performance standard of
96%, meaning that percentage of time the USPS meets its delivery standard
of 2 to 5 days for First-Class Mail or 3 to 10 days for Mass Marketing Mail.
N.T. 58-63; Petitioners’ Ex. 28.
29. The Chart provides that in the 43rd week, the USPS’ performance rates,
when compared to its intended performance standard of 96%, was 72.86%
for Central Pennsylvania; 85.68% for the Philadelphia Metropolitan area;
and 90.01% for Western Pennsylvania. N.T. 61; Petitioners’ Ex. 28.
30. Mr. Stroman attributed the drop in the performance to the Postmaster
General’s changes in operations. N.T. 60.
31. These numbers mean that the USPS is not meeting its service target rates by
a large margin, according to Mr. Stroman. N.T. 61, 62.
32. Mr. Stroman has a high degree of confidence in the data used in Petitioners’
Exhibit 28 based on his personal knowledge of how the USPS operates and
how such data is retrieved and compiled. N.T. 101-02.
33. Mr. Stroman opined that the USPS cannot improve its performance before
the November 2020 general election. It takes time to fix the problems due

110

to the integrated nature of the USPS’ network and to clear backlogs. N.T.
62, 63.
34. Mr. Stroman opined that there is a significant risk that the USPS will not
meet its First-Class Mail service delivery standards of 2 to 5 days during the
November 2020 election. N.T. 66, 70.
35. Mr. Stroman further observed that not all absentee ballots will be deposited
in the mail from within the Commonwealth. N.T. 71.
36. Mr. Stroman testified that the USPS’ delivery standard is 2 to 5 days within
the Commonwealth, which includes mail deposited in the mail outside of the
Commonwealth. N.T. 76, 77.
37. Mr. Stroman did not know which class of mail Pennsylvania election
officials will use to mail the ballots to voters or the class by which the ballots
will be returned to election officials. He believed that Pennsylvania’s boards
of elections are not using uniform mailing. N.T. 78.
38. Election mail is not separated from the general mail but the USPS attempts
to prioritize it by tagging or coding election mail. N.T. 83, 85.
39. Mr. Stroman agreed that the county boards of elections play a very important
role in getting the ballots to voters on time and are ultimately responsible for
mailing ballots. N.T. 107. The county boards of elections should ensure that
the envelopes used are automation compatible, the proper weight and
properly addressed.
40. Mr. Stroman recommended that voters mail their completed ballots to the
county election board at least 10 days prior to the election.
41. Mr. Stroman testified that it was possible but highly unlikely that a voter
who requested a mail-in ballot the Tuesday before the election could have

111

that ballot mailed to the voter and then received by the county board of
elections before the Election Day 8:00 p.m. deadline.

N.T. 120-22;

Petitioners’ Ex. 32, ¶19.
2. Devon Laudenslager
1.

Devon Laudenslager is a resident of the City of Philadelphia and has been
registered to vote for four years. N.T. 282.

2.

Due to the COVID-19 pandemic, Ms. Laudenslager applied for a mail-in
ballot from her county board of elections on May 5, 2020, and received a
confirmation email the next day that her application had been received. N.T.
282.

3.

On May 15, 2020, Ms. Laudenslager received a second email indicating that
her ballot had been mailed on May 15, 2020, and if she did not receive the
ballot by May 22, 2020, she should contact her board of elections. N.T. 283.

4.

When Ms. Laudenslager did not receive her mail-in ballot by May 22, 2020,
she attempted to contact her board of elections. N.T. 283. Initially, she
received a busy signal and, when the line was not busy, no one answered the
phone and there was no ability to leave a message. N.T. 283-84.

5.

She attempted to locate an alternate phone number to contact the board from
its website, but her attempts to reach the board through alternate phone
numbers were unsuccessful. N.T. 284.

6.

As of May 26, 2020, the deadline to apply for a mail-in ballot, Ms.
Laudenslager had not received her ballot. N.T. 283.

7.

Ms. Laudenslager contacted her state representative’s office, which told her
that it had been in touch with the City of Philadelphia Commissioners

112

Office, and had a list of voters that needed replacement ballots. N.T. 28586.
8.

On June 2, 2020, Ms. Laudenslager went to her polling place to vote because
she had not received her mail-in ballot. N.T. 286.

9.

Her vote was counted. N.T. 286.

10. Ms. Laudenslager received a ballot by mail on June 4, 2020. N.T. 286.
11. Ms. Laudenslager intends to vote in the November 3, 2020, general election
but doubts she will attempt to use a mail-in ballot due to her experience in
the June 2020 primary and her fears that she cannot be assured that her
county board of elections will receive her ballot in time to be counted even
if she receives her ballot timely. N.T. 287-89.
12. Ms. Laudenslager gave two other examples of issues she had with her mail.
She expected a follow-up letter from a graduate school and she received a
letter from the Department of Transportation indicating her license would
be renewed but that she should expect a follow-up letter. She never received
either follow-up letter. N.T. 287.
3. Dr. Joseph Eisenberg
1.

Joseph N.S. Eisenberg, PhD, MPH, is the John G. Searle endowed Chair and
Professor of Epidemiology in the School of Public Health at the University
of Michigan. He also has an adjunct appointment at the Universidad San
Francisco de Quito in Ecuador. He received his PhD in Bioengineering in
the joint University of California, Berkeley/University of California, San
Francisco program, and an MPH from the School of Public Health at the
University of California, Berkeley (focusing on the science of infectious
disease transmission). Petitioners’ Ex. 30 at ¶2.

113

2.

Dr. Eisenberg is an infectious disease epidemiologist who researches how
pathogens move through the environment and society to cause infectious
diseases. Petitioners’ Ex. 30 at ¶¶3, 5.

3.

Since February 2020, Dr. Eisenberg has provided expert advice on COVID19 by serving on advisory panels (Bipartisan Policy Center, Washington
D.C.); presenting Webinars (Alliance for Health Policy, Barsan Research
Forum, The University of Michigan Club of Washington, D.C.); and
participating in media interviews (Detroit Fox News, MSNBC, WXYX
Detroit, New York Times, Washington Post). During the initial phase of the
pandemic, Dr. Eisenberg was a member of a subcommittee informing the
Governor of Michigan’s task force on opening the economy. Dr. Eisenberg
has consulted with companies such as Ford Motor Company and Gemline
on best practices during the COVID-19 pandemic. Petitioners’ Ex. 30 at ¶6.

4.

The Court admitted Dr. Eisenberg as an expert in the field of epidemiology.
N.T. 295.

5.

Dr. Eisenberg observed that COVID-19 cases in Pennsylvania have
plateaued, but he expects significant transmission to continue in the fall.
N.T. 297.

6.

The novel coronavirus that causes COVID-19 is spread from person to
person through the air and on environmental surfaces. The higher the
concentration of virus to which one is exposed, the greater the chances of
being infected. Additionally, being close to people who are coughing,
speaking with force, or sneezing is riskier than those who are just speaking
normally. Transmissibility increases when people are in enclosed, poorly
ventilated spaces, in crowded spaces and in close proximity to other people.

114

Public gatherings at polling places and ballot return locations in municipal
buildings may contribute to the spread of the virus. Petitioners’ Ex. 30 at
¶¶2, 14.
7.

Dr. Eisenberg acknowledged the CDC [Centers for Disease Control and
Prevention] has adopted “interim guidance for ensuring various voting
options, encouraging physical distancing, personal prevention practices, and
employing environmental cleaning and disinfection to lower COVID-19
transmission during elections.” N.T. 307 (quoting Senate Intervenors Ex.17
at 2).

8.

Allowing voters to vote by mail is consistent with current public health
guidelines to minimize the spread of the virus and prevent COVID-19 illness
because it (1) decreases the number of people who need to vote in person;
(2) allows high-risk individuals to avoid in-person voting; and (3) minimizes
the chances that indoor ballot return locations, such as polling stations or
county board of elections’ offices, will contribute to the spread of the virus.
Petitioners’ Ex. 30 at ¶¶2, 36.

B. Respondents’ Witness
1. Kathy Boockvar, Secretary of the Commonwealth
1.

Kathy Boockvar was appointed as Secretary of the Commonwealth in
January 2019 and confirmed by the Pennsylvania Senate in November 2019.

2.

Secretary Boockvar is the chief elections official for the Commonwealth of
Pennsylvania with responsibility for assessing risks to the voting process,
including obstacles to the accessibility, security and integrity of elections.
She and the Department of State engage in a “constant assessment and
evaluation” to ensure “the highest level of accessibility, security, and safety

115

to the voters of Pennsylvania to make sure that they can exercise their right
to vote.” N.T. 144.
3.

At the inception of this litigation in April 2020, Secretary Boockvar opposed
a statewide extension of the received-by deadline for mail-in ballots,
preferring instead to deal with issues that would arise during the 2020
primary election on a county-by-county basis. N.T. 132.

4.

The courts of common pleas in three counties extended the received-by
deadline in the 2020 primary election. N.T. 133. An executive order by
Governor Tom Wolf extended the received-by deadline by seven days in six
counties due to civil unrest. Id. at 169.

5.

On July 29, 2020, Secretary Boockvar received a letter from Thomas J.
Marshall, General Counsel and Executive Vice President of the USPS.
Respondents’ Ex. 1.

6.

In his letter, Mr. Marshall advised Secretary Boockvar that “most domestic
First-Class Mail is delivered 2 to 5 days after it is received by the Postal
Service, and most domestic Marketing Mail is delivered 3 to 10 days after it
is received.” Respondents’ Ex. 1 at 1. Based on these guidelines, Mr.
Marshall recommended that (a) where voters will both receive and send a
ballot by mail, they should request a ballot from their election officials at
least 15 days before Election Day; (b) election officials should use FirstClass Mail to transmit blank ballots and allow one week for delivery to
voters; and (c) domestic voters should mail their completed ballots at least
one week before the state’s due date. Id. at 1-2.

7.

Observing that Pennsylvania’s election laws require a ballot to be returned
by Election Day and that voters may request a mail-in ballot as late as 7 days

116

before Election Day, Mr. Marshall opined that “to the extent that the mail is
used to transmit ballots to and from voters, there is a significant risk that, at
least in certain circumstances, ballots may be requested in a manner that is
consistent with your election rules and returned promptly, and yet not be
returned in time to be counted.” Respondents’ Ex. 1 at 2.
8.

Mr. Marshall sent the same letter to the Secretary of State of North Carolina
on July 30, 2020, noting that in North Carolina “a voter may generally
request a ballot as late as 7 days before the November general election, and
that a completed ballot must be postmarked by Election Day and received
by election officials no later than 3 days after the election.” Petitioners’ Ex.
7. Mr. Marshall’s letter to North Carolina also described North Carolina’s
election law deadline for receipt of absentee and mail-in ballots
“incongruous” and “incompatible” with the USPS nationwide delivery
standards for First-Class Mail and Marketing Mail. Id. The letter went to 46
states. N.T. 135.

9.

Secretary Boockvar testified that Mr. Marshall’s estimate that most domestic
First-Class Mail is delivered 2 to 5 days after it is received by the USPS
differed from her understanding that such mail typically has a 1 to 3 business
day turnaround time, which is what voters would have expected in previous
elections. N.T. 138.

10. A total of 1,462,254 ballots were cast by mail in the 2020 primary election.
Respondents’ Ex. 2. According to the Department of State’s records, the
mailed ballots were received by the county boards of elections in the
following timeframes:
2/24/2020 – 3/31/2020:
4/1/2020 – 4/30/2020:

278
51,743

117

5/1/2020 – 5/19/2020:
5/20/2020 – 5/26/2020:
5/27/2020 – 5/31/2020:
6/1/2020:
6/2/2020 (Election Day):
6/3/2020:
6/4/2020:
6/5/2020:
6/6/2020:
6/7/2020:
6/8/2020:
6/9/2020 – 6/24/2020:

292,412
320,032
436,701
173,869
89,018
31,183
14,177
15,973
3,966
84
10,240
22,578

Id.
11. The State of Washington conducts its elections solely by mail and
experienced “significant mail delays and a huge increase in the number of
ballots received after election day” in the 2020 primary election. N.T. 141.
12. The Pennsylvania Department of State predicts that approximately 3 million
voters will cast their votes by mail-in or absentee ballot in the November
2020 general election. N.T. 181. Based on voting patterns in the 2020
primary election, the Department expects that approximately half of the
mail-in and absentee ballots will arrive in the last week of voting. Id. at 15051.
13. Based primarily upon Mr. Marshall’s letter, Secretary Boockvar changed her
position on a statewide change to the received-by deadline. In addition, she
has had discussions with other state election officials. Secretary Boockvar is
concerned that Pennsylvania’s deadlines for mail-in ballots are incompatible
with the USPS’ current delivery timeframes, which are applicable statewide.
She recommends that mail-in ballots should be counted if they are
postmarked by Election Day, November 3, 2020, and received by the county

118

boards of elections no later than 3 days after the election, or by Friday,
November 6, 2020. N.T. 134-136.
14. Secretary Boockvar opined that, in weighing the contours of an extension,
she considered the balance between ensuring citizens can exercise their right
to vote and conducting efficient election administration. Based on voting
patterns in the 2020 primary election, the majority of late mail-in ballots
arrived within 3 days after the election. N.T. 154; Respondents’ Ex. 2.
15. Secretary Boockvar opined that Petitioners’ requested 7-day extension of the
received-by deadline will adversely impact other deadlines. N.T. 153.
These deadlines include the deadline by which certain voters using mail-in
or absentee ballots must provide identification, which is on the sixth day
after the election;9 the deadline for defeated candidates to give up any right
to a recount or recanvass, which is on the eighth day after the election; 10 and
the deadline for the Secretary to order a recount or recanvass, which is on
the ninth day after the election. 11
16. County boards of elections are increasing their staffing in advance of the
November 3, 2020, election and will mail out ballots beginning in
September.

Federal funds are available to the boards for purchasing

additional processing equipment. N.T. 145.
17. The Department of State will reimburse county boards of elections for the
return postage they affix to the mail-in ballot envelopes, which will be done
in different ways depending on the county, i.e., business return mail, a stamp

9

Section 1308(h) of the Election Code, added by the Act of March 6, 1951, P.L. 3, as amended,
25 P.S. §3146.8(h).
10
Section 1404(h) of the Election Code, 25 P.S. §3154(h).
11
Section 1404(g)(2) of the Election Code, 25 P.S. §3154(g)(2).

119

or a meter marking. N.T. 158-59. “[A]n overwhelming majority of times
there’s going to be a postmark.” Id. at 159.
18. The Department of State is conducting major efforts to educate voters about
the process of voting by mail and the importance of doing so promptly. N.T.
146-47.
19. When impediments to voting arise in individual counties, such as local
emergencies or delays in issuing ballots, a county may seek relief from its
own court of common pleas. N.T. 132, 155-56.
C. Senate Intervenors’ Witness
1. Michael Plunkett
1.

Michael Plunkett is a retired 25-year employee of the USPS. He holds a B.A.
in Economics from the Pennsylvania State University, an M.B.A. from the
Wharton School, University of Pennsylvania, and a second M.B.A. from the
Massachusetts Institute of Technology. N.T. 205.

2.

Mr. Plunkett worked for the USPS in various staff and management
positions, including letter carrier and Associate Vice President of Business
Development. N.T. 193; Senate Intervenors (SI) Ex. 1, ¶¶1-3. He retired
from the USPS in 2011 and since 2016 has served as President and CEO of
the Association for Postal Commerce, which is a trade association for
companies that use the USPS in their business. SI Ex. 1, ¶3.

3.

Mr. Plunkett was admitted as an expert witness in USPS delivery
performance standards and practices on postmarks. N.T. 202, 211.

4.

Mr. Plunkett used the quarterly reports filed by the USPS with the Postal
Regulatory Commission, the regulator for the USPS, as the source of data

120

for his expert testimony about USPS operational performance in
Pennsylvania and in the Eastern Area. SI Ex. 1, ¶7.
5.

Pennsylvania has 8.5 million registered voters. For purposes of his opinion,
Mr. Plunkett assumed that all voters would vote by absentee or mail-in
ballots in the November 2020 general election over the 50-day period
permitted under the Election Code. SI Ex. 1, ¶¶13, 15.

6.

Most outbound First-Class Mail is sent in batches known as “Presort
First-Class Mail,” which will be used to send ballots to voters by county
boards of elections. SI Ex.1, ¶¶8, 10.

7.

Election mail is treated differently than other First-Class Mail because it is
prioritized for faster delivery. N.T. 267-268.

8.

Mr. Plunkett testified that USPS delivery standards are zip code specific.
The service performance standard for First-Class Mail within the 48
contiguous states is 2 to 3 days, and 2 to 5 days for those states plus Alaska,
Hawaii and Puerto Rico.

It is 6 days for Guam.

For mail within

Pennsylvania, the service performance standard is 2 days, although it is 3
days for mail between Erie and Philadelphia. For intra-county mail in
Pennsylvania, the service performance standard is 2 days but up to 3 days
for some counties. N.T. 213, 244.
9.

Mr. Plunkett testified about the USPS report for the first quarter of 2020
covering the Eastern Area, made up of four districts that cover Pennsylvania
identified as “Appalachian,” “Central Pennsylvania,” “Philadelphia Metro”
and “Western Pennsylvania.” N.T. 217. The report showed that 99.5% of
outbound Presort First-Class Mail was delivered within 3 days.

This

included mail originating within and outside Pennsylvania. Of that total,

121

98.3% was delivered within 1 day. SI Ex. 1, ¶¶8, 10. The service standard
is 2 days for mail originating and ending in Pennsylvania. N.T. 219.
10. The USPS report for the first quarter of 2020 showed that in the Eastern
Area, 97.0% of First-Class Mail was delivered within 3 days. Of that
number, 92.5% of all First-Class Mail was delivered within 1 day. SI Ex. 1,
Attachment A.
11. The USPS report for the second quarter of 2020 in the Eastern Area showed
that approximately 99% of Presort First-Class Mail in Pennsylvania was
delivered within 3 days, with 97.4% being delivered within 1 day. SI Ex. 4
at 2; N.T. 217.
12. The second quarter of 2020 included the period of time the USPS
experienced a reduction in employee availability caused by the COVID-19
pandemic. N.T. 225.
13. The volume of First-Class Mail declined approximately 9% between 2019
and 2020, which suggests that the USPS has capacity to handle an increase
in mail volume. SI Ex.1, ¶18.
14. During the first quarter of 2020, the USPS processed approximately 700
million Presort First-Class Mail letters and postcards in the Eastern Area. SI
Ex.1 ¶11. If all 8.5 million registered voters in Pennsylvania request an
absentee or mail-in ballot for the November 2020 election, that would
represent 1.2% of USPS capacity in the Eastern service area. N.T. 144. The
Secretary anticipates that 3 million Pennsylvanians will vote by mail in
2020, which represents 0.4% of USPS capacity in the Eastern service area.
N.T. 181.

122

15. Given the volume of First-Class Mail handled by the USPS in the Eastern
Area, Mr. Plunkett testified that the addition of 8.5 million ballots would not
create an operational issue for the USPS. N.T. 181; SI Ex. 1, ¶15. Mr.
Plunkett opined that “adding outbound and inbound election related mail in
Pennsylvania would not impact the USPS’ ability to provide reliable and
timely mail service.” SI Ex. 1, ¶24.
16. Mr. Plunkett is “unaware of any significant disruptions to First-Class Mail
service.” SI Ex. 1, ¶19. Such disruptions would be known to him given his
25-year employment with the USPS and current employment with the
Association for Postal Commerce, which continually monitors USPS
performance. N.T. 205.
17. Upon being shown Petitioners’ Exhibit 28, Mr. Plunkett testified that the
Postmaster General acknowledged that policy changes caused a temporary
decline in service. Because the Postmaster General has ended the practice
of trucks leaving a processing center before all mail has been sorted, USPS
service should return to pre-decision levels. N.T. 252-53.
18. “Postmarks” are applied to stamped mail to prevent reuse of the stamp. N.T.
236; SI Ex. 1. Commercial mail generally bears evidence of payment, such
as permit imprints, that are linked numerically to postage accounts. This
mail does not bear traditional “postmarks” readable by the human eye. SI
Ex. 1, ¶29.
19. The USPS has created specific service type identification (STID) codes,
which are encoded in an intelligent mail barcode, for use on election mail
that will allow it to identify and track ballots as they move through the USPS
network. SI Ex. 1, ¶35.

123

20. The marks imprinted by the USPS on this type of mail are not readable by
the human eye and would require scanners and software to decode. SI Ex.
1, ¶36. Mr. Plunkett testified that the USPS “plans to isolate election mail
and to postmark even where postmarks are not necessary.” N.T. 246, 261.
21. Mr. Plunkett testified that a voter who requests a ballot on the last day in the
general election cycle, Tuesday, October 27, 2020, would likely receive a
ballot on Thursday or Friday. If the voter mails her ballot on Saturday, it
would likely be received on Monday or Tuesday, Election Day. N.T. 271,
272.
22. Mr. Plunkett testified that a 1-day delay in service would not mean that
ballots would not be received on time. N.T. 267.
D. House Intervenors’ Witness
1. Torren Ecker
1.

Mr. Ecker is a member of the House of Representatives and represents the
193rd District. N.T. 331.

2.

He ran in the May 15, 2018, primary as one of four candidates for the office.
N.T. 331.

3.

At 9:30 p.m. that day, the election results were posted and it appeared that
Mr. Ecker lost by one vote. N.T. 332.

4.

Election officials learned that one precinct had not counted its absentee
ballots. When those ballots were counted, Mr. Ecker gained an additional
vote. At that point, the election was tied. N.T. 332-33.

5.

When the county board of elections recanvassed its ballots, it found two
provisional ballots. An unqualified voter submitted one ballot, and the other
voter cast a ballot in favor of Mr. Ecker. N.T. 334.

124

6.

The losing candidate petitioned the court of common pleas for a recount, but
after the recount Mr. Ecker remained the winner of the primary election.
N.T. 335.

7.

Starting on May 15, 2018, the entire process took approximately one month.
N.T. 335.

8.

As a candidate, Mr. Ecker agreed that he wanted constituents of the 193rd
District to vote. N.T. 338.
III. Findings of Fact

1.

All witnesses testified credibly. To the extent that the opinions of Mr.
Stroman and the Secretary differ from the opinions of Mr. Plunkett, the
Court finds Mr. Plunkett’s opinions more credible and persuasive than those
of Mr. Stroman and the Secretary, in light of his experience in statistical and
financial analysis of USPS data both as a 25-year employee of the USPS
and as current president of the Association for Postal Commerce.

2.

The USPS has a standard delivery performance of 2 to 3 days for First-Class
Mail in the contiguous United States; 5 days for First-Class Mail sent to
Alaska, Hawaii, and Puerto Rico; and 6 days for mail sent to Guam.

3.

Marketing mail has a nationwide standard delivery performance of 3 to 10
days.

4.

For First-Class Mail within Pennsylvania, the standard delivery performance
is 2 to 3 days after collection by the USPS. However, mail may take 3 days
to be delivered from one end of the Commonwealth to the other (for
example, from Philadelphia to Erie).

5.

These above-described standards for delivery performance have been in
place for a long time and not been adjusted since the enactment of Act 77.

125

6.

For intra-county mail, the standard delivery performance is 2 days after
collection by the USPS and, with limited exceptions, may take 3 days within
some counties.

7.

Petitioners’ Exhibit 9, entitled “USPS Service Performance Measurement,
PMG Briefing, August 12, 2020,” shows the percentage of time that the
USPS met its performance target of 96% nationwide for the period of March
14, 2020, through August 1, 2020, for various classes of mail. Relevantly,
the graph shows a downturn in the USPS’ performance for the period of July
4, 2020, through July 18, 2020, for Presort First-Class Mail. The Court
declines to draw an inference from this exhibit that there is a general decline
in standard delivery performance because the graph is based upon a snapshot
of three weeks of experience. Mr. Stroman attributed the downturn to the
Postmaster General’s new policy directive on transportation, and this policy
directive has been terminated.

8.

Petitioners’ Exhibit 28, which is a graph produced by Areas Inspiring Mail,
shows that for the 41st through 43rd weeks there was a drop in the USPS’s
performance against the target of 96%. The graph shows that during those
three weeks the USPS met its standard delivery target 72.86% of the time
for Central Pennsylvania; 85.68% of the time for the Philadelphia Metro
Area; 84.96% of the time for the Appalachian region; and 90.01% of the
time for Western Pennsylvania. The Court declines to assign Exhibit 28 any
weight. First, the document appears undated or the date is obscured. It does
not show the year and month of the activity depicted. Second, Mr. Stroman
testified that Exhibit 28 compares the USPS’ performance for 2019 to that
of 2020 and that the graph shows a sharp decline in the USPS’ performance

126

targets between the 41st and 43rd weeks. N.T. 59. However, it is not clear
that the weeks identified in the graph correspond directly to weeks of the
calendar year. We have not reached the 41st through 43rd weeks of calendar
year 2020. Third, the graph depicts a snapshot of three weeks and does not
predict what the data will show for the 12-week period from June 1, 2020,
to September 30, 2020.
9.

Mail for deposit with the USPS may be handed directly to a postal carrier or
collected by a carrier from a voter’s residential mail receptacle.

10. There is no separate delivery performance standard for election-related
First-Class Mail. The USPS prioritizes First-Class Mail identified as
election-related.
11. Although there was testimony and argument regarding USPS “delivery
delays,” there was no evidence to define a delay. The USPS delivery
standards are set in ranges, i.e., 2 to 3 days in Pennsylvania. There is no
evidence that USPS performance in Pennsylvania extends beyond that
range. To the contrary, the USPS performance in Pennsylvania falls within
the range over 98% of the time.
12. Pennsylvania’s USPS performance exceeds the national average. In the
first quarter of 2020 for Pennsylvania, 99.5% of USPS outbound Presort
First-Class Mail was delivered within 3 days. More than 98% was delivered
within 1 day. In the second quarter of 2020 for Pennsylvania, 99.4% of
USPS outbound Presort First-Class Mail was delivered within 3 days. More
than 98% was delivered within 1 day.
13. If all 8.5 million registered voters in Pennsylvania elect to vote by absentee
or mail-in ballot, the quantity of mail generated will represent only 1.2% of

127

USPS’ capacity in the Eastern service area and will not overwhelm the
system.
14. A voter may cast a ballot in person at a polling location any time between
7:00 a.m. and before 8:00 p.m. on Election Day. If the voter has applied for
an absentee or mail-in ballot, she may personally return the ballot to the
county board of elections by 8:00 p.m. on Election Day or mail the ballot to
the county board in such time that the board receives the ballot no later than
8:00 p.m., Election Day (the “received-by deadline”).
15. A voter may elect to return the ballot by using a prepaid postage envelope
if one is provided by the county board of elections, by placing a First-Class
stamp on the return envelope or by purchasing expedited delivery from the
USPS or other private delivery service.
16. If a voter applies for an absentee or mail-in ballot but cannot return it to the
county board of elections before the received-by deadline, the voter may cast
a provisional ballot in person at her polling place, as Ms. Laudenslager did.
17. There was no evidence that the county boards of elections anticipate
consolidating polling places as they did in the primary election, that the
county boards anticipate insufficient staffing or that the health and safety
procedures used by the county boards during the June 2020 primary were
ineffective.
18. Section 1206 of the Election Code, 25 P.S. §3046, provides a remedy for
emergencies arising on election day; that is, an individual or county may
bring a controversy before the court of common pleas and have the matter
decided expeditiously. This was done in three counties during the 2020
primary election. Where an individual is seeking a judicial order to vote,

128

the court must inform the individual of the provisional ballot process set
forth in Section 1206 of the Election Code, 25 P.S. §3046.
19. Secretary’s Exhibit 2, a chart identifying the number of mail-in ballots
received by each county and the date of receipt, does not support a finding
that the received-by deadline should be extended by three days, to Friday,
November 6, 2020. The exhibit does not explain when the voters applied
for their absentee or mail-in ballots, when the county boards of elections
mailed the ballots to the voters or when the voters deposited the ballots in
the return mail.
Secretary’s Exhibit 2 showed that 61,333 votes were received by county
boards of elections during the three days that followed the primary election
day. Of that total, 52,761 were received in counties where the Governor had
extended the received-by deadline because of civil unrest or where the court
of common pleas had extended the received-by deadline for receipt of
absentee and mail-in ballots.

Accordingly, all 52,761 were counted.

Secretary’s Exhibit 2 does not predict how many mail-in ballots will be
received after 8:00 p.m. on Election Day because it is not known whether
the mailing of ballots in the primary election was affected by the announced
extension of the received-by deadline.
20. The Secretary is working with the county boards of elections and the USPS
to design election-related mail envelopes. The Secretary is undertaking a
public education campaign to inform voters of the need to apply for and
return all mail ballots as early as possible.
21. Ms. Laudenslager was not disenfranchised because she voted at a polling
place and her vote was counted.

129

22. Petitioners presented no evidence to support their request for third-party
assistance in the delivery of ballots to either the USPS or the county boards
of election or for their request for prepaid postage on all absentee and mailin ballots.
23. Petitioners’ claim for prepaid postage is moot in light of the Secretary’s
announcement that the Department of State will provide funding to the
county boards of elections for postage.
24. There was no clear evidence presented on whether prepaid postage
envelopes, which may be provided by the county boards of elections to
voters for mailing their completed ballots, will be postmarked. A postmark
would evidence the date the voter placed the ballot in the mail.
25. There was no evidence showing that COVID-19 was transmitted to an
individual who appeared at a polling place in Pennsylvania during the
primary election on June 2, 2020.
26. There was no evidence presented to address how an extension of the
statutory deadline could be implemented without causing confusion among
the 67 county boards of elections that are preparing to conduct the general
election in accordance with the received-by deadline which has been in
effect for all elections in Pennsylvania since 1964, and among the voting
public.
IV. Conclusions of Law
1.

The deadline for receipt of absentee and mail-in ballots by 8:00 p.m. on
Election Day represents a policy choice made by the legislative and
executive branches in the enactment of Act 77. The deadline for mailed-in
ballots has always been by date of receipt, not date of submission to the

130

USPS. This deadline was first adopted for absentee ballots. See Section 22
of the Act of August 13, 1963, P.L. 707 (effective January 1, 1964). The
same type deadline was adopted in Act 77 for mail-in ballots. See Section
1306-D(c) of the Election Code, 25 P.S. §3150.16(c).
2.

Petitioners’ evidence did not prove that disruptions to USPS operations are
likely to occur in November 2020 that will cause timely mailed ballots to go
uncounted in the general election. Petitioners offered no evidence that a
single mail-in ballot in the primary election was received by a county board
of elections after the June 2, 2020, deadline because of a delay in delivery
by the USPS. Petitioners offered no evidence upon which the Court can
find, as fact, that the USPS will not be able to deliver absentee and mail-in
ballots within 2 to 3 days of their being posted. The credible evidence shows
just the opposite, i.e., the USPS is unlikely to be overwhelmed in November.

3.

If the current deadlines remain in place for the November general election
and significant delays develop in certain counties with the processing of
ballot applications or in the USPS delivery of mail, the county courts of
common pleas are empowered to provide targeted relief. Petitioners have
not demonstrated that such county-specific relief will be inadequate and that
an immediate statewide remedy is necessary.

4.

As Justice Wecht wrote in support of the Pennsylvania Supreme Court’s
recent decision dismissing a similar COVID-19-related challenge to the
Commonwealth’s administration of the 2020 primary election, “the instant
request … is predicated upon mere speculation about what may or may not
occur with delivery operations within the Commonwealth in several weeks’
time. While circumstances may change, the possibility that votes may be

131

suppressed due to late ballot delivery, as presently alleged, is too remote at
this time to constitute a cognizable injury.” Disability Rights Pennsylvania
v. Boockvar, (Pa., No. 83 MM 2020, filed May 15, 2020) (Wecht, J.,
Concurring Statement at 1-2).
5.

Petitioners’ evidentiary case did not address the alleged injury occasioned
by the prohibition against third-party assistance in casting and delivering
absentee and mail-in ballots or the need for prepaid postage on all absentee
and mail-in ballots.

6.

The Court concludes that it is not necessary to address the outstanding legal
objections raised by Respondents, by Senate Intervenors or by House
Intervenors.

7.

Petitioners have not made a “clear, palpable and plain demonstration” that
the received-by deadline for absentee and mail-in ballots in Act 77 is
unconstitutional for any election during the COVID-19 pandemic. Yocum
v. Commonwealth of Pennsylvania Gaming Control Board, 161 A.3d 228,
238 (Pa. 2017). The received-by deadline for mail-in ballots is a valid
election administration regulation, and the opportunity to vote by mail-in
ballot accommodates those voters who do not wish to vote in person during
the COVID-19 pandemic.
V. Discussion
Constitutional challenges to any legislation, including election laws, are

cognizable only where the injury is concrete. “There is a presumption that lawfully
enacted legislation is constitutional. Should the constitutionality of legislation be
challenged, the challenger must meet the burden of rebutting the presumption of
constitutionality by a clear, palpable and plain demonstration that the statute

132

violates a constitutional provision.” Yocum, 161 A.3d at 238 (emphasis added).
Where a court determines that a law is unconstitutional, it is not the court’s role to
design an alternative scheme that passes constitutional muster; rather, the court must
grant the legislature sufficient time to consider and enact remedial legislation. See
generally In re Fortieth Statewide Investigative Grand Jury, 197 A.3d 712, 721 (Pa.
2018) (courts may not usurp the province of the legislature by rewriting legislation
and adding hearing and evidentiary requirements that the participants must follow
in grand jury proceedings); League of Women Voters v. Commonwealth, 178 A.3d
737, 821 (Pa. 2018) (providing timeframe for legislative and executive branches to
enact remedial redistricting plan).
Moreover, “‘[i]t is a mistake to suppose[] that a court of equity is
amenable to no law, either common or statute, and assumes the [role] of an arbitrary
legislator in every particular case.’ When the rights of a party are clearly established
by defined principles of law, equity should not change or unsettle those rights.
Equity follows the law.” Piper v. Tax Claim Bureau of Westmoreland County, 910
A.2d 162, 165 (Pa. Cmwlth. 2006) (quoting First Federal Savings and Loan
Association v. Swift, 321 A.2d 895, 897 (Pa. 1974)).
The United States Constitution provides that “[t]he Times, Places and
Manner of holding Elections for Senators and Representatives, shall be prescribed
in each State by the Legislature thereof; but the Congress may at any time by Law
make or alter such Regulations, except as to the Places of chusing [sic] Senators.”
U.S. CONST. art. I, §4, cl.1. Article I, Section 5 of the Pennsylvania Constitution
further states: “Elections shall be free and equal; and no power, civil or military,
shall at any time interfere to prevent the free exercise of the right of suffrage.” PA.
CONST. art. I, §5.

133

Each state’s election code, “whether it governs the registration and
qualifications of voters, the selection and eligibility of candidates, or the voting
process itself, inevitably affects -- to least some degree -- the individual’s right to
vote ….” Burdick v. Takushi, 504 U.S. 428, 433 (1992) (quoting Anderson v.
Celebrezze, 460 U.S. 780, 788 (1983)). “A court considering a challenge to a state
election law must weigh ‘the character and magnitude of the asserted injury to the
rights protected by the First and the Fourteenth Amendments that the plaintiff seeks
to vindicate’ against ‘the precise interests put forward by the State as justifications
for the burden imposed by its rule,’ taking into consideration ‘the extent to which
those interests make it necessary to burden the plaintiff’s rights.” Burdick, 504 U.S.
at 434 (quoting Anderson, 460 U.S. at 789).
Although Petitioners seek to add new provisions to the existing Election
Code, rather than expressly challenging the validity of a particular provision, the
premise of Yocum applies with equal force. This Court has explained that “[a] statute
is cloaked with a strong presumption of constitutionality and one who attacks it bears
the burden of demonstrating that the legislation ‘clearly, palpably and plainly
violates the constitution.’” Ketterer v. Department of Transportation, 574 A.2d 735,
736 (Pa. Cmwlth. 1990) (quotation omitted).
Petitioners premise their claims on different provisions of the
Pennsylvania Constitution, but the alleged injury in each instance is at bottom the
same: if the legislative and executive branches do not implement the responsive
measures to the ongoing COVID-19 pandemic favored by Petitioners, some voters
will be burdened in the exercise of their vote. They believe this warrants declaratory
and injunctive relief.

134

Petitioners allege that counties could (1) face shortages of poll workers
and may have to contend with social-distancing guidelines in processing ballots, see
Amended Petition ¶6; (2) fall behind on processing mail-in and absentee ballots
applications, id., see also ¶53; and (3) the USPS may not be able to deliver election
ballots in a timely manner, id. ¶54. Petitioners allege that it is “anyone’s guess
whether voters who timely request mail ballots will receive them in time to complete
the [ballots] and mail them back to county officials such that they arrive by 8:00 p.m.
on Election Day.” Id. ¶55.
Petitioners allege that without third-party assistance with delivery of
mail-in and absentee ballots, “[v]oters … who have struggled with delayed mail
delivery will be forced to deliver their ballots for the general election in-person this
year to ensure their votes are counted[.]” Id. ¶63. Similarly, Petitioners assert that
without prepaid postage on absentee and mail-in ballots, voters will have to shoulder
the “unnecessary expense” of stamps, which “could be cost prohibitive,” and will
also risk a “trip to the post office or any other establishment that sells stamps, at a
time when individuals have been instructed to maintain social distancing guidelines
to stem the spread of COVID-19[.]” Id. ¶¶66-67. Some of the reforms for which
Petitioners advocate are under consideration by the General Assembly. If they are
not enacted, Petitioners believe these reforms must be ordered by the Supreme Court
of Pennsylvania.
The Amended Petition states that in the days before the June primary
election, some counties took targeted measures to address COVID-19-specific
challenges. See Amended Petition ¶25 n.4, ¶57 (citing In re Extension of Time for
Absentee and Mail-In Ballots to be Received by Mail and Counted in the 2020
Primary Election, (C.C.P. Del. Cty. No. 2020-003416)). However, Petitioners

135

believe these county-specific judicial orders (and executive orders) will not suffice
in November 2020.
In her preliminary objections filed with the Supreme Court, the
Secretary stated that “nothing in the Amended Petition gives any specifics on what
exactly will go wrong, where it will go wrong, or, -- just as importantly -- why the
statewide remedy Petitioners seek will be necessary to correct the problem. Nor
could the Amended Petition supply these specifics; in a fast-changing situation, and
with the November general election months away, such predications are necessarily
conjectural at best.” Secretary Preliminary Objections, at 16 ¶21.
Considering the above, Petitioners did not carry their burden of
showing that the Election Code’s deadline for returning absentee and mail-in ballots
is plainly and palpably unconstitutional. One year ago, the former Election Code
required that all mail-in ballots, which were limited to absentee ballots, had to be
returned to the county boards of elections by 5:00 p.m. on the Friday before Election
Day in order to be counted. Former Section 1306(a) of the Election Code, 25 P.S.
§3146.69(a). The General Assembly, which determines the time, place and manner
of Pennsylvania’s elections, extended the former received-by deadline by four days
in Act 77. It is for the General Assembly to decide what further changes should be
made to all the statutory deadlines, which may include advancing the deadline for
requesting an absentee or mail-in ballot.
Presently, voters in Pennsylvania have 50 days to request and cast a
mail-in ballot. Section 1302.1 – D of the Election Code, 25 P.S. §3150.12a. Voters
have the option to request a ballot early in the process and to return it early in the
process. They also have the option to wait until one week before the election to
request a ballot from the county board of elections, which has 48 hours to respond.

136

If the voter receives the ballot one day before Election Day, she can purchase
overnight mailing from the USPS to ensure its timely receipt. If the voter receives
the ballot on Election Day, she can personally deliver the ballot to the county board
of elections. If the requested ballot is not received by Election Day, the voter can
vote in person at her designated polling place, as did Ms. Laudenslager. And, of
course, voters have the option to appear at their polling place and vote in person
before 8:00 p.m. on Election Day.
Section 1206 of the Election Code provides that where significant
problems develop in a precinct or county, our courts of court of common pleas can
order relief. 25 P.S. §3046. This was done in several counties in the 2020 primary
election, which extended the deadline for receipt of absentee and mail-in ballots.
As the Secretary noted, there must be deadlines in order for a free and
equal election to take place. And every deadline will mean that some voters will not
be able to participate in an election. A voter may arrive at the polling place at 8:05
p.m. on Election Day, or a voter’s mail-in ballot may arrive at the county board of
elections at 8:05 p.m. on Election Day. Neither vote will be counted.
In her original preliminary objections, the Secretary argued that
Petitioners’ pleading did not present a controversy ripe for judicial review. Nor did
Petitioners’ evidence. Whatever delays may be occasioned in the November 2020
general election with respect to the receipt of mail-in ballots by county boards of
elections, they are not likely to be caused by the USPS. The evidence demonstrated
that USPS performance in Pennsylvania exceeds the national average.
There are an infinite number of considerations that go into setting the
rules for a free and equal election. It is the job of the legislature, not the judiciary,
to make these policy choices.

137

The 8:00 p.m. Election Day deadline applies to those who vote in
person and those who vote by absentee and mail-in ballots.12 For a court to order a
new statewide deadline may create widespread confusion among voters and the
county boards of elections, the parties that actually conduct the election. This
militates against intervention by a court sitting in equity, assuming grounds for relief
were demonstrated, and here they were not.
Even if that hurdle were crossed, an order enjoining enforcement of the
received-by deadline would have to be issued to the county boards of elections. They
are the persons that process and qualify ballots. Because they are not parties to this
case, they cannot be enjoined from enforcing the received-by deadline in the
Election Code.
In sum, the Election Code provides meaningful responses for
conducting an election during the COVID-19 pandemic. Voters may cast their vote
by mail if they conclude their polling place will not meet their standards of safety.
That voters have the responsibility to obtain a ballot and return it by 8:00 p.m.
Election Day does not impose an unlawful burden on the free exercise of the right
to vote. At the next level, county boards of elections may seek relief from their
courts of common pleas should the circumstances require that step appropriate.
Finally, the General Assembly can enact appropriate measures should it determine
that the COVID-19 pandemic requires a statewide response.
12

Pennsylvania’s received-by deadline is consistent with other state election laws. See ARIZ. REV.
STAT. ANN. §16-558.01 (West 2015) (requiring the return of a mail-in ballot by 7:00 p.m. on the
day of the election); GA. CODE ANN. §21-2-386(a)(1)(f) (West 2019) (requiring the destruction of
absentee ballots received after the polls close); ME. REV. STAT. ANN. tit. 21-a, §755 (1991)
(requiring the return of an absentee ballot before the close of the polls on election day); MICH.
COMP. LAWS ANN. §168.764a (West 2012) (requiring receipt of absentee ballot before the close
of polls on election day); WIS. STAT. ANN §7.52(1)(a) (West 2018) (requiring the canvas of all
absentee ballots received by 8:00 p.m. on election day).

138

VI. Conclusion
For these reasons, the Court recommends that the Supreme Court deny
Petitioners’ Prayer for Relief.
Respectfully submitted,
s/Mary Hannah Leavitt
MARY HANNAH LEAVITT, President Judge

Filed: September 4, 2020

139

Exhibits Admitted into Evidence at Evidentiary Hearing
Exhibit No.
Petitioners
Petitioners’ Ex. 4
Petitioners’ Ex. 6
Petitioners’ Ex. 7
Petitioners’ Ex. 9
Petitioners’ Ex. 28
Petitioners’ Ex. 30
Petitioners’ Ex. 32

Description
USPS Office of Inspector General Management Alert (July
7, 2020)
USPS General Counsel Thomas J. Marshall Letter to the
Hon. Kathy Boockvar (July 29, 2020)
USPS General Counsel Thomas J. Marshall Letter to the
Hon. Elaine Marshall (July 30, 2020)
USPS PMG Briefing, Service Performance Measurement
(Aug. 12, 2020)
Eastern Areas Inspiring Mail Service Update
Preliminary Report of Joseph Eisenberg
Preliminary Report of Ronald Strohman

Respondents
Respondents’ Ex. 1 Letter dated July 29, 2020, from Thomas J. Marshall,
General Counsel and Executive Vice President of the United
States Postal Service, to Kathy Boockvar, Secretary of the
Commonwealth of Pennsylvania
Respondents’ Ex. 2 Chart of County Absentee or Mail-in Ballots
Respondents’ Ex. 4 Postal Bulletin: Your 2020 Election and Political Mail Guide
(Feb. 13, 2020)
Senate
Intervenors
Senate Intervenors’ Mr. Plunkett’s Declaration that as filed on May 18, 2020 as
Ex. 1
Ex. A to Legislative Intervenors’ Opposition to the
Petitioners’ Application for Special Relief in the Nature of a
Preliminary Injunction
Senate Intervenors’ Attachment A from Plunkett’s Report, Quarterly
Ex. 2
Performance for First-Class Flats: Service Variance
Senate Intervenors’ Attachment B from Plunkett’s Report, Quarterly
Ex. 3
Performance Aggregation for First-Class Flats: Service
Variance
Senate Intervenors’ Quarterly Performance for Presort First-Class Mail®
Ex. 4
Service Variance, USPS, FY 2020 Quarter III
Senate Intervenors’ In the Matter of: Investigation of Election Irregularities
Ex. 6
Affecting Counties Within the 9th Congressional District
Senate Intervenors’ Final Report of the Miami-Dade County Grand Jury, Spring
Ex. 7
Term A.D. 2012, available

140

Senate Intervenors’ USPS Service Alert, Aug. 28, 2020
Ex. 10
Senate Intervenors’ Postmaster General Louis DeJoy Statement, USPS, Aug. 18,
Ex. 11
2020
Senate Intervenors’ Dhaval M. Dave, et al. Black Lives Matter Protests, Social
Ex. 16
Distancing, and COVID-19
Senate Intervenors’ U.S. Department of Health and Human Services and Centers
Ex. 17
for Disease Control and Prevention, Morbidity and Mortality
Weekly Report, Notes from the Field, July 31, 2020
House Intervenors
House Intervenors’ Statement of Postmaster General and Chief Executive Office
Ex. 1
Louis DeJoy (Aug. 21, 2020)

APPENDIX D

141

Received 9/22/2020 9:39:56 AM Supreme Court Middle District
Filed 9/22/2020 9:39:00 AM Supreme Court Middle District
133 MM 2020

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
No. 133 MM 2020
PENNSYLVANIA DEMOCRATIC PARTY, et al.,
Petitioners,
v.
KATHY BOOCKVAR, et al.,
Respondents.
APPLICATION FOR STAY OF COURT’S OPINION AND ORDER OF
SEPTEMBER 17, 2020 BY INTERVENOR RESPONDENTS JOSEPH B.
SCARNATI III, PRESIDENT PRO TEMPORE, JAKE CORMAN,
MAJORITY LEADER OF THE PENNSYLVANIA SENATE, BRYAN
CUTLER, SPEAKER OF THE PENNSYLVANIA HOUSE OF
REPRESENTATIVES, AND KERRY BENNINGHOFF, MAJORITY
LEADER OF THE PENNSYLVANIA HOUSE OF REPRESENTATIVES
Intervenor Respondents, Joseph B. Scarnati III, Pennsylvania Senate
President Pro Tempore, and Jake Corman, Senate Majority Leader, and Bryan
Cutler, Speaker of the Pennsylvania House of Representatives, and Kerry
Benninghoff, Majority Leader of the Pennsylvania House of Representatives,1
1

One of the issues that Speaker Cutler and Majority Leader Benninghoff (“the House Leaders”)
will appeal to the Supreme Court of the United States is this Court’s inexplicable denial of their
intervention application in a footnote of the Opinion. The House Leaders’ intervention application
was timely filed, and was unopposed, with even the Petitioners agreeing that the House Leaders’
intervention was appropriate. See Pennsylvania Democratic Party v. Boockvar, No. 133 MM 2020,
Response to Motions to Intervene of Senator Costa and Representatives Dermody, Cutler, and
Benninghoff (filed Sept. 9, 2020) (“Petitioners believe the motions to intervene filed by Proposed

142

(together “Intervenor Respondents”) by and through the undersigned counsel, jointly
submit this Application for Stay of this Court’s Opinion and Order of September 17,
2020 on two grounds.
First, the decision violates federal law, which establishes “the Tuesday next
after the 1st Monday in November” as a single Federal Election Day, which falls on
November 3rd this year. 2 U.S.C. § 7; see also 2 U.S.C. § 1; 3 U.S.C. § 1. These
provisions mandate holding all elections for Congress and the Presidency on a single
day throughout the Union. However, Footnote 26 and page 63 of this Court’s Slip
Opinion extend Election Day past November 3, 2020. It does this by forcing election
officials to accept ballots received after election day even if these ballots lack a
legible postmark. This permits ballots to be both voted and counted after election
day, extending the General Election past November 3, 2020. This clearly violates 2
U.S.C. § 7.

Intervenors offer the same issues as the motions decided by the Court in its September 3 Order and
have no objection to the intervention of the Proposed Intervenors either as individuals or as leaders
of their respective caucuses, consistent with this Court’s order of September 3.”). The House
Leaders were also permitted to intervene by this Court in another case concerning the received-by
deadline. See Crossey, et al. v. Boockvar, et al., No. 108 MM 2020. Despite there having been no
reasonable basis for the petition’s denial, the petition to intervene was denied by this Court. As
United States Supreme Court precedent supports a writ of certiorari being sought by anyone with
an interest in the outcome of a matter, including wrongly denied intervenors, the House Leaders
join in this Petition to both demonstrate the unanimity of the General Assembly in this matter, and
because they plan to seek a writ of certiorari from the United States Supreme Court. See United
States v. Int'l Bhd. of Teamsters, 931 F.2d 177, 183–84 (2d Cir.1991) (quoting Hispanic Soc'y v.
N.Y. City Police Dep't, 806 F.2d 1147, 1152 (2d Cir.1986), aff'd, Marino v. Ortiz, 484 U.S. 301,
108 S.Ct. 586, 98 L.Ed.2d 629 (1988)); Kaplan v. Rand, 192 F.3d 60, 67 (2d Cir.1999) ((“The
question therefore is whether the putative appellant can identify an ‘affected interest.’”).

2

143

Second, the decision violates the Elections Clause, Article I, § 4 cl. 1 of the
United States Constitution, by seizing control of setting the times, places, and
manner of federal elections from the state legislature. Although this Court has the
final say on the substantive law of Pennsylvania, the Elections Clause of the United
States Constitution vests the authority to regulate the times, places, and manner, of
federal elections to Pennsylvania’s General Assembly, subject only to alteration by
Congress, not this Court. U.S. Const. Art. I, § 4. The General Assembly has not
delegated authority to alter these regulations to the Pennsylvania Judiciary, yet this
Court’s decision fundamentally changes the policy decisions inherent in the General
Assembly’s duly enacted election laws. This Court has substituted its will for the
will of the General Assembly and this substitution usurps the authority vested in the
General Assembly by the Elections Clause. U.S. Const. Art. I, § 4.
For these reasons, Intervenor Respondents request that this Court stay the
portions of its decision: (1) forcing election officials to accept ballots received after
election day to be counted even if they lack a legible postmark; and, (2) extending
the absentee and mail-in ballot deadline past Election Day, pending the disposition
of Intervenor Respondents’ forthcoming petition for writ of certiorari to the United
States Supreme Court.

3

144

ARGUMENT
I.

THE COURT SHOULD STAY ITS DECISION PENDING APPEAL.
On an application for stay pending appeal, the movant must (1) “make a

substantial case on the merits,” (2) “show that without the stay, irreparable injury
will be suffered,” and (3) that “the issuance of the stay will not substantially harm
other interested parties in the proceedings and will not adversely affect the public
interest.” Maritrans G.P., Inc. v. Pepper, Hamilton & Scheetz, 573 A.2d 1001, 1003
(1990); see also Hollingsworth v. Perry, 558 U.S. 183, 190 (2010) (enunciating
similar considerations for stay applications to the United States Supreme Court). All
of these elements are met here.
A. Intervenor Respondents Are Likely To Succeed On Appeal.
There is, at minimum, a “reasonable probability” that the United States
Supreme Court will take the Intervenor Respondents’ forthcoming appeal and a “fair
prospect” that it will reverse this Court’s decision. See Hollingsworth, 558 U.S. at
190 (enunciating stay standards). The Court’s decision violates federal law because
its mandate to accept late ballots lacking a legible postmark permits individuals to
cast votes after Election Day, creating multiple election days in contravention of 2
U.S.C. § 7, 2 U.S.C. § 1, and 3 U.S.C. § 1. The Court’s decision also intrudes on
power delegated expressly to Pennsylvania’s legislative processes under the

4

145

Elections Clause of the federal Constitution, presenting an issue of federal law long
overdue for definitive resolution by the United States Supreme Court.
1. The Decision Violates Federal Law By Permitting Votes After
Election Day.
The Elections Clause also provides Congress with the authority to make laws
prescribing “[t]he times, places and manner of holding elections for senators and
representatives . . . .” U.S. Const. art. I, § 4, cl. 1. Consistent with the Elections
Clause, in 1872 Congress established a national uniform election day for choosing
members of the House of Representatives by enacting, which provides: “[t]he
Tuesday next after the 1st Monday in November, in every even numbered year, is
established as the day for the election, in each of the States and Territories of the
United States, of Representatives and Delegates to the Congress commencing on the
3d day of January next thereafter.” 2 U.S.C. § 7.
Likewise, Congress has set the same date for the selection of presidential
electors: “[t]he electors of President and Vice President shall be appointed, in each
State, on the Tuesday next after the first Monday in November, in every fourth year
succeeding every election of a President and Vice President.” 3 U.S.C. § 1; see also
U.S. Const. art. II, § 1, cl. 4 (“The Congress may determine the time of choosing the
electors, and the day on which they shall give their votes; which day shall be the
same throughout the United States.”). Upon ratification of the Seventeenth
Amendment, Congress adopted a similar provision respecting the election of
5

146

Senators. See 2 U.S.C. § 1; see also Foster v. Love, 522 U.S. 67, 69-70 (1997). In
combination these provisions “mandate[] holding all elections for Congress and the
Presidency on a single day throughout the Union.” Foster, 522 U.S. at 69-70.
Although these statutes clearly establish one uniform “Federal Election Day”
throughout the nation, the omission of a definition of the term “election” has led the
United States Supreme Court to comment on the opacity of the statutory language at
issue in this case, particularly regarding the precise acts that the statutes require a
State to perform on that day. Foster, 522 U.S. at 72. Accordingly, courts have turned
to the statutes’ legislative history for guidance. See Blum v. Stenson, 465 U.S. 886,
896 (1984)).
By establishing a uniform date for holding federal elections, Congress sought
“to remedy more than one evil arising from the election of members of congress
occurring at different times in the different states.” Ex Parte Yarbrough, 110 U.S.
651, 661 (1884). Specifically, a review of the legislative history of these provisions
demonstrates that Congress wanted to, inter alia, prevent States that voted early from
unduly influencing those voting later and to combat fraud by minimizing the
opportunity for voters to cast ballots in more than one election. Love, 90 F.3d at
1029; Busbee v. Smith, 549 F. Supp. 494, 524 (D.D.C. 1982) (three-judge court),
aff'd, 459 U.S. 1166 (1983). These objectives reflect the importance voting played
in the political debates of the Reconstruction era. Voting Integrity Project, Inc. v.

6

147

Keisling, 259 F.3d 1169, 1172 (9th Cir. 2001) (placing congressional debates over
enactment of 2 U.S.C. § 7 and allowing voting over multiple days in their historical
context).
In advancing these rationales, proponents expressed their understanding of
what establishing a national, uniform federal election day meant. Representative
Butler of Massachusetts, who authored the 1872 law, articulated his aim in
sponsoring the legislation:
The object of this amendment is to provide a uniform time of electing
Representatives in Congress . . . . But on account of the facility for
colonization and repeating among the large central States, New York
holding its election in November, and Ohio, Pennsylvania, and Indiana
holding their elections in October, the privilege is allowed the border
States, if any man is so disposed, of throwing voters across from one
into the other. I think it will be fair for everybody that on the day when
one votes all should vote, and that the whole question should be decided
then.
Cong. Globe, 42d Cong., 2d Sess. 112 (1871) (emphasis added). Representative
Butler further elaborated:
Unless we do fix some time at which, as a rule, Representatives shall
be elected, it will be in the power of each State to fix upon a different
day, and we may have a canvass going on all over the Union at different
times. It gives some states undue advantage. It gives some parties undue
advantage.
Cong. Globe, 42d Cong., 2d Sess. 141 (1871).
In congressional debate over establishing a single national election day, the
Senate even defeated an amendment that would have permitted voting for

7

148

Representatives over multiple days in states that conducted elections for their own
officers on more than one day. Cong. Globe, 42d Cong., 2d Sess. 676-77 (1871).
In Foster v. Love, the United States Supreme Court considered whether
Louisiana’s “open primary” statute conflicted with federal election statutes. 522 U.S.
67, 68 (1997). Under Louisiana law, an open primary was held for congressional
offices in October. Id. All candidates, regardless of party, appeared on the same
ballot. Id. If any candidate received a majority of votes in the primary, he or she was
considered “elected” without any further action on federal election day. Id. The
Court held that Louisiana’s open primary system conflicted with federal election
statutes because the “final selection” of candidates could be “concluded as a matter
of law before the federal election day, with no act in law or in fact to take place on
the date chosen by Congress . . .” Id. at 72. Foster is instructive on the meaning of
“election” under 2 U.S.C. § 7. 522 U.S. at 68. The Court observed that:
When the federal statutes speak of “the election” of a Senator or
Representative, they plainly refer to the combined actions of voters and
officials meant to make a final selection of an officeholder . . . . See N.
Webster, An American Dictionary of the English Language 433 (C.
Goodrich & N. Porter eds. 1869) (defining “election” as ‘the act of
choosing a person to fill an office’). By establishing a particular day as
‘the day’ on which these actions must take place, the statutes simply
regulate the time of the election, a matter on which the Constitution
explicitly gives Congress the final say.
Id. at 71-72 (emphasis added). This Court declined to identify these combined acts
of voters and officials. Id. at 72. But see Lamone v. Capozzi, 396 Md. 53, 83-84 (Md.

8

149

2006) (“The Constitution contemplates an election in terms of the voter, not in terms
of the election process. Moreover . . . there is no dispute that the ‘combined actions’
must occur, that voting must end, on federal election day.” (emphasis added))
(interpreting 2 U.S.C. § 7, Foster, 522 U.S. 67, and Maryland Law). See also Fladell
v. Elections Canvassing Comm'n of Fla., CL 00-10965 AB, CL 00-10970 AB, CL
00-10988 AB, CL 00-10992 AB, CL 00-11000 AB, 2000 Fla. Cir. LEXIS 768, *6*17 (Fla. 15th Jud. Cir. 2000) (“[T]he Constitution of the United States . . . require[s]
that Presidential ‘electors’ be elected on the same day throughout the United States.
(emphasis added)).
a. Requiring Counties To Count Ballots That Are Received By Friday,
November 6, 2020, Even Absent A Postmark Establishing The Ballot
Was Mailed on Election Day, Violates Federal Law.
This Court’s decision provides for a three-day extension of the federal election
in contravention of federal law. Specifically, the decision forces election officials to
accept ballots received by them after election day even if the ballots “lack a postmark
or other proof of mailing, or for which the postmark or other proof of mailing is
illegible.” Slip Op. at 37, n. 26. See also id. at 63. This functionally enables votes
that are cast after election day to be counted if no legible postmark is placed on the
envelope. This creates a scenario where votes will be cast and counted on days after
election day, and is especially troubling given this Court’s sanctioning of unmanned,
unsecured dropboxes in contravention of the statutorily-defined procedures for mail-

9

150

in voting. Id. at 20. The casting and counting of ballots unquestionably constitutes
an “election” under federal law. See Foster. 522 U.S. 67. Accordingly, this Court’s
decision creates multiple federal election days, including after Election Day, and
raises the same concerns of fraud, undue advantage, and non-uniformity which led
to the creation of a Federal Election Day. See Cong. Globe, 42d Cong., 2d Sess. 112
(1871); Cong. Globe, 42d Cong., 2d Sess. 141 (1871); see also Ex Parte Yarbrough,
110 U.S. at 661; Love, 90 F.3d at 1029; Busbee, 549 F. Supp. at 524.
Moreover, the fact that courts have determined that early voting procedures
are consistent with federal law does not save this Court’s decision from illegality. In
those cases, early voting conducted prior to election day was legal because “the final
selection [of candidates] is not made before the federal election day.” Voting
Integrity Project, Inc. v. Bomer, 199 F.3d 773, 776 (5th Cir. 2000). See also Millsaps
v. Thompson, 259 F.3d 535, 545-46 (5th Cir. 2001); Voting Integrity Project, Inc. v.
Keisling, 259 F.3d at 1175-76. This is because the word “election” in 2 U.S.C. § 7,
as interpreted by the United States Supreme Court, means “the combined actions of
voters and officials meant to make a final selection of an office holder.” Foster, 522
U.S. at 71. This Court’s decision, which permits voting after Election Day, is clearly
distinguishable from early voting cases because voting after election day is a
combined action of voters and officials that makes a final selection of an office
holder. See Foster, 522 U.S. at 71. In early voting, voters cast votes prior to election

10

151

day, but, in contrast to the post-election voting in this case, those votes are not
counted immediately. Rather, election officials hold the ballots of early voters until
the close of all polling places on election day, then record the early votes along with
absentee votes. See, e.g., Millsaps v. Thompson, 259 F.3d at 537. Here, under this
Court’s decision, individuals are able to vote and have those votes counted by
election officials after election day. See Foster, 522 U.S. at 71. Because a final
selection of an office holder cannot be made until all votes are counted, post-election
voting necessarily requires a final selection on a day other than election day. This
creates multiple election days in violation of 2 U.S.C. § 7, 2 U.S.C. § 1, and 3 U.S.C.
§ 1.
Accordingly, there is more than a “reasonable probability” that the United
States Supreme Court will hear Intervenor Respondents’ forthcoming appeal and at
least a “fair prospect” that it will reverse this Court’s decision. See Hollingsworth,
558 U.S. at 190.
2. Intervenor Respondents are Likely to Succeed on its Appeal
Because This Court’s Decision Violates The Elections Clause.
This Court’s decision also violates the Elections Clause of the United States
Constitution. See Const. art. I, § 4, cl. 1. The Elections Clause provides that “[t]he
times, places and manner of holding elections for senators and representatives, shall
be prescribed in each State by the legislature thereof; but the Congress may at any
time by law make or alter such regulations, except as to the places of chusing
11

152

Senators.” U.S. Const. art. I, § 4, cl. 1 (emphasis added). The Elections Clause
commits power to regulate congressional elections to “the legislature” of each state
and to “Congress.” Id.
a. The Plain Text and Historical Context of the Elections
Clause Subverts this Court’s Assumption of Legislative
Power.
The Constitution does not delegate any authority regarding the time, place and
manner of elections to state courts. In fact, the Clause specifically excludes them.
The principle that state courts are not delegated any Elections Clause authority is
plain from the provision’s text. The word “legislature” was “not one ‘of uncertain
meaning when incorporated into the Constitution.’” Smiley v. Holm, 285 U.S. 355,
365 (1932) (quoting Hawke v. Smith, 253 U.S. 221, 227 (1920)). The term
“legislature” necessarily differentiates between that body and the “State” of which
it is only a subpart. By empowering one body of the state to prescribe election rules,
the Constitution impliedly denies it to others.
Aside from its plain language, the Elections Clause denies authority to state
judiciaries through several contextual reference points. For example, the power to
regulate federal elections is incidental to the Constitution’s establishment of a
federal government; it is not an inherent state power. U.S. Term Limits, Inc. v.
Thornton, 514 U.S. 779, 806 (1995); Cook v. Gralike, 531 U.S. 510, 522 (2001).
Thus, it “had to be delegated to, rather than reserved by, the states.” Cook, 531 U.S.

12

153

at 522 (quotations omitted). Because the delegation necessarily confines the scope
of power, the term “legislature” is “a limitation upon the state in respect of any
attempt to circumscribe the legislative power” over federal elections. McPherson v.
Blacker, 146 U.S. 1, 25 (1892).
Further, in referencing the “Times, Places and Manner” of elections, the
Elections Clause plainly references what English Parliamentary law called “methods
of proceeding” as to the “time and place of election” to the House of Commons. See
William Blackstone, 1 Blackstone Commentaries *158-59, *170-174. Those “time
and place” “methods” were in turn completely within parliamentary control, beyond
the reach of “the Common Law” and “the Judges.” George Petyt, Lex
Parliamentaria, 9, 36-37, 70, 74-75, 80 (1690); William Blackstone, 1 Blackstone
Commentaries, *146-47. By delegating the procedures of congressional elections to
legislative bodies, the Elections Clause carried forward that English law tradition of
maintaining legislative control, and excluding judicial control, over such matters.
Another contextual reference point for the Elections Clause comes from the
framing debates and early commentaries. Though all concerned parties appreciated
that state legislatures might abuse their authority over election rules, none of them
even proposed that other branches of state government may exercise a check on such
abuse. Instead, they viewed Congress as the exclusive check. See The Federalist No.
59 (Alexander Hamilton). That check, expressed directly in the Constitution’s text,

13

154

parallels the judicial-type functions Congress performs in other quintessentially
legislative affairs, as described in adjacent constitutional provisions. See, e.g., U.S.
Const. art. I, §§ 2-5. It was furthermore assumed that even Congress would exercise
its prerogative to override state legislatures’ regulations only “from an extreme
necessity, or a very urgent exigency.” 1 J. Story, Commentaries on the Constitution
of the United States § 820 (3d ed. 1858). This was because the power “will be so
desirable a boon” in the “possession” of “the state legislatures” that “the exercise of
power” in Congress would (it was thought) be highly unpopular. Id. That state courts
might deprive state legislatures of this “desirable . . . boon” in their “possession”
was beyond belief. Id.
While the authority to regulate congressional elections is conferred by the
federal Constitution on the state legislatures via the Elections Clause, the states also
retain their own plenary power to regulate state elections. See Tex. Democratic Party
v. Abbott, 961 F.3d 389 at 29 (5th Cir. 2020); Tashjian v. Republican Party, 479
U.S. 208, 217 (1986). In either event, the power to regulate and administer elections
is committed to “Congress and state legislatures—not courts.” Coalition v.
Raffensperger, No. 1:20-cv-1677-TCB, 2020 U.S. Dist. LEXIS 86996 at *8-9 (N.D.
Ga. May 14, 2020); Clapper v. Amnesty Int’l USA, 568 U.S. 398, 408 (2013) (“The
law of Article III standing, which is built on separation-of-powers principles, serves

14

155

to prevent the judicial process from being used to usurp the powers of the political
branches.”).
A final point of reference for the Elections Clause comes from its sister
provision found in U.S. Const. art. I, § 1, cl. 2 (the “Electors Clause”). The Electors
Clause particularly “convey[s] the broadest power of determination” and “leaves it
to the legislature exclusively to define the method” of appointment of electors.
McPherson v. Blacker, 146 U.S. 1, 27 (1892). “Thus, the text of the election law
itself, and not just its interpretation by the courts of the States, takes on independent
significance.” Bush v. Gore, 531 U.S. 98, 112–13 (2000) (Rehnquist, J., concurring).
“A significant departure from the legislative scheme for appointing Presidential
electors presents a federal constitutional question,” including when such departure
is carried out by the state judiciary. Id. at 113. “[W]ith respect to a Presidential
election,” state courts must be “mindful of the legislature’s role under Article II in
choosing the manner of appointing electors.” Id. at 114.
Therefore, the plain language, context, and history of the Elections Clause
clearly demonstrate that the Legislature has the primary authority to regulate
elections checked only by the United States Congress.
b. This Court Does Not Possess Legislative Power Pursuant
To The Elections Clause.
“[T]he duty of courts is to interpret laws, not to make them.” Watson v. Witkin,
22 A.2d 17, 23 (Pa. 1941). As such, this Court does not exercise a legislative function
15

156

when it decides cases. And, contrary to what this Court implied in its Opinion, the
General Assembly has never delegated its authority to regulate elections in a blanket
manner to the judiciary. Cf. Slip Op. at 35 (citing 25 P.S. § 3046; In re General
Election-1985, 531 A.2d at 839). Accordingly, this Court has no authority to alter
the General Assembly’s duly enacted prescriptions for federal elections in
Pennsylvania, and doing so violated Article I, Section 4 of the United States
Constitution.
Moreover, the fact that the Court ruled solely on Pennsylvania substantive law
does not save it from violating the Elections Clause. This frustrates the Elections
Clause’s express delegation of authority to “the legislature” because an alleged
conflict between the state constitution’s policy and the state legislature’s policy
requires the state courts to pick one policy over another. This would instigate a battle
between the state’s courts and its legislature, and the Elections Clause plainly sides
with “the legislature” in that dispute.
A state court’s enforcement of constitutional policy prescriptions results in
court-made policy superseding legislative policy. Inferences courts draw from
constitutional rules may be remote and tenuous, whereas an actual enacted policy
undoubtedly reflects the choices of “the legislature.” Accordingly, the United States
Supreme Court has never held that state constitutional provisions purporting to set
time, place, or manner rules or policy limitations on those rules can nullify contrary

16

157

acts of a legislature pursuant to their authority under the Elections Clause. Indeed,
many other state courts, including this one, have concluded that a state constitution
may not “impose a restraint upon the power of prescribing the manner of holding
[federal] elections.” Chase v. Miller, 41 Pa. 403, 409 (1862); In re Plurality
Elections, 8 A. 881, 882 (R.I. 1887). See also In re Op. of Justices, 45 N.H. 595,
601-07 (N.H. 1864); Wood v. State, 142 So. 747, 755 (Miss. 1932) (concurring
opinion); Thomas Cooley et al., TREATISE ON THE CONSTITUTIONAL LIMITATION
WHICH REST UPON THE LEGISLATIVE POWER OF THE STATE OF THE AMERICAN
UNION 903 & n.1 (1903).
c. This Court’s Extension Of the Ballot Receipt Deadline
Violates The Elections Clause.
Pennsylvania’s period for absentee and mail-in ballot submission is
unquestionably a regulation of the times, places, or manner of elections, U.S. Const.
Art. I, § 4, because it regulates the time during which absentee and mail-in ballots
may be submitted to elections officials. See 25 P.S. § 3150.16(c).2 This deadline is
a quintessential example of the General Assembly exercising its authority under the
Elections Clause. See In re Nomination of Driscoll, 847 A.2d 44, 45 n.1 (Pa. 2004)
(stating that a candidate for federal office must “abide by the election procedures in
2

Pennsylvania used to require that absentee ballots be received by the Friday before the election.
The General Assembly changed that in the fall of 2019. See Act 77. The legislature also made
changes again to Pennsylvania’s election code in March of 2020 as the legislature considered the
impact of COVID on the primary. ACT 12. No further change in the receipt deadline was included
in that legislation.

17

158

the Pennsylvania Election Code” because, unless altered by Congress,
Pennsylvania’s General Assembly prescribes the Times, Places and Manner of
holding Elections for Senators and Representatives); In re Guzzardi, 99 A.3d 381,
385-86 (Pa. 2014) (stating that the legislature enacts election related deadlines for
the orderly, efficient, and fair proceedings of elections as well as creating much
needed stability). This federal constitutional grant of authority provides state
legislatures with “a wide discretion in the formulation of a system for the choice by
the people of representatives in Congress.” In re Nomination of Driscoll, 847 A.2d
at 45 n.1.
This Court was “not asked to interpret the statutory language establishing the
received-by deadline for mail-in ballots” because “there is no ambiguity regarding
the deadline set by the General Assembly . . . .” Slip Op. at 32 (emphasis added).
Moreover, this Court was “not asked to declare the language facially
unconstitutional as there is nothing constitutionally infirm about a deadline of 8:00
p.m. on Election Day for the receipt of ballots.” Id. (emphasis added). Instead, this
Court was asked to replace the General Assembly’s policy judgments with its own.3
This Court obliged. This Court’s ruling ignores this Court’s own precedent
establishing that when reviewing challenges to election related statutes,

3

This Court said as much in its opinion. See id. at 32-33. See also id. (“The parties, instead,
question whether the application of the statutory language to the facts of the current unprecedented
situation results in an as-applied infringement of electors’ right to vote.”).

18

159

“Pennsylvania courts may not mitigate the legislatively prescribed outcome through
recourse to equity.” See In re Guzzardi, 99 A.3d at 386. This Court’s view of equity’s
role when interpreting unambiguous statutes is longstanding:
When the rights of a party are clearly established by
defined principles of law, equity should not change or
unsettle those rights. Equity follows the law.” Piper v. Tax
Claim Bureau of Westmoreland County, 910 A.2d 162,
165 (Pa. Cmwlth. 2006) (quoting First Federal Savings
and Loan Association v. Swift, 321 A.2d 895, 897 (Pa.
1974)).
See Crossey, et al. v. Boockvar, et al., No. 266 M.D. 2020, slip op. at 32 (Pa. Comm.
Ct. Sept. 7, 2020) (Leavitt, P.J., amended report and recommendation) (attached as
Ex. A). Voters can vote in person on Election Day. Voters can request and cast their
mail-in ballot beginning 50 days before an election. 25 P.S. §3150.12a. Voters can
choose to wait a week before Election Day to request their ballot. Crossey, slip op.
at 35. Voters can send their ballot via overnight mail or deliver their ballot to the
county election office. See id. at 35-36. This is not a case where the right to vote is
illusory. In fact, in the parallel case where this Court’s designated master held a
hearing, developed a record on the ballot received-by deadline, and subjected
witnesses to cross-examination, the Court found that the United States Postal
Service’s on-time delivery rate in Pennsylvania is higher than the national average,
with 99% of presort First Class mail being received within 3 days of mailing. See id.

19

160

at 21, 36. Pennsylvania’s General Assembly has done everything it can to establish
a voting regime that is easy and accessible, even in the midst of a pandemic.4
This Court’s decision makes precisely the kind of policy choices the Elections
Clause assigned to the various state legislatures. In doing so, this Court has
unconstitutionally usurped the General Assembly’s authority under the Elections
Clause. It is, in fact, the General Assembly’s constitutionally vested duty to regulate
the time, manner and place of federal elections, not the judicial branch’s duty.
Crossey, slip op. at 36. Accordingly, there is at least a “reasonable probability” that
the United States Supreme Court will hear Intervenor Respondents’ forthcoming
appeal and at least a “fair prospect” that it will reverse this Court’s decision. See
Hollingsworth, 558 U.S. at 190; see also Bush v. Palm Beach County Canvassing
Board, 531 U.S. 70, 77 (2000) (“There are expressions in the opinion of the Supreme
Court of Florida that may be read to indicate that it construed the Florida Election
Code without regard to the extent to which the Florida Constitution could, consistent
with Art. II, § 1, cl. 2 circumscribe the legislative power”) (internal quotations
omitted).

4

This Court heavily relies on the USPS’s Marshall Letter. See slip op. at 24-27. But in Crossey,
where witnesses testified concerning the Postal Service’s abilities and were subject to crossexamination, both the Crossey Petitioners’ Postal Service expert and the Senate Intervenors’ expert
agreed that the Postal Service was capable of delivering ballots within Pennsylvania’s statutory
timeline for requesting and receiving ballots. See Crossey, slip op. at 10-11, 30-31, 35. In fact, the
Secretary is spending taxpayer dollars to inform voters to request and mail in their ballot as early
as possible. See id. at 28. There is no evidence establishing that Pennsylvania’s ballot receipt-by
deadline is plainly and palpably unconstitutional. See id. at 35.

20

161

This Court’s decision to extend the received-by deadline and accept untimely
voted ballots constitutes a “significant departure” from the election laws duly
enacted by the General Assembly, “rais[ing] a federal constitutional question” and a
substantial issue on the merits. Bush, 531 U.S. at 112–13 (Rehnquist, J., concurring).
B. The Equitable Factors Support A Stay.
First, Intervenor Respondents, Respondents, and the Commonwealth will
suffer irreparable harm if the case is not stayed. The mere enjoining of validly
enacted legislation amounts to irreparable injury because “any time a State is
enjoined by a court from effectuating statutes enacted by representatives of its
people, it suffers a form of irreparable injury.” Maryland v. King, 133 S. Ct. 1, 3
(2012).
A stay would prevent harm to the public and to the Commonwealth that
otherwise would result from this Court’s Decision. Melvin, 79 A.3d at 1200. The
United States Supreme Court has repeatedly warned that courts should not make or
alter election laws on the eve of elections. See Purcell v. Gonzalez, 549 U.S. 1, 4–5
(2006); Husted v. Ohio State Conference of N.A.A.C.P., 573 U.S. 988 (2014). Such
late changes by judicial fiat can cause widespread “voter confusion,” erode public
“[c]onfidence in the integrity of our electoral process,” and create an “incentive to
remain away from the polls.” Purcell, 549 U.S. at 4–5.

21

162

The Court’s Order will engender confusion and uncertainty about the rules
governing the fast-approaching 2020 General Election. The Commonwealth’s
interest in election integrity and the general public’s interest in predictable
procedures outweighs the private interests advanced by Petitioners here. The citizens
and election administrators of the Commonwealth are familiar with those
procedures. Those citizens and officials have a right to an Election Day at a
predictable time according to predictable procedures that do not overly confuse the
average person or change at a moment’s notice. The public interest weighs
overwhelmingly in favor of the status quo.
The risks to the public and Commonwealth are further exacerbated here
because the United States Supreme Court has made clear that stays are appropriate
to restore postmark deadlines and to prevent a “fundamental[] alter[ation] [of] the
nature of the election” through judicial “[e]xten[sion] [of] the date by which ballots
may be cast by voters [until] after the scheduled election day.” Republican Nat’l
Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1207 (2020). Therefore, a stay
should be granted here.
CONCLUSION
For the forgoing reasons, this Court should stay the portions of its decision:
(1) forcing election officials to accept ballots received after election day to be
counted even if they lack a legible postmark; and, (2) extending the absentee and

22

163

mail-in ballot deadline past Election Day, pending the disposition of Intervenor
Respondents’ forthcoming stay application and petition for writ of certiorari to the
United States Supreme Court.
Dated: September 22, 2020

Respectfully submitted,
Obermayer Rebmann Maxwell & Hippel
LLP
By: /s/ Richard Limburg
Lawrence J. Tabas (ID No. 27815)
Mathieu J. Shapiro (ID No. 76266)
Richard Limburg (ID No. 39598)
Centre Square West
1515 Market St., Suite 3400
Philadelphia, PA 19102
Attorneys for Joseph B. Scarnati III and
Jake Corman
Holtzman Vogel Josefiak Torchinsky
PLLC
By: /s/ Jason B. Torchinsky
Jason B. Torchinsky (Va. ID No. 47481)
Jonathan P. Lienhard (Va. ID No. 41648)
Shawn T. Sheehy (Va. ID No. 82630)
Gineen Bresso (Md. ID No. 9912140076)
Phillip M. Gordon (DC. ID No. 1531277)
45 North Hill Drive, Suite. 100
Warrenton, VA 20186
(540) 341-8808 (P)
(540) 341-8809 (F)
Attorneys for Joseph B. Scarnati III, and
Jake Corman pending approval of
application for admission pro hac vice
HOLLAND & KNIGHT LLP
23

164

By: /s/ Jake Evans
Jake Evans (Admitted Pro Hac Vice)
Georgia Bar No. 797018
James E. DelBello
Pa. ID No. 78638
Hyun Yoon
Pa. ID No. 323706
2929 Arch Street, Suite 800
Philadelphia, PA 19104
CHALMERS & ADAMS LLC
By: /s/ Zachary M. Wallen
Zachary M. Wallen
Pa. ID No. 309176
301 South Hills Village Drive,
No. LL200-420
Pittsburgh, PA 15241
Attorneys for Proposed-Intervenors Speaker
of the Pennsylvania House of
Representatives Bryan Cutler and Majority
Leader of the House of the Pennsylvania
House of Representatives Kerry Benninghoff

24

165

CERTIFICATE OF COMPLIANCE
I hereby certify that this filing complies with the provisions of the Public
Access Policy of the Unified Judicial System of Pennsylvania: Case Records of the
Appellate and Trial Courts that requires filing confidential information and
documents differently than non -confidential information and documents.
By: /s/ Richard Limburg
Date: September 22, 2020

25

166

PROOF OF SERVICE
I, Richard Limburg, hereby certify that I am this day serving the foregoing
Supplemental Brief upon all counsel of record via PACFi1e eService, which service
satisfies the requirements of Pa.R.A.P. 12.
By:
Date: September 22, 2020

26

/s/ Richard Limburg

167

27

168

Received 9/22/2020 9:39:56 AM Supreme Court Middle District

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
No. 133 MM 2020
PENNSYLVANIA DEMOCRATIC PARTY, et al.,
Petitioners,
v.
KATHY BOOCKVAR, et al.,
Respondents.
[PROPOSED] ORDER GRANTING APPLICATION FOR STAY OF THIS
COURT’S OPINION AND ORDER OF SEPTEMBER 17, 2020
AND NOW, this _____ day of September, 2020, upon consideration of
Intervenor Respondents’ Application for Stay of Court’s Order of September 17,
2020, it is hereby ORDERED, ADJUDGED, and DECREED that the Application
is GRANTED.
This Court’s Order of September 17, 2020 as it pertains to the required
extension of the statutory received-by deadline is stayed pending the Intervenor
Respondents’ appeal to the Supreme Court of the United States.
BY THE COURT:
__________________________
J.

APPENDIX E

169
PENNSYLVANIA ELECTION CODE - OMNIBUS AMENDMENTS
Act of Oct. 31, 2019, P.L. 552, No. 77
Cl. 25
Session of 2019
No. 2019-77
SB 421
AN ACT
Amending the act of June 3, 1937 (P.L.1333, No.320), entitled
"An act concerning elections, including general, municipal,
special and primary elections, the nomination of candidates,
primary and election expenses and election contests; creating
and defining membership of county boards of elections;
imposing duties upon the Secretary of the Commonwealth,
courts, county boards of elections, county commissioners;
imposing penalties for violation of the act, and codifying,
revising and consolidating the laws relating thereto; and
repealing certain acts and parts of acts relating to
elections," in preliminary provisions, further providing for
definitions; in the Secretary of the Commonwealth, providing
for requirements for disapproval or decertification of voting
apparatuses and for census outreach; in district election
officers, further providing for compensation of district
election officers; in election districts and polling places,
further providing for restrictions on alteration; in
nomination of candidates, further providing for petition may
consist of several sheets and affidavit of circulator, for
manner of signing nomination petitions and time of
circulating and for nominations by political bodies; in
ballots, further providing for form of official primary
ballot, for form of official election ballot, for number of
ballots to be printed and specimen ballots and for forms of
ballots on file and open to public inspection and ballots
and diagrams to be furnished to candidates and parties; in
voting machines, further providing for requirements of voting
machines and for form of ballot labels on voting machines;
in electronic voting systems, further providing for
requirements of electronic voting systems, for forms, for
election day procedures and the process of voting and for
post election procedures; providing for voting apparatus
bonds; in preparation for and conduct of primaries and
elections, further providing for manner of applying to vote
and persons entitled to vote and voter's certificates and
entries to be made in district register and numbered lists
of voters and challenges, for method of marking ballots and
depositing same in districts in which ballots are used, for
instructions of voters and manner of voting in districts in
which voting machines are used, for count and return of votes
in districts in which ballots are used, for what ballots
shall be counted, manner of counting and defective ballots
and for canvass and return of votes in districts in which
voting machines are used and providing for deadline for
receipt of valid voter registration application, for appeals
and for appeals to court of common pleas; in voting by
qualified absentee electors, further providing for
applications for official absentee ballots, for date of
application for absentee ballot, for approval of application
for absentee ballot, for absentee electors files and lists,
for official absentee voters ballots, for delivering or
mailing ballots, for voting by absentee electors, for
canvassing of official absentee ballots and for public

170
records; providing for voting by qualified mail-in electors;
in returns of primaries and elections, further providing for
manner of computing irregular ballots; providing for
dissemination of information and for jurisdiction; removing
references to the Traffic Court of Philadelphia; and making
related repeals.
The General Assembly of the Commonwealth of Pennsylvania
hereby enacts as follows:
Section 1. Section 102(z.5)(3) of the act of June 3, 1937
(P.L.1333, No.320), known as the Pennsylvania Election Code,
is amended and the section is amended by adding a subsection
to read:
Section 102. Definitions.--The following words, when used
in this act, shall have the following meanings, unless otherwise
clearly apparent from the context:
* * *
(z.5) The words "proof of identification" shall mean:
* * *
(3) For a qualified absentee elector under section 1301 or
a
qualified mail-in elector under section 1301-D:
(i) in the case of an elector who has been issued a current
and valid driver's license, the elector's driver's license
number;
(ii) in the case of an elector who has not been issued a
current and valid driver's license, the last four digits of the
elector's Social Security number;
(iii) in the case of an elector who has a religious
objection to being photographed, a copy of a document that
satisfies paragraph (1); or
(iv) in the case of an elector who has not been issued a
current and valid driver's license or Social Security number,
a copy of a document that satisfies paragraph (2).
(z.6) The words "qualified mail-in elector" shall mean a
qualified elector who is not a qualified absentee elector.
Section 2. The act is amended by adding sections to read:
Section 207. Requirements for Disapproval or Decertification
of Voting Apparatuses.--(a) The Commonwealth may not
disapprove or decertify a voting apparatus in 50% or more
counties until the requirements of this section have been met.
(b) If the Commonwealth intends to make a disapproval or
decertification under subsection (a), the Department of State
must submit a written plan to the President pro tempore of the
Senate, the Speaker of the House of Representatives, the
Appropriations Committee of the Senate, the Appropriations
Committee of the House of Representatives, the State Government
Committee of the Senate and the State Government Committee of
the House of Representatives at least 180 days prior to the
effective date of the replacement voting apparatuses, containing
all of the following information:
(1) The reason for the disapproval or decertification.
(2) The estimated cost to replace the disapproved or
decertified voting apparatus and the plan for how funding will
be obtained to cover the estimated cost.
(3) A plan for replacing the disapproved or decertified
voting apparatus.
(4) The effective date of the replacement voting apparatus.
(c) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:

171
"Electronic voting system" shall have the meaning given to
the term in section 1101-A.
"Voting apparatus" shall mean a kind or type of electronic
voting system that received the approval of the Secretary of
the Commonwealth under section 1105-A.
Section 208. Census Outreach.--The Department of State may
utilize up to $4,000,000 of funds not expended, encumbered or
committed from appropriations from the General Fund for a fiscal
year ending before July 1, 2020, for an executive branch agency,
which is subject to the policy, supervision and control of the
Governor, for communication, administration and assistance
within each county of the Commonwealth for the purpose of
ensuring a complete and accurate census count of the
Commonwealth in the 2020 Federal decennial census. The funds
shall be transferred by the Secretary of the Budget to a
restricted account as necessary to make payments under this
section and, when transferred, are hereby appropriated to carry
out the provisions of this section. The Secretary of the Budget
may make a transfer of funds if the transfer will not result
in a deficit in an appropriation from which funds are
transferred. The Secretary of the Budget shall provide at least
10 days prior notification of a transfer to the chair and
minority chair of the Appropriations Committee of the Senate
and the chair and minority chair of the Appropriations Committee
of the House of Representatives.
Section 3. Sections 412.2, 536(a) and (b), 630.1, 908, 909,
910, 951(d), 976, 981.1, 993(a), 998(a) and (b), 1002(a) and
(b), 1003(a) and (e), 1004, 1007, 1008, 1107(b), 1110(h),
1107-A(3), 1109-A(a)(2) and (d), 1112-A(a)(2) and (4) and (b)(4)
and 1113-A(d) of the act are amended to read:
Section 412.2. Compensation of District Election
Officers.--(a) In all counties regardless of class, [the
compensation of] judges of election, inspectors of election,
clerks and machine operators shall be paid compensation as fixed
by the county board of elections for each election [in
accordance with the following:
Election Officers
Minimum
Maximum
Compensation
Compensation
Judges of election
$75
$200
Inspectors of election
$75
$195
Clerks and machine operators
$70
$195]
, which amount shall be at least $75 and not more than $200.
(a.1) An election officer shall receive additional
compensation, as fixed by the county board of elections, for
participating in election training.
(a.2) A judge of election shall receive additional
compensation, as fixed by the county board of elections, for
picking up and returning election materials.
(b) If a county board of elections authorizes that the
duties of a clerk of elections or machine operator may be
performed by two individuals who each perform [such] the duties
for one-half of an election day, [such individuals shall each]
each individual shall be compensated at one-half of the rate
authorized for a single individual who performs the duties for
the entire election day.
(c) The county board of elections may[, in its discretion,]
establish different per diem rates within [the minima and maxima
provided for in] minimum and maximum rates provided for under
subsection (a) based on the number of votes cast for the
following groups:
(1) 150 votes or fewer.
(2) 151 to 300 votes.

172
(3) 301 to 500 votes.
(4) 501 to 750 votes.
(5) 751 votes and over.
(d) For transmitting returns of elections and the ballot
box or boxes, all judges of election shall be entitled to
receive the additional sum of [twenty dollars ($20)] $20.
(e) The county board of elections may[, in its discretion,]
require the minority inspector of election to accompany the
judge of election in transmitting the returns of elections, in
which case the minority inspector of election shall be entitled
to receive the additional sum of [twenty dollars ($20)] $20.
(f) The [person] individual furnishing transportation to
the judge of election and the minority inspector in transmitting
returns and ballot boxes shall be entitled to a minimum of
[thirty-five cents (35¢)] 35¢ per circular mile from the polling
place to the county court house. The name of [such person] the
individual shall appear on the voucher of the judge of
election[, and only one person shall] and only one individual
may receive mileage compensation.
(h) When a primary and special election or a special
election and a general or municipal election take place on the
same date, [they] the elections shall be construed as one
election for the purpose of receiving compensation.
(i) Compensation and other payments received by election
officials [pursuant to] under this section shall not be deemed
income classified and categorized under section 303 of the act
of March 4, 1971 (P.L.6, No.2), known as the "Tax Reform Code
of 1971."
Section 536. Restrictions on Alteration.--(a) Except as
provided in subsection (b), there shall be no power to
establish, abolish, divide, consolidate or alter in any manner
an election district during the period [July 15, 2009] from
December 31, 2019, through November 30, [2012] 2022, or through
resolution of all judicial appeals to the [2012] 2022
Congressional Redistricting Plan, whichever occurs later.
(b) During the period from [July 15, 2009] December 31,
2019, through December 31, [2010] 2020, an election district
may be divided or election districts may be combined if the
following are met:
(1) In the case of the division of an election district,
the boundary of each resulting district is composed entirely
of clearly visible physical features conforming with the census
block lines or portions of the original boundary of the election
district which was divided.
(2) In the case of the combination of election districts,
the boundary of each resulting district is composed entirely
of portions of the original boundaries of the election districts
which were combined.
* * *
Section 630.1. Affidavits of Candidates.--Each candidate
for any State, county, city, borough, incorporated town,
township, school district or poor district office, or for the
office of United States Senator or Representative in Congress,
selected as provided in section 630 of this act, shall file
with the nomination certificate an affidavit stating--(a) his
residence, with street and number, if any, and his post-office
address; (b) his election district, giving city, borough, town
or township; (c) the name of the office for which he consents
to be a candidate; (d) that he is eligible for such office; (e)
that he will not knowingly violate any provision of this act,
or of any law regulating and limiting election expenses and
prohibiting corrupt practices in connection therewith; (f)

173
unless he is a candidate for judge of a court of common pleas,
the Philadelphia Municipal Court [or the Traffic Court of
Philadelphia,] or for the office of school board in a district
where that office is elective or for the office of justice of
the peace, that he is not a candidate for the same office of
any party or political body other than the one designated in
such certificate; (g) that he is aware of the provisions of
section 1626 of this act requiring election and post-election
reporting of campaign contributions and expenditures; and (h)
that he is not a candidate for an office which he already holds,
the term of which is not set to expire in the same year as the
office subject to the affidavit.
Section 908. Manner of Signing Nomination Petitions; Time
of Circulating.--Each signer of a nomination petition shall
sign but one such petition for each office to be filled, and
shall declare therein that he is a registered and enrolled
member of the party designated in such petition: Provided,
however, That where there are to be elected two or more persons
to the same office, each signer may sign petitions for as many
candidates for such office as, and no more than, he could vote
for at the succeeding election. He shall also declare therein
that he is a qualified elector of the county therein named, and
in case the nomination is not to be made or candidates are not
to be elected by the electors of the State at large, of the
political district therein named, in which the nomination is
to be made or the election is to be held. He shall add his
[residence] address
where he is duly registered and enrolled,
giving city, borough or township, with street and number, if
any, and shall legibly print his name and add the date of
signing, expressed in words or numbers: Provided, however, That
if the said political district named in the petition lies wholly
within any city, borough or township, or is coextensive with
same, it shall not be necessary for any signer of a nomination
petition to state therein the city, borough or township of his
residence. No nomination petition shall be circulated prior to
the thirteenth Tuesday before the primary, and no signature
shall be counted unless it bears a date affixed not earlier
than the thirteenth Tuesday nor later than the tenth Tuesday
prior to the primary.
Section 909. Petition May Consist of Several Sheets;
[Affidavit] Statement of Circulator.--Said nomination petition
may be on one or more sheets, and different sheets must be used
for signers resident in different counties. If more than one
sheet is used, they shall be bound together when offered for
filing if they are intended to constitute one petition, and
each sheet shall be numbered consecutively beginning with number
one, at the foot of each page. In cases of petitions for
delegate or alternate delegate to National conventions, each
sheet shall contain a notation indicating the presidential
candidate to whom he is committed or the term "uncommitted."
Each sheet shall have appended thereto the [affidavit] statement
of the circulator of each sheet, setting forth, subject to the
penalties of 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities)--(a) that he or she is a qualified
elector of the Commonwealth, who is duly registered and enrolled
as a member of the [designated party of the State, or of the
political district, as the case may be, referred to] party
designated in said petition, unless said petition relates to
the nomination of a candidate for a court of common pleas, for
the Philadelphia Municipal Court [or for the Traffic Court of
Philadelphia] or for justice of the peace, in which event the
circulator need not be a duly registered and enrolled member

174
of the designated party; (b) his residence, giving city, borough
or township, with street and number, if any; (c) that the
signers thereto signed with full knowledge of the contents of
the petition; (d) that their respective residences are correctly
stated therein; (e) that they all reside in the county named
in the [affidavit] statement; (f) that each signed on the date
set opposite his name; and (g) that, to the best of [affiant's]
the circulator's knowledge and belief, the signers are qualified
electors and duly registered and enrolled members of the
designated party of the State, or of the political district,
as the case may be.
Section 910. Affidavits of Candidates.--Each candidate for
any State, county, city, borough, incorporated town, township,
ward, school district, poor district, election district, party
office, party delegate or alternate, or for the office of United
States Senator or Representative in Congress, shall file with
his nomination petition his affidavit stating--(a) his
residence, with street and number, if any, and his post-office
address; (b) his election district, giving city, borough, town
or township; (c) the name of the office for which he consents
to be a candidate; (d) that he is eligible for such office; (e)
that he will not knowingly violate any provision of this act,
or of any law regulating and limiting nomination and election
expenses and prohibiting corrupt practices in connection
therewith; (f) unless he is a candidate for judge of a court
of common pleas, the Philadelphia Municipal Court [or the
Traffic Court of Philadelphia,] or for the office of school
director in a district where that office is elective or for the
office of justice of the peace that he is not a candidate for
nomination for the same office of any party other than the one
designated in such petition; (g) if he is a candidate for a
delegate, or alternate delegate, member of State committee,
National committee or party officer, that he is a registered
and enrolled member of the designated party; (h) if he is a
candidate for delegate or alternate delegate the presidential
candidate to whom he is committed or the term "uncommitted";
(i) that he is aware of the provisions of section 1626 of this
act requiring pre-election and post-election reporting of
campaign contributions and expenditures; and (j) that he is not
a candidate for an office which he already holds, the term of
which is not set to expire in the same year as the office
subject to the affidavit. In cases of petitions for delegate
and alternate delegate to National conventions, the candidate's
affidavit shall state that his signature to the delegate's
statement, as hereinafter set forth, if such statement is signed
by said candidate, was affixed to the sheet or sheets of said
petition prior to the circulation of same. In the case of a
candidate for nomination as President of the United States, it
shall not be necessary for such candidate to file the affidavit
required in this section to be filed by candidates, but the
post-office address of such candidate shall be stated in such
nomination petition.
Section 951. Nominations by Political Bodies.--* * *
(d) Nomination papers may be on one or more sheets and
different sheets must be used for signers resident in different
counties. If more than one sheet is used, they shall be bound
together when offered for filing if they are intended to
constitute one nomination paper, and each sheet shall be
numbered consecutively, beginning with number one (1) at the
foot of each page. Each sheet shall have appended thereto the
[affidavit] statement of some person, not necessarily a signer,
and not necessarily the same person on each sheet, setting

175
forth, subject to the penalties of 18 Pa.C.S. § 4904 (relating
to unsworn falsification to authorities)--[(1) that the affiant
is a qualified elector of the State, or of the electoral
district, as the case may be, referred to in the nomination
paper;] (2) [his] the person's residence, giving city, borough
or township with street and number, if any; (3) that the signers
signed with full knowledge of the contents of the nomination
paper; (4) that their respective residences are correctly stated
therein; (5) that they all reside in the county named in the
[affidavit] statement; (6) that each signed on the date set
opposite his name; and (7) that, to the best of [affiant's] the
person's knowledge and belief, the signers are qualified
electors of the State, or of the electoral district, as the
case may be.
* * *
Section 976. Examination of Nomination Petitions,
Certificates and Papers; Return of Rejected Nomination
Petitions, Certificates and Papers.--When any nomination
petition, nomination certificate or nomination paper is
presented in the office of the Secretary of the Commonwealth
or of any county board of elections for filing within the period
limited by this act, it shall be the duty of the said officer
or board to examine the same. No nomination petition, nomination
paper or nomination certificate shall be permitted to be filed
if--(a) it contains material errors or defects apparent on the
face thereof, or on the face of the appended or accompanying
affidavits; or (b) it contains material alterations made after
signing without the consent of the signers; or (c) it does not
contain a sufficient number of signatures as required by law;
Provided, however, That the Secretary of the Commonwealth or
the county board of elections, although not hereby required so
to do, may question the genuineness of any signature or
signatures appearing thereon, and if he or it shall thereupon
find that any such signature or signatures are not genuine,
such signature or signatures shall be disregarded in determining
whether the nomination petition, nomination paper or nomination
certificate contains a sufficient number of signatures as
required by law; or (d) in the case of nomination petitions,
if nomination petitions have been filed for printing the name
of the same person for the same office, except the office of
judge of a court of common pleas, the Philadelphia Municipal
Court [or the Traffic Court of Philadelphia,] or the office of
school director in districts where that office is elective or
the office of justice of the peace upon the official ballot of
more than one political party; or (e) in the case of nomination
papers, if the candidate named therein has filed a nomination
petition for any public office for the ensuing primary, or has
been nominated for any such office by nomination papers
previously filed; or (f) if the nomination petitions or papers
are not accompanied by the filing fee or certified check
required for said office; or (g) in the case of nomination
papers, the appellation set forth therein is identical with or
deceptively similar to the words used by any existing party or
by any political body which has already filed nomination papers
for the same office, or if the appellation set forth therein
contains part of the name, or an abbreviation of the name or
part of the name of an existing political party, or of a
political body which has already filed nomination papers for
the same office. The invalidity of any sheet of a nomination
petition or nomination paper shall not affect the validity of
such petition or paper if a sufficient petition or paper remains
after eliminating such invalid sheet. The action of said officer

176
or board in refusing to receive and file any such nomination
petition, certificate or paper, may be reviewed by the court
upon an application to compel its reception as of the date when
it was presented to the office of such officer or board:
Provided, however, That said officer or board shall be entitled
to a reasonable time in which to examine any petitions,
certificates or papers, and to summon and interrogate the
candidates named therein, or the persons presenting said
petitions, certificates or papers, and his or their retention
of same for the purpose of making such examination or
interrogation shall not be construed as an acceptance or filing.
Upon completion of any examination, if any nomination
petition, certificate or paper is found to be defective, it
shall forthwith be rejected and returned to the candidate or
one of the candidates named therein, together with a statement
of the reasons for such rejection:
Provided further, That no nomination petition, nomination
paper or nomination certificate shall be permitted to be filed,
if the political party or political body referred to therein
shall be composed of a group of electors whose purposes or aims,
or one of whose purposes or aims, is the establishment, control,
conduct, seizure or overthrow of the Government of the
Commonwealth of Pennsylvania or the United States of America
by the use of force, violence, military measure or threats of
one or more of the foregoing. The authority to reject such
nomination petition, paper or certificate for this reason shall,
when filed with the Secretary of the Commonwealth, be vested
in a committee composed of the Governor, the Attorney General
and the Secretary of the Commonwealth, and when filed with any
county board of elections shall be vested in such board. If in
such case the committee or board, as the case may be, shall
conclude that the acceptance of such nomination petition, paper
or certificate should be refused, it shall within two days of
the filing of such nomination petition, paper or certificate
fix a place and a time five days in advance for hearing the
matter, and notice thereof shall be given to all parties
affected thereby. At the time and place so fixed the committee
or board, as the case may be, shall hear testimony, but shall
not be bound by technical rules of evidence. The testimony
presented shall be stenographically recorded and made a part
of the record of the committee or board. Within two days after
such hearing the committee or board, if satisfied upon competent
evidence that the said nomination petition, paper or certificate
is not entitled to be accepted and filed, it shall announce its
decision and immediately notify the parties affected thereby.
Failure to announce decision within two days after such hearing
shall be conclusive that such nomination petition, paper or
certificate has been accepted and filed. The decision of said
committee or board in refusing to accept and file such
nomination petition, paper or certificate may be reviewed by
the court upon an application to compel its reception as of the
date when presented to the Secretary of the Commonwealth or
such board. The application shall be made within two days of
the time when such decision is announced. If the application
is properly made, any judge of said court may fix a time and
place for hearing the matter in dispute, of which notice shall
be served with a copy of said application upon the Secretary
of the Commonwealth or the county board of elections, as the
case may be. At the time so fixed, the court, or any judge
thereof assigned for the purpose, shall hear the case de novo.
If after such hearing the said court shall find that the
decision of the committee or the board was erroneous, it shall

177
issue its mandate to the committee or board to correct its
decision and to accept and file the nomination paper, petition
or certificate. From any decision of the court an appeal may
be taken within two days after the entry thereof. It shall be
the duty of the said court to fix the hearing and to announce
its decision within such period of time as will permit the
Secretary of the Commonwealth or the county board of elections
to permit the names of the candidates affected by the court's
decision to be printed on the ballot, if the court should so
determine.
Section 981.1. Affidavits of Candidates.--Each candidate
for any State, county, city, borough, incorporated town,
township, ward, school district, poor district or election
district office, or for the office of United States Senator or
Representative in Congress, selected as provided in sections
979 and 980 of this act, shall file with the substituted
nomination certificate an affidavit stating--(a) his residence,
with street and number, if any, and his post-office address;
(b) his election district, giving city, borough, town or
township; (c) the name of the office for which he consents to
be a candidate; (d) that he is eligible for such office; (e)
that he will not knowingly violate any provision of this act,
or of any law regulating and limiting election expenses and
prohibiting corrupt practices in connection therewith; (f)
unless he is a candidate for judge of a court of common pleas,
the Philadelphia Municipal Court [or the Traffic Court of
Philadelphia,] or for the office of school board in a district
where that office is elective or for the office of justice of
the peace, that he is not a candidate for the same office of
any party or political body other than the one designated in
such certificate; (g) that he is aware of the provisions of
section 1626 of this act requiring election and post-election
reporting of campaign contributions and expenditures; and (h)
that he is not a candidate for an office which he already holds,
the term of which is not set to expire in the same year as the
office subject to the affidavit.
Section 993. Filling of Certain Vacancies in Public Office
by Means of Nomination Certificates and Nomination Papers.--(a)
In all cases where a vacancy shall occur for any cause in an
elective public office, including that of judge of a court of
record, at a time when such vacancy is required by the
provisions of the Constitution or the laws of this Commonwealth
to be filled at the ensuing election but at a time when
nominations for such office cannot be made under any other
provision of this act, nominations to fill such vacancies shall
be made by political parties in accordance with party rules
relating to the filling of vacancies by means of nomination
certificates in the form prescribed in section nine hundred
ninety-four of this act, and by political bodies by means of
nomination papers in accordance with the provisions of sections
nine hundred fifty-one, nine hundred fifty-two and nine hundred
fifty-four of this act. No such nomination certificate shall
nominate any person who has already been nominated by any other
political party or by any political body for the same office
unless such person is a candidate for the office of judge of a
court of common pleas, the Philadelphia Municipal Court [or the
Traffic Court of Philadelphia,] or for the office of school
director in districts where that office is elective or for the
office of justice of the peace. No such nomination papers shall
nominate any person who has already been nominated by any
political party or by any other political body for any office
to be filled at the ensuing November election, unless such

178
person is a candidate for the office of judge of a court of
common pleas, the Philadelphia Municipal Court [or the Traffic
Court of Philadelphia,] or for the office of school director
in districts where that office is elective or for the office
of justice of the peace.
* * *
Section 998. Substituted Nominations to Fill Certain
Vacancies for a November Election.--(a) Any vacancy happening
or existing in any party nomination made in accordance with the
provisions of section nine hundred ninety-three of this act for
a November election by reason of the death or withdrawal of any
candidate may be filled by a substituted nomination made by
such committee as is authorized by the rules of the party to
make nominations in the event of vacancies on the party ticket,
in the form prescribed by section nine hundred ninety-four of
this act. But no substituted nomination certificate shall
nominate any person who has already been nominated by any other
political party or by any political body for the same office,
unless such person is a candidate for the office of judge of a
court of common pleas, the Philadelphia Municipal Court [or the
Traffic Court of Philadelphia,] or for the office of school
director in districts where that office is elective or for the
office of justice of the peace.
(b) In case of the death or withdrawal of any candidate
nominated by a political body for an election, the committee
named in the original nomination papers may nominate a
substitute in his place by filing a substituted nomination
certificate in the form and manner prescribed by section nine
hundred eighty of this act. In the case of a vacancy caused by
the death of any candidate, said nomination certificate shall
be accompanied by a death certificate properly certified. No
substituted nomination certificate shall nominate any person
who has already been nominated by any political party or by any
other political body for any office to be filled at the ensuing
November election, unless such person is a candidate for the
office of judge of a court of common pleas, the Philadelphia
Municipal Court [or the Traffic Court of Philadelphia,] or for
the office of school director in districts where that office
is elective or for the office of justice of the peace.
* * *
Section 1002. Form of Official Primary Ballot.--(a) At
primaries separate official ballots shall be prepared for each
party which shall be in substantially the following form:
Official............................... Primary Ballot.
(Name of Party)
........District,........Ward, City of........................,
County of..............................., State of Pennsylvania
........Primary election held on the.....day of........., 19...
Make a cross (X) or check (ˆš) in the square to the right
of each candidate for whom you wish to vote. If you desire to
vote for a person whose name is not on the ballot, write[, print
or paste] or stamp his name in the blank space provided for
that purpose. Mark ballot only in black lead pencil, indelible
pencil or blue, black or blue-black ink in fountain pen or ball
point pen. Use the same pencil or pen for all markings you place
on the ballot.
President of the United States.
(Vote for one)
John Doe
Richard Roe
John Stiles
United States Senator.

179
(Vote for one)
John Doe
Richard Roe
John Stiles
Governor.
(Vote for one)
John Doe
Richard Roe
John Stiles
Representative in Congress.....District.
(Vote for one)
John Doe
Richard Roe
John Stiles
Delegates at Large to National Convention.
(Vote for.....)
John Doe
(Committed to Jeremiah Smith)
John Stiles
(Uncommitted)
Delegate to National Convention.....District.
(Vote for.....)
John Doe
(Committed to Jeremiah Smith)
John Stiles
(Uncommitted)
Senator in the General Assembly.....District.
(Vote for one)
John Doe
Richard Roe
John Stiles
Member of State Committee.
(Vote for one)
John Doe
Richard Roe
John Stiles
Party Committeemen.
(Vote for.....)
John Doe
Richard Roe
John Stiles
(b) On the back of each ballot shall be printed in prominent
type the words "OFFICIAL PRIMARY BALLOT OF ........PARTY FOR"
followed by the designation of the election district for which
it is prepared, the date of the primary and the facsimile
signatures of the members of the county board of elections. The
names of candidates shall in all cases be arranged under the
title of the office for which they are candidates, and be
printed thereunder in the order determined by the casting of
lots as provided by this act. Under the title of such offices
where more than one candidate is to be voted for, shall be
printed "Vote for not more than ........" (the blank space to
indicate the number of candidates to be voted for the particular
office.) At the right of the name of each candidate there shall
be a square of sufficient size for the convenient insertion of
a cross (x) or check (ˆš) mark. There shall be left at the end
of the list of candidates for each office (or under the title
of the office itself in case there be no candidates who have
filed nomination petitions therefor) as many blank spaces as
there are persons to be voted for, for such office, in which
space the elector may insert, by writing or stamping, the name
of any person whose name is not printed on the ballot as a

180
candidate for such office. Opposite or under the name of each
candidate, except candidates for the office of President of the
United States and candidates for delegate or alternate delegate
to a National Party Convention, who is to be voted for by the
electors of more than one county, shall be printed the name of
the county in which such candidate resides; and opposite or
under the name of each candidate except candidates for delegate
or alternate delegate to a National Party Convention who is to
be voted for by the electors of an entire county or any
congressional, senatorial or representative district within the
county, shall be printed the name of the city, borough, township
or ward, as the case may be, in which such candidate resides.
* * *
Section 1003. Form of Official Election Ballot.-(a) The official ballots for general, municipal and special
elections shall be in substantially the following form:
OFFICIAL BALLOT
....................... District, ........................ Ward,
City of ........................, County of ...................,
State of Pennsylvania ..........................................
Election held on the .......... day of ................, [19]
20.....
A cross (X) or check (ˆš) mark in the square opposite the name
of any candidate indicates a vote for that candidate.
[To vote a straight party ticket, mark a cross (X) or check
(ˆš) in the square, in the Party Column, opposite the name
of the party of your choice. To vote for an individual candidate
of another party after making a mark in the party square, mark
a cross (X) or check (ˆš) opposite his name. For an office where
more than one candidate is to be voted for, the voter, after
marking in the party square, may divide his vote by marking a
cross (X) or check (ˆš) to the right of each candidate for whom
he or she desires to vote. For such office votes shall not be
counted for candidates not individually marked.]
To vote for a person whose name is not on the ballot, write[,
print or paste] or stamp his name in the blank space provided
for that purpose. A cross (X) or check (ˆš) mark in the square
opposite the names of the candidates of any party for President
and Vice-President of the United States indicates a vote for
all the candidates of that party for presidential elector. To
vote for individual candidates for presidential elector, write[,
print or paste] or stamp their names in the blank spaces
provided for that purpose under the title "Presidential
Electors." Mark ballot only in black lead pencil, indelible
pencil or blue, black or blue-black ink, in fountain pen or
ball point pen; use the same pencil or pen for all markings you
place on the ballot.
Before leaving the voting compartment, fold this ballot,
without displaying the markings thereon, in the same way it was
folded when received, then leave the compartment and exhibit
the ballot to one of the election officers who shall ascertain
by an inspection of the number appearing upon the right hand
corner of the back of the ballot whether the ballot so exhibited
to him is the same ballot which the elector received before
entering the voting compartment. If it is the same, the election
officer shall direct the elector, without unfolding the ballot,
to remove the perforated corner containing the number, and the
elector shall immediately deposit the ballot in the ballot box.
Any ballot deposited in a ballot box at any primary or election
without having the said number torn off shall be void and shall
not be counted.
[Party Column
Presidential Electors

181
To Vote a Straight Party Ticket (Vote for the candidates of
Mark a Cross (X) or Check (ˆš)
one party for President and
in this Column.
Vice-President, or insert the
names of candidates.)
For
John Stiles
Democratic
and
Richard Doe,
Democratic ...................
For
John Doe
Republican
and
Richard Roe,
Republican ...................
For
John Smith
Socialist
and
William Jones,
Socialist ....................
Citizens]
Presidential Electors.
(Vote for the candidates of one party for President and Vice
President, or insert the names of candidates)
For
John Stiles and Richard Doe......................... Democratic
For
John Doe and Richard Roe............................ Republican
For
John Smith and William Jones......................... Socialist
For
........................ Citizens
United States Senator.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Governor.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Representatives in Congress,
....... District.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Senator in the General Assembly,
....... District.
(Vote for one)
John Doe ............................................ Democratic
Richard Roe ......................................... Republican
* * *
(e) There shall be left at the end of the group of
candidates for President and Vice-President of the United States
under the title "Presidential Electors," as many blank spaces
as there are presidential electors to be elected, in which
spaces the elector may insert, by writing or stamping, the names
of any individual candidates for presidential electors for whom
he desires to vote. There shall also be left at the end of each
group of candidates for each other office (or under the title
of the office itself in case no candidates have been nominated

182
therefor), as many blank spaces as there are persons to be voted
for for such office, in which space the elector may insert the
name of any person or persons whose name is not printed on the
ballot as a candidate for such office.
* * *
Section 1004. Form of Ballots; Printing Ballots; Stubs;
Numbers.--From the lists furnished by the Secretary of the
Commonwealth under the provisions of sections 915 and 984, and
from petitions and papers filed in their office, the county
election board shall print the official primary and election
ballots in accordance with the provisions of this act: Provided,
however, That in no event, shall the name of any person
consenting to be a candidate for nomination for any one office,
except the office of judge of a court of common pleas, the
Philadelphia Municipal Court [or the Traffic Court of
Philadelphia,] or the office of school director in districts
where that office is elective or the office of justice of the
peace be printed as a candidate for such office upon the
official primary ballot of more than one party. All ballots for
use in the same election district at any primary or election
shall be alike. They shall be at least six inches long and four
inches wide, and shall have a margin extending beyond any
printing thereon. They shall be printed with the same kind of
type (which shall not be smaller than the size known as
"brevier" or "eight point body") upon white paper of uniform
quality, without any impression or mark to distinguish one from
another, and with sufficient thickness to prevent the printed
matter from showing through. Each ballot shall be attached to
a stub, and all the ballots for the same election district shall
be bound together in books of fifty, in such manner that each
ballot may be detached from its stub and removed separately.
The ballots for each party to be used at a primary shall be
bound separately. The stubs of the ballots shall be
consecutively numbered, and in the case of primary ballots, the
number shall be preceded by an initial or abbreviation
designating the party name. The number and initial or
abbreviation which appears upon the stub shall also be printed
in the upper right hand corner of the back of the ballot,
separated from the remainder of the ballot by a diagonal
perforated line so prepared that the upper right hand corner
of the back of the ballot containing the number may be detached
from the ballot before it is deposited in the ballot box and
beside that corner shall also be printed, "Remove numbered stub
immediately before depositing your ballot in ballot box."
Section 1007. Number of Ballots to Be Printed; Specimen
Ballots.--(a) The county board of each county shall provide
for each election district [in which a primary is to be held,
one book of fifty official ballots of each party for every
forty-five registered and enrolled electors of such party and
fraction thereof, appearing upon the district register, and
shall provide for each election district in which an election
is to be held one book of fifty official ballots for every
forty-five registered electors and fraction thereof appearing
upon the district register. They] a supply of official election
ballots
for:
(1) the general primary election held in even-numbered years
in which candidates for the office of President of the United
States are not nominated in an amount of at least 10% greater
than the highest number of ballots cast in the election district
in any of the previous three general primary elections at which
candidates for the office of President of the United States
were not nominated;

183
(2) the general primary election held in even-numbered years
in which candidates for the office of President of the United
States are nominated in an amount of at least 15% greater than
the highest number of ballots cast in the election district in
any of the previous three general primary elections at which
candidates for the office of President of the United States
were nominated;
(3) the municipal primary election held in odd-numbered
years in an amount of at least 10% greater than the highest
number of ballots cast in any of the previous three municipal
primary elections in the election district;
(4) the general election held in even-numbered years in
which candidates for the office of President of the United
States are not elected in an amount of at least 10% greater
than the highest number of ballots cast in the election district
in any of the previous three general elections at which
candidates for the office of President of the United States
were not elected;
(5) the general election held in even-numbered years in
which candidates for the office of President of the United
States are elected in an amount of at least 15% greater than
the highest number of ballots cast in the election districts
in any of the previous three general elections at which
candidates for the office of President of the United States
were elected; and
(6) the municipal election held in odd-numbered years in
an amount of at least 10% greater than the highest number of
ballots cast in any of the previous three municipal elections
in the election district.
(b) The county board of each county shall also, in addition
to the number of ballots required to be printed for general
distribution, maintain a sufficient supply of such ballots at
the office of the county board for the use of absentee electors
or mail-in electors and for the use of any district, the ballots
for which may be lost, destroyed or stolen. They shall also
cause to be printed on tinted paper, and without the facsimile
endorsements, permanent binding or stubs, copies of the form
of ballots provided for each polling place at each primary or
election therein, which shall be called specimen ballots, and
which shall be of the same size and form as the official
ballots, and at each election they shall deliver to the election
officers, in addition to the official ballots to be used at
such election, a suitable supply of specimen ballots for the
use of the electors. At each primary, a suitable supply of
specimen ballots of each party shall be furnished.
Section 1008. Forms of Ballots on File and Open to Public
Inspection; Ballots and Diagrams to Be Furnished to Candidates
and Parties.-(a) The county board of elections shall have on file in its
office[, on and] after the Thursday [preceding] before each
primary and election, open to public inspection, forms of the
ballots and ballot labels[, with the names and such statements
and notations as may be required by the provisions of this act,
printed thereon, which shall be used in each election district
within the county]. The forms of the ballots and ballot labels
shall be published on the county board's publicly accessible
Internet website.
(b) On the Thursday [preceding] before each primary, the
county board shall, upon request made at their office, [there]
deliver to each candidate whose name is printed on the ballot
of any party, or to his authorized representative, without
charge, three [specimen] sample ballots of such party for the

184
entire district [in which such candidate is to be voted for,
and the candidate may, at his own expense, have printed on
different colored paper as many copies as he requires for
conducting his campaign].
(c) On the Thursday [preceding] before each November
election, the county board shall, upon request made at their
office, [there] deliver to the county chairman or other
authorized representative of each political party and political
body in the county, without charge, two [specimen] sample
ballots [or diagrams] for each election district within the
county in which candidates of such party or political body are
[to be voted for, and such political party or political body
may, at its own expense, have printed on different colored paper
as many copies as it requires for conducting its campaign.]
running for office.
Section 1107. Requirements of Voting Machines.--No voting
machine shall, upon any examination or reexamination, be
approved by the Secretary of the Commonwealth, or by any
examiner appointed by him, unless it shall, at the time, satisfy
the following requirements:
* * *
[(b) It shall permit each voter, at other than primary
elections, to vote a straight political party ticket in one
operation, and, in one operation, to vote for all the candidates
of one political party for presidential electors, and, in one
operation, to vote for all the candidates of one political party
for every office to be voted for, except those offices as to
which he votes for individual candidates.]
* * *
Section 1110. Form of Ballot Labels on Voting Machines.-* * *
(h) The names of all candidates of a political party shall
appear in the same row or column, and except in cases of names
of presidential commitments of nominees for delegate or
alternate delegate to political party National conventions no
other names shall appear in the same row or column[, to the
left or top of which shall be a straight party lever, by means
of which an elector may, in one operation, vote for all the
candidates of that political party for every office to be voted
for]. Where the names of the delegate or alternate delegate and
the presidential candidate he is supporting shall both appear,
the print size of the name of the delegate or alternate delegate
shall be equal to the size of the name of the particular
presidential candidate to whom he is committed, or in the case
where he is uncommitted, the word "uncommitted" shall appear
in the same size print. The names of such candidates shall be
arranged under or opposite the title of the office for which
they are candidates, and shall appear in the order of the votes
obtained by the candidate for Governor of the party nominated
at the last gubernatorial election, beginning with the party
obtaining the highest number of votes: Provided, however, That
in the case of parties or bodies not represented on the ballot
at the last gubernatorial election, the names of the candidates
of such parties shall be arranged alphabetically, according to
the party or body name. The names of all candidates of a
political body shall appear in the same row or column, and, if
the number of parties and bodies permits, each political body
shall be entitled exclusively to a separate row or column[,
with a straight party lever]. If, however, the number of
political parties and political bodies renders it impossible
or impracticable to so arrange the political bodies, in such
case said bodies shall not be entitled to a separate row or

185
column [and a straight party lever], but shall be listed by
political appellations on the first left hand or top row, with
the designating letter and number of the ballot label where
their candidates may be found, together with the political
appellations of other political bodies, whose candidates may
be interspersed on the same row or column. Subject to the
aforesaid limitations, the form and arrangement of ballot
labels, as to the placing thereon of political bodies, shall
be within the discretion of the county board.
* * *
Section 1107-A. Requirements of Electronic Voting
Systems.--No electronic voting system shall, upon any
examination or reexamination, be approved by the Secretary of
the Commonwealth, or by any examiner appointed by him, unless
it shall be established that such system, at the time of such
examination or reexamination:
* * *
[(3) Permits each voter, at other than primary elections,
to vote a straight political party ticket by one mark or act
and, by one mark or act, to vote for all the candidates of one
political party for presidential electors and, by one mark or
act, to vote for all the candidates of one political party for
every office to be voted for, and every such mark or act shall
be equivalent to and shall be counted as a vote for every
candidate of the political party so marked including its
candidates for presidential electors, except with respect to
those offices as to which the voter has registered a vote for
individual candidates of the same or another political party
or political body, in which case the automatic tabulating
equipment shall credit the vote for that office only for the
candidate individually so selected, notwithstanding the fact
that the voter may not have individually voted for the full
number of candidates for that office for which he was entitled
to vote.]
* * *
Section 1109-A. Forms.--(a) * * *
(2) The pages placed on the voting device shall be of
sufficient number to include, following the listing of
particular candidates, the names of candidates for any
nonpartisan offices and any measures for which a voter may be
qualified to vote on a given election day, provided further
that for municipal, general or special elections, the first
ballot page shall list in the order that such political parties
are entitled to priority on the ballot, the names of such
political parties [with designating arrows so as to indicate
the voting square or position on the ballot card where the voter
may insert by one mark or punch the straight party ticket of
his choice].
* * *
[(d) In partisan elections the ballot cards shall include
a voting square or position whereby the voter may by one punch
or mark record a straight party ticket vote for all the
candidates of one party or may vote a split ticket for the
candidates of his choice.]
* * *
Section 1112-A. Election Day Procedures and the Process of
Voting.--(a) In an election district which uses an electronic
voting system in which votes are registered electronically, the
following procedures will be applicable for the conduct of the
election at the election district:
* * *

186
(2) At [primary] all elections, the voter shall be able to
vote for each candidate individually by the means provided. [At
all other elections, he may vote for each candidate
individually, or he may vote a straight political party ticket
in one operation by operating the straight political party
mechanism of the political party or political body of his
choice. He may also, after having operated the straight party
mechanism and before recording his vote, cancel the vote for
any candidate of such political party or political body and may
thereupon vote for a candidate of another party, or political
body for the same office.] The voter may also vote individually
for or against a question submitted to the vote of the electors.
* * *
(4) At any general election at which presidential electors
are to be chosen, each elector shall be permitted to vote by
one operation for all the presidential electors of a political
party or political body. For each party or body nominating
presidential electors, a ballot label shall be provided
containing only the words "Presidential Electors," preceded by
the names of the party or body and followed by the names of the
candidates thereof for the Office of President and
Vice-President, and the corresponding counter or registering
device shall register votes cast for said electors when thus
voted for collectively. If any elector desires to vote a ticket
for presidential electors made up of the names of persons
nominated by different parties or bodies, or partially of names
of persons so in nomination and partially of names of persons
not in nomination by any party or body, he may write or deposit
a paper ballot prepared by himself in the receptacle provided
in or on the voting device for that purpose, or he may list
their names on the write-in ballot or envelope provided for
that purpose. The voting device shall be so constructed that
it will not be possible for any one voter to vote a straight
party ticket for presidential electors and at the same time to
deposit a ballot for presidential electors in a receptacle as
[hereinabove] provided in this section. When the votes for
presidential electors are counted, the votes appearing upon the
counter or registering device corresponding to the ballot label
containing the names of the candidates for President and
Vice-President of any party or body shall be counted as votes
for each of the candidates for presidential elector of such
party or body, and thereupon all candidates for presidential
elector shall be credited, in addition, with the votes cast for
them upon the ballots deposited in the machine, as [hereinabove]
provided in
this section.
* * *
(b) In an election district which uses an electronic voting
system which utilizes paper ballots or ballot cards to register
the votes, the following procedures will be applicable for the
conduct of the election at the election district:
* * *
(4) [If the voter desires to vote for every candidate of a
political party or political body, except its candidates for
offices as to which he votes for individual candidates in the
manner hereinafter provided, he may make a cross (X) or check
(ˆš) or punch or mark sense mark in the square opposite the
name of the party or political body so marked, including its
candidates for presidential electors, except for those offices
as to which he has indicated a choice for individual candidates
of the same or another party or political body, by making a
cross (X) or check (ˆš) or punch or mark sense mark opposite
their names in the manner hereinabove provided, as to which

187
offices his ballot shall be counted only for the candidates
which he has thus individually marked, notwithstanding the fact
that he made a mark in the party column, and even though in the
case of an office for which more than one candidate is to be
voted for, he has not individually marked for such office the
full number of candidates for which he is entitled to vote.]
If he desires to vote for the entire group of presidential
electors nominated by any party or political body, he may make
a cross (X) or check (ˆš) or punch or mark sense mark in the
appropriate space opposite the names of the candidates for
President and Vice-President of such party or body. If he
desires to vote a ticket for presidential electors made up of
the names of persons nominated by different parties or political
bodies, or partially of names of persons so in nomination and
partially of names of persons not in nomination by any party
or political body, or wholly of names of persons not in
nomination by any party or political body, he shall insert, by
writing or stamping, the names of the candidates for
presidential electors for whom he desires to vote in the blank
spaces provided therefor on the write-in ballot under the title
of the office "Presidential Electors". In case of a question
submitted to the vote of the electors, he may make a cross (X)
or check (ˆš) or punch or mark sense mark in the appropriate
square opposite the answer which he desires to give.
* * *
Section 1113-A. Post Election Procedures.--* * *
(d) In returning any votes cast for any person whose name
is not printed on the official ballot, the election officers
shall record any such names exactly as they were written[,
stamped or applied to the ballot by sticker] or stamped.
* * *
Section 3.1. The act is amended by adding an article to
read:
ARTICLE XI-B
VOTING APPARATUS BONDS
Section 1101-B. Definitions.
The following words and phrases when used in this article
shall have the meanings given to them in this section unless
the context clearly indicates otherwise:
"Account." The County Voting Apparatus Reimbursement Account
established under section 1106-B.
"Authority." The Pennsylvania Economic Development Financing
Authority.
"Bond." Any type of revenue obligation, including a bond
or series of bonds, note, certificate or other instrument,
issued by the authority for the benefit of the department under
this article.
"Bond administrative expenses." Expenses incurred to
administer bonds as provided under the Financing Law, or as
otherwise necessary to ensure compliance with applicable Federal
or State law.
"Bond obligations." The principal of a bond and any premium
and interest payable on a bond, together with any amount owed
under a related credit agreement or a related resolution of the
authority authorizing a bond.
"Credit agreement." A loan agreement, a revolving credit
agreement, an agreement establishing a line of credit, a letter
of credit or another agreement that enhances the marketability,
security or creditworthiness of a bond.
"Department." The Department of State of the Commonwealth.
"Election security equipment." Information technology such
as intrusion detection sensors and other infrastructure deployed

188
to enhance the security of voting apparatus and election systems
by detecting and reporting hacking attempts and other election
security breaches.
"Electronic voting system." As defined in section 1101-A.
"Financing Law." The act of August 23, 1967 (P.L.251,
No.102), known as the Economic Development Financing Law.
"Voting apparatus." A kind or type of electronic voting
system that received the approval of the Secretary of the
Commonwealth under section 1105-A.
Section 1102-B. Bond issuance.
(a) Declaration of policy.--The General Assembly finds and
declares that funding the replacement of voting apparatuses,
including interest, through the authority, is in the best
interest of this Commonwealth.
(b) Authority.--Notwithstanding any other law, the following
shall apply:
(1) The department may be a project applicant under the
Financing Law and may apply to the authority for the funding
of the replacement of voting apparatuses.
(2) The authority may issue bonds under the Financing
Law, consistent with this article, to finance projects to
fund the replacement of county voting apparatuses or to
reimburse counties for their cost to purchase or enter into
capital leases for voting apparatuses.
(3) Participation of an industrial and commercial
development authority shall not be required to finance the
replacement of voting apparatuses.
(c) Debt or liability.-(1) Bonds issued under this article shall not be a debt
or liability of the Commonwealth and shall not create or
constitute any indebtedness, liability or obligation of the
Commonwealth.
(2) Bond obligations and bond administrative expenses
shall be payable solely from revenues or money pledged or
available for repayment as authorized under this article.
This paragraph shall include the proceeds of any issuance
of bonds.
(3) Each bond shall contain on its face a statement
that:
(i) the authority is obligated to pay the principal
or interest on the bonds only from the revenues or money
pledged or available for repayment as authorized under
this article;
(ii) neither the Commonwealth nor a county is
obligated to pay the principal or interest; and
(iii) the full faith and credit of the Commonwealth
or any county is not pledged to the payment of the
principal of or the interest on the bonds.
Section 1103-B. Criteria for bond issuance.
(a) Determination.--If the department decertifies one or
more voting apparatuses that are in use in any county of this
Commonwealth, the department shall apply to the authority to
issue bonds for reimbursements to each county for the cost of
procuring new voting apparatuses.
(a.1) Issuance.--Bonds may be issued in one or more series,
and each series may finance reimbursement grants to one or more
counties.
(b) Terms.-(1) The department, with the approval of the Office of
the Budget, shall specify in its application to the
authority:

189
(i) the maximum principal amount of the bonds for
each bond issue; and
(ii) the maximum term of the bonds consistent with
applicable law.
(2) The total principal amount for all bonds issued
under this article may not exceed $90,000,000.
(3) The term of the bonds issued under this article may
not exceed 10 years from the respective date of original
issuance.
(c) Expiration.--For the purpose of this article,
authorization to issue bonds, not including refunding bonds,
shall expire December 31, 2020.
Section 1104-B. Issuance of bonds, security and sources of
payments.
(a) Issuance.--The authority shall consider issuance of
bonds upon application by the department. Bonds issued under
this article shall be subject to the provisions of the Financing
Law, unless otherwise specified under this article.
(b) Service agreement authorized.--The authority and the
department may enter into an agreement or service agreement to
effectuate this article, including an agreement to secure bonds
issued for the purposes under section 1102-B(b), pursuant to
which the department shall agree to pay the bond obligations
and bond administrative expenses to the authority in each fiscal
year that the bonds or refunding bonds are outstanding in
amounts sufficient to timely pay in full the bond obligations,
bond administrative expenses and any other financing costs due
on the bonds issued for the purposes under section 1102-B(b).
The department's payment of the bond obligations, bond
administrative expenses and other financing costs due on the
bonds as service charges under an agreement or service agreement
shall be subject to and dependent upon the appropriation of
funds by the General Assembly to the department for payment of
the service charges. The service agreement may be amended or
supplemented by the authority and the department in connection
with the issuance of any series of bonds or refunding bonds
authorized under this section.
(c) Security.--Bond obligations and bond administrative
expenses may be secured, for the benefit of the holders of the
bonds and the obligees under credit agreements or the agreements
under subsection (b), by pledge of a security interest in and
first lien on the following:
(1) Money relating to the bonds held on deposit in any
other fund or account under an instrument or agreement
pertaining to the bonds, including bond reserves and interest
income on the money.
(2) The security provided under this subsection shall
not apply to money in any fund relating to arbitrage rebate
obligations.
Section 1105-B. Sale of bonds.
The authority shall offer the bonds for sale by means of a
public, competitive sale or by means of a negotiated sale based
on the authority's determination of which method will produce
the most benefit to counties and the Commonwealth.
Section 1106-B. Deposit of bond proceeds.
The net proceeds of bonds, other than refunding bonds,
exclusive of costs of issuance, reserves and any other financing
charges, shall be transferred by the authority to the State
Treasurer for deposit into a restricted account established in
the State Treasury and held solely for the purposes under
section 1102-B(b) to be known as the County Voting Apparatus
Reimbursement Account. The department shall pay out the bond

190
proceeds to the counties from the account in accordance with
this article.
Section 1107-B. Payment of bond-related obligations.
For each fiscal year in which bond obligations and bond
administrative expenses will be due, the authority shall notify
the department of the amount of bond obligations and the
estimated amount of bond administrative expenses in sufficient
time, as determined by the department, to permit the department
to request an appropriation sufficient to pay bond obligations
and bond administrative expenses that will be due and payable
in the following fiscal year. The authority's calculation of
the amount of bond obligations and bond administrative expenses
that will be due shall be subject to verification by the
department.
Section 1108-B. Commonwealth not to impair bond-related
obligations.
The Commonwealth pledges that it shall not do any of the
following:
(1) Limit or alter the rights and responsibilities of
the authority or the department under this article, including
the responsibility to:
(i) pay bond obligations and bond administrative
expenses; and
(ii) comply with any other instrument or agreement
pertaining to bonds.
(2) Alter or limit the service agreement under section
1104-B(b).
(3) Impair the rights and remedies of the holders of
bonds, until each bond issued at any time and the interest
on the bond are fully met and discharged.
Section 1109-B. (Reserved).
Section 1110-B. Personal liability.
The members, directors, officers and employees of the
department and the authority shall not be personally liable as
a result of good faith exercise of the rights and
responsibilities granted under this article.
Section 1111-B. Annual report.
No later than March 1 of the year following the first full
year in which bonds have been issued under this article and for
each year thereafter in which bond obligations existed in the
prior year, the department shall submit an annual report to the
chair and minority chair of the Appropriations Committee of
the Senate, the chair and minority chair of the Appropriations
Committee of the House of Representatives, the chair and
minority chair of the State Government Committee of the Senate
and the chair and minority chair of the State Government
Committee of the House of Representatives providing all data
available on bonds issued or existing in the prior year. The
report shall include existing and anticipated bond principal,
interest and administrative costs, revenue, repayments,
refinancing, overall benefits to counties and any other relevant
data, facts and statistics that the department believes
necessary in the content of the report.
Section 1112-B. Reimbursement of county voting apparatus
expenses.
(a) Application.--A county may apply to the department to
receive funding to replace the county's voting apparatuses or
to reimburse the county's cost to purchase or lease by capital
lease voting apparatuses. Each county shall submit an
application for funding on a form containing information and
documentation prescribed by the department no later than July
1, 2020.

191
(b) Documentation for prior purchase or lease.--If a county
seeks reimbursement of the county's cost to purchase or lease
by capital lease a voting apparatus that the county purchased
or leased before the date that the county submits its
application to the department, the county's application shall
include documentation prescribed by the department to
substantiate the county's cost to purchase or lease the voting
apparatus, including copies of fully executed voting apparatus
contracts, invoices and proof of payment to the vendor of the
voting apparatus.
(c) Documentation for subsequent purchase or lease.--If a
county seeks funding to purchase or lease by capital lease a
voting apparatus that the county will purchase or lease after
the date that the county submits its application to the
department, the county's application shall include documentation
prescribed by the department to substantiate the county's
estimate to purchase or lease the voting apparatus, including
copies of fully executed voting apparatus contracts, bids or
price quotes submitted to the county by voting apparatus vendors
and other price estimates or cost proposals.
(d) Review.--The department shall review each county
application on a rolling basis and shall either approve or deny
each county's application within 90 days of the date the
application is received by the department. A county may
supplement or amend submitted applications during the 90-day
review period in consultation with the department.
(e) Approval for prior purchase or lease.--If the department
approves a county's application submitted under subsection (b),
the department and the county shall enter into a written grant
agreement through which the department shall reimburse the
county at the amount determined under subsection (g).
(f) Approval for subsequent purchase or lease.--If the
department approves a county's application under subsection
(c), the department and the county shall enter into a written
grant agreement through which the department will provide
funding to reimburse the county's cost to purchase or lease a
voting apparatus at the amount determined under subsection (g).
The county shall hold the grant money in an account of the
county that is separate from each other county account. The
county shall deliver quarterly reports to the department of the
voting apparatus costs paid from the grant money in a form
prescribed by the department. The county shall return any
unspent grant money to the department within 30 days of the
expiration of the grant agreement.
(g) Payments.-(1) A county shall only receive amounts under this
section to the extent that the department has bond proceeds
available in the account from which to make payments.
(2) Except as provided under paragraph (3), a county
which submitted an application approved under subsection (e)
or (f) shall receive 60% of the total amount submitted under
subsection (b) or (c) which may be reimbursed or paid.
(3) If the total amount submitted by all counties under
paragraph (2) exceeds the total amount available for
reimbursement or payment, a county shall receive a portion
of the amount available equal to the total amount submitted
by the county under subsection (b) or (c) which may be
reimbursed or paid, divided by the total amount submitted
by all counties under subsection (b) or (c) which may be
reimbursed or paid.
(4) If any bond proceeds remain after the department
has issued all reimbursements in accordance with paragraphs

192
(1), (2) and (3), the department may utilize the remaining
balance for grants for counties for the purchase and
distribution to the counties of election security equipment.
The department shall provide notice to each county no later
than 30 days prior to receiving applications for grants under
this paragraph.
(h) Certification.--A county shall only receive the
reimbursement or funding under this article after making a
certification to the department, the President pro tempore of
the Senate, the Speaker of the House of Representatives, the
Minority Leader of the Senate, the Minority Leader of the House
of Representatives, the chair and minority chair of the
Appropriations Committee of the Senate, the chair and minority
chair of the Appropriations Committee of the House of
Representatives, the chair and minority chair of the State
Government Committee of the Senate and the chair and minority
chair of the State Government Committee of the House of
Representatives that the county has completed a program under
25 Pa.C.S. § 1901(b)(1) (relating to removal of electors) and
mailed notices required under 25 Pa.C.S. § 1901(b)(3) within
the prior 12 months. The certification shall include information
on whether the county has undertaken a canvass under 25 Pa.C.S.
§ 1901(b)(2).
(i) Department application.--The department shall apply to
the authority for funding under section 1102-B only if the
department has approved county applications under this article
which total at least $50,000,000.
Section 3.2. Sections 1210(a.4)(1) and (5)(ii), 1215(b) and
(c), 1216(d) and (f), 1222, 1223(a) and 1227(d) of the act are
amended to read:
Section 1210. Manner of Applying to Vote; Persons Entitled
to Vote; Voter's Certificates; Entries to Be Made in District
Register; Numbered Lists of Voters; Challenges.--* * *
(a.4) (1) At all elections an individual who claims to be
properly registered and eligible to vote at the election
district but whose name does not appear on the district register
and whose registration cannot be determined by the inspectors
of election or the county election board shall be permitted to
cast a provisional ballot. Individuals who appear to vote shall
be required to produce proof of identification pursuant to
subsection (a) and if unable to do so shall be permitted to
cast a provisional ballot. An individual presenting a judicial
order to vote shall be permitted to cast a provisional ballot.
An
elector who appears to vote on election day having
requested an
absentee ballot or mail-in ballot and who is not
shown on the
district register as having voted an absentee
ballot or mail-in
ballot shall be permitted to cast a
provisional ballot.
* * *
(5) * * *
(ii) A provisional ballot shall not be counted if:
(A) either the provisional ballot envelope under clause (3)
or the affidavit under clause (2) is not signed by the
individual;
(B) the signature required under clause (3) and the
signature required under clause (2) are either not genuine or
are not executed by the same individual;
(C) a provisional ballot envelope does not contain a secrecy
envelope;
(D) in the case of a provisional ballot that was cast under
subsection (a.2)(1)(i), within six calendar days following the
election the elector fails to appear before the county board

193
of elections to execute an affirmation or the county board of
elections does not receive an electronic, facsimile or paper
copy of an affirmation affirming, under penalty of perjury,
that the elector is the same individual who personally appeared
before the district election board on the day of the election
and cast a provisional ballot and that the elector is indigent
and unable to obtain proof of identification without the payment
of a fee; [or]
(E) in the case of a provisional ballot that was cast under
subsection (a.2)(1)(ii), within six calendar days following the
election, the elector fails to appear before the county board
of elections to present proof of identification and execute an
affirmation or the county board of elections does not receive
an electronic, facsimile or paper copy of the proof of
identification and an affirmation affirming, under penalty of
perjury, that the elector is the same individual who personally
appeared before the district election board on the day of the
election and cast a provisional ballot[.]; or
(F) the elector's absentee ballot or mail-in ballot is
timely received by a county board of elections.
* * *
Section 1215. Method of Marking Ballots and Depositing Same
in Districts in Which Ballots are Used.--* * *
(b) At primaries, the elector shall prepare his ballot in
the following manner: He shall vote for the candidates of his
choice for nomination or election, according to the number of
persons to be voted for by him, for each office, by making a
cross (X) or check (ˆš) mark in the square opposite the name
of the candidate, or he may insert by writing[,] or stamping
[or sticker,] in the blank space provided therefor, any name
not already printed on the ballot, and such insertion shall
count as a vote without the making of a cross (X) or check (ˆš)
mark. In districts in which paper ballots or ballot cards are
electronically tabulated, stickers or labels may not be used
to mark ballots.
(c) At elections, the elector shall prepare his ballot in
the following manner: He may vote for the candidates of his
choice for each office to be filled according to the number of
persons to be voted for by him for each office, by making a
cross (X) or check (ˆš) mark in the square opposite the name
of the candidate, or he may insert by writing[,] or stamping
[or sticker,] in the blank spaces provided therefor, any name
not already printed on the ballot, and such insertion shall
count as a vote without the making of a cross (X) or check (ˆš)
mark. In districts in which paper ballots or ballot cards are
electronically tabulated, stickers or labels may not be used
to mark ballots. If he desires to vote for every candidate of
a political party or political body, except its candidates for
offices as to which he votes for individual candidates in the
manner hereinafter provided, he may make a cross (X) or check
(ˆš) mark in the square opposite the name of the party or
political body of his choice in the party column on the left
of the ballot, and every such cross (X) or check (ˆš) mark shall
be equivalent to and be counted as a vote for every candidate
of a party or political body so marked, including its candidates
for presidential electors, except for those offices as to which
he has indicated a choice for individual candidates of the same
or another party or political body, by making a cross (X) or
check (ˆš) mark opposite their names in the manner hereinabove
provided, as to which offices his ballot shall be counted only
for the candidates which he has thus individually marked,
notwithstanding the fact that he made a mark in the party

194
column, and even though in the case of an office for which more
than one candidate is to be voted for, he has not individually
marked for such office the full number of candidates for which
he is entitled to vote. If he desires to vote for the entire
group of presidential electors nominated by any party or
political body, he may make a cross (X) or check (ˆš) mark in
the appropriate square at the right of the names of the
candidates for President and Vice-President of such party or
body. If he desires to vote a ticket for presidential electors
made up of the names of persons nominated by different parties
or political bodies, or partially of names of persons so in
nomination and partially of names of persons not in nomination
by any party or political body, or wholly of names of persons
not in nomination by any party or political body, he shall
insert, by writing or stamping, the names of the candidates for
presidential electors for whom he desires to vote in the blank
spaces provided therefor under the title of the office
"Presidential Electors." In case of a question submitted to the
vote of the electors, he may make a cross (X) or check (ˆš)
mark in the appropriate square opposite the answer which he
desires to give.
* * *
Section 1216. Instructions of Voters and Manner of Voting
in Districts in Which Voting Machines are Used.-* * *
(d) At [primaries, he] all elections, the elector shall
vote for each candidate individually by operating the key,
handle, pointer or knob, upon or adjacent to which the name of
such candidate is placed. [At elections, he may vote for each
candidate individually by operating the key, handle, pointer
or knob, upon or adjacent to which the names of candidates of
his choice are placed, or he may vote a straight political party
ticket in one operation by operating the straight political
party lever of the political party or political body of his
choice, if such machine has thereon a separate lever for all
the candidates of the political body. He may also, after having
operated the straight party lever, and before recording his
vote, cancel the vote for any candidate of such political party
or political body by replacing the individual key, handle,
pointer or knob of such candidate, and may thereupon vote for
a candidate of another party, or political body for the same
office by operating the key, handle, pointer or knob, upon or
adjacent to which the name of such candidate appears.] In the
case of a question submitted to the vote of the electors, the
elector shall operate the key, handle, pointer or knob
corresponding to the answer which he desires to give.
* * *
(f) At any general election at which presidential electors
are to be chosen, each elector shall be permitted to vote by
one operation for all the presidential electors of a political
party or political body. For each party or body nominating
presidential electors, a ballot label shall be provided
containing only the words "Presidential Electors," preceded by
the names of the party or body and followed by the names of the
candidates thereof for the office of President and
Vice-President, and the corresponding counter or registering
device shall register votes cast for said electors when thus
voted for collectively. If an elector desires to vote a ticket
for presidential electors made up of the names of persons
nominated by different parties or bodies, or partially of names
of persons so in nomination and partially of names of persons
not in nomination by any party or body, or wholly of names of

195
persons not in nomination by any party or body, he may write
or deposit a paper ballot prepared by himself in the receptacle
provided in or on the machine for the purpose. The machine shall
be so constructed that it will not be possible for any one voter
to vote a straight party ticket for presidential electors and
at the same time to deposit a ballot for presidential electors
in a receptacle as [hereinabove] provided in this section. When
the votes for presidential electors are counted, the votes
appearing upon the counter or registering device corresponding
to the ballot label containing the names of the candidates for
President and Vice-President of any party or body shall be
counted as votes for each of the candidates for presidential
elector of such party or body, and thereupon all candidates for
presidential elector shall be credited, in addition, with the
votes cast for them upon the ballots deposited in the machine,
as [hereinabove] provided in this section.
* * *
Section 1222. Count and Return of Votes in Districts in
Which Ballots are Used.-(a) As soon as all the ballots have been properly accounted
for, and those outside the ballot box, as well as the "Voting
Check List," numbered lists of voters and district register
sealed, the election officers shall forthwith open the ballot
box, and take therefrom all ballots therein, and at primaries,
separate the same according to the party to which they belong.
The ballots shall then be counted one by one, and a record made
of the total number, and at primaries of the total number cast
for each party. Then the judge, under the scrutiny of the
minority inspector, or the minority inspector, under the
scrutiny of the judge, in the presence of the other officers,
clerks, and of the overseers, if any, and within the hearing
and sight of the watchers outside the enclosed space, shall
read aloud the names of the candidates marked or inserted upon
each ballot (at primaries the ballots of each party being read
in sequence), together with the office for which the person
named is a candidate, and the answers contained on the ballots
to the questions submitted, if any, and the majority inspector
and clerks shall carefully enter each vote as read, and keep
account of the same in ink in triplicate tally papers
(triplicate tally papers for each party at primaries) to be
provided by the county board of elections for that purpose, all
three of which shall be made at the same time.[: Provided, That
at all general, municipal and special elections, in entering
each vote received by candidates at such election, it shall not
be necessary to enter separate tally marks for each vote
received by such candidates upon the ballots containing the
same votes for the same names, commonly known, and in this act
designated as "Straight Party Tickets" for such purpose straight
party ticket votes shall be entered carefully as each straight
party ticket vote is read on the triplicate tally sheets under
the heading "Number of votes received upon the
.............................. straight party tickets." Upon
completing the number of votes received by each straight party
ticket, the number so tallied for each party shall be entered
numerically on the extreme right hand margin of each such tally
paper.] All ballots, after being removed from the box, shall
be kept within the unobstructed view of all persons in the
voting room until replaced in the box. No person while handling
the ballots shall have in his hand any pencil, pen, stamp or
other means of marking or spoiling any ballot. The election
officers shall forthwith proceed to canvass and compute the

196
votes cast, and shall not adjourn or postpone the canvass or
computation until it shall have been fully completed.
(b) When the vote cast for the different persons named upon
the ballots and upon the questions, if any, appearing thereon,
shall have been fully recorded in the tally papers and counted,
the election officers shall duly certify to the number of votes
cast for each person (upon the respective party tickets at
primaries), and shall prepare in ink two (2) general returns,
showing, in addition to the entries made thereon as aforesaid,
the total number of ballots received from the county board (the
total of each party at primaries), the number of ballots cast
(the number of each party at primaries), the number of ballots
(of each party at primaries) declared void, and the number of
ballots spoiled and cancelled, and any blank ballots cast, as
well as the votes cast for each candidate. At elections, the
number of votes cast for each candidate by each political party
or political body of which such candidate is a nominee shall
be separately stated.[: Provided, That the number of votes
received by each set of candidates upon "straight party tickets"
shall be entered opposite the names of the respective candidates
in a column immediately adjoining upon the left which column
shall be of convenient width and shall be headed "number of
votes received upon straight party tickets."] In an immediate
column to the left thereto, the number of votes received by
each candidate upon all ballots [other than "straight party
tickets" including all ballots known as "split tickets"] shall
be entered, such column to be of convenient width and shall be
headed "number of votes [received other than upon straight party
tickets." The number of votes received by each candidate as
shown in the column headed "number of votes received upon
straight party tickets" shall then be added, together with the
number of votes received by each candidate as shown in the
column headed "number of votes received other than upon straight
party tickets" and thereupon, the] received." The total number
of votes received by each candidate shall be entered in a column
on the extreme right-hand side of the return sheets, which
column shall be of convenient width and shall be headed "total
number of votes."
Nothing in this section contained shall be construed to
authorize or permit the canvassing, counting or tallying ballots
with any less degree of strictness than otherwise required by
law.[, the intention of this section being to dispense with the
individual tally marks only so far as the so-called "straight
party tickets" are concerned, and all other operations of
tallying, counting, canvassing and announcing the votes shall
proceed as near as may be in accordance with the other
provisions of this act.]
(c) In returning any votes cast for any person whose name
is not printed on the ballot, the election officers shall record
any such names exactly as they were written[,] or stamped [or
applied to] upon the ballot [by sticker]. In districts in which
paper ballots or ballot cards are electronically tabulated,
stickers or labels may not be used to mark ballots. A vote cast
by means of a sticker or label affixed to a ballot or ballot
card shall be void and may not be counted.
Section 1223. What Ballots Shall Be Counted; Manner of
Counting; Defective Ballots.--(a) No ballot which is so marked
as to be capable of identification shall be counted. Any ballot
that is marked in blue, black or blue-black ink, in fountain
pen or ball point pen, or black lead pencil or indelible pencil,
shall be valid and counted: Provided, That all markings on the
ballot are made by the same pen or pencil. Any ballot marked

197
by any other mark than an (X) or check (ˆš) in the spaces
provided for that purpose shall be void and not counted:
Provided, however, That no vote recorded thereon shall be
declared void because a cross (X) or check (ˆš) mark thereon
is irregular in form. [Any erasure, mutilation or defective
marking of the straight party column at November elections shall
render the entire ballot void, unless the voter has properly
indicated his choice for candidates in any office block, in
which case the vote or votes for such candidates only shall be
counted.] Any erasure or mutilation in the vote in any office
block shall render void the vote for any candidates in said
block, but shall not invalidate the votes cast on the remainder
of the ballot, if otherwise properly marked. Any ballot
indicating a vote for any person whose name is not printed on
the ballot, by writing[, stamping or sticker] or stamping, shall
be counted as a vote for such person, if placed in the proper
space or spaces provided for that purpose, whether or not an
(X) or check (ˆš) is placed after the name of such person:
Provided, however, That if such writing[, stamping or sticker]
or stamping is placed over the name of a candidate printed on
the ballot, it shall render the entire vote in said office block
void. In districts in which paper ballots or ballot cards are
electronically tabulated, stickers or labels may not be used
to mark ballots. A vote cast by means of a sticker or label
affixed to a ballot or ballot card shall be void and may not
be counted. If an elector shall mark his ballot for more persons
for any office than there are candidates to be voted for for
such office, or if, for any reason, it may be impossible to
determine his choice for any office, his ballot shall not be
counted for such office, but the ballot shall be counted for
all offices for which it is properly marked. Ballots not marked,
or improperly or defectively marked, so that the whole ballot
is void, shall be set aside and shall be preserved with the
other ballots.
* * *
Section 1227. Canvass and Return of Votes in Districts in
Which Voting Machines are Used.--* * *
(d) The election officers, on the foregoing returns, shall
record any votes which have been cast for a person whose name
is not printed on the ballot labels, by means of an irregular
ballot, as defined herein. In returning any such votes which
have been written[,] or deposited [or affixed] upon receptacles
or devices provided for the purpose, the election officers shall
record any such names exactly as they were written[,] or
deposited [or affixed].
Section 4. The act is amended by adding sections to read:
Section 1231. Deadline for Receipt of Valid Voter
Registration Application.--(a) Except as provided under
subsection (b), each commission, commissioner and registrar or
clerk appointed by the commission shall receive, during ordinary
business hours and during additional hours as the commission
prescribes, at the office of the commission and at additional
places as the commission designates, applications from
individuals who apply to be registered to vote as provided under
25 Pa.C.S. Pt. IV (relating to voter registration) who appear
and claim that they are entitled to be registered as electors
of a municipality.
(b) In the administration of voter registration, each
commission shall ensure that an applicant who is a qualified
elector is registered to vote in an election when the applicant
has met any of the following conditions:

198
(1) In the case of voter registration with a motor vehicle
driver's license application under 25 Pa.C.S. § 1323 (relating
to application with driver's license application), if the valid
voter registration application is received by the appropriate
commission not later than fifteen days before the election.
(2) (Reserved).
(3) In the case of voter registration at a voter
registration agency under 25 Pa.C.S. § 1325 (relating to
government agencies), if the valid voter registration
application is received by the appropriate commission not later
than fifteen days before the election.
(4) In any other case, if the valid voter registration
application of the applicant is received by the appropriate
commission not later than fifteen days before the election.
(c) (1) In the case of a special election within a
congressional, senatorial or representative district held on a
day other than the day of a primary, general or municipal
election, the registration application forms shall not be
processed in the wards and election districts comprising the
district for the fifteen days prior to the special election for
such election.
(2) No applications shall be received as follows:
(i) On Sundays.
(ii) On holidays.
(iii) On the day of the election.
(iv) During the fifteen days next preceding each general,
municipal and primary election except as provided under
subsection (b).
(d) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:
"Commission" shall mean a registration commission established
under 25 Pa.C.S. § 1203 (relating to commissions).
"Commissioner" shall mean a member of a commission.
Section 1232. Appeals.--(a) An individual whose application
to be registered has been denied under section 1231 or 25
Pa.C.S. Pt. IV (relating to voter registration) may file with
the commission a petition to be registered, setting forth the
grounds of the petition under oath or affirmation. The petition
must be filed by the eighth day prior to an election.
(b) (1) The commission shall fix a time for a public
hearing at its office not later than the fifth day prior to the
election.
(2) The commission shall give the person responsible for
the rejection forty-eight hours' notice of the hearing.
(3) At the hearing, a clerk, inspector of registration or
qualified elector of the county may offer evidence as to why
the petitioner should not be registered.
(4) The commission, if satisfied that the petitioner is
entitled to be registered, shall direct registration.
(c) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:
"Commission" shall mean a registration commission established
under 25 Pa.C.S. § 1203 (relating to commissions).
Section 1233. Appeals to Court of Common Pleas.--(a) An
applicant whose claim for registration under section 1231 and
25 Pa.C.S. Pt. IV (relating to voter registration) has been
denied shall have standing to appeal an action of a commission
to the appropriate court of common pleas.
(b) An appeal under subsection (a) must be made by the third
day preceding an election.

199
(c) The appeal must request relief and specify the grounds
for relief.
(d) Upon timely receipt of an appeal under this section,
the court shall conduct a hearing.
(e) If the court finds that an injustice has been done, the
court shall reverse or modify the ruling of the commission and
issue appropriate injunctive relief.
(f) The following shall apply:
(1) Except as provided in paragraph (2), the court may award
costs for the appeal to the prevailing party.
(2) Costs may not be assessed against a commission or a
county.
(g) As used in this section, "commission" shall mean a
registration commission established under 25 Pa.C.S. § 1203
(relating to commissions).
Section 5. Section 1302(b), (c), (d), (e.1) and (i) of the
act are amended and the section is amended by adding subsections
to read:
Section 1302. Applications for Official Absentee Ballots.--*
* *
(b) [The application] An application for a qualified elector
under subsection (a) shall contain the following information:
Home residence at the time of entrance into actual military
service or Federal employment, length of time a citizen, length
of residence in Pennsylvania, date of birth, length of time a
resident of voting district, voting district if known, party
choice in case of primary, name and, for a military elector,
his stateside military address, FPO or APO number and serial
number. Any elector other than a military elector shall in
addition specify the nature of his employment, the address to
which ballot is to be sent, relationship where necessary, and
such other information as may be determined and prescribed by
the Secretary of the Commonwealth. When such application is
received by the Secretary of the Commonwealth it shall be
forwarded to the proper county board of election.
(b.1) An application for a qualified elector other than
under subsection (a) shall contain the following information:
Date of birth, length of time a resident of voting district,
voting district if known, party choice in case of primary and
name. The elector shall in addition specify the nature of his
or her employment, the address to which ballot is to be sent,
relationship where necessary, and other information as may be
determined and prescribed by the Secretary of the Commonwealth.
When the application is received by the Secretary of the
Commonwealth it shall be forwarded to the proper county board
of election.
(c) [The application of any qualified elector, as defined
in section 1301(a), (b), (c), (d), (e), (f), (g) and (h), for
an official absentee ballot in any primary or election may not
be made over the signature of any person, other than the
qualified elector or an adult member of his immediate family,
as required in the preceding subsection.] A qualified absentee
military or overseas elector, as defined by the Uniformed and
Overseas Citizens Absentee Voting Act (Public Law 99-410, 100
Stat. 924), may submit his application for an official absentee
ballot by [facsimile method if the original application is
received prior to the election by the county election office.
The absentee ballot of the qualified military or overseas
elector shall not be counted unless the elector's original
application is received prior to the election by the county
election office. The facsimile] electronic transmission method.
The electronic
transmission method shall not be acceptable

200
for the official absentee ballot. As used in this subsection,
"electronic
transmission method" means any technology that
can transmit a
document or an image of a document via
electronic or
electromechanical means, including, but not
limited to,
facsimile method. An elector entitled to submit
an application
for an official absentee ballot under a method
authorized under
25 Pa.C.S. Ch. 35 (relating to uniform
military and overseas
voters) may submit an application using
a method authorized
under 25 Pa.C.S. Ch. 35, in addition to
the methods authorized
in this article.
(d) The application of any qualified elector, as defined
in preceding section 1301, subsections [(b)] (a) to (h),
inclusive, for an official absentee ballot in any primary or
election shall be signed by the applicant[.], except that for
electors under
section 1301(a), an adult member of the
applicant's immediate
family may sign the application on the
elector's behalf.
* * *
(e.1) Any qualified registered elector[, including any
qualified bedridden or hospitalized veteran,] who is unable
because of illness or physical disability to attend his polling
place on the day of any primary or election or operate a voting
machine and state distinctly and audibly that he is unable to
do so as required by section 1218 of this act may, with the
certification by his attending physician that he is permanently
disabled, and physically unable to attend the polls or operate
a voting machine and make the distinct and audible statement
required by section 1218 appended to the application
hereinbefore required, be placed on a permanently disabled
absentee ballot list file. An absentee ballot application shall
be mailed to every such person [for each primary or election]
otherwise eligible to receive one, by the first Monday in
February each year, so long as he does not lose his voting
rights by failure to vote as otherwise required by this act.
Such person shall not be required to file a physician's
certificate of disability with each application as required in
subsection (e) of this section [but such person must submit a
written statement asserting continuing disability every four
years in order to maintain his eligibility to vote under the
provisions of this subsection]. Should any such person lose his
disability he shall inform the county board of elections of the
county of his residence. An absentee ballot application mailed
to a voter under this section, which is completed and timely
returned by the voter, shall serve as an application for any
and
all primary, general or special elections to be held in
the
remainder of that calendar year and for all special
elections to
be held before the third Monday in February of
the succeeding
year.
* * *
(i) (1) Application for official absentee ballots shall
be on physical and electronic forms prescribed by the Secretary
of the Commonwealth. The application shall state that [a voter]
an
elector who receives and votes an absentee ballot pursuant
to section 1301 [and who, on election day, is capable of voting
at the appropriate polling place must void the absentee ballot
and vote in the normal manner at the appropriate voting place]
shall
not be eligible to vote at a polling place on election
day. Such physical application forms shall be made freely
available to the public at county board of elections, municipal
buildings and at such other locations designated by the
secretary. Such
electronic application forms shall be made

201
freely available to
the public through publicly accessible
means. No written application or personal request shall be
necessary to receive or
access the application forms. Copies
and records of all completed physical and electronic
applications for official absentee ballots shall be retained
by the county board of elections.
(2) Nothing in this act shall prohibit a private
organization or individual from printing blank voter
applications for absentee ballots or shall prohibit the use of
such applications by another individual, provided the form,
content and paper quality have been approved by the Secretary
of the Commonwealth.
* * *
(k) The Secretary of the Commonwealth may develop an
electronic system through which all qualified electors may apply
for an absentee ballot and request permanent absentee voter
status under subsection (e.1), provided the system is able to
capture a digitized or electronic signature of the applicant.
A county board of elections shall treat any application or
request received through the electronic system as if the
application or request had been submitted on a paper form or
any other format used by the county.
Section 5.1. Sections 1302.1, 1302.2, 1302.3 heading, (a)
and (c), 1303(d) and (e) and 1305(b) of the act are amended to
read:
Section 1302.1. Date of Application for Absentee
Ballot.--(a) Except as provided in [subsections (a.1) and
(a.2)] subsection (a.3), applications for absentee ballots shall
be received in the office of the county board of elections not
earlier than fifty (50) days before the primary or election
[and], except that if a county board of elections determines
that it would be appropriate to its operational needs, any
applications for absentee ballots received more than fifty (50)
days before the primary or election may be processed before
that
time. Applications for absentee ballots shall be
processed if
received not later than five o'clock P.M. of the
first Tuesday prior to the day of any primary or election.
[(a.1) Except as provided in subsection (a.2), in the event
any elector otherwise qualified who is so physically disabled
or ill on or before the first Tuesday prior to any primary or
election that he is unable to file his application or who
becomes physically disabled or ill after the first Tuesday prior
to any primary or election and is unable to appear at his
polling place or any elector otherwise qualified who because
of the conduct of his business, duties or occupation will
necessarily be absent from the municipality of his residence
on the day of the primary or election, which fact was not and
could not reasonably be known to said elector on or before the
first Tuesday prior to any primary or election, the elector
shall be entitled to an absentee ballot at any time prior to
five o'clock P.M. on the first Friday preceding any primary or
election upon execution of an Emergency Application in such
form prescribed by the Secretary of the Commonwealth.
(a.2) In the event any elector otherwise qualified who
becomes so physically disabled or ill between five o'clock P.M.
on the first Friday preceding any primary or election and eight
o'clock P.M. on the day of any primary or election that he is
unable to appear at his polling place or any elector otherwise
qualified who because of the conduct of his business, duties
or occupation will necessarily be absent from the municipality
of his residence on the day of the primary or election, which
fact was not and could not reasonably be known to said elector

202
prior to five o'clock P.M. on the first Friday preceding any
primary or election, the elector shall be entitled to an
absentee ballot if the elector completes and files with the
court of common pleas in the county in which the elector is
qualified to vote an Emergency Application or a letter or other
signed document, which includes the same information as is
provided on the Emergency Application. Upon a determination
that the elector is a qualified absentee elector under section
1301, the judge shall issue an absentee ballot to the elector.]
(a.3) (1) The following categories of electors may apply
for an absentee ballot under this subsection, if otherwise
qualified:
(i) An elector whose physical disability or illness
prevented the elector from applying for an absentee ballot
before five o'clock P.M. on the first Tuesday prior to the day
of the primary or election.
(ii) An elector who, because of the elector's business,
duties or occupation, was unable to apply for an absentee ballot
before five o'clock P.M. on the first Tuesday prior to the day
of the primary or election.
(iii) An elector who becomes so physically disabled or ill
after five o'clock P.M. on the first Tuesday prior to the day
of the primary or election that the elector is unable to appear
at the polling place on the day of the primary or election.
(iv) An elector who, because of the conduct of the elector's
business, duties or occupation, will necessarily be absent from
the elector's municipality of residence on the day of the
primary or election, which fact was not and could not reasonably
be known to the elector on or before five o'clock P.M. on the
first Tuesday prior to the day of the primary or election.
(2) An elector described in paragraph (1) may submit an
application for an absentee ballot at any time up until the
time of the closing of the polls on the day of the primary or
election. The application shall include a declaration describing
the circumstances that prevented the elector from applying for
an absentee ballot before five o'clock P.M. on the first Tuesday
prior to the day of the primary or election or that prevent the
elector from appearing at the polling place on the day of the
primary or election, and the elector's qualifications under
paragraph (1). The declaration shall be made subject to the
provisions of 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities).
(3) If the county board of elections determines that the
elector meets the requirements of this section, the board shall
issue an absentee ballot to the elector.
(4) If the elector is unable to appear [in court] at the
office of the county board of elections to receive the ballot,
the [judge] board shall give the elector's absentee ballot to
an authorized representative of the elector who is designated
in writing by the elector. The authorized representative shall
deliver the absentee ballot to the elector and return the
completed absentee ballot, sealed in the official absentee
ballot envelopes, to the office of the county board of
elections, [who] which shall [distribute] retain the ballot,
unopened, [to the absentee voter's election district] until the
canvassing of all absentee ballots.
(5) Multiple people qualified under this subsection may
designate the same person, and a single person may serve as the
authorized representative for multiple qualified electors.
(6) If the elector is unable to appear [in court] at the
office of the county board of elections or unable to obtain
assistance from an authorized representative, the county board

203
may provide an authorized representative or ask the judge
[shall] of the court of common pleas in the county in which the
elector is qualified to vote to direct a deputy sheriff of the
county to deliver the absentee ballot to the elector if the
elector is at a physical location within the county and return
the completed absentee ballot, sealed in the official absentee
ballot envelopes, to the county board of elections[, who shall
distribute the ballots, unopened, to the absentee voter's
respective election district]. If there is no authorized
representative and a deputy sheriff is unavailable to deliver
an absentee ballot under this section, the judge may direct a
constable to make such delivery in accordance with the
provisions of this section.
(7) In the case of an elector who requires assistance in
marking the elector's ballot, the elector shall designate in
writing the person who will assist in marking the ballot. Such
person shall be otherwise eligible to provide assistance to
electors eligible for assistance, and such person shall declare
in writing that assistance was rendered. Any person other than
the designee who shall render assistance in marking a ballot
or any person rendering assistance who shall fail to execute a
declaration shall be guilty of a violation of this act.
(8) No absentee ballot under this subsection shall be
counted which is received in the office of the county board of
elections later than [eight o'clock P.M. on the day of the
primary or election] the deadline for its receipt as provided
in
section 1308(g).
(b) In the case of an elector whose application for an
absentee ballot is received by the office of the county board
of elections earlier than fifty (50) days before the primary
or election, the application shall be held and processed upon
commencement of the fifty-day period or at such earlier time
as
the county board of elections determines may be
appropriate.
[(c) In the case of an elector who is physically disabled
or ill on or before the first Tuesday prior to a primary or
election or becomes physically disabled or ill after the first
Tuesday prior to a primary or election, such Emergency
Application, letter or other signed document shall contain a
supporting affidavit from his attending physician stating that
due to physical disability or illness said elector was unable
to apply for an absentee ballot on or before the first Tuesday
prior to the primary or election or became physically disabled
or ill after that period.
(d) In the case of an elector who is necessarily absent
because of the conduct of his business, duties or occupation
under the unforeseen circumstances specified in subsections
(a.1) and (a.2), such Emergency Application, letter or other
signed document shall contain a supporting affidavit from such
elector stating that because of the conduct of his business,
duties or occupation said elector will necessarily be absent
from the municipality of his residence on the day of the primary
or election which fact was not and could not reasonably be known
to said elector on or before the first Tuesday prior to the
primary or election.]
Section 1302.2. Approval of Application for Absentee
Ballot.-(a) The county board of elections, upon receipt of any
application filed by a qualified elector not required to be
registered under preceding section 1301, shall ascertain from
the information on such application, district register or from
any other source that such applicant possesses all the

204
qualifications of a qualified elector other than being
registered or enrolled. If the board is satisfied that the
applicant is qualified to receive an official absentee ballot,
the application shall be marked approved such approval decision
shall be final and binding except that challenges may be made
only on the ground that the applicant did not possess
qualifications of an absentee elector. Such challenges must be
made to the county board of elections prior to [5:00 o'clock
P.M. on the first Friday prior to the election.] the applicable
deadline for the absentee ballots to be received, as provided
in
section 1308(g). When so approved, the county board of
elections shall cause the applicant's name and residence (and
at a primary, the party enrollment) to be inserted in the
Military, Veterans and Emergency Civilians Absentee Voters File
as provided in section 1302.3, subsection (b): Providing,
however, That no application of any qualified elector in
military service shall be rejected for failure to include on
[his] the elector's application any information if such
information may be ascertained within a reasonable time by the
county board of elections.
(b) The county board of elections, upon receipt of any
application filed by a qualified elector who is entitled, under
the provisions of the Permanent Registration Law as now or
hereinafter enacted by the General Assembly, to absentee
registration prior to or concurrently with the time of voting
as provided under preceding section 1301, shall ascertain from
the information on such application or from any other source
that such applicant possesses all the qualifications of a
qualified elector. If the board is satisfied that the applicant
is entitled, under the provisions of the Permanent Registration
Law as now or hereinafter enacted by the General Assembly, to
absentee registration prior to or concurrently with the time
of voting and that the applicant is qualified to receive an
official absentee ballot, the application shall be marked
"approved." Such approval decision shall be final and binding
except that challenges may be made only on the ground that the
applicant did not possess the qualifications of an absentee
elector prior to or concurrently with the time of voting. Such
challenges must be made to the county board of elections prior
to [5:00 o'clock P.M. on the first Friday prior to the
election.] the applicable deadline for the absentee ballots to
be received, as provided in section 1308(g). When so approved,
the county board of elections shall cause the applicant's name
and residence (and at a primary, the party enrollment) to be
inserted in the Military, Veterans and Emergency Civilian
Absentee Voters File as provided in section 1302.3 subsection
(b).
(c) The county board of elections, upon receipt of any
application of a qualified elector required to be registered
under the provisions of preceding section 1301, shall determine
the qualifications of such applicant by verifying the proof of
identification and comparing the information set forth on such
application with the information contained on the applicant's
permanent registration card. If the board is satisfied that the
applicant is qualified to receive an official absentee ballot,
the application shall be marked "approved." Such approval
decision shall be final and binding, except that challenges may
be made only on the ground that the applicant did not possess
the qualifications of an absentee elector. Such challenges must
be made to the county board of elections prior to [5:00 o'clock
P.M. on the first Friday prior to the election.] the applicable
deadline for the absentee ballots to be received, as provided

205
in
section 1308(g). When so approved, the registration
commission shall cause an absentee voter's temporary
registration card to be inserted in the district register on
top of and along with the permanent registration card. The
absentee voter's temporary registration card shall be in the
color and form prescribed in subsection (e) of this section:
Provided, however, That the duties of the county boards of
elections and the registration commissions with respect to the
insertion of the absentee voter's temporary registration card
of any elector from the district register as set forth in
section 1302.2 shall include only such applications and
emergency applications as are received on or before the first
Tuesday prior to the primary or election. In all cases where
applications are received after the first Tuesday prior to the
primary or election and before [five o'clock P. M. on the first
Friday prior to] eight o'clock P.M. on the day of the primary
or election, the county board of elections shall determine the
qualifications of such applicant by verifying the proof of
identification and comparing the information set forth on such
application with the information contained on the applicant's
duplicate registration card on file in the General Register
(also referred to as the Master File) in the office of the
Registration Commission and shall cause the name and residence
(and at primaries, the party enrollment) to be inserted in the
Military, Veterans and Emergency Civilian Absentee Voters File
as provided in section 1302.3, subsection (b). [In addition,
the local district boards of elections shall, upon canvassing
the official absentee ballots under section 1308, examine the
voting check list of the election district of said elector's
residence and satisfy itself that such elector did not cast any
ballot other than the one properly issued to him under his
absentee ballot application. In all cases where the examination
of the local district board of elections discloses that an
elector did vote a ballot other than the one properly issued
to him under the absentee ballot application, the local district
board of elections shall thereupon cancel said absentee ballot
and said elector shall be subject to the penalties as
hereinafter set forth.]
(d) In the event that any application for an official
absentee ballot is not approved by the county board of
elections, the elector shall be notified immediately to that
effect with a statement by the county board of the reasons for
the disapproval. For those applicants whose proof of
identification was not provided with the application or could
not be verified by the board, the board shall send notice to
the elector with the absentee ballot requiring the elector to
provide proof of identification with the absentee ballot or the
ballot will not be counted.
(e) The absentee voter's temporary registration card shall
be in duplicate and the same size as the permanent registration
card, in a different and contrasting color to the permanent
registration card and shall contain the absentee voter's name
and address and shall conspicuously contain the words "Absentee
Voter." [Such card shall also contain the affidavit required
by subsection (b) of section 1306.]
(f) Notwithstanding the provisions of this section, a
qualified absentee elector shall not be required to provide
proof of identification if the elector is entitled to vote by
absentee ballot under the Uniformed and Overseas Citizens
Absentee Voting Act (Public Law 99-410, 100 Stat. 924) or by
an alternative ballot under the Voting Accessibility for the
Elderly and Handicapped Act (Public Law 98-435, 98 Stat. 1678).

206
Section 1302.3. Absentee and Mail-in Electors Files and
Lists.--(a) The county board of elections shall maintain at
its office a file containing the duplicate absentee voter's
temporary registration cards of every registered elector to
whom an absentee ballot has been sent. Such duplicate absentee
voter's temporary registration cards shall be filed by election
districts and within each election district in exact
alphabetical order and indexed. The registration cards and the
registration cards under section 1302.3-D so filed shall
constitute the Registered Absentee and Mail-in Voters File for
the Primary or Election of (date of primary or election) and
shall be kept on file for a period commencing the Tuesday prior
to the day of the primary or election until the day following
the primary or election or the day the county board of elections
certifies the returns of the primary or election, whichever
date is later. Such file shall be open to public inspection at
all times subject to reasonable safeguards, rules and
regulations.
* * *
(c) Not less than five days preceding the election, the
chief clerk shall prepare a list for each election district
showing the names and post office addresses of all voting
residents thereof to whom official absentee or mail-in ballots
shall have been issued. Each such list shall be prepared in
duplicate, shall be headed "Persons in (give identity of
election district) to whom absentee or mail-in ballots have
been issued for the election of (date of election)," and shall
be signed by him not less than four days preceding the election.
He shall post the original of each such list in a conspicuous
place in the office of the county election board and see that
it is kept so posted until the close of the polls on election
day. He shall cause the duplicate of each such list to be
delivered to the judge of election in the election district in
the same manner and at the same time as are provided in this
act for the delivery of other election supplies, and it shall
be the duty of such judge of election to post such duplicate
list in a conspicuous place within the polling place of his
district and see that it is kept so posted throughout the time
that the polls are open. Upon written request, he shall furnish
a copy of such list to any candidate or party county chairman.
Section 1303. Official Absentee Voters Ballots.--* * *
(d) In cases where there is not time to print on said
ballots the names of the various candidates, the county board
of elections shall print special write-in absentee ballots which
shall be in substantially the form of other official absentee
ballots except that such special write-in absentee ballots shall
contain blank spaces only under the titles of such offices in
which electors may insert, by writing or stamping, the names
of the candidates for whom they desire to vote, and in such
cases the county board of elections shall furnish to electors
lists containing the names of all the candidates named in
nomination petitions or who have been regularly nominated under
the provisions of this act, for the use of such electors in
preparing their ballots. Special write-in absentee ballots also
shall include all constitutional amendments and other questions
to be voted on by the electors.
(e) The official absentee voter ballot shall state that a
voter who receives an absentee ballot pursuant to section 1301
and whose ballot is not timely received and who, on election
day, is capable of voting at the appropriate polling place [must
void the absentee ballot and vote in the normal manner at the

207
appropriate voting place] may only vote on election day by
provisional ballot.
Section 1305. Delivering or Mailing Ballots.-* * *
(b) (1) The county board of elections upon receipt and
approval of an application filed by any elector qualified in
accordance with the provisions of section 1301, subsections (i)
to (l), inclusive, shall commence to deliver or mail official
absentee ballots [on] as soon as a ballot is certified and the
ballots are available. While any proceeding is pending in a
Federal or State court which would affect the contents of any
ballot, the county board of elections may await a resolution
of
that proceeding but in any event, shall commence to deliver
or
mail official absentee ballots not later than the second
Tuesday prior to the primary or election. For those applicants
whose proof of identification was not provided with the
application or could not be verified by the board, the board
shall send the notice required under section 1302.2(d) with the
absentee ballot. As additional applications are received and
approved after the time that the county board of elections
begins
delivering or mailing official absentee and mail-in
ballots, the board shall deliver or mail official absentee
ballots to such additional electors within forty-eight hours.
(2) Notwithstanding any other provisions of this act and
notwithstanding the inclusion of a mailing address on an
absentee or mail-in ballot application, a voter who presents
the voter's own application for an absentee or mail-in ballot
within the office of the county board of elections during
regular business hours may request to receive the voter's
absentee or mail-in ballot while the voter is at the office.
This request may be made orally or in writing. Upon presentation
of the application and the making of the request and upon
approval under sections 1302.2 and 1302.2-D, the county board
of elections shall promptly present the voter with the voter's
absentee or mail-in ballot. If a voter presents the voter's
application within the county board of elections' office in
accordance with this section, a county board of elections may
not deny the voter's request to have the ballot presented to
the voter while the voter is at the office unless there is a
bona fide objection to the absentee or mail-in ballot
application.
* * *
Section 6. Section 1306(a) introductory paragraph and (1)
and (b) of the act are amended and the section is amended by
adding a subsection to read:
Section 1306. Voting by Absentee Electors.--(a) Except as
provided in paragraphs [(1),] (2) and (3), at any time after
receiving an official absentee ballot, but on or before [five
o'clock P.M. on the Friday prior to] eight o'clock P.M. the day
of the primary or election, the elector shall, in secret,
proceed to mark the ballot only in black lead pencil, indelible
pencil or blue, black or blue-black ink, in fountain pen or
ball point pen, and then fold the ballot, enclose and securely
seal the same in the envelope on which is printed, stamped or
endorsed "Official Absentee Ballot." This envelope shall then
be placed in the second one, on which is printed the form of
declaration of the elector, and the address of the elector's
county board of election and the local election district of the
elector. The elector shall then fill out, date and sign the
declaration printed on such envelope. Such envelope shall then
be securely sealed and the elector shall send same by mail,

208
postage prepaid, except where franked, or deliver it in person
to said county board of election.
[(1) Any elector who submits an Emergency Application and
receives an absentee ballot in accordance with section
1302.1(a.2) or (c) shall mark the ballot on or before eight
o'clock P.M. on the day of the primary or election. This
envelope shall then be placed in the second one, on which is
printed the form of declaration of the elector, and the address
of the elector's county board of election and the local election
district of the elector. The elector shall then fill out, date
and sign the declaration printed on such envelope. Such envelope
shall then be securely sealed and the elector shall send same
by mail, postage prepaid, except where franked, or deliver it
in person to said county board of election.]
* * *
(b) [In the event that any such elector, excepting an
elector in military service or any elector unable to go to his
polling place because of illness or physical disability,
entitled to vote an official absentee ballot shall be in the
municipality of his residence on the day for holding the primary
or election for which the ballot was issued, or in the event
any such elector shall have recovered from his illness or
physical disability sufficiently to permit him to present
himself at the proper polling place for the purpose of casting
his ballot, such absentee ballot cast by such elector shall,
be declared void.
Any such elector referred to in this subsection, who is
within the municipality of his residence, must present himself
at his polling place and shall be permitted to vote upon
presenting himself at his regular polling place in the same
manner as he could have voted had he not received an absentee
ballot: Provided, That such elector has first presented himself
to the judge of elections in his local election district and
shall have signed the affidavit on the absentee voter's
temporary registration card, which affidavit shall be in
substantially the following form:
I hereby swear that I am a qualified registered elector who
has obtained an absentee ballot, however, I am present in the
municipality of my residence and physically able to present
myself at my polling place and therefore request that my
absentee ballot be voided.
..............................
(Date)
..............................
.............................
(Local Judge of Elections)
(Signature of Elector)
An elector who has received an absentee ballot under the
emergency application provisions of section 1302.1, and for
whom, therefore, no temporary absentee voter's registration
card is in the district register, shall sign the aforementioned
affidavit in any case, which the local judge of elections shall
then cause to be inserted in the district register with the
elector's permanent registration card.]
(1) Any elector who receives and votes an absentee ballot
pursuant to section 1301 shall not be eligible to vote at a
polling place on election day. The district register at each
polling place shall clearly identify electors who have received
and voted absentee ballots as ineligible to vote at the polling
place, and district election officers shall not permit electors
who voted an absentee ballot to vote at the polling place.

209
(2) An elector who requests an absentee ballot and who is
not shown on the district register as having voted the ballot
may vote by provisional ballot under section 1210(a.4)(1).
(c) Except as provided under 25 Pa.C.S. § 3511 (relating
to receipt of voted ballot), a completed absentee ballot must
be received in the office of the county board of elections no
later than eight o'clock P.M. on the day of the primary or
election.
Section 7. Sections 1308 heading, (a), (b), (b.1), (d),
(e), (f), (g)(1), (2), (3), (4) and (5) and (h) and 1309 of the
act are amended to read:
Section 1308. Canvassing of Official Absentee Ballots and
Mail-in Ballots.--(a) The county boards of election, upon
receipt of official absentee ballots in [such] sealed official
absentee ballot envelopes as provided under this article and
mail-in ballots as in sealed official mail-in ballot envelopes
as provided under Article XIII-D, shall safely keep the [same]
ballots in sealed or locked containers until they [distribute
same to the appropriate local election districts in a manner
prescribed by the Secretary of the Commonwealth.
Except as provided in section 1302.1(a.2), the county board
of elections shall then distribute the absentee ballots,
unopened, to the absentee voter's respective election district
concurrently with the distribution of the other election
supplies. Absentee ballots shall be canvassed immediately and
continuously without interruption until completed after the
close of the polls on the day of the election in each election
district. The results of the canvass of the absentee ballots
shall then be included in and returned to the county board with
the returns of that district. Except as provided in section
1302.1(a.2) and subsection (g), no absentee ballot shall be
counted which is received in the office of the county board of
election later than five o'clock P.M. on the Friday immediately
preceding the primary or November election.] are to be canvassed
by the county board of elections. An absentee ballot, whether
issued to a civilian, military or other voter during the regular
or emergency application period, shall be canvassed in
accordance with subsection (g). A mail-in ballot shall be
canvassed in accordance with subsection (g).
(b) Watchers shall be permitted to be present when the
envelopes containing official absentee ballots and mail-in
ballots are opened and when such ballots are counted and
recorded.
[(b.1) In all election districts in which electronic voting
systems are used, absentee ballots shall be opened at the
election district, checked for write-in votes in accordance
with section 1113-A and then either hand-counted or counted by
means of the automatic tabulation equipment, whatever the case
may be.]
(d) Whenever it shall appear by due proof that any absentee
elector or mail-in elector who has returned his ballot in
accordance with the provisions of this act has died prior to
the opening of the polls on the day of the primary or election,
the ballot of such deceased elector shall be rejected by the
canvassers but the counting of the ballot of an absentee elector
or a mail-in elector thus deceased shall not of itself
invalidate any nomination or election.
[(e) At such time the local election board shall then
further examine the declaration on each envelope not so set
aside and shall compare the information thereon with that
contained in the "Registered Absentee Voters File," the absentee

210
voters' list and the "Military Veterans and Emergency Civilians
Absentee Voters File." If the local election board is satisfied
that the declaration is sufficient and the information contained
in the "Registered Absentee Voters File," the absentee voters'
list and the "Military Veterans and Emergency Civilians Absentee
Voters File" verifies his right to vote, the local election
board shall announce the name of the elector and shall give any
watcher present an opportunity to challenge any absentee elector
upon the ground or grounds (1) that the absentee elector is not
a qualified elector; or (2) that the absentee elector was within
the municipality of his residence on the day of the primary or
election during the period the polls were open, except where
he was in military service or except in the case where his
ballot was obtained for the reason that he was unable to appear
personally at the polling place because of illness or physical
disability; or (3) that the absentee elector was able to appear
personally at the polling place on the day of the primary or
election during the period the polls were open in the case his
ballot was obtained for the reason that he was unable to appear
personally at the polling place because of illness or physical
disability. Upon challenge of any absentee elector, as set forth
herein the local election board shall mark "challenged" on the
envelope together with the reason or reasons therefor, and the
same shall be set aside for return to the county board unopened
pending decision by the county board and shall not be counted.
All absentee ballots not challenged for any of the reasons
provided herein shall be counted and included with the general
return of paper ballots or voting machines, as the case may be
as follows. Thereupon, the local election board shall open the
envelope of every unchallenged absentee elector in such manner
as not to destroy the declaration executed thereon. All of such
envelopes on which are printed, stamped or endorsed the words
"Official Absentee Ballot" shall be placed in one or more
depositories at one time and said depository or depositories
well shaken and the envelopes mixed before any envelope is taken
therefrom. If any of these envelopes shall contain any
extraneous marks or identifying symbols other than the words
"Official Absentee Ballot," the envelopes and the ballots
contained therein shall be set aside and declared void. The
local election board shall then break the seals of such
envelopes, remove the ballots and record the votes in the same
manner as district election officers are required to record
votes. With respect to the challenged ballots, they shall be
returned to the county board with the returns of the local
election district where they shall be placed unopened in a
secure, safe and sealed container in the custody of the county
board until it shall fix a time and place for a formal hearing
of all such challenges and notice shall be given where possible
to all absentee electors thus challenged and to every attorney,
watcher or candidate who made such challenge. The time for the
hearing shall not be later than seven (7) days after the date
of said challenge. On the day fixed for said hearing, the county
board shall proceed without delay to hear said challenges and,
in hearing the testimony, the county board shall not be bound
by technical rules of evidence. The testimony presented shall
be stenographically recorded and made part of the record of the
hearing. The decision of the county board in upholding or
dismissing any challenge may be reviewed by the court of common
pleas of the county upon a petition filed by any person
aggrieved by the decision of the county board. Such appeal shall
be taken, within two (2) days after such decision shall have
been made, whether reduced to writing or not, to the court of

211
common pleas setting forth the objections to the county board's
decision and praying for an order reversing same. Pending the
final determination of all appeals, the county board shall
suspend any action in canvassing and computing all challenged
ballots irrespective of whether or not appeal was taken from
the county board's decision. Upon completion of the computation
of the returns of the county, the votes cast upon the challenged
official absentee ballots shall be added to the other votes
cast within the county.]
(f) Any person challenging an application for an absentee
ballot [or], an absentee ballot, an application for a mail-in
ballot or a mail-in ballot for any of the reasons provided in
this act shall deposit the sum of ten dollars ($10.00) in cash
with the [local election] county board, [in cases of challenges
made to the local election board and with the county board in
cases of challenges made to the county board for which he shall
be issued a receipt for each challenge made,] which sum shall
only be refunded if the challenge is sustained or if the
challenge is withdrawn within five (5) days after the primary
or election. If the challenge is dismissed by any lawful order
then the deposit shall be forfeited. [All deposit money received
by the local election board shall be turned over to the county
board simultaneously with the return of the challenged ballots.]
The county board shall deposit all deposit money in the general
fund of the county.
Notice of the requirements of subsection (b) of section 1306
shall be printed on the envelope for the absentee ballot or
mail-in ballot.
(g) (1) (i) An absentee ballot cast by any absentee
elector as defined in section 1301(a), (b), (c), (d), (e), (f),
(g) and (h) [which is received in the office of the county board
of elections after five o'clock P.M. on the Friday immediately
preceding the election and no later than five o'clock P.M. on
the seventh day following an election] shall be canvassed in
accordance with this subsection if [the absentee ballot is
postmarked no later than the day immediately preceding the
election.] the ballot is cast, submitted and received in
accordance with the provisions of 25 Pa.C.S. Ch. 35 (relating
to
uniform military and overseas voters).
(ii) An absentee ballot cast by any absentee elector as
defined in section 1301(i), (j), (k), (l), (m) and (n), an
absentee ballot under section 1302(a.3) or a mail-in ballot
cast by a mail-in elector shall be canvassed in accordance with
this subsection if the absentee ballot or mail-in ballot is
received in the office of the county board of elections no later
than eight o'clock P.M. on the day of the primary or election.
(2) The county board of elections shall meet [on the eighth
day following the election to canvass] no earlier than the close
of polls on the day of the election and no later than the third
day following the election to begin canvassing the absentee
ballots and mail-in ballots received under this subsection and
subsection (h)(2). The canvass shall continue through the eighth
day following the election. One authorized representative of
each candidate in an election and one representative from each
political party shall be permitted to remain in the room in
which the absentee ballots and mail-in ballots are canvassed.
Representatives shall be permitted to challenge any absentee
elector or mail-in elector in accordance with the provisions
of paragraph (3).
(3) When the county board meets to canvass absentee ballots
and mail-in ballots under paragraph (2), the board shall examine

212
the declaration on the envelope of each ballot not set aside
under subsection (d) and shall compare the information thereon
with that contained in the "Registered Absentee and Mail-in
Voters File," the absentee voters' list and/or the "Military
Veterans and Emergency Civilians Absentee Voters File,"
whichever is applicable. If the county board has verified the
proof of identification as required under this act and is
satisfied that the declaration is sufficient and the information
contained in the "Registered Absentee and Mail-in Voters File,"
the absentee voters' list and/or the "Military Veterans and
Emergency Civilians Absentee Voters File" verifies his right
to vote, the county board shall announce the name of the elector
and shall give any candidate representative or party
representative present an opportunity to challenge any absentee
elector or mail-in elector upon the ground or grounds: (i) that
the absentee elector or mail-in elector is not a qualified
elector; or [(ii) that the absentee elector was within the
municipality of his residence on the day of the primary or
election during the period the polls were open, except where
he was in the military service or except in the case where his
ballot was obtained for the reason that he was unable to appear
personally at the polling place because of illness or physical
disability; or] (iii) that the absentee elector was able to
appear personally at the polling place on the day of the primary
or election during the period the polls were open in the case
his ballot was obtained for the reason that he was unable to
appear personally at the polling place because of illness or
physical disability. Upon challenge of any absentee elector,
as set forth herein, the board shall mark "challenged" on the
envelope together with the reasons therefor, and the same shall
be set aside unopened pending final determination of the
challenge according to the procedure described in paragraph
(5).
(4) All absentee ballots and mail-in ballots not challenged
for any of the reasons provided in paragraph (3) shall be
counted and included with the returns of the applicable election
district as follows[.]:
(i) The county board shall open the envelope of every
unchallenged absentee elector and mail-in elector in such manner
as not to destroy the declaration executed thereon.
(ii) If any of the envelopes on which are printed, stamped
or endorsed the words "Official Absentee Ballot" or "Official
Mail-in Ballot" contain any extraneous marks or identifying
symbols, the envelopes and the ballots contained therein shall
be set aside and declared void.
(iii) The county board shall then break the seals of such
envelopes, remove the ballots and record the votes.
(5) With respect to the challenged ballots, they shall be
placed unopened in a secure, safe and sealed container in the
custody of the county board until it shall fix a time and place
for a formal hearing of all such challenges, and notice shall
be given where possible to all absentee electors and mail-in
electors thus challenged and to every individual who made a
challenge. The time for the hearing shall not be later than
five (5) days after the date of the challenge. On the day fixed
for said hearing, the county board shall proceed without delay
to hear said challenges, and, in hearing the testimony, the
county board shall not be bound by the Pennsylvania Rules of
Evidence. The testimony presented shall be stenographically
recorded and made part of the record of the hearing.
* * *

213
(h) For those absentee ballots or mail-in ballots for which
proof of identification has not been received or could not be
verified:
[(1) If the proof of identification is received and verified
by the county board of elections prior to the distribution of
the absentee ballots to the local election districts, then the
county shall distribute the absentee ballots for which proof
of identification is received and verified, along with the other
absentee ballots, to the absentee voter's respective election
district. If the county board of elections does not receive or
is not able to verify the proof of identification for an elector
prior to the absentee ballots' being sent to the appropriate
local election districts, the county board shall keep the
absentee ballot and follow the procedures set forth in paragraph
(2) or (3), whichever is applicable.]
(2) If the proof of identification is received and verified
[after the absentee ballots have been distributed to the
appropriate local election districts, but] prior to the sixth
calendar day following the election, then the county board of
elections shall canvass the absentee ballots and mail-in ballots
under this subsection in accordance with subsection (g)(2)[,
unless the elector appeared to vote at the proper polling place
for the purpose of casting a ballot, then the absentee ballot
cast by that elector shall be declared void].
(3) If an elector fails to provide proof of identification
that can be verified by the county board of elections by the
sixth calendar day following the election, then the absentee
ballot or mail-in ballot shall not be counted.
* * *
Section 1309. Public Records.--(a) All official absentee
ballots, files, applications for such ballots and envelopes on
which the executed declarations appear, and all information and
lists are hereby designated and declared to be public records
and shall be safely kept for a period of two years, except that
no proof of identification shall be made public, nor shall
information concerning a military elector be made public which
is expressly forbidden by the Department of Defense because of
military security.
(b) For each election, the county board shall maintain a
record of the following information, if applicable, for each
elector who makes application for an absentee ballot:
(1) The elector's name and voter registration address.
(2) The date on which the elector's application is received
by the county board.
(3) The date on which the elector's application is approved
or rejected by the county board.
(4) The date on which the county board mails or delivers
the absentee ballot to the elector.
(5) The date on which the elector's completed absentee
ballot is received by the county board.
(c) The county board shall compile the records listed under
subsection (b) and make the records publicly available upon
request within forty-eight hours.
Section 8. The act is amended by adding an article to read:
ARTICLE XIII-D
VOTING BY QUALIFIED MAIL-IN ELECTORS
Section 1301-D. Qualified mail-in electors.
(a) General rule.--The following individuals shall be
entitled to vote by an official mail-in ballot in any primary
or election held in this Commonwealth in the manner provided
under this article:

214
(1) Any qualified elector who is not eligible to be a
qualified absentee elector under Article XIII.
(2) (Reserved).
(b) Construction.--The term "qualified mail-in elector"
shall not be construed to include a person not otherwise
qualified as a qualified elector in accordance with the
definition in section 102(t).
Section 1302-D. Applications for official mail-in ballots.
(a) General rule.--A qualified elector under section 1301-D
may apply at any time before any primary or election for an
official mail-in ballot in person or on any official county
board of election form addressed to the Secretary of the
Commonwealth or the county board of election of the county in
which the qualified elector's voting residence is located.
(b) Content.--The following shall apply:
(1) The qualified elector's application shall contain
the following information:
(i) Date of birth.
(ii) Length of time a resident of voting district.
(iii) Voting district, if known.
(iv) Party choice in case of primary.
(v) Name.
(2) A qualified elector shall, in addition, specify the
address to which the ballot is to be sent, the relationship
where necessary and other information as may be determined
by the Secretary of the Commonwealth.
(3) When an application is received by the Secretary
of the Commonwealth it shall be forwarded to the proper
county board of election.
(c) Signature required.--Except as provided in subsection
(d), the application of a qualified elector under section 1301-D
for an official mail-in ballot in any primary or election shall
be signed by the applicant.
(d) Signature not required.--If any elector entitled to a
mail-in ballot under this section is unable to sign the
application because of illness or physical disability, the
elector shall be excused from signing upon making a statement
which shall be witnessed by one adult person in substantially
the following form:
I hereby state that I am unable to sign my application
for a mail-in ballot without assistance because I am
unable to write by reason of my illness or physical
disability. I have made or have received assistance in
making my mark in lieu of my signature.
(Mark)
(Date)
(Complete Address of Witness)
(Signature of Witness)
(e) Numbering.--The county board of elections shall number,
in chronological order, the applications for an official mail-in
ballot, which number shall likewise appear on the official
mail-in ballot for the qualified elector. The numbers shall
appear legibly and in a conspicuous place but, before the
ballots are distributed, the number on the ballot shall be torn
off by the county board of election. The number information
shall be appropriately inserted and become a part of the
Registered Absentee and Mail-in Voters File provided under
section 1302.3.
(f) Form.--Application for an official mail-in ballot shall
be on physical and electronic forms prescribed by the Secretary
of the Commonwealth. The application shall state that a voter
who receives and votes a mail-in ballot under section 1301-D

215
shall not be eligible to vote at a polling place on election
day. The physical application forms shall be made freely
available to the public at county board of elections, municipal
buildings and at other locations designated by the Secretary
of the Commonwealth. The electronic application forms shall be
made freely available to the public through publicly accessible
means. No written application or personal request shall be
necessary to receive or access the application forms. Copies
and records of all completed physical and electronic
applications for official mail-in ballots shall be retained by
the county board of elections.
(g) Permanent mail-in voting list.-(1) Any qualified registered elector may request to be
placed on a permanent mail-in ballot list file. A mail-in
ballot application shall be mailed to every person otherwise
eligible to receive a mail-in ballot application by the first
Monday in February each year, so long as the person does not
lose the person's voting rights by failure to vote as
otherwise required by this act. A mail-in ballot application
mailed to a voter under this section, which is completed and
timely returned by the voter, shall serve as an application
for any and all primary, general or special elections to be
held in the remainder of that calendar year and for all
special elections to be held before the third Monday in
February of the succeeding year.
(2) The Secretary of the Commonwealth may develop an
electronic system through which all qualified electors may
apply for a mail-in ballot and request permanent mail-in
voter status under this section, provided the system is able
to capture a digitized or electronic signature of the
applicant. A county board of elections shall treat an
application or request received through the electronic system
as if the application or request had been submitted on a
paper form or any other format used by the county.
Section 1302.1-D. Date of application for mail-in ballot.
(a) General rule.--Applications for mail-in ballots shall
be received in the office of the county board of elections not
earlier than 50 days before the primary or election, except
that if a county board of elections determines that it would
be appropriate to the county board of elections' operational
needs, any applications for mail-in ballots received more than
50 days before the primary or election may be processed before
that time. Applications for mail-in ballots shall be processed
if received not later than five o'clock P.M. of the first
Tuesday prior to the day of any primary or election.
(b) Early applications.--In the case of an elector whose
application for a mail-in ballot is received by the office of
the county board of elections earlier than 50 days before the
primary or election, the application shall be held and processed
upon commencement of the 50-day period or at such earlier time
as the county board of elections determines may be appropriate.
Section 1302.2-D. Approval of application for mail-in ballot.
(a) Approval process.--The county board of elections, upon
receipt of any application of a qualified elector under section
1301-D, shall determine the qualifications of the applicant by
verifying the proof of identification and comparing the
information provided on the application with the information
contained on the applicant's permanent registration card. The
following shall apply:
(1) If the board is satisfied that the applicant is
qualified to receive an official mail-in ballot, the
application shall be marked "approved."

216
(2) The approval decision shall be final and binding,
except that challenges may be made only on the grounds that
the applicant did not possess the qualifications of a mail-in
elector.
(3) Challenges must be made to the county board of
elections prior to the applicable deadline for the mail-in
ballots to be received, as provided in section 1308(g).
(4) When approved, the registration commission shall
cause a mail-in voter's temporary registration card to be
inserted in the district register on top of and along with
the permanent registration card.
(5) The mail-in voter's temporary registration card
shall be in the color and form prescribed under subsection
(d).
(b) Duties of county boards of elections and registration
commissions.--The duties of the county boards of elections and
the registration commissions with respect to the insertion of
the mail-in voter's temporary registration card of any elector
from the district register as provided under this section shall
include only the applications as are received on or before the
first Tuesday prior to the primary or election.
(c) Notice.--In the event that an application for an
official mail-in ballot is not approved by the county board of
elections, the elector shall be notified immediately with a
statement by the county board of the reasons for the
disapproval. For applicants whose proof of identification was
not provided with the application or could not be verified by
the board, the board shall send notice to the elector with the
mail-in ballot requiring the elector to provide proof of
identification with the mail-in ballot or the ballot will not
be counted.
(d) Temporary registration card.--The mail-in voter's
temporary registration card shall be in duplicate and the same
size as the permanent registration card, in a different and
contrasting color to the permanent registration card and shall
contain the mail-in voter's name and address and shall
conspicuously contain the words "Mail-in Voter."
Section 1302.3-D. Mail-in electors files and lists.
The county board of elections shall maintain at its office
a file containing the duplicate mail-in voter's temporary
registration cards of every registered elector to whom a mail-in
ballot has been sent. The duplicate mail-in voter's temporary
registration cards shall be filed by election districts and
within each election district in exact alphabetical order and
indexed. The registration cards filed shall be included in the
Registered Absentee and Mail-in Voters File for the Primary or
Election of (date of primary or election) under section
1302.3(a).
Section 1303-D. Official mail-in elector ballots.
(a) General rule.--In election districts in which ballots
are used, the ballots for use by mail-in voters under this act
shall be the official ballots printed in accordance with
sections 1002 and 1003.
(a.1) Duties of county boards of elections.--The county
board of elections, when detaching the official ballots for
mail-in voters, shall be required to indicate on the stub of
each detached ballot the name of the applicant to which that
precise ballot is being sent. The county board of elections
shall also remove the numbered stub from each ballot and shall
print, stamp or endorse in red color on the official ballots
the words, "Official Mail-in Ballot." The ballots shall be
distributed by a board as provided under this section.

217
(b) Preparation of ballots.--In election districts in which
voting machines are used and in election districts in which
paper ballots are used, the county board of elections in that
election district will not print official mail-in ballots in
accordance with sections 1002 and 1003. The ballots for use by
mail-in voters under this section shall be prepared sufficiently
in advance by the county board of elections and shall be
distributed by the boards as provided under this act. The
ballots shall be marked "Official Mail-in Ballot" but shall not
be numbered and shall otherwise be in substantially the form
for ballots required by Article X, which form shall be
prescribed by the Secretary of the Commonwealth.
(c) Use of ballot cards.--In election districts in which
electronic voting systems are utilized, the mail-in ballot may
be in the form of a ballot card which shall be clearly stamped
on the ballot card's face "Mail-in Ballot."
(d) Special write-in mail-in ballots.--In cases where there
is not time to print on the ballots the names of the various
candidates, the county board of elections shall print special
write-in mail-in ballots which shall be in substantially the
form of other official mail-in ballots, except that the special
write-in mail-in ballots shall contain blank spaces only under
the titles of the offices in which electors may insert by
writing or stamping the names of the candidates for whom they
desire to vote, and in those cases, the county board of
elections shall furnish to electors lists containing the names
of all the candidates named in nomination petitions or who have
been regularly nominated under the provisions of this act, for
the use of the electors in preparing their ballots. Special
write-in mail-in ballots shall include all constitutional
amendments and other questions to be voted on by the electors.
(e) Notice.--The official mail-in voter ballot shall state
that a voter who receives a mail-in ballot under section 1301-D
and whose mail-in ballot is not timely received may only vote
on election day by provisional ballot.
Section 1304-D. Envelopes for official mail-in ballots.
(a) Additional envelopes.--The county boards of election
shall provide two additional envelopes for each official mail-in
ballot of a size and shape as shall be prescribed by the
Secretary of the Commonwealth, in order to permit the placing
of one within the other and both within the mailing envelope.
On the smaller of the two envelopes to be enclosed in the
mailing envelope shall be printed, stamped or endorsed the words
"Official Mail-in Ballot," and nothing else. On the larger of
the two envelopes, to be enclosed within the mailing envelope,
shall be printed the form of the declaration of the elector and
the name and address of the county board of election of the
proper county. The larger envelope shall also contain
information indicating the local election district of the
mail-in voter.
(b) Form of declaration and envelope.--The form of
declaration and envelope shall be as prescribed by the Secretary
of the Commonwealth and shall contain, among other things, a
statement of the elector's qualifications, together with a
statement that the elector has not already voted in the primary
or election.
(c) Mailing envelope.--The mailing envelope addressed to
the elector shall contain the two envelopes, the official
mail-in ballot, lists of candidates, when authorized by section
1303-D(b), the uniform instructions in form and substance as
prescribed by the Secretary of the Commonwealth and nothing
else.

218
(d) Notice.--Notice of the requirements under section 1306-D
shall be printed on the envelope for the mail-in ballot.
Section 1305-D. Delivering or mailing ballots.
The county board of elections, upon receipt and approval of
an application filed by a qualified elector under section
1301-D, shall commence to deliver or mail official mail-in
ballots as soon as a ballot is certified and the ballots are
available. While any proceeding is pending in a Federal or State
court which would affect the contents of any ballot, the county
board of elections may await a resolution of that proceeding
but in any event, shall commence to deliver or mail official
absentee ballots not later than the second Tuesday prior to the
primary or election. For applicants whose proof of
identification was not provided with the application or could
not be verified by the board, the board shall send the notice
required under section 1302.2-D(c) with the mail-in ballot. As
additional applications are received and approved, the board
shall deliver or mail official mail-in ballots to the additional
electors within 48 hours.
Section 1306-D. Voting by mail-in electors.
(a) General rule.--At any time after receiving an official
mail-in ballot, but on or before eight o'clock P.M. the day of
the primary or election, the mail-in elector shall, in secret,
proceed to mark the ballot only in black lead pencil, indelible
pencil or blue, black or blue-black ink, in fountain pen or
ball point pen, and then fold the ballot, enclose and securely
seal the same in the envelope on which is printed, stamped or
endorsed "Official Mail-in Ballot." This envelope shall then
be placed in the second one, on which is printed the form of
declaration of the elector, and the address of the elector's
county board of election and the local election district of the
elector. The elector shall then fill out, date and sign the
declaration printed on such envelope. Such envelope shall then
be securely sealed and the elector shall send same by mail,
postage prepaid, except where franked, or deliver it in person
to said county board of election.
(a.1) Signature.--Any elector who is unable to sign the
declaration because of illness or physical disability, shall
be excused from signing upon making a declaration which shall
be witnessed by one adult person in substantially the following
form:
I hereby declare that I am unable to sign my declaration
for voting my mail-in ballot without assistance because
I am unable to write by reason of my illness or physical
disability. I have made or received assistance in making
my mark in lieu of my signature.
(Mark)
(Date)
(Complete Address of Witness)
(Signature of Witness)
(b) Eligibility.-(1) Any elector who receives and votes a mail-in ballot
under section 1301-D shall not be eligible to vote at a
polling place on election day. The district register at each
polling place shall clearly identify electors who have
received and voted mail-in ballots as ineligible to vote at
the polling place, and district election officers shall not
permit electors who voted a mail-in ballot to vote at the
polling place.
(2) An elector who requests a mail-in ballot and who
is not shown on the district register as having voted may
vote by provisional ballot under section 1210(a.4)(1).

219
(c) Deadline.--Except as provided under 25 Pa.C.S. § 3511
(relating to receipt of voted ballot), a completed mail-in
ballot must be received in the office of the county board of
elections no later than eight o'clock P.M. on the day of the
primary or election.
Section 1307-D. Public records.
(a) General rule.--All official mail-in ballots, files,
applications for ballots and envelopes on which the executed
declarations appear and all information and lists are
designated and declared to be public records and shall be
safely kept for a period of two years, except that no proof of
identification shall be made public, nor shall information
concerning a military elector be made public which is expressly
forbidden by the Department of Defense because of military
security.
(b) Record.--For each election, the county board shall
maintain a record of the following information, if applicable,
for each elector who makes application for a mail-in ballot:
(1) The elector's name and voter registration address.
(2) The date on which the elector's application is
received by the county board.
(3) The date on which the elector's application is
approved or rejected by the county board.
(4) The date on which the county board mails or delivers
the mail-in ballot to the elector.
(5) The date on which the elector's completed mail-in
ballot is received by the county board.
(c) Compilation.--The county board shall compile the records
listed under subsection (b) and make the records publicly
available upon request within 48 hours.
Section 1308-D. Violation of provisions relating to mail-in
voting.
(a) Penalties.--Except as provided under subsection (b), a
person who violates any of the provisions of this act relating
to mail-in voting shall, unless otherwise provided, be subject
to the penalties provided under section 1850.
(b) Persons not qualified as mail-in voters.--A person who
knowingly assists another person who is not a qualified mail-in
voter in filling out a mail-in ballot application or mail-in
ballot commits a misdemeanor of the third degree.
Section 9. Section 1405 of the act is amended to read:
Section 1405. Manner of Computing Irregular Ballots.--The
county board, in computing the votes cast at any primary or
election, shall compute and certify votes cast on irregular
ballots exactly as such names were written, stamped[, affixed
to the ballot by sticker,] or deposited [or affixed] in or on
receptacles for that purpose, and as they have been so returned
by the election officers. In districts in which paper ballots
or ballot cards are electronically tabulated, stickers or labels
may not be used to mark ballots. A vote cast by means of a
sticker or label affixed to a ballot or ballot card shall be
void and may not be counted. In the primary the Secretary of
the Commonwealth shall not certify the votes cast on irregular
ballots for any person for a National office including that of
the President of the United States, United States Senator and
Representative in Congress; or for any State office including
that of Governor and Lieutenant Governor, Auditor General, State
Treasurer, Senator and Representative in the General Assembly,
justices and judges of courts of record or for any party office
including that of delegate or alternate delegate to National
conventions and member of State committee unless the total
number of votes cast for said person is equal to or greater

220
than the number of signatures required on a nomination petition
for the particular office. In the primary the county board shall
not certify the votes cast on irregular ballots for any person
for a justice of the peace, constable, National, State, county,
city, borough, town, township, ward, school district, election
or local party office unless the total number of votes cast for
said person is equal to or greater than the number of signatures
required on a nomination petition for the particular office.
Section 10. The Secretary of the Commonwealth shall prepare
and disseminate information to the public regarding the changes
to the voting procedures under this act.
Section 11. Sections 1, 2, 3, 3.2, 4, 5, 5.1, 6, 7, 8, 9
and 12 of this act are nonseverable. If any provision of this
act or its application to any person or circumstance is held
invalid, the remaining provisions or applications of this act
are void.
Section 12. Repeals are as follows:
(1) The General Assembly declares that the repeal under
paragraph (2) is necessary to effectuate the addition of
section 1231 of the act.
(2) 25 Pa.C.S. § 1326 is repealed.
(3) The General Assembly declares that the repeal under
paragraph (4) is necessary to effectuate the addition of
section 1232 of the act.
(4) 25 Pa.C.S. § 1330 is repealed.
(5) The General Assembly declares that the repeal under
paragraph (6) is necessary to effectuate the addition of
section 1233 of the act.
(6) 25 Pa.C.S. § 1602(a)(1) is repealed.
Section 13. The following apply:
(1) This section applies to the amendment or addition
of the following provisions of the act:
(i) Section 102.
(ii) section 1003(a).
(iii) Section 1007(b).
(iv) Section 1107.
(v) Section 1110.
(vi) Section 1107-A.
(vii) Section 1109-A.
(viii) Section 1112-A(a).
(ix) Section 1216(d).
(x) Section 1222(a) and (b).
(xi) Section 1223.
(xii) Section 1231.
(xiii) Section 1232.
(xiv) Section 1233.
(xv) Section 1302.
(xvi) Section 1302.1.
(xvii) Section 1302.2.
(xviii) Section 1305.
(xix) Section 1306.
(xx) Section 1308.
(xxi) Article XIII-D.
(2) The Pennsylvania Supreme Court has exclusive
jurisdiction to hear a challenge to or to render a
declaratory judgment concerning the constitutionality of a
provision referred to in paragraph (1). The Supreme Court
may take action it deems appropriate, consistent with the
Supreme Court retaining jurisdiction over the matter, to
find facts or to expedite a final judgment in connection
with such a challenge or request for declaratory relief.

221
(3) An action under paragraph (2) must be commenced
within 180 days of the effective date of this section.
Section 14. This act shall apply to elections held on or
after April 28, 2020.
Section 15. This act shall take effect as follows:
(1) The addition of section 207 of the act shall take
effect in 180 days.
(2) The amendment of section 908 of the act shall take
effect in 60 days.
(3) The remainder of this act shall take effect
immediately.
APPROVED--The 31st day of October, A.D. 2019.
TOM WOLF

APPENDIX F

222
PENNSYLVANIA ELECTION CODE - OMNIBUS AMENDMENTS
Act of Mar. 27, 2020, P.L. 41, No. 12
Cl. 25
Session of 2020
No. 2020-12
SB 422
AN ACT
Amending the act of June 3, 1937 (P.L.1333, No.320), entitled
"An act concerning elections, including general, municipal,
special and primary elections, the nomination of candidates,
primary and election expenses and election contests; creating
and defining membership of county boards of elections;
imposing duties upon the Secretary of the Commonwealth,
courts, county boards of elections, county commissioners;
imposing penalties for violation of the act, and codifying,
revising and consolidating the laws relating thereto; and
repealing certain acts and parts of acts relating to
elections," in preliminary provisions, further providing for
definitions; in county boards of elections, further providing
for powers and duties of county boards; in ballots, further
providing for forms of ballots, printing ballots, numbers;
in electronic voting systems, further providing for forms,
for election day procedures and the process of voting and
for post election procedures; in preparation for and conduct
of primaries and elections, further providing for manner of
applying to vote, persons entitled to vote, voter's
certificates, entries to be made in district register,
numbered lists of voters, challenges and for deadline for
receipt of valid voter registration application; in voting
by qualified absentee electors, further providing for
applications for official absentee ballots, for approval of
application for absentee ballot, for absentee and mail-in
electors files and lists, for official absentee voters
ballots, for envelopes for official absentee ballots, for
delivering or mailing ballots, for voting by absentee
electors, for canvassing of official absentee ballots and
mail-in ballots and for public records and repealing
provisions relating to violation of provisions relating to
absentee voting; in voting by qualified mail-in electors,
further providing for qualified mail-in electors, for
applications for official mail-in ballots, for approval of
application for mail-in ballot, for official mail-in elector
ballots, for envelopes for official mail-in ballots, for
voting by mail-in electors and for public records and
repealing provisions relating to violation of provisions
relating to mail-in voting; providing for Pennsylvania
Election Law Advisory Board; in penalties, further providing
for violations of provisions relating to absentee electors
ballots; providing for emergency provisions for 2020 general
primary election; and making a related repeal.
The General Assembly of the Commonwealth of Pennsylvania
hereby enacts as follows:
Section 1. Section 102(a.1) and (z.6) of the act of June
3, 1937 (P.L.1333, No.320), known as the Pennsylvania Election
Code, added October 31, 2019 (P.L.552, No.77), are amended and
the section is amended by adding a subsection to read:

223
Section 102. Definitions.--The following words, when used
in this act, shall have the following meanings, unless otherwise
clearly apparent from the context:
* * *
(a.1) ["Canvass" includes] The word "canvass" shall mean
the gathering [the] of ballots after the [election] final precanvass meeting and the counting, computing and tallying of the
votes reflected on the ballots.
* * *
(q.1) The word "pre-canvass" shall mean the inspection and
opening of all envelopes containing official absentee ballots
or mail-in ballots, the removal of such ballots from the
envelopes and the counting, computing and tallying of the votes
reflected on the ballots. The term does not include the
recording or publishing of the votes reflected on the ballots.
* * *
(z.6) The words "qualified mail-in elector" shall mean a
qualified elector [who is not a qualified absentee elector.].
The term does not include a person specifically prohibited from
being a qualified absentee elector under section 1301.
Section 2. Section 302(p) of the act is amended to read:
Section 302. Powers and Duties of County Boards.--The county
boards of elections, within their respective counties, shall
exercise, in the manner provided by this act, all powers granted
to them by this act, and shall perform all the duties imposed
upon them by this act, which shall include the following:
* * *
(p) A county board of elections shall not pay compensation
to a judge of elections who wilfully fails to deliver by two
o'clock A. M. on the day following the election envelopes;
supplies, including all uncast provisional ballots; and returns,
including all provisional ballots [and absentee ballots] cast
in the election district and statements signed under sections
1306
and 1302-D.
Section 3. Section 1004 of the act, amended October 31,
2019 (P.L.552, No.77) and November 27, 2019 (P.L.673, No.94),
is amended to read:
Section 1004. Form of Ballots; Printing Ballots[;
Numbers].--From the lists furnished by the Secretary of the
Commonwealth under the provisions of sections 915 and 984, and
from petitions and papers filed in their office, the county
election board shall print the official primary and election
ballots in accordance with the provisions of this act: Provided,
however, That in no event, shall the name of any person
consenting to be a candidate for nomination for any one office,
except the office of judge of a court of common pleas, the
Philadelphia Municipal Court or the office of school director
in districts where that office is elective or the office of
justice of the peace be printed as a candidate for such office
upon the official primary ballot of more than one party. All
ballots for use in the same election district at any primary
or election shall be alike. [They shall be at least six inches
long and four inches wide, and shall have a margin extending
beyond any printing thereon. They shall be printed with the
same kind of type (which shall not be smaller than the size
known as "brevier" or "eight point body") upon white paper of
uniform quality, without any impression or mark to distinguish
one from another, and with sufficient thickness to prevent the
printed matter from showing through. All the ballots for the
same election district shall be bound together in books of
fifty, in such manner that each ballot may be detached and

224
removed separately. The ballots for each party to be used at a
primary shall be bound separately.]
Section 4. Sections 1109-A(a)(2), (b) and (e) and
1112-A(b)(2), (3) and (4) of the act, amended October 31, 2019
(P.L.552, No.77), are amended to read:
Section 1109-A. Forms.--(a) * * *
(2) The pages placed on the voting device shall be of
sufficient number to include, following the listing of
particular candidates, the names of candidates for any
nonpartisan offices and any measures for which a voter may be
qualified to vote on a given election day.[, provided further
that for municipal, general or special elections, the first
ballot page shall list in the order that such political parties
are entitled to priority on the ballot, the names of such
political parties.]
* * *
(b) Ballot labels shall be printed in plain clear type [in
black ink], of such size and arrangement as to fit the
construction of the voting device; and they shall be printed
[on clear white material or on material of different colors to
identify different ballots or parts of the ballot and in primary
elections to identify each political party.] in a manner
prescribed by the Secretary of the Commonwealth to identify
different ballots or parts of a ballot and in primary elections
to identify each political party.
* * *
(e) In primary elections, the Secretary of the Commonwealth
shall [choose a color for each party eligible to have candidates
on the ballot and a separate color for independent voters. The
ballot cards or paper ballots and ballot pages shall be printed
on card or paper stock of the color of the party of the voter
and the appropriate party affiliation or independent status
shall be printed on the ballot card or at the top of the paper
ballot and on the ballot pages.] prescribe a method to ensure
that the elector votes the correct ballot.
* * *
Section 1112-A. Election Day Procedures and the Process of
Voting.--* * *
(b) In an election district which uses an electronic voting
system which utilizes paper ballots or ballot cards to register
the votes, the following procedures will be applicable for the
conduct of the election at the election district:
* * *
(2) At primary elections, the voter shall vote for the
candidates of his choice for nomination, according to the number
of persons to be voted for by him, for each office by making a
cross (X) or check (✓) mark or by making a punch or mark sense
mark in the square opposite the name of the candidate or by
otherwise indicating a selection associated with the candidate,
or he may so [mark the write-in position provided on the ballot
for the particular office] indicate on the ballot that the voter
is electing to write in the name of a person for the particular
office, and[, in the space provided therefor on the ballot
and/or ballot envelope, write] insert the identification of the
office in question and the name of any person not already
[printed on the ballot for that office] listed as a candidate
for that office, and such [mark] indication and [written]
insertion shall count as a vote for that person for such office.
(3) At all other elections, the voter shall vote for the
candidates of his choice for each office to be filled, according
to the number of persons to be voted for by him for each office,

225
by making a cross (X) or check (✓) mark or by making a punch
or mark sense mark in the square opposite the name of the
candidate, or by otherwise indicating a selection associated
with the candidate, or he may so [mark the write-in position
provided on the ballot for the particular office] indicate on
the ballot that the voter is electing to write in the name of
a
person for the particular office, and[, in the space
provided therefor on the ballot and/or ballot envelope, write]
insert the identification of the office in question and the
name of any person not already [printed on the ballot for that
office] listed as a candidate for that office, and such [mark]
indication and [written] insertion shall count as a vote for
that person for such office.
(4) If he desires to vote for the entire group of
presidential electors nominated by any party or political body,
he may make a cross (X) or check (✓) or punch or mark sense
mark [in the appropriate space opposite] or otherwise indicate
a selection associated with the names of the candidates for
President and Vice-President of such party or body. If he
desires to vote a ticket for presidential electors made up of
the names of persons nominated by different parties or political
bodies, or partially of names of persons so in nomination and
partially of names of persons not in nomination by any party
or political body, or wholly of names of persons not in
nomination by any party or political body, he shall insert[,
by writing or stamping,] the names of the candidates for
presidential electors for whom he desires to vote [in the blank
spaces provided therefor] on the write-in ballot under the title
of the office "Presidential Electors". In case of a question
submitted to the vote of the electors, he may make a cross (X)
or check (✓) or punch or mark sense mark [in the appropriate
square opposite] or otherwise indicate a selection associated
with the answer which he desires to give.
* * *
Section 5. Section 1113-A(i) of the act is amended to read:
Section 1113-A. Post Election Procedures.--* * *
(i) In the event that district tabulation of votes is not
provided for by the voting system, it shall be the
responsibility of the county board of elections to make
available to the public at the central tabulating center, the
election results for each election district. [It shall be the
further duty of the county board of elections to post such
results in each election district no later than 5:00 p.m. of
the second day following the election.]
* * *
Section 6. Section 1210(a.4)(1) of the act, amended October
31, 2019 (P.L.552, No.77), is amended to read:
Section 1210. Manner of Applying to Vote; Persons Entitled
to Vote; Voter's Certificates; Entries to Be Made in District
Register; Numbered Lists of Voters; Challenges.--* * *
(a.4) (1) At all elections an individual who claims to be
properly registered and eligible to vote at the election
district but whose name does not appear on the district register
and whose registration cannot be determined by the inspectors
of election or the county election board shall be permitted to
cast a provisional ballot. Individuals who appear to vote shall
be required to produce proof of identification pursuant to
subsection (a) and if unable to do so shall be permitted to
cast a provisional ballot. An individual presenting a judicial
order to vote shall be permitted to cast a provisional ballot.
[An elector who appears to vote on election day having requested

226
an absentee ballot or mail-in ballot and who is not shown on
the district register as having voted an absentee ballot or
mail-in ballot shall be permitted to cast a provisional ballot.]
* * *
Section 7. Section 1231(c)(2) of the act, added October 31,
2019 (P.L.552, No.77), is amended and the section is amended
by adding a subsection to read:
Section 1231. Deadline for Receipt of Valid Voter
Registration Application.--* * *
(c) * * *
[(2) No applications shall be received as follows:
(i) On Sundays.
(ii) On holidays.
(iii) On the day of the election.
(iv) During the fifteen days next preceding each general,
municipal and primary election except as provided under
subsection (b).]
* * *
(e) (1) An applicant whose voter registration application
is timely received under subsection (b) or (c) shall be deemed
a registered elector of the county immediately upon acceptance
of the voter registration application by the commission under
25 Pa.C.S. § 1328(c)(1) or (2) (relating to approval of
registration applications), and the commission shall enter the
elector's registration information in the general register,
with the elector's unique identification number entered as his
or her SURE registration number.
(2) Notwithstanding 25 Pa.C.S. § 1328(b)(2), if under
subsection (b) or (c) an applicant timely presents his or
her own application for voter registration under 25 Pa.C.S. §
1322 (relating to in-person voter registration), the commission
shall immediately examine the application pursuant to 25 Pa.C.S.
§ 1328(a) and shall, while the applicant waits, promptly decide
on said application by either accepting it, rejecting it or
forwarding it pursuant to 25 Pa.C.S. § 1328(b) and, if accepted,
process the application in accordance with 25 Pa.C.S. § 1328(c).
Section 8. Sections 1302(e.1) and (i)(1), 1302.2(c) and (e)
and 1302.3(a), amended October 31, 2019 (P.L.552, No.77), are
amended to read:
Section 1302. Applications for Official Absentee Ballots.--*
* *
(e.1) Any qualified registered elector who is unable because
of illness or physical disability to attend his polling place
on the day of any primary or election or operate a voting
machine and state distinctly and audibly that he is unable to
do so as required by section 1218 of this act may at any time
request, with the certification by his attending physician that
he is permanently disabled[,] and physically unable to attend
the polls or operate a voting machine and make the distinct and
audible statement required by section 1218 appended to the
application hereinbefore required, to be placed on a permanently
disabled absentee ballot list file. An absentee ballot
application shall be mailed to every such person otherwise
eligible to receive one, by the first Monday in February each
year, or within forty-eight hours of receipt of the request,
whichever is later, so long as he does not lose his voting
rights by failure to vote as otherwise required by this act.
Such person shall not be required to file a physician's
certificate of disability with each application as required in
subsection (e) of this section. Should any such person lose his
disability he shall inform the county board of elections of the

227
county of his residence. An absentee ballot application mailed
to [a voter] an elector under this section, which is completed
and timely returned by the [voter] elector, shall serve as an
application for any and all primary, general or special
elections to be held in the remainder of that calendar year and
for all special elections to be held before the third Monday
in February of the succeeding year. The transfer of a qualified
registered elector on a permanently disabled absentee ballot
list from one county to another county shall only be permitted
upon the request of the qualified registered elector.
* * *
(i) (1) Application for official absentee ballots shall
be on physical and electronic forms prescribed by the Secretary
of the Commonwealth. The application shall state that an elector
who [receives and votes] applies for an absentee ballot pursuant
to section 1301 shall not be eligible to vote at a polling place
on election day[.] unless the elector brings the elector's
absentee ballot to the elector's polling place, remits the
ballot and the envelope containing the declaration of the
elector to the judge of elections to be spoiled and signs a
statement subject to the penalties of 18 Pa.C.S. § 4904
(relating to unsworn falsification to authorities) to the same
effect. Such physical application forms shall be made freely
available to the public at county board of elections, municipal
buildings and at such other locations designated by the
secretary. Such electronic application forms shall be made
freely available to the public through publicly accessible
means. No written application or personal request shall be
necessary to receive or access the application forms. Copies
and records of all completed physical and electronic
applications for official absentee ballots shall be retained
by the county board of elections.
* * *
Section 1302.2. Approval of Application for Absentee
Ballot.-* * *
(c) The county board of elections, upon receipt of any
application of a qualified elector required to be registered
under the provisions of preceding section 1301, shall determine
the qualifications of such applicant by verifying the proof of
identification and comparing the information set forth on such
application with the information contained on the applicant's
permanent registration card. If the board is satisfied that the
applicant is qualified to receive an official absentee ballot,
the application shall be marked "approved." Such approval
decision shall be final and binding, except that challenges may
be made only on the ground that the applicant [did not possess
the qualifications of an absentee] was not a qualified elector.
Such challenges must be made to the county board of elections
prior to [the applicable deadline for the absentee ballots to
be received, as provided in section 1308(g). When so approved,
the registration commission shall cause an absentee voter's
temporary registration card to be inserted in the district
register on top of and along with the permanent registration
card. The absentee voter's temporary registration card shall
be in the color and form prescribed in subsection (e) of this
section:
Provided, however, That the duties of the county boards of
elections and the registration commissions with respect to the
insertion of the absentee voter's temporary registration card
of any elector from the district register as set forth in
section 1302.2 shall include only such applications and

228
emergency applications as are received on or before the first
Tuesday prior to the primary or election. In all cases where
applications are received after the first Tuesday prior to the
primary or election and before eight o'clock P.M. on the day
of the primary or election, the county board of elections shall
determine the qualifications of such applicant by verifying the
proof of identification and comparing the information set forth
on such application with the information contained on the
applicant's duplicate registration card on file in the General
Register (also referred to as the Master File) in the office
of the Registration Commission and shall cause the name and
residence (and at primaries, the party enrollment) to be
inserted in the Military, Veterans and Emergency Civilian
Absentee Voters File as provided in section 1302.3, subsection
(b).] five o'clock p.m. on the Friday prior to the election:
Provided, however, That a challenge to an application for an
absentee ballot shall not be permitted on the grounds that the
elector used an application for an absentee ballot instead of
an application for a mail-in ballot or on the grounds that the
elector used an application for a mail-in ballot instead of an
application for an absentee ballot.
* * *
[(e) The absentee voter's temporary registration card shall
be in duplicate and the same size as the permanent registration
card, in a different and contrasting color to the permanent
registration card and shall contain the absentee voter's name
and address and shall conspicuously contain the words "Absentee
Voter."]
* * *
Section 1302.3. Absentee and Mail-in Electors Files and
Lists.--[(a) The county board of elections shall maintain at
its office a file containing the duplicate absentee voter's
temporary registration cards of every registered elector to
whom an absentee ballot has been sent. Such duplicate absentee
voter's temporary registration cards shall be filed by election
districts and within each election district in exact
alphabetical order and indexed. The registration cards and the
registration cards under section 1302.3-D so filed shall
constitute the Registered Absentee and Mail-in Voters File for
the Primary or Election of (date of primary or election) and
shall be kept on file for a period commencing the Tuesday prior
to the day of the primary or election until the day following
the primary or election or the day the county board of elections
certifies the returns of the primary or election, whichever
date is later. Such file shall be open to public inspection at
all times subject to reasonable safeguards, rules and
regulations.]
* * *
Section 9. Section 1303(a) and (e), amended October 31,
2019 (P.L.552, No.77) and November 27, 2019 (P.L.673, No.94),
are amended to read:
Section 1303. Official Absentee Voters Ballots.--(a) In
districts in which ballots are used, the ballots for use by
such absentee electors under the provisions of this act shall
be the official ballots printed in accordance with sections
1002 and 1003: Provided, however, That the county board of
elections when [detaching] preparing the official ballots for
absentee electors shall be required to track the name of the
applicant to which a ballot is being sent. The county board of
elections shall also be required to print, stamp or endorse [in
red color] upon such official ballots the words, Official

229
Absentee Ballot. Such ballots shall be distributed by such
boards as hereinafter provided.
* * *
(e) The official absentee voter ballot shall state that [a
voter] an elector who receives an absentee ballot pursuant to
section 1301 and whose voted ballot is not timely received by
the commission and who, on election day, is capable of voting
at the appropriate polling place may only vote on election day
by provisional ballot[.] unless the elector brings the elector's
absentee ballot to the elector's polling place, remits the
ballot and the envelope containing the declaration of the
elector to the judge of elections to be spoiled and signs a
statement subject to the penalties under 18 Pa.C.S. § 4904
(relating to unsworn falsification to authorities) to the same
effect.
Section 10. Section 1304 of the act is amended to read:
Section 1304. Envelopes for Official Absentee Ballots.-The county boards of election shall provide two additional
envelopes for each official absentee ballot of such size and
shape as shall be prescribed by the Secretary of the
Commonwealth, in order to permit the placing of one within the
other and both within the mailing envelope. On the smaller of
the two envelopes to be enclosed in the mailing envelope shall
be printed, stamped or endorsed the words "Official [Absentee]
Election Ballot," and nothing else. On the larger of the two
envelopes, to be enclosed within the mailing envelope, shall
be printed the form of the declaration of the elector, and the
name and address of the county board of election of the proper
county. The larger envelope shall also contain information
indicating the local election district of the absentee voter.
Said form of declaration and envelope shall be as prescribed
by the Secretary of the Commonwealth and shall contain among
other things a statement of the electors qualifications,
together with a statement that such elector has not already
voted in such primary or election. The mailing envelope
addressed to the elector shall contain the two envelopes, the
official absentee ballot, lists of candidates, when authorized
by section 1303 subsection (b) of this act, the uniform
instructions in form and substance as prescribed by the
Secretary of the Commonwealth and nothing else.[: Provided,
however, That envelopes for electors qualified under preceding
section 1301, subsections (a) to (h), inclusive, shall have
printed across the face of each transmittal or return envelope
two parallel horizontal red bars, each one-quarter inch wide,
extending from one side of the envelope to the other side, with
an intervening space of one-quarter inch, the top bar to be one
and one-quarter inches from the top of the envelope and with
the words "Official Election Balloting Material via Air Mail"
between the bars; that there be printed, in the upper right
corner of each such envelope in a box, the words "Free of U.
S. Postage, Including Air Mail;" that all printing on the face
of each such envelope be in red, and that there be printed in
red, in the upper left corner of each such envelope, the name
and address of the county board of elections of the proper
county or blank lines for return address of the sender:
Provided further, That the aforesaid envelope addressed to
the elector may contain absentee registration forms where
required, and shall contain detailed instructions on the
procedures to be observed in casting an absentee ballot as
prescribed by the Secretary of the Commonwealth, together with
return envelope upon which is printed the name and address of
the registration commission of the proper county, which envelope

230
shall have printed across the face two parallel horizontal red
bars, each one-quarter inch wide, extending from one side of
the envelope to the other side, with an intervening space of
one-quarter inch, the top bar to be one and one-quarter inches
from the top of the envelope and with the words "Official
Election Balloting Material via Air Mail" between the bars;
that there be printed in the upper right corner of each such
envelope in a box the words "Free of U. S. Postage, Including
Air Mail," and, in the upper left corner of each such envelope,
blank lines for return address of the sender; that all printing
on the face of each such envelope be in red.]
Section 11. Sections 1306(a) introductory paragraph and
(b), 1308(g) and 1309(c) of the act, amended or added October
31, 2019 (P.L.552, No.77), are amended to read:
Section 1306. Voting by Absentee Electors.--(a) Except as
provided in paragraphs (2) and (3), at any time after receiving
an official absentee ballot, but on or before eight o'clock
P.M. the day of the primary or election, the elector shall, in
secret, proceed to mark the ballot only in black lead pencil,
indelible pencil or blue, black or blue-black ink, in fountain
pen or ball point pen, and then fold the ballot, enclose and
securely seal the same in the envelope on which is printed,
stamped or endorsed "Official [Absentee] Election Ballot." This
envelope shall then be placed in the second one, on which is
printed the form of declaration of the elector, and the address
of the elector's county board of election and the local election
district of the elector. The elector shall then fill out, date
and sign the declaration printed on such envelope. Such envelope
shall then be securely sealed and the elector shall send same
by mail, postage prepaid, except where franked, or deliver it
in person to said county board of election.
* * *
(b) (1) Any elector who receives and votes an absentee
ballot pursuant to section 1301 shall not be eligible to vote
at a polling place on election day. The district register at
each polling place shall clearly identify electors who have
received and voted absentee ballots as ineligible to vote at
the polling place, and district election officers shall not
permit electors who voted an absentee ballot to vote at the
polling place.
(2) An elector who requests an absentee ballot and who is
not shown on the district register as having voted the ballot
may vote by provisional ballot under section 1210(a.4)(1).
(3) Notwithstanding paragraph (2), an elector who requests
an absentee ballot and who is not shown on the district register
as having voted the ballot may vote at the polling place if the
elector remits the ballot and the envelope containing the
declaration of the elector to the judge of elections to be
spoiled and the elector signs a statement subject to the
penalties under 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities) in substantially the following
form:
I hereby declare that I am a qualified registered elector
who has obtained an absentee ballot or mail-in ballot. I
further declare that I have not cast my absentee ballot or
mail-in ballot, and that instead I remitted my absentee
ballot or mail-in ballot and the envelope containing the
declaration of the elector to the judge of elections at my
polling place to be spoiled and therefore request that my
absentee ballot or mail-in ballot be voided.
(Date)

231
(Signature of Elector)................(Address of Elector)
(Local Judge of Elections)
* * *
Section 1308. Canvassing of Official Absentee Ballots and
Mail-in Ballots.--* * *
(g) (1) (i) An absentee ballot cast by any absentee
elector as defined in section 1301(a), (b), (c), (d), (e), (f),
(g) and (h) shall be canvassed in accordance with this
subsection if the ballot is cast, submitted and received in
accordance with the provisions of 25 Pa.C.S. Ch. 35 (relating
to uniform military and overseas voters).
(ii) An absentee ballot cast by any absentee elector as
defined in section 1301(i), (j), (k), (l), (m) and (n), an
absentee ballot under section 1302(a.3) or a mail-in ballot
cast by a mail-in elector shall be canvassed in accordance with
this subsection if the absentee ballot or mail-in ballot is
received in the office of the county board of elections no later
than eight o'clock P.M. on the day of the primary or election.
(1.1) The county board of elections shall meet no earlier
than seven o'clock A.M. on election day to pre-canvass all
ballots received prior to the meeting. A county board of
elections shall provide at least forty-eight hours' notice of
a pre-canvass meeting by publicly posting a notice of a
pre-canvass meeting on its publicly accessible Internet website.
One authorized representative of each candidate in an election
and one representative from each political party shall be
permitted to remain in the room in which the absentee ballots
and mail-in ballots are pre-canvassed. No person observing,
attending or participating in a pre-canvass meeting may disclose
the results of any portion of any pre-canvass meeting prior to
the close of the polls.
(2) The county board of elections shall meet no earlier
than the close of polls on the day of the election and no later
than the third day following the election to begin canvassing
[the] absentee ballots and mail-in ballots [received under this
subsection and subsection (h)(2).]not included in the
pre-canvass meeting. The meeting under this paragraph shall
continue until all absentee ballots and mail-in ballots received
prior to the close of the polls have been canvassed. The county
board of elections shall not record or publish any votes
reflected on the ballots prior to the close of the polls. The
canvass process shall continue through the eighth day following
the election[.] for valid military-overseas ballots timely
received under 25 Pa.C.S. § 3511 (relating to receipt of voted
ballot). A county board of elections shall provide at least
forty-eight hours' notice of a canvass meeting by publicly
posting a notice on its publicly accessible Internet website.
One authorized representative of each candidate in an election
and one representative from each political party shall be
permitted to remain in the room in which the absentee ballots
and mail-in ballots are canvassed. [Representatives shall be
permitted to challenge any absentee elector or mail-in elector
in accordance with the provisions of paragraph (3).]
(3) When the county board meets to pre-canvass or canvass
absentee ballots and mail-in ballots under [paragraph]
paragraphs (1), (1.1) and (2), the board shall examine the
declaration on the envelope of each ballot not set aside under
subsection (d) and shall compare the information thereon with
that contained in the "Registered Absentee and Mail-in Voters
File," the absentee voters' list and/or the "Military Veterans
and Emergency Civilians Absentee Voters File," whichever is

232
applicable. If the county board has verified the proof of
identification as required under this act and is satisfied that
the declaration is sufficient and the information contained in
the "Registered Absentee and Mail-in Voters File," the absentee
voters' list and/or the "Military Veterans and Emergency
Civilians Absentee Voters File" verifies his right to vote, the
county board shall [announce the name of the elector and shall
give any candidate representative or party representative
present an opportunity to challenge any absentee elector or
mail-in elector upon the ground or grounds: (i) that the
absentee elector or mail-in elector is not a qualified elector;
or (iii) that the absentee elector was able to appear personally
at the polling place on the day of the primary or election
during the period the polls were open in the case his ballot
was obtained for the reason that he was unable to appear
personally at the polling place because of illness or physical
disability. Upon challenge of any absentee elector, as set forth
herein, the board shall mark "challenged" on the envelope
together with the reasons therefor, and the same shall be set
aside unopened pending final determination of the challenge
according to the procedure described in paragraph (5).] provide
a list of the
names of electors whose absentee ballots or
mail-in ballots are
to be pre-canvassed or canvassed.
(4) All absentee ballots [and mail-in ballots not challenged
for any of the reasons provided in] which have not been
challenged under section 1302.2(c) and all mail-in ballots which
have not been challenged under section 1302.2-D(a)(2) and that
have been verified under paragraph (3) shall be counted and
included with the returns of the applicable election district
as follows:
(i) The county board shall open the envelope of every
unchallenged absentee elector and mail-in elector in such manner
as not to destroy the declaration executed thereon.
(ii) If any of the envelopes on which are printed, stamped
or endorsed the words "Official [Absentee] Election Ballot" [or
"Official Mail-in Ballot"] contain any [extraneous marks or
identifying symbols,] text, mark or symbol which reveals the
identity of the elector, the elector's political affiliation
or
the elector's candidate preference, the envelopes and the
ballots contained therein shall be set aside and declared void.
(iii) The county board shall then break the seals of such
envelopes, remove the ballots and [record the votes.] count,
compute and tally the votes.
(iv) Following the close of the polls, the county board
shall record and publish the votes reflected on the ballots.
(5) [With respect to the challenged ballots, they] Ballots
received whose applications have been challenged and ballots
which have been challenged shall be placed unopened in a secure,
safe and sealed container in the custody of the county board
until it shall fix a time and place for a formal hearing of all
such challenges, and notice shall be given where possible to
all absentee electors and mail-in electors thus challenged and
to every individual who made a challenge. The time for the
hearing shall not be later than [five (5)] seven (7) days after
the [date of the challenge] deadline for all challenges to be
filed. On the day fixed for said hearing, the county board shall
proceed without delay to hear said challenges, and, in hearing
the testimony, the county board shall not be bound by the
Pennsylvania Rules of Evidence. The testimony presented shall
be stenographically recorded and made part of the record of the
hearing.

233
(6) The decision of the county board in upholding or
dismissing any challenge may be reviewed by the court of common
pleas of the county upon a petition filed by any person
aggrieved by the decision of the county board. The appeal shall
be taken, within two (2) days after the decision was made,
whether the decision was reduced to writing or not, to the court
of common pleas setting forth the objections to the county
board's decision and praying for an order reversing the
decision.
(7) Pending the final determination of all appeals, the
county board shall suspend any action in canvassing and
computing all challenged ballots received under this subsection
irrespective of whether or not appeal was taken from the county
board's decision. Upon completion of the computation of the
returns of the county, the votes cast upon the challenged
official absentee ballots that have been finally determined to
be valid shall be added to the other votes cast within the
county.
* * *
Section 1309. Public Records.--* * *
(c) The county board shall compile the records listed under
subsection (b) and make the records publicly available upon
request within forty-eight hours of the request.
Section 12. Section 1331 of the act is repealed:
[Section 1331. Violation of Provisions Relating to Absentee
Voting.--(a) Except as provided in subsection (b), any person
who shall violate any of the provisions of this act relating
to absentee voting shall, unless otherwise provided, be subject
to the penalties provided for in section 1850 of this act.
(b) Any person who knowingly assists another person who is
not a qualified absentee elector in filling out an absentee
ballot application or absentee ballot commits a misdemeanor of
the third degree.]
Section 12.1. Sections 1301-D(a), 1302-D(f) and (g),
1302.2-D(a)(2), (3), (4) and (5), (b) and (d) and 1302.3-D of
the act, added October 31, 2019 (P.L.552, No.77), are amended
to read:
Section 1301-D. Qualified mail-in electors.
(a) General rule.--[The following individuals] A qualified
mail-in elector shall be entitled to vote by an official mail-in
ballot in any primary or election held in this Commonwealth in
the manner provided under this article.[:
(1) Any qualified elector who is not eligible to be a
qualified absentee elector under Article XIII.
(2) (Reserved).]
* * *
Section 1302-D. Applications for official mail-in ballots.
* * *
(f) Form.--Application for an official mail-in ballot shall
be on physical and electronic forms prescribed by the Secretary
of the Commonwealth. The application shall state that a voter
who [receives and votes] applies for a mail-in ballot under
section 1301-D shall not be eligible to vote at a polling place
on election day[.] unless the elector brings the elector's mailin ballot to the elector's polling place, remits the ballot and
the envelope containing the declaration of the elector to the
judge of elections to be spoiled and signs a statement subject
to the penalties under 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities) to the same effect. The physical
application forms shall be made freely available to the public
at county board of elections, municipal buildings and at other
locations designated by the Secretary of the Commonwealth. The

234
electronic application forms shall be made freely available to
the public through publicly accessible means. No written
application or personal request shall be necessary to receive
or access the application forms. Copies and records of all
completed physical and electronic applications for official
mail-in ballots shall be retained by the county board of
elections.
(g) Permanent mail-in voting list.-(1) Any qualified registered elector may request to be
placed on a permanent mail-in ballot list file at any time
during the calendar year. A mail-in ballot application shall
be mailed to every person otherwise eligible to receive a
mail-in ballot application by the first Monday in February
each year or within 48 hours of receipt of the request,
whichever is later, so long as the person does not lose the
person's voting rights by failure to vote as otherwise
required by this act. A mail-in ballot application mailed
to [a voter] an elector under this section, which is
completed and timely returned by the [voter] elector, shall
serve as an application for any and all primary, general or
special elections to be held in the remainder of that
calendar year and for all special elections to be held before
the third Monday in February of the succeeding year.
(2) The Secretary of the Commonwealth may develop an
electronic system through which all qualified electors may
apply for a mail-in ballot and request permanent mail-in
voter status under this section, provided the system is able
to capture a digitized or electronic signature of the
applicant. A county board of elections shall treat an
application or request received through the electronic system
as if the application or request had been submitted on a
paper form or any other format used by the county.
(3) The transfer of a qualified registered elector on
a permanent mail-in voting list from one county to another
county shall only be permitted upon the request of the
qualified registered elector.
Section 1302.2-D. Approval of application for mail-in ballot.
(a) Approval process.--The county board of elections, upon
receipt of any application of a qualified elector under section
1301-D, shall determine the qualifications of the applicant by
verifying the proof of identification and comparing the
information provided on the application with the information
contained on the applicant's permanent registration card. The
following shall apply:
* * *
(2) The approval decision shall be final and binding,
except that challenges may be made only on the grounds that
the applicant [did not possess the qualifications of a
mail-in] was not a qualified elector.
(3) Challenges must be made to the county board of
elections prior to [the applicable deadline for the mail-in
ballots to be received, as provided in section 1308(g).]
five o'clock p.m. on the Friday prior to the election:
Provided, however, That a challenge to an application for a
mail-in ballot shall not be permitted on the grounds that
the elector used an application for a mail-in ballot instead
of an application for an absentee ballot or on the grounds
that the elector used an application for an absentee ballot
instead of an application for a mail-in ballot .
(4) When approved, the registration commission shall
cause a mail-in voter's [temporary registration card] record
to be inserted in the district register [on top of and along

235
with the permanent registration card] as prescribed by the
Secretary of the Commonwealth.
[(5) The mail-in voter's temporary registration card
shall be in the color and form prescribed under subsection
(d).]
(b) Duties of county boards of elections and registration
commissions.--The duties of the county boards of elections and
the registration commissions with respect to the insertion of
the mail-in voter's [temporary registration card of any elector
from the district register as provided under this section]
record shall include only the applications as are received on
or before the first Tuesday prior to the primary or election.
* * *
[(d) Temporary registration card.--The mail-in voter's
temporary registration card shall be in duplicate and the same
size as the permanent registration card, in a different and
contrasting color to the permanent registration card and shall
contain the mail-in voter's name and address and shall
conspicuously contain the words "Mail-in Voter."]
[Section 1302.3-D. Mail-in electors files and lists.
The county board of elections shall maintain at its office
a file containing the duplicate mail-in voter's temporary
registration cards of every registered elector to whom a mail-in
ballot has been sent. The duplicate mail-in voter's temporary
registration cards shall be filed by election districts and
within each election district in exact alphabetical order and
indexed. The registration cards filed shall be included in the
Registered Absentee and Mail-in Voters File for the Primary or
Election of (date of primary or election) under section
1302.3(a).]
Section 13. Section 1303-D(a.1) and (e), amended or added
October 31, 2019 (P.L.552, No.77) and November 27, 2019
(P.L.673, No.94), are amended to read:
Section 1303-D. Official mail-in elector ballots.
* * *
(a.1) Duties of county boards of elections.--The county
board of elections, when [detaching] preparing the official
ballots for mail-in voters, shall be required to indicate on
[the stub of each detached ballot the name of the applicant to
which that precise ballot is being sent.] the voter's record
the
identification number of specific ballot envelope into
which the
voter's ballot is inserted. The county board of
elections shall also [remove the numbered stub from each ballot
and shall] print, stamp or endorse [in red color] on the
official ballots the words, "Official Mail-in Ballot." The
ballots shall be distributed by a board as provided under this
section.
* * *
(e) Notice.--The official mail-in voter ballot shall state
that a voter who receives a mail-in ballot under section 1301-D
and whose voted mail-in ballot is not timely received may only
vote on election day by provisional ballot[.] unless the elector
brings the elector's mail-in ballot to the elector's polling
place, remits the ballot and the envelope containing the
declaration of the elector to the judge of elections to be
spoiled and signs a statement subject to the penalties of 18
Pa.C.S. § 4904 (relating to unsworn falsification to
authorities)
to the same effect .
Section 14. Sections 1304-D(a), 1305-D, 1306-D(a) and (b)
and 1307-D(c) of the act, added October 31, 2019 (P.L.552,
No.77), are amended to read:
Section 1304-D. Envelopes for official mail-in ballots.

236
(a) Additional envelopes.--The county boards of election
shall provide two additional envelopes for each official mail-in
ballot of a size and shape as shall be prescribed by the
Secretary of the Commonwealth, in order to permit the placing
of one within the other and both within the mailing envelope.
On the smaller of the two envelopes to be enclosed in the
mailing envelope shall be printed, stamped or endorsed the words
"Official [Mail-in] Election Ballot," and nothing else. On the
larger of the two envelopes, to be enclosed within the mailing
envelope, shall be printed the form of the declaration of the
elector and the name and address of the county board of election
of the proper county. The larger envelope shall also contain
information indicating the local election district of the
mail-in voter.
* * *
Section 1305-D. Delivering or mailing ballots.
The county board of elections, upon receipt and approval of
an application filed by a qualified elector under section
1301-D, shall commence to deliver or mail official mail-in
ballots as soon as a ballot is certified and the ballots are
available. While any proceeding is pending in a Federal or State
court which would affect the contents of any ballot, the county
board of elections may await a resolution of that proceeding
but in any event, shall commence to deliver or mail official
[absentee] mail-in ballots not later than the second Tuesday
prior to the primary or election. For applicants whose proof
of identification was not provided with the application or could
not be verified by the board, the board shall send the notice
required under section 1302.2-D(c) with the mail-in ballot. As
additional applications are received and approved, the board
shall deliver or mail official mail-in ballots to the additional
electors within 48 hours.
Section 1306-D. Voting by mail-in electors.
(a) General rule.--At any time after receiving an official
mail-in ballot, but on or before eight o'clock P.M. the day of
the primary or election, the mail-in elector shall, in secret,
proceed to mark the ballot only in black lead pencil, indelible
pencil or blue, black or blue-black ink, in fountain pen or
ball point pen, and then fold the ballot, enclose and securely
seal the same in the envelope on which is printed, stamped or
endorsed "Official [Mail-in] Election Ballot." This envelope
shall then be placed in the second one, on which is printed the
form of declaration of the elector, and the address of the
elector's county board of election and the local election
district of the elector. The elector shall then fill out, date
and sign the declaration printed on such envelope. Such envelope
shall then be securely sealed and the elector shall send same
by mail, postage prepaid, except where franked, or deliver it
in person to said county board of election.
* * *
(b) Eligibility.-(1) Any elector who receives and votes a mail-in ballot
under section 1301-D shall not be eligible to vote at a
polling place on election day. The district register at each
polling place shall clearly identify electors who have
received and voted mail-in ballots as ineligible to vote at
the polling place, and district election officers shall not
permit electors who voted a mail-in ballot to vote at the
polling place.
(2) An elector who requests a mail-in ballot and who
is not shown on the district register as having voted may
vote by provisional ballot under section 1210(a.4)(1).

237
(3) Notwithstanding paragraph (2), an elector who
requests a mail-in ballot and who is not shown on the
district register as having voted the ballot may vote at the
polling place if the elector remits the ballot and the
envelope containing the declaration of the elector to the
judge of elections to be spoiled and the elector signs a
statement subject to the penalties of 18 Pa.C.S. § 4904
(relating to unsworn falsification to authorities) which
shall be in substantially the following form:
I hereby declare that I am a qualified registered elector
who has obtained an absentee ballot or mail-in ballot. I
further declare that I have not cast my absentee ballot or
mail-in ballot, and that instead I remitted my absentee
ballot or mail-in ballot to the judge of elections at my
polling place to be spoiled and therefore request that my
absentee ballot or mail-in ballot be voided.
(Date)
(Signature of Elector).............(Address of Elector)
(Local Judge of Elections)
* * *
Section 1307-D. Public records.
* * *
(c) Compilation.--The county board shall compile the records
listed under subsection (b) and make the records publicly
available upon request within 48 hours of the request.
Section 14.1. Section 1308-D of the act is repealed:
[Section 1308-D. Violation of provisions relating to mail-in
voting.
(a) Penalties.--Except as provided under subsection (b), a
person who violates any of the provisions of this act relating
to mail-in voting shall, unless otherwise provided, be subject
to the penalties provided under section 1850.
(b) Persons not qualified as mail-in voters.--A person who
knowingly assists another person who is not a qualified mail-in
voter in filling out a mail-in ballot application or mail-in
ballot commits a misdemeanor of the third degree.]
Section 15. The act is amended by adding an article to read:
ARTICLE XIII-E
PENNSYLVANIA ELECTION LAW ADVISORY BOARD
Section 1301-E. Definitions.
The following words and phrases when used in this article
shall have the meanings given to them in this section unless
the context clearly indicates otherwise:
"Board." The Pennsylvania Election Law Advisory Board
established under section 1302-E(a).
Section 1302-E. Pennsylvania Election Law Advisory Board.
(a) Establishment.--The Pennsylvania Election Law Advisory
Board is established within the Joint State Government
Commission.
(b) Members.--The board shall be comprised of the following
members:
(1) The Secretary of the Commonwealth or a designee.
(2) The President pro tempore of the Senate or a
designee.
(3) The Minority Leader of the Senate or a designee.
(4) The Speaker of the House of Representatives or a
designee.
(5) The Minority Leader of the House of Representatives
or a designee.
(6) One member from each congressional district, of
whom no more than half may be registered with the same

238
political party, appointed by the Governor and confirmed by
the Senate and which shall include members who:
(i) represent groups advocating for individuals
with disabilities;
(ii) represent groups advocating for voting rights;
and
(iii) represent county commissioners or county
election officials.
(c) Duties.--The board shall have the following duties:
(1) Study this act and identify statutory language to
repeal, modify or update.
(2) Collaborate with other agencies and political
subdivisions of the Commonwealth to study election-related
issues.
(3) Study the development of new election technology
and voting machines.
(4) Evaluate and make recommendations on:
(i) improving the electoral process in this
Commonwealth by amending this act or through regulations
promulgated by the Department of State; and
(ii) implementing best practices identified to
ensure the integrity and efficiency of the electoral
process in this Commonwealth.
(5) By the end of each fiscal year, publish extensive
and detailed findings on the Joint State Government
Commission's publicly accessible Internet website and make
them available in electronic format to the Office of the
Governor and members of the General Assembly.
(d) Quorum.--A majority of appointed members shall
constitute a quorum for the purpose of conducting business.
(e) Chairperson and vice chairperson.--The members shall
select a member to be chairperson and another member to be vice
chairperson.
(f) Transparency and ethics.--The board shall be subject
to the following laws:
(1) The act of July 19, 1957 (P.L.1017, No.451), known
as the State Adverse Interest Act.
(2) The act of October 4, 1978 (P.L.883, No.170),
referred to as the Public Official and Employee Ethics Law.
(3) The act of February 14, 2008 (P.L.6, No.3), known
as the Right-to-Know Law.
(4) 65 Pa.C.S. Ch. 7 (relating to open meetings).
(g) Information gathering.--The board may conduct hearings
and otherwise gather relevant information and analysis that it
considers appropriate and necessary to fulfill its duties.
(h) Reimbursement.--Members of the board shall be reimbursed
for reasonable expenses.
Section 15.1. Section 1853 of the act is amended to read:
Section 1853. Violations of Provisions Relating to Absentee
[Electors] and Mail-in Ballots.--If any person shall sign an
application for absentee ballot, mail-in ballot or declaration
of elector on the forms prescribed knowing any matter declared
therein to be false, or shall vote any ballot other than one
properly issued to [him] the person, or vote or attempt to vote
more than once in any election for which an absentee ballot or
mail-in ballot shall have been issued to [him] the person, or
shall violate any other provisions of Article XIII or Article
XIII-D of this act, [he] the person shall be guilty of a
misdemeanor of the [first] third degree, and, upon conviction,
shall be sentenced to pay a fine not exceeding [ten thousand
dollars ($10,000)] two thousand five hundred dollars ($2,500),

239
or be imprisoned for a term not exceeding [five (5)] two (2)
years, or both, at the discretion of the court.
If any chief clerk or member of a board of elections, member
of a return board or member of a board of registration
commissioners, shall neglect or refuse to perform any of the
duties prescribed by Article XIII or Article XIII-D of this
act, or shall reveal or divulge any of the details of any ballot
cast in accordance with the provisions of Article XIII or
Article
XIII-D of this act, or shall count an absentee ballot
or mail-in
ballot knowing the same to be contrary to Article
XIII or
Article XIII-D, or shall reject an absentee ballot
or mail-in
ballot without reason to believe that the same is
contrary to Article XIII or Article XIII-D, or shall permit an
elector to cast [his] the elector's ballot at a polling place
knowing that there has been issued to the elector an absentee
ballot, [he] the elector shall be guilty of a felony of the
third degree, and, upon conviction, shall be punished by a fine
not exceeding fifteen thousand dollars ($15,000), or be
imprisoned for a term not exceeding seven (7) years, or both,
at the discretion of the court.
Section 16. The act is amended by adding an article to read:
ARTICLE XVIII-B
EMERGENCY PROVISIONS FOR 2020 GENERAL PRIMARY ELECTION
Section 1801-B. Election officers.
(a) Requirement.-(1) Except as provided under paragraph (2), and
notwithstanding section 402 or any other law of this
Commonwealth, an election officer must be a qualified
registered elector of the county in which the polling place
is located.
(2) An election officer shall not be required to be a
qualified registered elector in the election district in
which the election officer is appointed.
(b) (Reserved).
Section 1802-B. Polling place.
(a) Consolidation of polling places.-(1) A county board of elections may, not less than 20
days prior to the election, select and designate as the
polling place for an election district any public or private
building situated in another election district within the
county, notwithstanding if the building is located in an
election district which is not immediately adjacent to the
boundary of the election district for which the building is
to be a polling place.
(2) A polling place may be selected and designated under
this subsection without the approval of a court.
(3) Two or more polling places may be consolidated,
except that the consolidation of polling places may not
result in more than a 60% reduction of polling place
locations in the county, except for necessitous circumstances
and as approved by the Department of State. Two or more
polling places may be located in the same building.
(4) A polling place selected and designated under this
subsection must be directly accessible by a public street
or thoroughfare.
(b) Posting.--A county board of elections shall, not less
than 15 days prior to the election under section 1804-B, post
in a conspicuous place at the office of the county board of
elections, a list of each place at which the election is to be
held in each election district of the county. The list shall
be available for public inspection at the office of the county

240
board of elections and posted on the county's publicly
accessible Internet website.
Section 1803-B.
Permissible polling place locations.
(a) Service.--Subject to subsection (b) and notwithstanding
section 529(a) and (b) or any other law of this Commonwealth,
malt or brewed beverages and liquors may be served in a building
where a polling place is located during the hours that the
polling place is open, except that an election may not be held
in a room where malt or brewed beverages or liquors are
dispensed.
(b) Accessibility.--A polling place under subsection (a)
must be accessible from an outside entrance that does not
require passageway through the room where malt or brewed
beverages or liquors are dispensed.
Section 1804-B. General primary election.
(a) Time.--Notwithstanding section 603 or any law of this
Commonwealth, the general primary election shall occur
throughout this Commonwealth on June 2, 2020.
(b) Calculation.--The following shall apply:
(1) Except for the deadline relating to the nomination
of a candidate under Article IX, any date or deadline in
this act, 25 Pa.C.S. Pt. IV (relating to voter registration)
or 25 Pa.C.S. Ch. 35 (relating to uniform military and
overseas voters) that depends on, or is contingent on, the
date of the general primary election, shall be calculated
based on the June 2, 2020, date for the general primary
election.
(2) Notwithstanding subsection (a), the due date for
the sixth Tuesday pre-primary cycle 1 campaign finance report
shall be March 17, 2020.
(c) Nonapplicability.--This section shall not be construed
to apply to the nominating petition process.
(d) Ballots.--A ballot for the general primary 2020 which
has been purchased, printed or acquired prior to the effective
date of this section and shows an election date of April 28,
2020, shall not be deemed to be invalid because of the date.
Section 1805-B. Expiration.
This article shall expire on July 3, 2020.
Section 17. This act shall apply as follows:
(1) The amendment or addition of the following shall
apply to elections occurring on or after June 2, 2020:
(i) Section 102(a.1), (q.1) and (z.6).
(ii) Section 1302.2(c).
(iii) Section 1308(g).
(iv) Section 1301-D(a).
(v) Section 1302.2-D(a).
(2) The amendment or addition of the following shall
apply to elections occurring on or after November 2, 2020:
(i) Section 302(p).
(ii) Section 1302(i)(1).
(iii) Section 1303(e).
(iv) Section 1306(b).
(v) Section 1302-D(f).
(vi) Section 1303-D(e).
(vii) Section 1306-D(b).
(3) The amendment or addition of the following shall
apply to envelopes and ballots purchased, printed or acquired
after the effective date of this section:
(i) Section 1004.
(ii) Section 1109-A(b) and (e).
(iii) Section 1112-A(b)(2),(3) and (4).
(iv) Section 1303(a).

241
(v) Section 1304.
(vi) Section 1306(a) introductory paragraph.
(vii) Section 1303-D(a.1).
(viii) Section 1304-D(a).
(ix) Section 1306-D(a).
Section 18. Repeals are as follows:
(1) The General Assembly declares that the repeal under
paragraph (2) is necessary to effectuate the amendment or
addition of section 1231(c)(2) and (e).
(2) 25 Pa.C.S. § 1328(c)(4) and (5) are repealed.
Section 19. This act shall take effect immediately.
APPROVED--The 27th day of March, A.D. 2020.
TOM WOLF

